<html>
<title> - BORDER SECURITY_2019</title>
<body><pre>[Senate Hearing 116-431]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-431

                          BORDER SECURITY-2019

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               ----------                              

 UNPRECEDENTED MIGRATION AT THE U.S. SOUTHERN BORDER: BY THE NUMBERS, 
                             APRIL 4, 2019

UNPRECEDENTED MIGRATION AT THE U.S. SOUTHERN BORDER: PERSPECTIVES FROM 
                      THE FRONTLINE, APRIL 9, 2019

 UNPRECEDENTED MIGRATION AT THE U.S. SOUTHERN BORDER: THE EXPLOITATION 
OF MIGRANTS THROUGH SMUGGLING, TRAFFICKING, AND INVOLUNTARY SERVITUDE, 
                             JUNE 26, 2019

   ROUNDTABLE: UNPRECEDENTED MIGRATION AT THE U.S. SOUTHERN BORDER: 
 BIPARTISAN POLICY RECOMMENDATIONS FROM THE HOMELAND SECURITY ADVISORY 
                         COUNCIL, JULY 17, 2019

 UNPRECEDENTED MIGRATION AT THE U.S. SOUTHERN BORDER: WHAT IS REQUIRED 
                 TO IMPROVE CONDITIONS?, JULY 30, 2019

   UNPRECEDENTED MIGRATION AT THE U.S. SOUTHERN BORDER: THE YEAR IN 
                       REVIEW, NOVEMBER 13, 2019

                               ----------                              

          Available via the World Wide Web: http://govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         




                         BORDER SECURITY--2019
                         
                         
                         




                                                        S. Hrg. 116-431
 
                          BORDER SECURITY_2019

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

 UNPRECEDENTED MIGRATION AT THE U.S. SOUTHERN BORDER: BY THE NUMBERS, 
                             APRIL 4, 2019

UNPRECEDENTED MIGRATION AT THE U.S. SOUTHERN BORDER: PERSPECTIVES FROM 
                      THE FRONTLINE, APRIL 9, 2019

 UNPRECEDENTED MIGRATION AT THE U.S. SOUTHERN BORDER: THE EXPLOITATION 
OF MIGRANTS THROUGH SMUGGLING, TRAFFICKING, AND INVOLUNTARY SERVITUDE, 
                             JUNE 26, 2019

   ROUNDTABLE: UNPRECEDENTED MIGRATION AT THE U.S. SOUTHERN BORDER: 
 BIPARTISAN POLICY RECOMMENDATIONS FROM THE HOMELAND SECURITY ADVISORY 
                         COUNCIL, JULY 17, 2019

 UNPRECEDENTED MIGRATION AT THE U.S. SOUTHERN BORDER: WHAT IS REQUIRED 
                 TO IMPROVE CONDITIONS?, JULY 30, 2019

   UNPRECEDENTED MIGRATION AT THE U.S. SOUTHERN BORDER: THE YEAR IN 
                       REVIEW, NOVEMBER 13, 2019

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  

                         ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
37-003 PDF            WASHINGTON : 2021 
         
        
        

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
              Brian P. Kennedy, Professional Staff Member
                Melissa Egred, Professional Staff Member
                  Caroline Bender, Research Assistant
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
         Alexa E. Noruk, Minority Director of Homeland Security
           Samuel Rodarte, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk
                     
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
                                                                   
    Senator Johnson                                1,89,263,341,427,529


    Senator Peters                                 3,91,267,350,429,532


    Senator Hassan                                       20,109,276,443


    Senator Portman                                  21,105,292,440,552


    Senator Carper                                   25,121,295,454,556


    Senator Rosen                                        27,126,279,448
    

    Senator Sinema                                       30,123,298,451
    

    Senator Hawley                                               37,287


    Senator Lankford                                    111,290,445,549

    Senator Romney...............................................   115
    
    Senator Harris...............................................   117
    
    Senator Scott................................................   285
    
Prepared statements:

    Senator Johnson                              55,143,303,381,465,565

    Senator Peters                                   56,145,305,467,566




                        Thursday, April 4, 2019
                               WITNESSES

Mark Morgan, Former Chief, U.S. Border Patrol (2016-2017), U.S. 
  Customs and Border Protection, U.S. Department of Homeland 
  Security.......................................................     5
John Daniel Davidson, Senior Correspondent, The Federalist.......     9
Andrew Selee, Ph.D., President, Migration Policy Institute.......    12

                     Alphabetical List of Witnesses

Davidson, John Daniel:
    Testimony....................................................     9
    Prepared statement...........................................    73
Morgan, Mark:
    Testimony....................................................     5
    Prepared statement...........................................    58
Selee, Ph.D., Andrew:
    Testimony....................................................    12
    Prepared statement...........................................    78

                                APPENDIX

Minors, Families, Asylum Chart...................................    86
Statement submitted for the Record from Church World Service.....    87

                         Tuesday, April 9, 2019
                               WITNESSES

Rodolfo Karisch, Rio Grande Valley Sector Chief Patrol Agent, 
  U.S. Border Patrol, U.S. Customs and Border Protection, U.S. 
  Department of Homeland Security................................    93
Randy Howe, Executive Director for Operations, Office of Field 
  Operations, U.S. Customs and Border Protection, U.S. Department 
  of Homeland Security...........................................    95
Timothy Tubbs, Deputy Special Agent in Charge-Laredo, Texas, 
  Homeland Security Investigations, U.S. Immigration and Customs 
  Enforcement, U.S. Department of Homeland Security..............    96
Commander Jonathan White, Ph.D., USPHS, Deputy Director for 
  Children's Program, Office of Emergency Management and Medical 
  Operations, Office of Assistant Secretary for Preparedness and 
  Response, U.S. Department of Health and Human Services.........    98
Greg Cherundolo, Chief of Operations, Drug Enforcement Agency, 
  U.S. Department of Justice.....................................   100

                     Alphabetical List of Witnesses

Cherundolo, Greg:
    Testimony....................................................   100
    Prepared statement...........................................   180
Howe, Randy:
    Testimony....................................................    95
    Joint prepared statement.....................................   148
Karisch, Rodolfo:
    Testimony....................................................    93
    Joint prepared statement.....................................   148
Tubbs, Timothy:
    Testimony....................................................    96
    Prepared statement...........................................   157
White, Ph.D. Commander Jonathan:
    Testimony....................................................    98
    Joint prepared statement.....................................   173

                                APPENDIX

Minors, Families, and Asylum Chart...............................   195
Detention Beds Required Chart....................................   196
CRS Definition...................................................   197
ORR Statistics...................................................   203
Sponsor Status...................................................   205
Statement submitted for the Record from:
    Lutheran Immigration and Refugee Service.....................   206
    National Treasury Employees Union............................   217
Responses to post-hearing questions for the Record:
    Mr. Karisch and Mr. Howe.....................................   226
    Mr. Tubbs....................................................   242
    Mr. White....................................................   258

                        Wednesday, June 26, 2019
                               WITNESSES

Brian S. Hastings, Chief, Law Enforcement Operations Directorate, 
  U.S. Border Patrol, U.S. Customs and Border Protection, U.S. 
  Department of Homeland Security................................   269
Randy Howe, Executive Director for Operations, Office of Field 
  Operations, U.S. Customs and Border Protection, U.S. Department 
  of Homeland Security...........................................   271
Gregory Nevano, Assistant Director for Investigative Programs, 
  Homeland Security Investigations, U.S. Immigration and Customs 
  Enforcement, U.S. Department of Homeland Security..............   272

                     Alphabetical List of Witnesses

Hastings, Brian S.:
    Testimony....................................................   269
    Joint prepared statement.....................................   308
Howe, Randy:
    Testimony....................................................   271
    Joint prepared statement.....................................   308
Nevano, Gregory:
    Testimony....................................................   272
    Prepared statement...........................................   316

                                APPENDIX

Minors and Families chart........................................   322
Statement for the Record from Church World Serive................   323
Responses to post-hearing questions for the Record:
    Mr. Hastings, Mr. Howe and Mr. Nevano........................   324

                        Wednesday, July 17, 2019
                               WITNESSES

Hon. Karen Tandy, Chair, Customs and Border Protection Families 
  and Children Care Panel, Homeland Security Advisory Council....   342
Jayson Ahern, Vice Chair, Customs and Border Protection Families 
  and Children Care Panel, Homeland Security Advisory Council....   344
Leon Fresco, Member, Customs and Border Protection Families and 
  Children Care Panel, Homeland Security Advisory Council........   348
Sharon W. Cooper, M.D., FAAP, Member, Customs and Border 
  Protection Families and Children Care Panel, Homeland Security 
  Advisory Council...............................................   348

                     Alphabetical List of Witnesses

Ahern, Jayson:
    Testimony....................................................   344
Cooper, Sharon W. M.D., FAAP:
    Testimony....................................................   348
Fresco, Leon:
    Testimony....................................................   348
Tandy, Hon. Karen:
    Testimony....................................................   342

                                APPENDIX

Minors and Families chart........................................   382
Letter submitted by Senator Hassan...............................   383
Final Emergency Interim report...................................   388
Tandy U.S. Border Patrol (Southwest Border) Chart................   426

                         Tuesday, July 30, 2019
                               WITNESSES

Mark A, Morgan, Acting Commissioner, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security...............   430
Jennifer L. Costello, Deputy Inspector General, U.S. Department 
  of Homeland Security...........................................   433

                     Alphabetical List of Witnesses

Costello, Jennifer L.:
    Testimony....................................................   433
    Prepared statement...........................................   475
Morgan, Mark A.:
    Testimony....................................................   430
    Prepared statement...........................................   469

                                APPENDIX

Minors and Familes chart.........................................   485
Illegal Immigrant Arrests........................................   486
Morgan chart and pictures........................................   487
Statement for the Record from Church World Serive................   495
Responses to post-hearing questions for the Record:
    Mr. Morgan...................................................   496
    Mr. Costello.................................................   527

                      Wednesday, November 13, 2019
                               WITNESSES

Mark A, Morgan, Acting Commissioner, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security...............   534
Kenneth T. Cuccinelli, Acting Director, U.S. Citizenship and 
  Immigration Services, U.S. Department of Homeland Security.....   537
Derek N. Benner, Acting Deputy Director, U.S. Immigration and 
  Customs Enforcement, U.S. Department of Homeland Security......   539
James McHenry, Director, Executive Office for Immigration Review, 
  U.S. Department of Justice.....................................   542

                     Alphabetical List of Witnesses

Benner, Derek N.:
    Testimony....................................................   539
    Prepared statement...........................................   585
Cuccinelli, Kenneth T.:
    Testimony....................................................   537
    Prepared statement...........................................   580
McHenry, James:
    Testimony....................................................   542
    Prepared statement...........................................   596
Morgan, Mark A.:
    Testimony....................................................   534
    Prepared statement...........................................   568

                                APPENDIX

Minors and Families chart........................................   601
Southwest Border Apprehensions/Asylum Claims chart...............   602
Human Rights First Report........................................   603
ICE Statistics...................................................   619
Notice to Appear-REDACTED........................................   620
Statement for the Record from Church World Serive................   622
Responses to post-hearing questions for the Record:
    Mr. Morgan...................................................   623
    Mr. Cuccinelli...............................................   672
    Mr. Benner...................................................   690
    Mr. McHenry..................................................   727


                     UNPRECEDENTED MIGRATION AT THE

                  U.S. SOUTHERN BORDER: BY THE NUMBERS

                              ----------                              


                        THURSDAY, APRIL 4, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:31 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Romney, 
Scott, Hawley, Peters, Carper, Hassan, Sinema, and Rosen.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    I want to thank the witnesses for taking the time to 
testify, for taking the time to write your testimony, by the 
way. I have read it all. It is excellent, doing exactly what I 
was hoping we could do in this hearing, the first step in the 
problem-solving process, and we are well into many steps of 
this first step, though. This is close to 30 hearings we have 
held on some aspect of border security. But it is about 
gathering information, describing reality, trying to define the 
problem, do some root-cause analysis, and then the next step 
would be to define an achievable goal. There are all kinds of 
things we can try. What is an achievable goal before we really 
start talking about solutions?
    I want to thank Senator Peters, who I really look forward 
to being a good partner in trying to go through that process 
and actually starting to solve this problem. We are not going 
to solve all the problems of the world, but I think this is one 
we can get our arms around.
    I do have a chart\1\ that is certainly describing the 
magnitude of the problem. I have been building this over the 
last couple years. It shows a number of things, but it shows 
unaccompanied alien children (UAC) from Central America as well 
as people coming to this country illegally and being 
apprehended at the border as family units--two particular 
groups where we have laws on the books that really are 
loopholes that are being exploited. And you can see the 
results.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 86.
---------------------------------------------------------------------------
    Prior to 2012, we only had about 3,000 or 4,000 
unaccompanied children from Central America come to this 
country illegally and were apprehended. In 2012, the Deferred 
Action for Childhood Arrivals (DACA) memorandum, it does not 
apply to anybody in the future, but it was used by coyotes as 
an incentive. They said, ``Go to America. You get the permiso 
slip,'' which is really the notice to appear (NTA). Again, 
reasonable people can disagree. I personally think that kind of 
sparked this, was a catalyst for what we see in the ensuing 
years. You can see in 2013, 36,000 individuals in those two 
categories. 2014, the year that President Obama declared a 
humanitarian crisis and Customs and Border Protection (CBP) was 
overwhelmed at that point in time, 120,000 unaccompanied 
children and individuals as family units came to this country 
illegally.
    And then the Obama Administration, obviously recognizing it 
as a real problem, started detaining children with their 
families, and that was a consequence. And you can see in 2015, 
that consequence, I would argue, reduced the flow and cut it 
almost in half.
    But then the Obama Administration was taken to court, and I 
think Secretary Jeh Johnson completely disagreed with the 
ruling but said that the Flores Agreement applied to not only 
unaccompanied children but accompanied children as well, and so 
the Obama Administration had to make a choice. Are we going to 
enforce the law, which would require us to separate children 
from their families? They chose, no, we are not going to do 
that, and that began what is commonly referred to as ``catch-
and-release,'' which sparked even further.
    Candidate Trump obviously talked tough on the border. I 
think maybe that might be a little bit of why you see a 
downturn in 2017 when he first took office. But once the 
cartels, once the coyotes, once the individuals who want to 
come to this country realized that nothing had really changed 
in American immigration laws, they could still be fully 
exploited, the problem has really exploded.
    What is interesting about this chart is you have to realize 
this is all fiscal years (FY), and this exponential growth in 
people coming in as unaccompanied children and family units, 
the final year is not a full year. The approximately 240,000 
individuals, now primarily people coming as family units, 
primarily illegally--we have added a new category of people 
coming in by the port of entry (POE) borders. That is the light 
blue and the little green line up there. Very few are really 
presenting at the ports of entry because it is a lot easier, it 
is a more streamlined process to come in illegally. In just the 
first 6 months of this year, not quite 6 months, we are over 
240,000. We have doubled the full year figure from 2014 when 
President Obama declared that legitimately a humanitarian 
crisis. We have doubled that in less than the first 6 months.
    I think by anybody's definition this is a real problem. I 
was interested to see Secretary Jeh Johnson on ``Morning Joe'' 
last Friday describing when he came into work, if it was less 
than 1,000 apprehensions, it was an OK day. But if detentions 
or apprehensions were more than 1,000, it was going to be a 
really bad day. We have had days over 4,000 apprehensions in 
the recent weeks. This is a problem. We have to deal with it.
    As you can see, in 2014 or 2015, a reduction, a consequence 
actually has an effect. The Department of Homeland Security 
(DHS) Secretary Michael Chertoff recognized the exact same 
thing back in 2005. Back then, 2003, there were about 5,200 
Brazilians getting into Mexico and coming into America 
illegally through the Southwest Border. In 2004, it was 8,800. 
In 2005, that more than tripled to 31,000. Secretary Chertoff 
realized this was a problem and he had to do something about 
it. In response, DHS dedicated bed space. They detained and 
they initiated a program of expedited removal. Other Brazilians 
called it ``Texas Hold 'Em.'' By doing that, the next year only 
1,400 people came illegally. And to quote Secretary Chertoff, 
he said, ``The word spread surprisingly swiftly; within its 
first 30 days, the operation had already begun to deter illegal 
border crossings by Brazilians. In fact, the number of 
Brazilians apprehended dropped by 50 percent. After 60 days, 
the rate of Brazilian illegal immigration through this sector 
was down 90 percent, and it is still significantly depressed 
all across the border. In short, we learned that a concentrated 
effort of removal can actually discourage illegal entries by 
non-Mexicans on the Southwest Border.''
    I think my point in this problem-solving process is an 
achievable goal is something that we have already achieved at 
some point in time. The goal ought to be short term, 
immediately. How do we reduce that flow? The 240,000 
individuals in less than 6 months, how can we reduce that 
number?
    Listen, I am all for helping Central American countries 
develop providing opportunity, but that is years in the future. 
It is certainly going to be a bigger problem when you have the 
drug cartels operating with impunity, destroying those public 
institutions. That is a really heavy lift.
    Michael Chertoff showed us there is a way for us to at 
least achieve this short-term goal of reducing that flow, and 
hopefully our witnesses will paint the picture that there is 
nothing humane about incentivizing people to take a very 
dangerous journey, reducing CBP, as I said last Friday, to a 
mere speed bump along the path to long-term residency in this 
country for unaccompanied children and people coming as family 
units. There is nothing humane about those people basically 
living in the shadows, potentially being exploited by 
employers. This is a problem. We have to recognize it as such, 
and we have to do something to fix it.
    I do ask that my written statement be entered into the 
record.\1\ Without objection, it will be.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 55.
---------------------------------------------------------------------------
    With that, I will turn it over to Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\2\

    Senator Peters. Thank you, Mr. Chairman, and thank you for 
holding this hearing today.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Peters appears in the 
Appendix on page 56.
---------------------------------------------------------------------------
    I appreciate the Chairman's focus on obtaining accurate, 
timely data on migration and border security. Certainly, few 
issues that we face today are as complex as this one or as 
controversial. Far too often, harmful rhetoric drowns out 
reasonable dialogue, and I hope that this hearing can cut 
through that rhetoric and let us focus on the facts.
    The situation on our Southern Border, in Mexico, and 
throughout the Northern Triangle is dynamic. Our immigration 
system and our infrastructure should reflect that fact.
    The reality is that much of our current infrastructure was 
built to address the challenges of the 1990s and early last 
decade when the majority of unauthorized border crossings were 
single men seeking economic opportunity.
    That is not what the statistics show us today, and it is 
not what our staff saw during a bipartisan delegation to the 
Southern Border last month.
    Overwhelmingly, they saw families from El Salvador, 
Guatemala, and Honduras.
    They saw parents with children. They saw children who had 
made the journey to the border without their parents. They saw 
our hardworking law enforcement officers, public servants, 
volunteers, and civic leaders doing their best to manage what 
is certainly a very difficult situation.
    Many of these families are fleeing violence and extortion. 
Homicide rates in the Northern Triangle are some of the highest 
in the world. Corruption and impunity prevail.
    Only three out of every 100 homicides lead to trial and 
conviction.
    This breakdown of the rule of law is a clear ``push 
factor'' that drives migrants to flee these countries.
    Unfortunately, our system has not been able to keep pace 
with the increase in asylum claims.
    Screening interviews are being delayed. The average wait to 
appear before an immigration court is now over 2 years, and the 
backlog is quickly approaching 1 million cases. This is simply 
unacceptable.
    We need to do more to decrease processing times while 
increasing border security.
    We absolutely need secure borders, but it will take 
cooperation and credibility, not chaos and confusion.
    This Administration will need to cooperate with Mexico, 
Honduras, Guatemala, El Salvador, and international 
organizations to take on cartels and corruption. They will also 
need to cooperate with Congress and build credibility.
    Unfortunately, this Administration has provided too much 
chaos and confusion and too little credibility. It has been one 
step forward and two steps back.
    The Department of Justice (DOJ) approved a plan to reduce 
immigration court backlogs only to see backlogs grow as a 
result of an unnecessary government shutdown.
    We passed a bipartisan deal to make meaningful investments 
in security for both our Northern and Southern Border, only to 
see the President unilaterally declare a national emergency to 
circumvent Congress and potentially pull away funds from 
important military construction projects.
    In February, the Department of Homeland Security announced 
a Memorandum of Cooperation with the Northern Triangle nations 
to combat human trafficking and organized crime, only to see 
the President cutoff existing funding to these countries just 5 
weeks later.
    Chaos is not a strategy. We need bipartisan cooperation at 
home and effective American leadership projected abroad.
    This is still possible. Just yesterday, I introduced 
bipartisan legislation with Senator Cornyn from Texas to 
address staffing shortages at our ports of entry across the 
Nation, both on the Northern Border and the Southern Border.
    This is especially important now as DHS is potentially 
moving upwards of 2,000 Customs and Border Protection officers 
to the Southern Border.
    I believe this legislation is an important first step we 
can take to reduce the strain on our Southern Border while 
improving the facilitation of trade, travel, and commerce 
across the United States. But there is clearly much more to do, 
and we will begin that journey today with your testimony. So we 
appreciate you being here, and I look forward to the 
discussion.
    Chairman Johnson. Thank you, Senator Peters.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee today will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Morgan. I do.
    Mr. Davidson. I do.
    Mr. Selee. I do.
    Chairman Johnson. Please be seated.
    Let me first say that if the Committee Members have not 
read the full testimony of all the witnesses, I would really 
urge you to do so. It is excellent. As a result, what I have 
decided to do is give all three witnesses 7 minutes--we 
normally just give people 5--to summarize the excellent written 
testimony.
    Our first witness will be Mark Morgan. Mr. Morgan is the 
former Chief of the U.S. Border Patrol (USBP). Prior to joining 
the Border Patrol, Mr. Morgan spent 20 years in the Federal 
Bureau of Investigation (FBI), including nearly 3 years as a 
Special Agent in Charge of the FBI's El Paso Division. Mr. 
Morgan.

 TESTIMONY OF MARK MORGAN,\1\ FORMER CHIEF, U.S. BORDER PATROL 
(2016-17), U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Morgan. Chairman Johnson, Ranking Member Peters, and 
Members of the Committee, it is a privilege to appear before 
you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Morgan appears in the Appendix on 
page 58.
---------------------------------------------------------------------------
    I enthusiastically agreed to appear when I was asked 
because I truly believe that our country is at a crossroads. 
With more than 30 years of public service, I am extremely 
concerned about the growing risks to our Nation's safety, 
national security, and rule of law due to illegal and 
uncontrolled immigration. We are experiencing a crisis at the 
Southern Border at a magnitude never seen in modern times. It 
is unprecedented. In the words of the former DHS Secretary Jeh 
Johnson, ``By anyone's definition, by any measure, right now we 
have a crisis at a border.'' I will say it is chaos.
    Make no mistake: Our personnel resources are overwhelmed. 
They are drowning. As each day passes, the threat to our 
country and the rule of law worsens. The loopholes in our 
asylum laws and nonsensical judicial precedent has driven what 
has devolved into essentially an open-border policy for a 
certain demographic. Central American families are incentivized 
and rewarded to come here illegally, enter our Southwest Border 
because they know DHS by law has to release them within 20 days 
into the interior of the United States where they are going to 
be allowed to remain indefinitely. It is simple. They know if 
they set one foot on American soil, say the magic words, they 
are allowed into the United States, and they know it.
    Through social media, smugglers, and family members who 
have successfully exploited our laws and remain in the United 
States legally, they are well informed.
    What should sound an additional alarm of concern is that 
most of these family members we are allowing in, we cannot 
properly vet. Let that soak in just for a second. We are 
letting in tens of thousands of people in this country every 
day who we know virtually nothing about. We must start being 
intellectually honest. Those coming, they are not all bad, but 
they are not all good.
    What is happening is counterintuitive to the rule of law 
and defies basic principles of sovereignty. Here are a couple 
of false narratives quickly that I would like to address.
    Only 15 percent of those coming in are found to have valid 
asylum claims, which really debunks the uniform outrage often 
used that immigrants are fleeing from extreme violence or 
persecution. In fact, recent statistics that I have seen have 
shown that the murder rate per capita has decline in the 
Northern Triangle countries. Baltimore, for example, has a 
higher murder rate per capita than Guatemala.
    The fact is they are being pulled here for two reasons: 
economic equality and family reunification. Neither are valid 
claims under the asylum process. Nevertheless, we continue to 
facilitate an abuse of our laws and the generosity of this 
country. As a society, we cannot turn our backs and ignore the 
law, especially Congress. We cannot selectively enforce the 
laws based on political ideology or a personal sense of 
morality.
    There is another false narrative which goes something like 
this: But the numbers of illegal immigrants are way down, so it 
cannot possibly be a crisis.
    It is essential to look at the context behind those numbers 
to evaluate their true meaning. In the late 1990s and 2000s, 
there was 1.5 million apprehensions at the border, but as 
previously mentioned, the overwhelming majority were Mexican 
adults, of which we deported 90 percent of them, sometimes 
within hours of being apprehended. Additionally, one-third of 
those apprehended were recidivism, meaning the same person 
going back and forth. Those numbers are really about a million. 
But back then, everyone agreed it was a crisis.
    Today 60 to 65 percent of those illegally crossing are 
family units and minors, and because of our broken laws and 
policies, those individuals are allowed into the country. Let 
us do the math: 1 million this year anticipated, that means we 
are going to release 650,000 individuals into this country that 
are going to remain here indefinitely.
    This makes the current crisis, in my opinion, the worst we 
have ever experienced. In 2016, as Chief, I estimated 15 
percent of the agents' resources were being diverted from the 
front lines to support humanitarian activities. I saw that as a 
crisis, and so did everyone else. Now Border Patrol is 
diverting 40 percent of their personnel away from the front 
lines to provide humanitarian-related functions. Meanwhile, the 
cartels are exploiting the resulting increased gaps because of 
our resources being diverted. Simply put, more drugs and 
criminal aliens are illegally entering the United States.
    It is common sense. While the Border Patrol personnel are 
at their breaking point supporting the humanitarian crisis, the 
cartels are expanding the threat crisis while they are getting 
rich. It is a multi-billion-dollar industry for the cartels.
    Here is something else that is not discussed. We know the 
unfathomable abuse suffered by those making a dangerous 
journey. That has been talked about a lot. But the 
victimization of this vulnerable category of people that are 
coming in does not stop when they complete their entry into the 
United States, nor does the criminal activity, those criminal 
aliens making their way into the country. Many of those seeking 
improved economic equality and family reunification continue to 
be preyed upon and victimized long after they have made their 
way into the United States.
    I have seen firsthand the transition of countless youths 
into gang membership, and the reasons are varied but have 
remained consistent. The young immigrant population is 
increasingly susceptible and vulnerable to gang recruitment. 
That is a reality.
    Additionally, the ability to interdict and seize illegal 
narcotics is being negatively impacted as well--another cause 
and effect of the unprecedented humanitarian crisis. Again, it 
is common sense. Shut down interior checkpoints, divert 40 
percent of your resources away from enforcement action. We 
should not be surprised that smugglers are exploiting the wide 
open border.
    As far the talking point that more drugs are seized at the 
POEs, simply false. Fifty percent of the border is wide open; 
40 percent of your resources directed away from law 
enforcement; we have no idea what is coming in our Southwest 
Border.
    How can we fix this? We need Congress to pass new 
legislation to fix outdated laws and gaps in the DHS 
authorities. We need to continue to work with Central American 
countries to improve economic opportunities. We need to 
continue to work with Mexico to eradicate the transnational 
organizations as well as drive them to be partners in 
addressing the humanitarian crisis.
    We must continue to invest in border security, including 
additional infrastructure, technology, and personnel, where it 
makes sense, and we need increased support for appropriate 
interior enforcement.
    We must also confront our broken legal framework if we are 
to achieve lasting and effective border security. We need 
legislative answers to the Flores Settlement Agreement, which 
really it stops the ability and impedes our ability to maintain 
custody of families and minors.
    We must have the authority to detain asylum seekers while 
they are going through the immigration proceedings. We must 
also reengineer our laws to ensure all minor children who are 
not victims of trafficking or persecution are returned home and 
reunited with their families, regardless of their country of 
origin. These two fixes that I just mentioned eliminate catch-
and-release. Congress can do that.
    The last fix that I want to talk about quickly--and I will 
wrap up here--a crisis requires swift, immediate, and bold 
action. It is chaotic. We have a crisis. I recommend a border-
wide implementation of the Migrant Protection Protocols (MPP) 
which are being implemented currently in select locations 
whereby certain immigrants entering or seeking admission to the 
United States from Mexico--illegally or without proper 
documentation--may be returned to Mexico and wait outside of 
the United States for the duration of their immigration 
proceedings. Mexico has to get off the sidelines and be a 
proactive partner in this solution. Accompany this by port 
courts, which means we are pushing resources to the front lines 
to expedite all immigration proceedings.
    In closing, I would like to talk about Drew. This is Drew 
Rosenburg, a young man who died needlessly because of our 
broken immigration system. For me, Drew's story, along with all 
the other angel families, serves as a reminder, and it should 
serve as a reminder for all of us. We have failed. Our 
collective failure has resulted in the pain, suffering, and 
irreparable harm of unfathomable numbers of people.
    To be clear, this threat is not just to American citizens. 
The incentives of knowing you will be allowed into the United 
States outweighs any risk, harm, including death, for migrants. 
It has become an acceptable risk. Thirty-one thousand medical 
treatments are anticipated this year that Border Patrol will 
ensure immigrants receive. Last year alone, Border Patrol 
conducted 4,300 rescues of people trying to illegally enter 
this country because the incentives are so strong.
    This has to stop. No more Drew Rosenburgs. No more American 
citizens should die from something that we can prevent. His 
death was preventable along with thousands of American 
citizens, as well as immigrants looking for a better 
opportunity and a better life. The way it is being done now has 
to stop. It is not right. It is not working. People are dying. 
American citizens are dying; illegal immigrants coming here 
illegally are dying. We have to fix this.
    I thank you and I look forward to your questions.
    Chairman Johnson. Thank you, Mr. Morgan.
    Our next witness is John Davidson. Mr. Davidson is a senior 
correspondent for The Federalist and a senior fellow at the 
Texas Public Policy Foundation's Right on Immigration 
Initiative. Mr. Davidson.

TESTIMONY OF JOHN DANIEL DAVIDSON,\1\ SENIOR CORRESPONDENT, THE 
                           FEDERALIST

    Mr. Davidson. Chairman Johnson, Ranking Member Peters, 
Members of the Committee, thank you for inviting me here to 
testify today about some of what I have seen on the border. I 
just want to highlight three key points from my written 
testimony, which you all have.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Davidson appears in the Appendix 
on page 73.
---------------------------------------------------------------------------
    The first is the scale of people coming across into Texas 
communities and cities this year compared to last year and the 
way that those communities are in crisis.
    Second is what some of the migrants themselves say about 
why they are coming and what their situation is.
    The third is the vast, complicated black market that is 
operating south of the border that is driving and facilitating 
all of this illegal immigration and moving families up to and 
across our Southern Border.
    About this time last year, I visited a Catholic Charities 
respite center in McAllen, Texas, which at that time was 
receiving between 60 and 120 people a day, all of them families 
from Central America that had been discharged from Immigration 
and Customs Enforcement (ICE) custody. The way it worked is 
that ICE would drop them off at the Greyhound station in 
downtown McAllen, and the Greyhound employees would call the 
Catholic Charities respite center and say, ``ICE just dropped 
off a bunch of people.'' The charity would send vans to pick 
them up and bring them into their respite center, which is sort 
of one-half of a rundown commercial building in downtown 
McAllen. They would give the kids something to eat, and they 
would help the adults find bus tickets and try to get them on a 
bus that same night to get them out because another group of 
people would be coming in the next afternoon, and there was not 
space for everybody to stay the night there. It was not a 
shelter. It was a respite center. It was not set up to be a 
shelter.
    Today the Catholic Charities respite center in McAllen is 
receiving between 800 and 1,000 people a day. Last Sunday, they 
received 1,300 people--way beyond their capacity. They are in a 
new facility now, but it is a former nursing home. They are not 
set up to receive this volume of people.
    McAllen is a city of about 150,000 people, and according to 
the mayor of the town and according to people that live there, 
they are now facing the prospect of thousands of migrants 
discharged from ICE custody wandering the streets and sleeping 
in doorways and on park benches. By any measure, the situation 
there is an emergency.
    This is just one border town in Texas. Something similar is 
playing out all up and down the border and all throughout 
southern Texas.
    I want to talk as well about some of the conversations and 
the time I have spent talking with migrants themselves. If you 
spend enough time down there and talk to enough people, a few 
common characteristics will stand out.
    The first is the majority of these family units are men 
traveling with one or more children--usually just one. Many of 
them will say they have a wife and other children back in their 
home countries, that they are coming here to find work and send 
money back home. They freely admit this. They are headed for 
all points across the United States and often have networks of 
family and relatives in those places. Many of them already have 
jobs lined up.
    Nearly all of them will say that they left their homes 
because of gang violence, threats, extortion, etc., or that 
they simply have nothing and they are claiming asylum.
    At the same time, many of them will admit that they do not 
plan to remain in the United States permanently and have a set 
amount of time that they plan to stay and live here and work 
before returning to their homes and their families--a year and 
a half, 3 years, 5 years. It varies. But a lot of them will say 
this.
    They all say that they paid a smuggler to secure safe 
passage across the border, anywhere from $2,000 to $6,000 per 
person, on average, sometimes more. Generally, they take cars 
or buses transiting through Mexico. Some of them will stay in 
hotels along the way. A lot of the groups, especially those 
showing up in downtown El Paso, appear to be in pretty good 
shape, and they report that they got here with no problem and 
were only on the road for 3 to 5 days, generally.
    Despite the challenges and dangers they face in their home 
countries, the vast majority of these people appear by all 
accounts to be not refugees but economic migrants, and very few 
of them appear to have what sound like valid asylum claims.
    Part of what is driving this--and this is the third point I 
want to emphasize especially--is that what is happening here is 
not an accident. It is an industry. When we talk about the 
migration pipeline through Mexico, we are talking about a very 
large international smuggling black market that is worth 
billions of dollars. A complex network of smugglers, local 
officials, drivers, landowners, lookouts, loan sharks in 
Central America, and Mexico drug cartels control the migration 
flow through Mexico and have, over the past decade or so, 
refined it into a lucrative business enterprise. The chief 
beneficiaries of this pipeline are Mexican drug cartels and the 
smuggling networks that work all throughout Mexico. Generally, 
the cartels require every man, woman, and child who passes 
across the border to pay a tax, which is usually included in 
the fee that the smugglers will quote to Central American 
families. Without paying this tax, migrants cannot cross the 
Rio Grande Valley (RGV) and in many cases are at risk of being 
kidnapped or otherwise exploited by these cartels in northern 
Mexico. The amount of money that they bring in is substantial. 
In the Gulf Region alone, cartel factions are making hundreds 
of millions of dollars annually off illegal immigration, off 
this tax that they charge per person. The numbers from last 
year were very high. The numbers from this year will be orders 
of magnitude higher.
    This black market is sophisticated. The inception point is 
in villages and towns across Central America, and it works 
mostly, at the beginning through word of mouth. If you want to 
migrate, you get hold of somebody whose family member or 
neighbor migrated, and they put you in touch with a local 
smuggler who quotes you a price. Adults who bring a child with 
them get a cheaper price because it is easier for smugglers to 
transport families claiming asylum than single adults who are 
trying to evade detection. This is for the simple reason that 
with asylum seekers, smugglers simply take them up to the U.S. 
border and tell them when to cross. They do not go across the 
border themselves, and, therefore, they are not putting 
themselves at risk for being apprehended.
    Smugglers themselves are telling potential migrant families 
that if they claim asylum, they will be allowed to stay in the 
United States and work. They do not have deep knowledge of 
asylum policy, but they know enough to be able to sell the 
services that they are trying to get families to buy. They are 
incorporating this into their sales pitch, and they are 
instructing them in what to say to U.S. authorities. It is part 
of how they market their services.
    I see my time is running out, so in conclusion, I will just 
reiterate what the Chairman said and the Ranking Member said. 
There is indeed a crisis at the border, and it is being driven 
by three major factors. For those claiming asylum, it is easier 
to enter the United States now than it was during the Obama 
Administration because there is no capacity at Federal 
detention facilities, and the families can expect to be 
released after being detained.
    Smugglers are marketing to people who do not want to 
undertake an arduous or dangerous journey, like women and 
families with small children. The smugglers have created an 
efficient travel package that has proven popular in Central 
America, and word has gotten back to these Central American 
communities that, if they pay, the journey will be short, safe, 
and you will not be detained in the United States.
    Third, the conditions in Central America have not improved 
enough to induce people to remain in their home countries. 
Poverty, violence, and corruption, combined with the fear that 
it is not going to be this easy to get into the United States 
forever, is prompting families to come now.
    I will reiterate what Mr. Morgan said. Only legislative 
action can address this problem. The problem is not with CBP or 
with Border Patrol. Those are not the institutions that have 
failed here. Congress has failed by its inaction to address 
this crisis. As long as Central American families know they can 
gain entry to the United States by claiming asylum at the 
border, the crisis will continue. As long as cartels and 
criminal networks know they can profit by trafficking migrants 
across the border, they will do so. As long as conditions in 
Central America continue to fester, families who can afford it 
will seek a better life for their children by traveling north.
    Thank you for the opportunity to speak today. I look 
forward to your questions.
    Chairman Johnson. Thank you, Mr. Davidson.
    Our final witness is Dr. Andrew Selee. Dr. Selee has served 
as the president of the Migration Policy Institute since August 
2017. Previously, he spent 17 years at the Woodrow Wilson 
Center. Dr. Selee.

TETIMONY OF ANDREW SELEE, PH.D.,\1\ PRESIDENT, MIGRATION POLICY 
                           INSTITUTE

    Mr. Selee. Thank you, Mr. Chairman, and thank you, Ranking 
Member Peters, thank you to all the Members of the Committee 
for the opportunity to testify today. I am, as you know, with 
the Migration Policy Institute, which is a nonpartisan, 
independent organization that tries to do fact-based research 
and look at pragmatic solutions for managing migration, both in 
the United States and around the world.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Selee appears in the Appendix on 
page 78.
---------------------------------------------------------------------------
    I just got back this morning from Phoenix, Arizona, and so 
let me start off by saying, Arizona is deeply linked to Sonora, 
Mexico. A lot of what goes on, when we talk about the border, 
we are talking about a specific part, but it is worth starting 
out by remembering that we actually have lots of legal commerce 
and lots of legal transit across the border. Indeed, most of 
what goes on between, Mexico and the United States is, in fact, 
legal flow back and forth, and it works quite well.
    We did have a long period of Mexican unauthorized 
immigration into this country, and quite significant. Chief 
Morgan made reference to it earlier, quite significant. It 
started to slow down in 2008 and has slowed down considerably. 
It has continued to slow down despite the current peak we are 
seeing in unauthorized migration.
    Mexicans have stopped coming, and hold that thought because 
I will come back to that in a minute. Mexicans come legally, by 
the way, to this country. Lots of Mexicans are still coming 
through legal channels, but we have seen an enormous drop in 
unauthorized migration from Mexico. An enormous drop.
    We started to see in 2012 and in 2014, as you have seen on 
this chart\2\ that the Chairman has given us, a spike in 
Central American unauthorized migration. 2014, let me offer one 
other explanation, which is the gang truce in El Salvador 
ended, and El Salvador had a huge spike in murders. In 2014, it 
became the most violent country in the world, either in 2014 or 
2015, so there was both a push and a pull factor most likely. I 
think that is something we need to keep in mind. There are push 
and pull factors going on, as well as transit factors, as well 
as smugglers are an actor here, as you heard from John.
---------------------------------------------------------------------------
    \2\ The chart referenced by Dr. Selee appears in the Appendix on 
page 86.
---------------------------------------------------------------------------
    For a long time, we could continue to say that unauthorized 
migration was dropping at the border, that illegal migration 
was dropping at the border, because the Mexican numbers were 
going down so much that it obscured the fact that the Central 
American numbers had gone up. That has changed. In the past few 
months, we have seen what is clearly a significant number of 
people crossing the border. We are back to numbers we have not 
seen in a decade. And particularly this is a substantially 
different flow than we have seen before in its origins, 
characteristics, and drivers, and as a result, we need 
different policy solutions to address it. This flow is 
predominantly Central American, not Mexican. It is 
predominantly families and unaccompanied children, 61 percent 
this year, mostly families, 51 percent, 10 percent 
unaccompanied children, rather than adults traveling alone, and 
it is driven by a complex set of factors that include not only 
economic opportunity in the United States, but also the effects 
of chronic violence and poor governance in the countries of 
origin, and the incentives created by the ballooning backlog of 
U.S. immigration courts.
    There are at least four things that changed in the past 
year that have created this spike. As with any wave, there is 
not one cause. There are multiple things that interacted with 
each other. But one of them is the smuggling patterns changed, 
and they changed largely because of the caravans. The caravans 
are not the reason for the spike in numbers. The caravans are a 
small percentage of people that cross. The caravans got the 
smugglers to respond. The caravans were an existential threat 
to the smugglers. They were taking their business away. It is a 
free way of crossing.
    The smugglers innovated. They got creative about what they 
offer, about their prices, about their modes of smuggling, some 
of the things you just heard Mr. Davidson say. They got very 
creative about how they sell their messages. Smugglers matter 
in this.
    Second, there was a lot of U.S. policy chaos. U.S. policy 
chaos created the perception and created the awareness that was 
then exploited by smugglers about where some of the ability was 
for families to stay in this country. That information was not 
generally available, and particularly the news cycle that drove 
this was family separation. Family separation, which was then 
abandoned, created a news cycle about the fact that families 
could not be held, and this information has been used 
effectively by smugglers to let people know, coupled with, as 
you heard, the notion that at some point the border was 
actually going to get shut down. It is going to become harder, 
but right now you can actually be let loose. This is the 
message people are getting.
    Third, I think we do have to take seriously worsening 
conditions in Guatemala and Honduras, and this is primarily a 
crisis of Guatemalans and Hondurans coming to the United 
States. Salvadorans have dropped in the past 2 years. I will 
come back to that. Now, they have gone up a little bit this 
year, actually, with the overall surge, but they are still way 
below numbers of 2 years ago. This is primarily Guatemala and 
Honduras. Something is going on in those two countries, and it 
is tied in part to an ongoing drought, ongoing issues that have 
affected about 5 million people in those two countries. It did 
not start this year. It started about 4 years ago, almost 5 
years ago, but it is something that has not gotten better, and 
it has continued to impoverish people.
    You have seen a movement of some of the organized gangs 
from El Salvador into parts of Honduras and Guatemala where 
they were not there before, so homicide statistics are going 
down, but predatory violence is going down in some of these 
communities. You are seeing a worsening governance situation in 
both Guatemala and Honduras, unlike El Salvador. You are seeing 
actually in Guatemala and Honduras significant backsliding in 
democracy in the past year. The government is taking on 
international bodies that were sent there to help the attorney 
general's (AG) office take on corruption, and that is a big 
issue.
    In terms of people's sense of ``Is my country going to get 
better?'' that matters.
    There is one other possible explanation, which I would 
almost discard but not quite, which is that Mexico's new 
government sort of let everyone through. That does not seem to 
be true. Looking at the numbers, Mexican enforcement has more 
or less continued on autopilot, as it always did. The numbers 
look very similar this year, the last 3 months, 4 months of 
this new Administration versus a year before. However, there 
was clearly--in the same ways in the United States a bit of 
policy chaos, there has been a bit of policy chaos in Mexico 
about what their message is. They have started talking about 
creating legal pathways that they do not yet have. And so that 
may have also been part of the smugglers' message, which is it 
is easier to get through Mexico. It is not a drop in 
enforcement, but it is a change in messaging.
    So in the same way there is no single factor leading to the 
rise in migration, there is no single way of fixing this. But 
let me throw out three options that would actually help us deal 
with this.
    The first is to fix the asylum system. This is not a 
question of trying to get around Flores or get around the 
Trafficking Victims Protection Reauthorization Act (TVPRA). 
This is a question of an asylum system that cannot make 
decisions about who needs protection and who does not. This is 
something in our power to do. It is something in your power to 
do, and it is something in the Administration's power to do, is 
to make the asylum system make timely decisions. If we can make 
timely decisions, it would be both more fair to people who have 
real asylum claims--and I have talked to a lot of people who 
had pretty strong asylum claims, so out there I can tell you 
there is a bunch of people that do, and we should be giving 
them justice in real time and giving them protection in real 
time.
    But it would also discourage people that do not have asylum 
claims, and there are a lot of people who are economic 
migrants, and they should actually be returned because asylum 
is not the pathway for people who are economic migrants. We can 
talk later about labor migration and how we do this, but we do 
not want the asylum system used for that.
    There is a simple way of doing this, and nothing is 
simple--right?--but there is a way that is actually doable, 
which is instead of sending everything to the backlogged 
immigration courts, we have asylum officers make the first 
decision. DHS can actually have asylum officers make the first 
decision. This is what we do with refugees. We have a pattern--
--
    Senator Carper. In their native countries?
    Mr. Selee. No. In the United States, but at the border. 
Rather than sending--we can actually, have the asylum officers 
make that--it would require a rule change or legislation, but 
it is eminently doable. You could make decisions in months 
instead of years. OK? We do not actually need to hold children 
in detention centers either. We can actually make this--we can 
do case management. There are lots of ways we can do this that 
is both humane but also tough.
    Second, we need to work with Mexico to strengthen their 
migration system. They have said, the new government has said 
that they want to strengthen their asylum system, give more 
people asylum. They have said they want to create labor 
migration. There are parts of Mexico with real labor needs. We 
should help them do this. This is in our interest; it is in 
their interest. I do not know if it is going to happen quickly 
or effectively, and it is something in which we could be very 
helpful as a partner in doing. We have some experience in doing 
this as well. We could bring in the Canadians and others. But 
this is something we should take advantage of the moment. The 
more people stay in Mexico and the more they fill labor needs 
and they receive protection in Mexico, the less pressure on our 
border. It is time to take advantage of that.
    Third, we should work with Mexico and Central America to 
tackle the smuggling networks. We can talk about that, and we 
should prioritize the predatory networks and the ones dealing 
in special interest immigrants.
    Finally, we do need to invest in governance, public 
security, and youth employment in Central America. Mexico is 
the case that shows us that over time some things do make a 
difference. In Mexico's case, more Mexican investments, but it 
was also tying the economy to the United States where people 
stopped coming. The U.S. economy is really good, by the way. I 
forget to mention that. The U.S. economy is really good. 
Mexicans are not coming. Guatemalans and Hondurans are coming 
because there is a push factor as well. Right? The pull factors 
and the push factors work together. Salvadorans are not coming 
in large numbers yet. I mean, we will see what the numbers look 
like down the road. It tells you that if you invest in the 
point of origin, it can make a difference over time. I agree 
with the Chairman, it is not a fail-safe that works tomorrow. 
But in a place like El Salvador where there seems to be a 
virtuous cycle going on, where you actually have demographics 
in your favor--it is an older population, more urbanized 
population where security seems to be getting better, the kind 
of investments we have made on the ground with local 
governments in El Salvador as far as that seem to be making a 
difference. You can actually tell in the 50 municipalities 
where we have worked predominantly the kind of investments in 
youth engagement, in community policing, as well as what we 
have done on national level to support the attorney general's 
office and go after corruption, these things make a difference. 
It is going to be harder to do in Guatemala and Honduras. I 
will not sell a bill of goods that we cannot come up with. It 
will be harder. But it is something clearly we need to do 
because that will be our long-term solution.
    Just to conclude, because I know I am over time, let me say 
that there is no magic formula to stop migration flows. We need 
to think in terms of a range of policy strategies. We do need 
to accept that there are legitimate asylum seekers out there. I 
can tell you stories of--I spend a lot of time in women's 
shelters and in youth shelters in Mexico. I can tell you, any 
number of stories of a woman whose 3-year-old had a gun put to 
his head and was told if they did not make their next payment 
to the extortionist, to the local gang, they would kill her 
son. The next time they could not make the payment, they left.
    I can tell you about a young woman I met who left because 
the gang leader in her neighborhood wanted her to be his woman, 
whatever that means, and she decided to flee. As she fled 
through Mexico, she got a call in every city. Every shelter she 
landed in, someone from the gang called her to let her know 
that he was following her, up until she got to Tijuana and 
finally was able to disappear.
    I can tell you about a young man who was told he had to 
join the gang or they were coming for his mother, and he never 
went home again. He had his brother go get his stuff and never 
went home and has not seen his family since.
    That said, that is not everyone. We are a country that 
cares about protection. We are country that cares about 
refugees. We need to have an asylum system that works. At the 
same time, that asylum system should be timely enough that 
people who are using it for other means than protection should 
actually not make the cut and should be returned in a timely 
way as well. We need to work with our partners in Mexico and 
Central America. We should not be threatening them. We should 
be working with them. We should be looking at the root causes 
of migration because in the end that is the one thing that is 
going to make a difference in the long term.
    I would put out again the example of Mexico. This was 
once--15 years ago, it would be impossible to think that people 
would stop migrating from Mexico. I mean, even 10 years ago I 
did not believe--5 years ago, I was not sure I believed this 
was not going to start up again. I actually believe it now. El 
Salvador, I think we may be at the beginning, cautiously, but I 
think we may be at the beginning. Guatemala and Honduras, we 
have to imagine that we have to get them to a place where 
people do not want to leave, with both the incentives on our 
side to leave, because I think there are incentives in our 
policies, do not bring people, but also the causes on the 
ground do not lead people to go. The smugglers, also, we have 
actually dealt with in such a way that they are less of a 
threat and less pernicious in their ability to convince people 
to move when they should not.
    Thanks.
    Chairman Johnson. Thank you, Dr. Selee.
    I am going to defer my questioning, but I want to make a 
couple points.
    First of all, we will definitely stipulate there are all 
kinds of depredations; there are all kinds of people that are 
fleeing unbelievable types of threats. But I do look at what is 
probably our best information right now. About 15 percent of 
people seeking asylum actually have those asylum claims 
granted. So that would indicate to me about 15 percent of the 
people coming in here are subject to those types of threats, 
which, of course, we all want to grant asylum for those. But 85 
percent are probably more in the category of economic migrants. 
Now, those are not perfect stats, but it gives us some kind of 
indication.
    The other thing is, again, separate out achievable goals 
short term versus long term. Right now, what I want this 
Committee to work on is the short-term goal, which I would say 
is what we need to concentrate on: reducing this flow of 
illegal immigration. I am happy to talk about the long-term 
goal, but recognize it is a long-term goal. We are not going to 
improve the economies significantly to reduce this by 
development dollars in Central America. Again, I just kind of 
want that to inform our discussions and questions as we move 
forward.
    But, with that, I will turn it over to Senator Peters.
    Senator Peters. Thank you, Mr. Chairman. Thank you to the 
three of you for your testimony. You certainly gave us an awful 
lot that we will now try to unpack through a series of 
questions over the remaining time that we have in this hearing.
    First, I want to deal with a short-term issue that you 
mentioned, Chairman. According to the CBP's own workload 
staffing model, the Office of Field Operations is understaffed 
by nearly 4,000 CBP officers right now. Certainly we must 
address the challenge of the Southern Border, which was laid 
out quite extensively by the three of you gentlemen. But these 
efforts should not create a large-scale disruption in the 
legitimate trade and travel that is occurring across these 
borders, and I remind everybody we have a Northern Border as 
well as a Southern Border, and these trade relationships are 
critical to the economic viability of our country.
    Yesterday I introduced legislation with Senator Cornyn that 
would fully staff our ports of entry, airports, seaports, and 
land ports of entry. Dr. Selee, I appreciated that in your 
December testimony before the Judiciary Committee you 
specifically recommended investments in technology, customs 
officials, asylum officers, and things that you have echoed 
here today.
    But could you discuss the potential negative impacts to our 
economy of moving hundreds or even thousands of CBP officers 
from our ports of entry to the Border Patrol sectors? What will 
that potentially do?
    Mr. Selee. I think it is hard to underestimate how much the 
U.S. industrial base, our productions chains, are, in fact, 
North American. They are not American anymore. I mean, the auto 
industry relies on an integrated platform that is, Canada, the 
United States, and Mexico. So I have, somewhat too poetically, 
called it a ``murder-suicide'' to close down the border. We can 
do it, but it actually comes back and boomerangs on us as well. 
This is the kind of thing where we are deeply economically 
interdependent. It is true in refrigerators; it is true in 
cars; it is true in--run down the U.S. industrial production. 
It is starting to be true in technology, some areas of 
technology, but slightly less true. We are deeply integrated. 
So even slowdowns have a huge impact on just-in-time 
manufacturing, right? It has a huge impact on American workers, 
right? We can sustain it for a week or two. We can sustain it--
American industry will survive for a short amount of time. If 
we continue to disrupt commerce across the border, that will be 
an issue for American workers, and Mexican and Canadian 
workers, for the long term. It will have a huge impact on gross 
domestic product (GDP) growth.
    This is an area where I think we should not underestimate 
how interdependent we have become. Actually, the Governor of 
Arizona, talks about this quite eloquently. This really is a--
Sonora and Arizona are one tied-together entity, economic 
entity. If you go to San Diego and Tijuana, Mayor Faulconer of 
San Diego talks about Tijuana and San Diego now being one metro 
area rather than two cities because they are economically 
integrated in a way that was not true 10 or 20 years ago.
    Senator Peters. Dr. Selee, you mentioned the impact on 
manufacturing. Certainly we see that firsthand in Michigan with 
the dependence of the auto industry, as you mentioned, of both 
Mexico and Canada and the just-in-time delivery that we see 
across the Canadian border in particular that, if disrupted, 
creates a cascade of bad impacts that ultimately impact 
American workers and impact our country, but agriculture as 
well. If the agricultural inspections that we are taking CBP 
officers away and sending them to the Southern Border, that 
could have a devastating impact on agriculture, too, couldn't 
it?
    Mr. Selee. A huge agricultural market for the United 
States, Mexico is one of our biggest markets for any number of 
agricultural products, from soybeans to, wheat, corn, pork, and 
beef. Actually, Mexico is one of the top, one, two, or three on 
all of those. Yes, it is a huge market disruption, and, 
obviously, is a source for strawberries and fresh fruits and 
other things we consume as well. So huge impact.
    Senator Peters. But having those officers in ports of entry 
around the country, because we have imports coming in from 
around the world----
    Mr. Selee. We do.
    Senator Peters [continuing]. If not screened properly, can 
have a devastating impact on our agricultural industry.
    Mr. Selee. Yes, very much so. We can miss this in the talk 
about the tough things going on at the border, but I think one 
of the things that we have actually achieved, to the credit of 
CBP, actually, over the past few years and their counterparts 
in Canada and Mexico, is we increasingly manage the border at 
both the north and the south very collaboratively and with a 
lot of minding the flows rather than just the line, how we 
prescreen things before they get to the border. It has become 
much more secure and much more efficient at the border than it 
has ever been before.
    Senator Peters. In 2016, to Senator Johnson, you included a 
measure in the National Defense Authorization Act (NDAA) to 
establish some baseline metrics for the DHS to measure security 
along the borders, and I want to compliment you on that. I 
think that is an important effort to understanding what exactly 
we are dealing with, and data is critical. We want to make this 
fact-based and data-driven as to what we do going forward.
    I would like to ask the panel, is there additional data 
that CBP should be collecting in your estimation so that we can 
get a real true sense of what is happening here? I will start 
with you, Mr. Morgan.
    Mr. Morgan. I think if you look at the data right now, they 
are doing a pretty good job--I mean, the data is not perfect, 
and I do agree there is some improvement in some areas. I think 
we saw in the past that, when you have taken action like 
separation of families, we should do a better job of that data, 
and I think we can all agree on that.
    But if you look at what they are collecting, it clearly 
paints a picture from 2014 to now. It clearly shows the 
demographic changes from Mexican adults to Central American and 
Northern Triangle countries. It clearly shows that in 2012--
really in 2014, how it was mainly unaccompanied minors, but now 
it has shifted to family members. I mean, those are the key 
essential elements of data that they are collecting that really 
illustrates the critical crisis that we are in now.
    Specifically, are there overall improvements? But I think 
they are doing a pretty good job right now.
    Senator Peters. Mr. Davidson, specifically, is there 
anything additional--not what we are doing right now, I 
appreciate that comment, but anything additional? I will go to 
you afterwards, Dr. Selee.
    Mr. Davidson. To my mind, the one area when it comes to 
data that we do not have any and we may never have any is data 
about the smuggling networks and the cartels and the kind of 
money that they are making off of this. We can do back-of-the-
envelope approximations. An $800 tax per person to the gulf 
cartels for everyone that crosses, that is hundreds of millions 
of dollars on that part of the border. But the amount of money, 
I think, is substantial, and I do not think that we quite have 
gotten our minds around that yet, how big the industry is.
    That does not really answer your question, but----
    Senator Peters. Thank you. Dr. Selee?
    Mr. Selee. Yes, I would agree. Actually, information on 
smuggling networks and the fact that you have to really compile 
that across agencies and across countries, which is 
complicated.
    I would say also making sure that the numbers that DHS has 
are public in a timely way. I will actually throw out--just 
since we have mentioned a couple times here the asylum numbers, 
the latest asylum numbers we have are, by the way, 15 percent 
approval rate for Guatemalans, but it goes up to about 21 or 22 
percent for Hondurans, 25 percent for Salvadorans. It actually 
goes up a lot depending--El Salvador has been much more of a 
violence-driven flow. Guatemala has been a more economic flow. 
Honduras is in between. But I mention that because those are 
old numbers. OK? We do not actually have updated numbers. A lot 
of the numbers that we deal with on the outside--but I suspect 
a number that people on the inside are dealing with also have a 
giant lag in them, and so investing in up-to-date--especially 
when we are dealing with things that change in 2 months, right? 
This would have been a different conversation 3 months ago than 
it is right now. We have to have real-time numbers that can be 
socialized across agencies to Congress and to the wider world.
    Senator Peters. Thank you.
    Chairman Johnson. Thank you, Senator Peters.
    As the accountant on the Committee, it drives me nuts that 
we do not have the kind of data that we really do need. But I 
agree with Chief Morgan that we have done a pretty good job. We 
kind of have this assessed. But I would like to know exactly 
what it is in terms of percent of asylum claims right now that 
are valid. That gives us information. Talking to the Secretary 
last week, her sense was it is shifting more and more to an 
economic migrant flow. But, again, you just do not have the 
data on it. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you very much, Mr. Chair and Ranking 
Member Peters, for this hearing. Thank you to our witnesses 
today. I also wanted to thank the Ranking Member for his 
opening comments and associate myself with them. Thank you for 
that.
    Dr. Selee, we have heard from all three of you today about 
the impact of drug cartels at our Southern Border. Last year, I 
was at the border myself, and one of the things that I heard 
from agents on the front lines was the need to stem the flow of 
illegal firearms and cash southbound from the United States to 
Mexico, because that is, of course, feeding the cartels. 
Firearms and cash make their way into the hands of these 
cartels, empowering and driving them to commit more acts of 
violence on both sides of the border.
    Dr. Selee, in your opinion, what needs to be done to 
improve our capacity to conduct southbound inspections at the 
U.S.-Mexico border?
    Mr. Selee. That is a tough one because you do not want to 
gum up the system going south.
    Senator Hassan. Right.
    Mr. Selee. At the same time, it really is a problem. We 
have a circular business here, right? The cartels are moving 
narcotics northward across the border, but then the money that 
is spent by American consumers of illegal narcotics is then 
going back into Mexico, and some of it is used to purchase arms 
and head back. We have a real circular trade going on here.
    Senator Hassan. Yes.
    Mr. Selee. Probably the best way of dealing with this is 
not actually stopping people at the line, but it is looking at 
the flows. It is what CBP is becoming increasingly adept at 
doing, what the FBI does very well as well, which is 
increasingly it is how do you follow the networks of people 
that are involved in arms trafficking? How do you the kind of 
investigations that allow you to figure out who are the people 
that are moving the money? First of all, the financial side, 
who is moving the money? Some of it still moves in cash, which 
is hard to believe, this quantity of money. Some of it moves 
through the financial system, some of it moves in cash, though. 
Because those networks are there, right? People who are going 
north are going south again.
    So it is actually more in the investigation side. That is a 
coordination issue among agencies, and it is a coordination 
issue with Mexico as well.
    Senator Hassan. And that assumes that, of course, if we can 
have good investigations that follow the money and follow the 
firearms, we will be able to disrupt the cartels, right?
    Mr. Selee. That is right. The most we can hope for is 
disrupting, to be honest with you. I mean, I do not think we 
are going to stop the business by, stopping all the money, but 
disrupting it enough that you create chaos. A little bit of 
chaos and disruption and a big of degrading of their financial 
logistical networks goes a long way.
    Senator Hassan. Right, and working, obviously, with 
governments south of the border, too.
    Mr. Selee. Very much so. We did this right after--during 
the Calderon administration in Mexico, both with the Bush 
Administration and the beginning of the Obama Administration, 
we were very active, actually, on the financial side. We have 
moved a little bit away from it.
    Senator Hassan. OK. That is helpful.
    We have also heard from other witnesses here today and many 
of us up on the dais about the migration that is happening 
despite the President and the Administration's actions. If I 
understand your testimony correctly, you indicate that actually 
the opposite is true. In your view, are the actions and policy 
decisions of this Administration contributing to the spike in 
migration and border crossing at the Southern Border right now?
    Mr. Selee. I think the answer is yes, although it would not 
be the first Administration that has done that.
    Senator Hassan. Right. Understood.
    Mr. Selee. Being fully balanced on this. My sense is that 
we have tried repeatedly to overreach and fix specific things. 
We have actually been trying to limit people's access to 
asylum, trying to separate families, we need to be actually 
fixing our asylum system. There is one big thing we could do 
that would actually make this easier. We keep doing sort of 
overreaches. It was family separation, but then it was a DHS 
order to not take asylum applications between ports of entry. 
That was stopped in the courts. There have been a couple others 
along the way. It is metering, frankly, also I think is another 
piece of this, where it becomes very hard for people who have 
legitimate claims to present those at the ports of entry, and 
so the message from the smugglers is, ``Hey, come with me 
between ports of entry.'' People who might actually have wanted 
to do the right thing are not doing it.
    We need to figure out, rather than trying to fix a lot of 
small things, just do one big fix that actually makes sense 
here.
    Senator Hassan. Right. It seemed to me from your testimony 
that in some ways we are playing--it is whack-a-mole, right? I 
mean, we go after one problem; we create a ripple effect or a 
side effect; then we have to go after that, when, in fact, we 
have some systemic changes we need to do, including a lot more 
judges, a lot more personnel at the border, something I heard 
about when I was at the border, smart infrastructure, smart 
deterrence and technology at the border.
    Thank you very much, and I yield my time.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. We appreciate all 
of you being here.
    Chief, I was doing a ride-along with the El Paso Sector, 
probably 40 years ago, which dates me, and you indicated that 
things have changed dramatically. At that time, it was 
primarily men coming over from Mexico looking for work, and the 
numbers were about a million, but I actually was working with 
some of those men at that time, and some of them were 
apprehended by the Border Patrol, and they were back that night 
because they were sent back to Mexico and they simply crossed 
again. There was not the families, there were not the kids, so 
it is a very different concern.
    On data, I could not agree with you all more. We want the 
data. We want it in a timely fashion. We really do not have 
good numbers. We do know that the vast majority, whether it is 
15 or 20 percent, of asylum claims are turned down. I guess we 
know that generally speaking.
    We also know that of those, 10 percent, roughly, we are 
told by the Secretary of DHS, who are now being sent back to 
Mexico to await a hearing, which is a pilot program, in effect, 
that there seems to be some indication that those individuals 
are not staying in Mexico waiting for their hearing but going 
back to their home country, which is primarily Northern 
Triangle countries.
    Does anybody have any data on that, any information on 
that? Dr. Selee, you may know about that program. Chief or Mr. 
Davidson, any thoughts on what those numbers are?
    Mr. Morgan. I do not.
    Senator Portman. Dr. Selee, do you know?
    Mr. Selee. I can try and get that to the extent the Mexican 
authorities may know something, but I have not seen that. My 
sense from journalists that are following this--there is a set 
of journalists that have been following this. Most people seem 
to be staying and waiting to see how their case plays out. But 
I would not doubt you get a few people headed back. It is still 
too new. We are talking about 300 people, more or less, the 
last number I saw earlier this week, so it is a small number.
    Senator Portman. I do not think it is the solution to the 
entire problem because I think you have to deal with the 
broader issue, including, in my view dealing with the TVPRA 
issue and the Flores decision, and, just coming up with a new 
approach generally to immigration. But I think it is an 
interesting short-term effort to try to encourage people to 
stay in Mexico rather than coming over here and awaiting their 
hearing.
    What percentage of people who are released to the community 
actually show up at the hearing? Do we have that number?
    Mr. Morgan. We have a general number, so what they say, the 
numbers that I understand--again, the numbers are not perfect, 
but about 40 percent do not show up. They end up getting orders 
of deportation in absentia, and then the remaining do show up. 
Of course, the majority of those, the claim is found to be 
unsubstantiated.
    Senator Portman. Do you agree with that, Dr. Selee?
    Mr. Selee. Yes, that is about right. It depends on what 
group you are talking about. For families, it is fairly high. 
People tend to show up--there are two places that people can 
disappear, right? One is they get through--they are released. 
They are either given a notice to appear , and they do not show 
up or they do show up. They go through credible fear, and then 
they have to apply for asylum. A lot of the disappearance comes 
at that point. People do not apply for asylum--or they do not 
show up for their NTA hearing.
    Once people apply for asylum, the numbers are pretty good 
about people carrying through their case, and people that have 
lawyers actually overwhelmingly carry through their case. But I 
would say the numbers I have seen are probably there, 40 
percent probably do not, 60 percent do.
    Senator Portman. I think most people who we represent would 
be surprised by those numbers, and I think there is a broken 
system here, and we just added a lot more judges, as you know, 
in this latest appropriations bill, and we also added some 
other things to border security, including more inspections at 
the border for drugs. In Ohio, we are getting slammed by drugs 
coming across that border. Most of the fentanyl, by the way, 
comes through the mail from China, but some of it is coming 
from Mexico now and in higher numbers. That number has 
increased. But crystal meth, which is our new problem in Ohio, 
is primarily, maybe exclusively even, being made in Mexico and 
coming across. Of course, heroin has been coming across, about 
90 percent through the border.
    This inspection technology I hope will work better, and, 
Chief, I do not know if you had much exposure to that at the 
ports of entry, but do you feel as though this new technology 
is going to make a big difference in terms of being able to 
stop some of the flow of drugs?
    Mr. Morgan. Absolutely. Unequivocally, we need more 
technology. We need more technology at the ports. We need more 
technology in between the ports, absolutely. But make no 
mistake. One of the false narratives out there is that more 
drugs are interdicted at the ports. First of all, just on its 
facts, that is incorrect. 
If you take into account, cocaine, heroin, fentanyl, and 
methamphetamines, yes, at the ports. But if you take into 
consideration all drugs, pound for pound, more is actually 
interdicted in between the ports.
    What is another element that is critically important in 
that false narrative is 50 percent of the border is wide open, 
and now that 40 percent of the Border Patrol resources are 
diverted to do the humanitarian mission, the border is even 
more unsecure. The real thing we should be focusing on and 
talking about is we have no idea, sir, what is coming through 
our border because it is unsecure. We have no idea.
    Senator Portman. Again, going to data, hard to get to good 
data when we do not have the ability to collect the data.
    Let me ask you another question. One of the things we focus 
on a lot is, the push factors, and I agree that the Northern 
Triangle countries deserve to have more assistance from us that 
is effective. We have tried different things. We tried the 
Millennium Challenge approach, particularly in Honduras, which 
I had great hope for. Frankly, it did not work out as I had 
hoped. I was on that board at one point when I was U.S. Trade 
Representative and was very supportive of trying to help change 
some of the institutions in those countries to create more rule 
of law and create the basis for economic development. I am not 
sure we know how to do that, but we should do more of that.
    On the pull factors, one of the things that I think is lost 
sometimes is that these people are primarily coming here to 
work. It is a magnet. The families and the kids, people might 
say, ``Well, that is for another reason.'' Not really because 
those adults are coming here to find a job. As was indicated 
earlier, many have a job already lined up.
    What do you all think of making E-Verify mandatory and 
actually dealing with the magnet, the draw, which is a job 
ultimately? Right now I think people would be surprised to 
learn that with regard to E-Verify, which is an attempt to 
authorize somebody to be able to work, to say whether they are 
here legally or not, we do not have an effective system. We do 
not have an effective system when someone shows up with a false 
ID, fake Social Security card, fake driver's license, employer 
is off the hook, and it is not mandatory.
    Can you all talk about that as a pull factor and whether we 
should do more on E-Verify?
    Mr. Morgan. Yes, sir. So the answer to that is yes, 
absolutely. Just like we should continue to, work with the 
Mexican Government, just like we should continue to work with 
the Northern Triangle countries, just like we need more 
technology, just like we need increased barrier. All that is 
true, and we need to get better at that. But make no mistake. 
We can do all of that we are talking about, sir, all of that, 
and nothing is going to change. The numbers are going to keep 
coming because of challenges like the Flores Settlement and 
TVPRA. If those two elements are not addressed, which is going 
to take congressional action, if they are not fixed, the 
incentives are there. That is the pull factor. The pull factor 
is Flores and TVPRA.
    We could do E-Verify. Yes, we need it. We can get more 
technology. Yes, we need it. Physical barrier, yes. Continue to 
work with Mexico, yes. Northern Triangle countries, yes. Those 
numbers are not going to change, and the chart shows it. We 
have been working with Mexico.
    With all due respect, Mexico, the reason why adult Mexican 
and the illegal entry of Mexicans went down was because we, 
America, we applied consequences. We removed them. Now, you can 
say that work with Mexico helped a little bit, but make no 
mistake. Those numbers went down because we removed them and we 
applied consequences.
    So all this other stuff, while it is important, it is not 
going to eliminate the Central American families and minors 
from coming until we fix Flores, until we fix TVPRA. That will 
remove the incentive. That will eliminate catch-and-release. I 
promise you you will see those numbers go down dramatically.
    Senator Portman. My time has expired. Again, I appreciate 
all three of you and your service. I would say that even for 
these families coming up from Central America, I believe the 
primary pull factor is a job, is our economy, so I do think 
there is a way for us to address that through legislation.
    Thank you.
    Chairman Johnson. So just real quick, one piece of data we 
do collect is if we detain an individual versus if we do not 
detain them, on final order of removal, if they are detained, 
we remove about 77 percent. If we do not detain, we only remove 
about 7 percent. So that kind of gives you the idea, that is 
one stat we actually do keep track of.
    I would also say in terms of Mexico, a lot of it is the 
Mexican economy has really revved up. I think North American 
Free Trade Agreement (NAFTA) worked, and as a result, Mexico 
needs more workers, and if anything, we might even had an 
outflow of that.
    The next questioner is Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. Our thanks to each of 
you.
    This is a little bit like Groundhog Day. I have been 
sitting here for 18 years, and we have talked about this issue 
a whole lot. I have said to my colleagues more times than they 
want to remember that there is no silver bullet here. There are 
a lot of silver BBs. Some of them are bigger than others. We 
are hearing about Flores revisited. We are hearing about TVPRA.
    I had the privilege of leading a congressional delegation 
with Jeff Merkley and some of our House colleagues about a 
month ago, and we were in Honduras, Guatemala, and El Salvador. 
We do not have an ambassador in Honduras. We have not had one 
all year, did not have one last year, did not have one the year 
before. That is crazy. That is crazy in this situation. We 
could do something about that if we get a nominee. There was a 
nominee 2 years ago, and he was held up and never allowed to go 
through--not by us, not by our side, but by the other side.
    I want to just mention a couple things about my trip to the 
Northern Triangle. You mentioned, Dr. Selee, that something 
interesting is going on in El Salvador, and you are right. 
Fifty cities there, 50 town cities, have been targeted for 
crime reduction successfully. We are complicit in those 
actions, which is a good thing. For every $1 we put up through 
the Alliance for Prosperity in El Salvador, they spend $7. It 
is like Home Depot: ``You can do it. We can help.''
    We have also just had an election several months ago. The 
current leader of El Salvador is a 75-year-old guerrilla leader 
with close ties to the Cubans, the Venezuelans, the Chinese. He 
has been succeeded by a 37-year-old mayor of San Salvador who 
gets economic development, understands the role of government 
in creating a nurturing environment for job creation and job 
preservation, understands why crime and corruption are 
important elements in creating that nurturing environment. He 
is the first candidate in El Salvadoran history to win an 
outright election as President of his country.
    Guatemala is going to have an election in June, and some of 
the folks who helped put together the winning campaign in El 
Salvador are helping to run their campaign of former Guatemalan 
Attorney General Thelma Aldana. She is going to be a change 
agent. If she is elected, she will be a change agent in terms 
of crime and corruption.
    There is something for us to learn from that election in El 
Salvador, and the fact is that illegal immigration is not 
dropping in El Salvador but it is not skyrocketing, and I think 
it is in part because people who live there sense a renewed 
sense of hope and opportunity.
    We have talked a bit about what can Congress do, revisit 
the Flores decision. It has been mentioned here that part of 
the problem, a big problem, we have 157 million people who went 
to work today in this country--157 million. There are about 3 
or 4 million jobs that nobody showed up to do. Americans do not 
want to do that work, cannot do that work, are not educated to 
do that work. There are folks who want to come to this country 
who can and are willing to do that work, and they will try real 
hard to get here to have these opportunities.
    We passed by a two-thirds margin immigration reform. How 
many years ago was it--6, 7, or 8 years ago? Part of that was a 
guest visitor worker program, which I think makes a lot of 
sense in the world. I have talked to so many people in these 
three countries of the Northern Triangle who say, ``We do not 
want to come and live in America and stay here. We would 
actually like to be able to come here and work some and go home 
and eventually live full-time in our country.'' We hear that 
again and again. That would work for us, and I think it would 
work for them.
    I interrupted one of your questioning, I think you 
mentioned asylum, the ability to have access to asylum pleas 
almost upon entering this country. Secretary Nielsen has been 
pushing the idea of asylum hearings literally in our consulates 
within Honduras, Guatemala, and El Salvador, which I think 
makes some sense. Let me just ask, just go down the line--Dr. 
Selee, you can take it first--does that make any sense?
    Mr. Selee. Thank you, Senator. I think it does make sense. 
I think we would have to figure out how we structure it. The 
devil is in the details a bit, but it is a good idea to think 
of in-country processing. We have to have a way of protecting 
people if they are making an asylum application in their own 
country.
    We had a pilot program, a very small pilot program in the 
Obama Administration, the Central American Minors (CAM), where 
we did this with minors. We can learn from that experience and 
build on it. We did have a way of getting people to Costa Rica 
to be protected while their asylum application was pending. It 
was actually not asylum. It was done through a different 
figure. But it was nonetheless the same idea.
    We could also be talking with the Mexican Government about 
doing asylum processing in southern Mexico. I am not sure 
whether that would fly or not. It is not clear to me that it 
would work, but it is also something we could be having a 
productive conversation, people get into Mexico, have a safe 
zone under international auspices where people can apply for 
asylum, perhaps in both countries.
    Senator Carper. Thank you.
    Mr. Davidson, just very briefly, please.
    Mr. Davidson. Yes, I would say to the point earlier about 
the remain in Mexico pilot program that they are trotting out, 
there is not a lot of information about it, about the numbers. 
It is not high, a couple hundred, maybe 300 or so. But the 
initial reports from that that I have seen is that it is very 
chaotic and very difficult for people who are remaining in 
Mexico to even know when their court date is here in the United 
States and to get here in time for the court date to 
communicate with attorneys. The idea that we are going to go 
through like full asylum hearings for all these people that are 
showing up I think is a losing proposition. Having expedited 
evaluation of asylum claims at the border or shortly after 
people come across, empowering CBP or somebody else, Federal 
agents, along the border to be able to do that in a timely 
fashion and not have this deal where they are going to have to 
go through the court system and the backlogs and having them 
come back and forth across the border multiple times to pursue 
their asylum claims, I do not see how that is workable. So far 
it has been very chaotic, and it has been a mess.
    Senator Carper. Very briefly, Mr. Morgan, please. Same 
question.
    Mr. Morgan. I absolutely think it is a good idea, but both 
in their country of origin and Mexico, I agree there is some 
chaos. But whenever you are trying something new, there is 
always some chaos. I think the devil will be in the details. I 
think we could work that out.
    But what I see from a law enforcement perspective, being in 
charge of this issue on the border, what it does is it takes 
away one of the important elements, the incentive to come here. 
Again, we have to keep going back to the incentive. If they set 
one foot on the soil, if they know they are not going to 
automatically just be allowed in and stay here indefinitely, 
that is going to reduce the flow. It is a good idea.
    Senator Carper. Alright. Thanks.
    Chairman Johnson. Thank you, Senator Carper.
    While we are on the subject, let me quickly ask, because we 
talk about asylum in the country. That is really asking for 
refugee status, correct? Asylum can only be applied for when 
you are in the country. Or do we have to change that law? Also, 
isn't there a distinction, too, that you really ought to be 
claiming asylum in the first safe country? We are kind of the 
second safe country, which would give us some latitude to 
change how we deal with asylum with people from Central America 
that are coming through Mexico?
    Mr. Morgan. Yes, Chairman, that is--Mexico should be a safe 
third country. Technically, the way the international asylum 
laws are supposed to function is you should be claiming asylum 
in the first country, the first border you come to. You have 
left your country. That persecution or whatever you are facing 
is now done. You are in that safe third country. That should 
also be addressed. Mexico has to get involved in that.
    Chairman Johnson. OK, but that is something this Committee 
is going to have to explore. Exactly what are these treaties? 
What are these laws? To Dr. Selee's point, what can we do to 
expedite those initial determinations and people that simply do 
not have the valid asylum claim where, again, a larger 
percentage of these are really coming as economic migrants, 
which we fully understand but it does not qualify and those 
people need to be returned as a consequence. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you so much, Mr. Chairman. Thank you 
for your testimony here today.
    I want to hear your thoughts on the impact of aid cuts or 
potential aid cuts to the Northern Triangle and some of our 
South American countries. It has been stated here, of course, 
it is a significant number of migrants arriving at the border. 
They are children, they are young adults, many of whom claim a 
fear of persecution or harm from gang activity, other criminal 
groups.
    Last year, I visited the tent city in Tornillo and heard 
the stories of some of these young adults, just like you have, 
who fled their home for safety in the United States.
    So over the last several years, the United States has 
provided millions of dollars in foreign aid to support 
community-based crime and violence programs which aim to 
provide services to youth who are at particular risk, can be 
victims or recruited, and also to protect women from domestic 
violence and other types of sexual violence.
    And so we have done other things and addressed migration, 
programs like nutrition assistance, training police officers. 
The International Justice Mission has been working with local 
authorities in Guatemala to increase the prosecution of child 
sexual assault with support from a State Department grant.
    So my question for you, Dr. Selee, is this: How do you feel 
cutting aid to these programs and other programs like this will 
impact the situation on the ground, including violence and 
impunity, and that motivate people to come to the United 
States?
    Mr. Selee. I think it is important to note that most of 
this aid--I mean, very little, if any aid actually goes to 
governments themselves. This goes primarily to Non-governmental 
organizations (NGOs), and some aid is actually within the U.S. 
Government, obviously, itself. So the kind of things that we 
have seen work on the ground--and, again, everything, when we 
say work, Senator, everything is sort of--you have to take it 
with a bit of a grain of salt because everything is a moving 
target. But the things that seem to work, engaging--
particularly in El Salvador, has been engaging young people in 
activities, both youth employment but also recreational 
activities, building community policing, for example; investing 
in agricultural areas in Guatemala and Honduras seems to have 
had some payoff. Then there is a lot of support for the kinds 
of prosecutions that you mentioned, and in El Salvador, we have 
done a lot of work actually with the attorney general's office 
on prosecution of corruption as well, on technical know-how to 
be able to prosecute corruption.
    So my fear is with aid cuts is you see a backsliding. The 
governments will not be affected in this sense, but communities 
will be affected, and people who are struggling to make their 
governments less corrupt will be affected. The institutions and 
the organizations that have been pushing for better governance 
are the ones that are affected.
    Senator Rosen. If we do this, to follow up, and we remove 
some of our influence in the region, do you think other 
international actors like China are going to come in and fill 
this void, making us less safe and possibly increasing reasons 
for people to come?
    Mr. Selee. Senator, certainly in El Salvador the Chinese 
have been pushing in very aggressively to try and do a major 
development project and to become sort of the substitute for 
the United States. I think the incoming government is more 
skeptical about that, but I think that is--obviously, if we 
withdraw our influence, the other actors will want to be 
present. We have seen this elsewhere in the hemisphere, right? 
Both China and Russia have been present in different countries 
where the United States is less active.
    Senator Rosen. So you would agree that increasing support, 
trying to find good ways to support and, of course, measure how 
that may have an impact, gathering the data after would be a 
good investment for the United States?
    Mr. Selee. It would be a good investment, and I think one 
of the things that has been missing that we should do is 
actually gather data on what works.
    Senator Rosen. Right.
    Mr. Selee. Both tangible and intangible. I mean, it is both 
the programs that work but also what made it work. I think one 
of the things that seems to have worked in El Salvador is that 
you had buy-in from both main parties as well as civil society 
and business groups at a real local level to make things 
happen, and we really worked on that governance side. It is 
harder to do that in Honduras and Guatemala. They are less sort 
of developed. But those kind of intangible things that make a 
program stick are as important as the tangible things about 
whether the program reaches the right young people. You have to 
measure both of those.
    Senator Rosen. Do you think we could import programs from 
other countries around the world that we may have had success 
in supporting them and import those best practices to the 
Northern Triangle?
    Mr. Selee. I think we can do that, but I think we also need 
to make sure we adapt it to the conditions on the ground. But 
certainly we have a lot of know-how, and it is not just us in 
some of these countries. We are also working with the European 
Union, working with Canada. There are other governments. We 
tend to be the catalyst, and I do not think we should forget 
that. I think the U.S., part of our role in the world is not 
doing everything ourselves, but we are the catalyst to get 
other people involved.
    Senator Rosen. Right, and just trying to stop it at the 
core.
    Mr. Selee. Yes, exactly. I think if we see that leadership, 
others are going to also wonder--who have been trying to help 
out are also going to wonder. But I think bringing in that 
global knowledge, we could do a lot on the ground.
    Senator Rosen. The last thing I want to say is, of course, 
there are always bad actors. We know about the smugglers. You 
have talked a lot about them. What do you think we could do 
more to disrupt the smuggling networks?
    Mr. Morgan. I could take that. I did 20 years in the FBI, 
and so we have talked a little bit about that, and I think that 
is a great question, because we can address all these pull 
factors and incentives, but we have to attack the cartels. What 
I have been trying to say is we need to attack the cartels, 
ma'am, with the same intensity, commitment, and ferocity that 
we have terrorism. We have to. This has to be a whole-of-
government approach. This is not a CBP thing. This is the Drug 
Enforcement Administration (DEA), FBI, our intelligence----
    Senator Rosen. Because there is a lot of money involved, so 
they are going to put everything they have into it. They do not 
want to lose it. If it is billions of dollars, they do not want 
to lose that.
    Mr. Morgan. Yes, ma'am. They are a multi-billion-dollar 
industry, and they are a talented organization.
    Senator Rosen. They are an industry. That is exactly right.
    Mr. Morgan. Yes, ma'am. Every time we do something, when 
law enforcement--we call it techniques, tactics and procedures 
(TTP). The cartels change. As soon as we do something to get 
them, they change. They continue to do that and history shows 
that. So that is a significant issue.
    As we are talking about these things, that is something 
from the entire government, a whole-of-government approach, we 
have to address. I agree with Andrew that, realistically, are 
we going to totally decimate them? No. But we can hit them 
hard, and we should.
    Senator Rosen. This is where we can partner with those 
countries on both ends to maybe capture them in the middle.
    Mr. Morgan. Yes, ma'am.
    Senator Rosen. Thank you. I appreciate your time.
    Chairman Johnson. Senator Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Mr. Chairman. Thank you to our 
witnesses for being here today.
    Our Nation faces a critical situation along the Southwest 
Border with serious security, economic, and humanitarian 
consequences for my State, Arizona. Today in Arizona, CBP and 
ICE are releasing asylum seekers fleeing violence and 
instability into our communities. One way we can protect our 
communities and uphold our values is by treating these children 
and families humanely and with dignity. I believe it is vitally 
important that DHS work with our NGO partners to make this 
asylum process as smooth as possible.
    But our ports of entry also face uncertainty and 
disruption. The decision to transfer officers from Arizona 
ports threatens our security, including our ability to stop the 
flow of drugs into the United States, which is why I have asked 
CBP to reverse its decision and secure our ports of entry.
    Our border security workforce is also stressed and tired. I 
have heard stories of officers who are working 16-hour shifts 
at our ports, leading to attrition and burnout amongst an 
already overburdened force. As we heard from our witnesses 
today, the number of migrants from Central American nations 
coming to our borders and seeking safety is high. So we need to 
tackle this issue with common-sense solutions.
    I think Congress must focus on ideas and initiatives that 
improve our security, strengthen our economy, and uphold our 
values. I think we should oppose proposals with dangerous and 
harmful consequences such as closing the entire Southwest 
Border.
    I am committed to working in a bipartisan way to finding 
solutions that keep Arizona families and communities safe and 
treat migrants humanely.
    My first question is for Dr. Selee. The most important 
assets and resources we have at our ports are men and women who 
are working on the front lines. As I mentioned earlier, I 
disagree with DHS' recent decisions to remove officers from 
ports in Arizona. These ports were already struggling with 
vacancies and are now further understaffed, and I am wondering 
if you could talk about the impact of long-term and chronic 
understaffing on security and trade at ports of entry.
    Mr. Selee. Thank you, Senator. I actually arrived this 
morning from Phoenix, Arizona, so I was talking with people 
about the consequence----
    Senator Sinema. I am very jealous.
    Mr. Selee. Yes. Always lovely to be in Arizona, actually, 
the great State of Arizona. It is a State--I have mentioned a 
few times because it really is so deeply connected. The border 
matters. It is 46 percent, I believe, of Arizona's exports that 
go to----
    Senator Sinema. That is right.
    Mr. Selee. But these are actually, as we were talking 
earlier, these are really production chains that span across 
the border where you have things moving back and forth and 
goods being made across--so I think the chronic understaffing 
of ports of entry and the lack of technology, which Chief 
Morgan mentioned earlier, the lack of investment in technology 
at the ports of entry is a major issue. This is something that 
we could fix, and it is something that it does not break the 
budget to try and address it, actually. It would be very well 
done.
    I would disagree a little bit with Chief Morgan on one 
thing, which is the statistics that come out of CBP do indicate 
that if you take marijuana out of the equation, all other 
narcotics, overwhelmingly 85 to 90 percent do come through 
ports of entry. Now, marijuana does tend to move between ports 
of entry, and there are some other drugs that move between 
ports of entry, but they are fairly rare. Ports of entry is 
where the greatest threats are, actually, and it is also where 
the greatest opportunities are to make our country strong. We 
really do need to be investing there. I am not saying we should 
not invest between ports of entry. Clearly, we have urgent 
needs to do that at this moment right now. But we also really 
should not forget ports of entry. They tend to get missed, and 
they are so key to our economy. They are key to our security.
    Senator Sinema. Thank you. Speaking of that, Chief Morgan, 
in your testimony you mentioned the need to do better at 
stopping the flow of drugs between our ports of entry. What 
type of additional technology or resources do you think that 
the Border Patrol needs to meet that specific challenge?
    Mr. Morgan. That is a great question, Senator, and actually 
I agree that the majority of drugs are coming in in those 
categories--meth, fentanyl, heroin. It was the marijuana that I 
said. But here is the thing where I will depart, that the 
reason my statement is that in between the ports, because 50 
percent of the border is wide open and not secure, we do not 
know what is coming through. At the ports of entry, we get to 
stop every person, every vehicle, so, of course, we should be 
interdicting more at the ports. We should really be afraid. The 
ports, but also in between the ports.
    The technology that we need, there is a whole list of 
technology we need. We need fixed and mobile surveillance. We 
need better surveillance. We need updated surveillance. We need 
a capability to have that surveillance be interconnected from 
sector to sector. The list goes on and on. We can use more 
drones. All this stuff that has been talked about, right? All 
that technology is absolutely needed, hands down, at the ports 
and in between the ports.
    But here is what I will say, Senator, that technology by 
itself is not the answer, though. You still need 
infrastructure.
    Senator Sinema. That is right.
    Mr. Morgan. You still need some barrier where it makes 
sense--not sea to shining sea, and there is not an expert on 
the border who will ever tell you that that is what you need. 
You need more personnel. We call it the ``multi-layered 
strategy,'' right? We need infrastructure, the wall, physical 
barrier. We need technology and a lot of it, and we need 
personnel where it makes sense. It makes sense in between the 
ports and at the ports.
    Senator Sinema. I could not agree more.
    My next question is actually for both of you gentlemen. As 
you know, charity organizations such as Lutheran Social 
Services and Catholic Charities, along with many others, play a 
critical role in helping manage the asylees who are entering 
the United States. In Arizona, sometimes the communication 
between DHS and these NGO's has not been as effective as it 
could be.
    What steps do you suggest that CBP and ICE take to ensure 
that that coordination and cooperation with the NGO community 
happens to help prevent these crises?
    Mr. Morgan. Real quick, I will take this one, if you do not 
mind. I think that is right. In 2016, I saw it firsthand. I 
went down there, and I talked to a lot of NGO's, faith-based 
organizations. They are doing an incredible job, and they are 
very much an integral part of the solution, right? But where 
that really goes, it is local. It is. Those organizations are 
local, so it really is just a proactive--it is support from 
headquarters, obviously, but it really is coming on to local 
leaders to really interact with those local faith-based 
organizations and the resources of the local NGO's to really 
continue to establish those relationships.
    What I saw in 2016 overall were really good relationships. 
That does not mean that they do not need to improve. What I 
have seen is they are continuing to improve, but I tell you, 
CBP is drowning, but so are all the faith-based organizations 
and the NGO's. They are tapped out, too, ma'am. They are all 
drowning.
    Senator Sinema. I have invited ICE Director Vitiello to 
join me next week to have a roundtable meeting with the NGO's 
to figure out how to better coordinate at least the 
communication, because what we see happening every day in 
Tucson, Yuma, and Phoenix are just influxes of these migrants 
who are waiting sometimes years to get their asylum hearing and 
showing up at bus stations. So the local communities are 
overwhelmed, and our NGO's cannot get there fast enough and do 
not have the resources to help everyone.
    Mr. Morgan. I think that is a great point, and better 
communication is always a good thing. I think what is happening 
is it is a cause and effect. Border Patrol, they get a caravan 
of 500 in that they did not expect. They are overwhelmed. ICE 
is overwhelmed, and, ergo, then the faith-based organizations 
and NGO's, they become overwhelmed. They may at times think 
there is a lack of communication, and really what it is is just 
everybody is overwhelmed and doing the best they can to adjust. 
But more communication is always a good thing.
    Senator Sinema. Mr. Chairman, my time has expired. May I 
ask Mr. Selee if he wants to respond?
    Chairman Johnson. Sure.
    Senator Sinema. Thank you.
    Mr. Selee. I will be very brief. I think what you are doing 
with Director Vitiello is exactly the right thing. I think you 
need to create those channels of communication. I agree with 
Chief Morgan; everyone is overwhelmed. I mean, we do have a 
humanitarian crisis. I think we can debate whether it is a 
national crisis, but it is clearly a humanitarian crisis at the 
border. Everyone is sort of, trying to figure out--it creates 
issues of cooperation among agencies, but also civil society. 
The more you can get people together and try and bridge those 
communication gaps, it would be incredibly helpful.
    Senator Sinema. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Sinema.
    I have about 2 hours' worth of questions, but let us start 
here. The major blue and red to the right of 2012 represents 
more than 850,000 people. In terms of the red, the 
unaccompanied children, I think it is important to note that 
about 70 percent of those are male, about 70 percent are 15 or 
older, 15, 16, to 17, certainly the profile of gangs.
    The question I have is: Where have those 850,000 people 
gone? What kind of records do we have? They get their notice to 
appear, which the coyotes call their ``permiso.'' It permits 
them to go into America. Are they by and large lost? I think 
they had Operation Matador, a really focused operation on MS-13 
gangs. I think the stat was 40 percent of those gang members 
came in as either part of a family unit, as a minor, or as an 
unaccompanied child. Where are the 850,000 people?
    By the way, we talk about Dreamers. I would love to fix 
that issue. But we understate the number there as well. 700,000 
have signed up, 700,000 did not that qualified. There are a 
couple million that are similar circumstance. They do not in 
some way, shape, or form qualify. Now we have got 850,000 
people here. This situation just continues to grow more and 
more out of control. People in this country, really no legal 
status, living in the shadows, potentially being exploited. So 
anybody who can speak to what do we know about the 850,000 
people, where are they, what are they doing, and what is their 
status?
    Mr. Morgan. Sir, let me back up even a little more. It 
starts with when we allow them into the country. There is very 
little that we actually know about them when we let them in. 
They either have no documentation whatsoever, or the 
documentation they have, it is impossible to do true vetting.
    To a large degree, we again--and I said this before. We do 
not even know who we are letting in. So that dramatically 
reduces our ability to keep track of these people when we do 
not even know who they are.
    Chairman Johnson. Again, because of Flores, I mean, the 
length we can really detain and lack of detention facilities, 
literally CBP does not have the time--as hard as they try to 
determine is that the father or the sex trafficker, is that his 
daughter or is that his sex-trafficking victim?
    Mr. Morgan. Right. They are overwhelmed right now, and so 
Border Patrol now, instead of giving them to ICE, Border Patrol 
is releasing them directly because, I think the Commissioner 
said it accurately. He said 4,000 we are full, 6,000 is a 
crisis; we are at 13,000.
    Chairman Johnson. By the way, CBP is not trained to do 
that, right? I mean, they are trained to hand them off to 
either ICE or the Department of Health and Human Services 
(HHS).
    Mr. Morgan. Correct.
    Chairman Johnson. Now they are because HHS cannot accept 
them.
    Mr. Morgan. Correct.
    Chairman Johnson. Not the numbers that are coming in. Now 
CBP is being tasked to do something it was never intended to do 
and is not particularly trained to do.
    Mr. Morgan. Correct. We give them that notice to appear, 
right? That does not mean anything. That does not mean where 
they stay they are going to go, that they actually go. We have 
no way of verifying that to the largest degree. Sometimes we 
give them ankle bracelets. They take them off. They all take 
them off. We do not know where they are or where they are going 
or what city they are going to, to a greatest extent. So we 
talk about stats. That is probably what I should have told you 
earlier. That is one of the stats that we should be doing a 
heck of a lot better on, is keeping track of where these people 
actually are. We do not know, Senator.
    Chairman Johnson. Mr. Davidson, you spend a lot of time 
talking to the immigrants themselves. Can you speak to this?
    Mr. Davidson. I will tell you anecdotally they do take the 
ankle bracelets off, and it just occurred to me, on your 
earlier question about data, the ankle bracelet program is a 
subcontractor with ICE, the company that makes them. Maybe we 
could get information about how many of these ankle bracelets 
get cutoff and thrown away.
    As I said, anecdotally----
    Chairman Johnson. We will send out a letter.
    Mr. Davidson. When you go to the shelters, these people 
will tell you, if you talk to them long enough, yes, they are 
going to take it off once they get to where they are going. 
There are also stories of seeing garbage cans full of these 
things at bus stations all up and down the border as well. The 
ankle bracelet does not seem to be an effective alternative to 
detention.
    We were discussing earlier the number of people who 
actually file an asylum claim after they get a notice to appear 
is half or less than half of those people actually follow 
through and file that claim. Giving someone a notice to appear 
and an ankle bracelet does not seem to be doing that much good 
and does not seem to be very effective. So more data on that 
would be, I think, revealing about just how common it is for 
people to ignore their ankle bracelet and abscond.
    Chairman Johnson. Dr. Selee, I have asked my staff to kind 
of list for me the different categories of people in this 
country, again, DACA recipients that signed up, that did not, 
in similar situations but not eligible for DACA. Do you have 
information on this?
    Mr. Selee. We are working on it, actually. That is what I 
am just looking for here on my phone because I have a bit of 
breakdown of in absentia rates. But it is incredibly--but that 
is a subset of that, actually, right? So we do not have good 
data on this.
    Let me point out one thing which I think gets missed in the 
debate, which is sort of interesting. We used to talk--back 
when we were talking about mostly Mexican men crossing the 
border in the early 2000s, late 1990s, we were talking about 
people getting caught and returned, but we were also--and 
eventually consequence delivery, but we were also talking about 
people actually getting through into the United States. Very 
few people probably get through today. I mean, DHS did a study 
in 2017 where they tried to estimate the number of people who 
get caught. It is pretty high. It has gone way up, right? We 
are actually pretty good at detecting people--not perfect, but 
we have developed the capacity to detect a vast majority of 
people who are trying to cross illegally.
    Where people are getting into the country is through here, 
right? I mean, this is the number, some of whom are 
legitimately here. Some of these people have filed asylum 
claims, in which case they are legally present in the United 
States while they are waiting for their hearing. Those people 
are, in fact, legally here, and we should treat them as legally 
here. Other people did not show up.
    On the other hand, if 40 percent of the people, which I 
think is about right--I was looking for that number. It is a 
little hard to figure out in the mix of statistics. If it is 40 
percent of people do not show up, 60 percent do. I do not think 
we should underestimate that people who we see as trying to 
game the system, most of them actually do try and do the right 
thing. People who may not even understand our system, most of 
them do try and do the right--now, do they drop off along the 
way? I do not know. Do some of them go back? Do people 
eventually show up and get denied asylum and actually get 
returned? We are missing a lot of these numbers.
    Chairman Johnson. There is a lot we do not know.
    Mr. Selee. There is a lot we do not know.
    Chairman Johnson. Yale researchers, using some different 
statistical methods, said somewhere between 16 and 30 million 
people are in this country illegally, even though everybody 
uses the 11 to 12 million estimate.
    Chief Morgan, you are kind of shaking your head there.
    Mr. Morgan. I am sorry, and, Doctor, with all due respect, 
I have to agree on something, again, law enforcement on the 
border. So we just heard the chief of patrol last night on 
television say that of his 170 linear miles of border that he 
has to support, he has surveillance and situational awareness 
of less than 30 percent of that 170 miles. He has inadequate or 
no physical barrier whatsoever, and he does not have enough 
personnel to have and defend and have that operational 
awareness along those 170 linear miles. He says now with the 
humanitarian crisis, all his resources, personnel, are devoted 
to that. With all due respect, absolutely we do not have any 
idea what is going through. To say that we think the numbers of 
criminal aliens and other people illegally entering that we do 
not know, that is impossible to quantify. It is impossible to 
say the numbers are lower than they used to be.
    Chairman Johnson. Do you have an estimate of how much of 
the border, however long, 1,700 miles or whatever, is tribal 
lands?
    Mr. Morgan. I do not have those exact linear----
    Chairman Johnson. But it is true that we cannot put CBP 
personnel there. Those are completely open, right?
    Mr. Selee. There is an agreement with tribal authorities. 
There are CBP personnel. Tohono O'odham is the primary one in 
Arizona, right, Chief?
    Mr. Morgan. Yes.
    Mr. Selee. There are CBP personnel. There are some 
restrictions. It has to be negotiated with the tribal 
authorities.
    Mr. Morgan. But I will tell you, sir, it is all done by 
interpersonal skills, and I have been down there. I was talking 
to one of the Border Patrol liaison agents, and the tribal 
folks just happen to love them. I went and met with the tribal 
leaders there, and it is a challenging, ongoing, kind of weird 
dance that is going on there. It is difficult. We do not have 
all the resources that we need on those tribal lands, though.
    Chairman Johnson. I am going to let Senator Carper quickly 
ask a question.
    Senator Carper. Yes, thanks. Just a quick question. Dr. 
Selee, revisiting the Flores decision, your wisdom on that, 
please?
    Mr. Selee. You could do it, but what Flores gets you is, 
still a long process if they apply for asylum and detaining 
unaccompanied children. Fixing the asylum system gets you a 
process that is decided in months instead of years. It applies 
to adults, to families, to children. It becomes a much more 
expedited process. I would go with fixing the asylum system 
between the two.
    Senator Carper. Alright. Thanks. Is it possible to do both?
    Mr. Selee. You could, but it depends on your feelings about 
detaining children for long periods of time.
    Senator Carper. OK.
    Chairman Johnson. Again, define ``long.'' Right now it is 
20 days, and you are saying months. Again, nobody wants to 
detain any people any longer, if we can. As quickly as we can 
adjudicate that first claim, not allow endless appeals, but fix 
that, be able to detain them long enough, because if we do not, 
we are not going to be able to remove them. So it is that 
combination. I do not know what the right numbers are, but that 
is what we need to work on in our Committee, and hopefully we 
can come up with a bipartisan solution there.
    Mr. Morgan. Sir, if I can just weigh in real quick on that, 
what I would say is I agree, we need to do both. It is not one 
or the other. We need to do both, because the challenge is when 
we have influxes, right? We could have a system of this process 
where we are going through the immigration process pretty fast, 
and all of a sudden we get an influx of 5,000 in 1 month. Now 
that system that works so well is overwhelmed. We have to have 
the flexibility and ability to detain these people while we are 
doing the best we can to expedite the process. We need both. We 
cannot just have this arbitrary deadline, and when it ebbs and 
flows, it is a crisis mode, and we have to let people into the 
United States. We need to do both.
    Mr. Selee. Could I add one more thing, Senator?
    Chairman Johnson. Sure.
    Mr. Selee. I think there are two other things we should 
consider in addition to detention. By the way, detention is 
always a legitimate option to make sure people get--but the 
other question is case management systems, not just ankle 
bracelets, which have been up and down--case management systems 
where we actually monitor people have been much more effective. 
They have only been pilot-tested, so we do not have enough data 
points yet. But they have been very effective so far, about 99 
percent effective in getting people to their hearings and 
actually giving people counsel.
    Chairman Johnson. That was a very limited study.
    Mr. Selee. It was a limited study, right, so we have to 
actually do more study. We should look at ankle bracelets and 
figure out, at what time do people take these off immediately 
or does it happen after 6 months when they kind of realize they 
can get away with it? I mean, if it is a short period of time, 
does it make a difference?
    The second thing is actually giving people the right to 
counsel, especially minors, because there is a lot of evidence 
that people who have a lawyer are willing to try their day in 
court. That is a lot cheaper, by the way, than detaining 
people. So having people who are able to have access to asylum 
counsel, people will show up and try their luck, actually.
    Chairman Johnson. Just not that final one.
    Mr. Selee. Right, and that is the thing to be--again, we 
need to follow this and see what works. I mean, again, I do not 
want to say this is an absolute either. What we know is people 
now who have counsel, there also is selection bias there. 
People who get counsel often think they have a good case, 
right? I mean, if you give it to people who do not think they 
have a good case, will it play out the same way? I do not know. 
We need to try and study it.
    Senator Carper. Alright. Thanks to all of you. Thank you 
very much.
    Chairman Johnson. Somewhere there are some things we can 
agree on that will at least improve this. I am all for 
continuous improvement. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you very much, Mr. Chairman.
    Mr. Morgan, I was struck by something that you said in your 
written testimony, that every city in the United States is a 
border city when it comes to narcotics smuggling. That is 
something, I think, that many people, especially in the media, 
do not appreciate it, and I just want to amplify that.
    In my own State of Missouri, in 2017, the State estimated 
that 760 Missourians just in St. Louis lost their lives to 
opioids. That is one in every 65 deaths. In 2016 that number 
was higher. I know from law enforcement in my State where I was 
recently Attorney General that we are awash with 
methamphetamine. It is coming over the Southern Border. We have 
a serious fentanyl problem. It is coming over the border. We 
have a serious heroin problem. So is it safe to say that even 
interior States like Missouri are border States for purposes of 
narcotics smuggling?
    Mr. Morgan. Absolutely. I am a Missourian myself. I was 
born in Missouri. Absolutely, every single city in this country 
is a border city. Every single major metropolitan city and 
other rural are impacted by the crisis at the border. The drugs 
coming through the Southwest Border are entering every city in 
this country. That is not hyperbole. That is fact. Seventy-
thousand-plus deaths, 90 percent of heroin coming from Southern 
Border, the Southwest Border crisis is everybody's problem in 
this country.
    Senator Hawley. Very well said, and I just want to 
underscore that it is local communities, often rural 
communities, as you point out, local law enforcement who are 
left to pick up the pieces here. The costs really are 
staggering.
    Mr. Davidson, let me turn to you. Thank you for your 
outstanding reporting on this issue over many months. I just 
want to give you an opportunity to further tell this story 
here. Put this on the record for us. Who is it who controls the 
border on the southern side--not on the U.S. side but on the 
southern side. Who effectively controls that border?
    Mr. Davidson. Thank you, Senator. This circles back to 
something we touched on earlier that I wanted to distinguish 
between. There are smuggling networks, and there are cartels. 
They are not necessarily the same organizations. The smugglers 
are paying cartels as part of the package that migrants and 
migrant families are providing. They have to include this tax, 
right? But there is no question that the border is secure on 
the southern side, and vast stretches of the border on the 
southern side are controlled in an iron-fisted way by cartels 
and cartel factions, especially when we are talking about the 
gulf cartels. A lot of these cartels have broken up and 
fragmented over the past decade or so, especially in the Gulf 
Region across from the Rio Grande Valley, places like Reynosa 
and, across the entire area south of there to Monterrey. So it 
used to be that people would cross the border to work in South 
Texas. They would literally put their clothes in a garbage bag, 
swim across the Rio Grande, go to work, and swim back across at 
the end of the day. That does not happen anymore. Nobody 
crosses the border unless the cartels say so and unless they 
get their payment.
    Senator Hawley. OK. That I think is such a key point, that 
the cartels effectively control the border, and nobody crosses 
the border without their buy-in, their payoff, essentially, and 
this is why you refer to this operation on the southern side as 
a ``vast money-making machine.'' It is a money-making machine 
for the cartels and their various spinoffs. Is that correct? 
Explain that to us just a little bit more.
    Mr. Davidson. It is a money-making machine for the cartels 
because they are controlling who crosses, and nobody crosses 
unless they pay. It is also a money-making machine for the 
smuggling networks that begin in Central America. They are 
essentially like travel agents. They are just arranging 
logistics to get people from locations in Central America 
across the Guatemala-Mexico border and then transiting through 
Mexico and paying off different people along the way, local 
officials, different cartel factions along the way; and then 
when they arrive to the Northern Border, paying off the right 
people so they can be allowed to cross the Rio Grande. It is a 
controlled, intentional system along the Northern Border where 
cartels are holding people and telling them who is going to go 
across, how many people, what groups are going to cross where. 
It is coordinated. It is organized. According to law 
enforcement, it is also coordinated with other drug-smuggling 
activities in some areas where they are sending a large group 
across, tying up all of Border Patrol's resources, and a mile 
or two down the line sending across drugs or sending across 
people who are trying to evade detection who have paid a lot 
more money. If you try to evade detection, you pay more, and 
they cross you in a different area.
    Senator Hawley. It is very strategic, is what you are 
saying.
    Mr. Davidson. Yes, absolutely.
    Senator Hawley. You might get the sense from just looking 
at news footage that, it is sort of chaos, folks who are coming 
individually of their own accord.
    Mr. Davidson. It is chaos on our side.
    Senator Hawley. Right.
    Mr. Davidson. It is organized on their side.
    Senator Hawley. On their side. You also say that the 
cartels are using kids as ``Get into the U.S. free'' cards. 
Just explain that for us, if you would.
    Mr. Davidson. It is hard to know for sure, right? A lot of 
this is anecdotal. But if you have a child with you, you can 
claim asylum, and people on the south side of the border 
understand that, and they know that. So not all the minors that 
are accompanying adults and that are presenting themselves as 
family units are family units. I am sure Mr. Morgan can speak 
to that in more detail. But it certainly is known that if you 
cross with a child, you are going to be treated differently. 
The smuggling networks, the travel agencies that I mentioned 
earlier, they understand that, and they are incorporating that 
into their sales pitch, saying, this is why a lot of people are 
showing up with just one child where they have a wife and other 
children back in their home countries that they did not bring 
with them because they could only afford to bring one.
    Senator Hawley. Mr. Morgan, do you want to add to that?
    Mr. Morgan. Everything he just said was correct, and I 
would say go back to the Chairman's chart,\1\ right? Big blue. 
That is why you are seeing big blue. A lot of the stuff we are 
talking about to some degree, with all due respect, it is white 
noise. Now, I am not saying we do not need to do all this work 
with Mexico and Northern Triangle countries. Yes, E-Verify, all 
this stuff needs to be done. But until we fix Flores and until 
we fix TVPRA, that blue line is going to keep growing and 
growing because they know, grab a kid, come in, set one foot on 
American soil, and you are in. If we do not fix that, it is not 
going to stop.
---------------------------------------------------------------------------
    \1\ The chart referenced by Mr. Morgan appears in the Appendix on 
page 86.
---------------------------------------------------------------------------
    Senator Hawley. I just want to make sure that we get 
crystal clear and that the public understands that what is 
happening in my home State of Missouri with the drugs that we 
are facing, with the onslaught that we are facing, is directly 
tied to the behavior and strategy of these cartels on the 
border who control effectively the Southern Border, who have a 
strategy for conducting their business operations and who are 
making vast sums of money at our expense and at the cost of 
lives in our home States.
    Mr. Morgan. I will give you one more quick example. The 
cartel will actually send in an old military term called 
observation posts and listening posts (LP/OP). They will 
actually send smugglers or cartel members miles into the 
interior of the United States side--miles--with communications, 
sophisticated communication devices, with surveillance 
equipment, and they will actually monitor the activities of the 
Border Patrol. They will actually then use the caravans--and 
right now you are seeing some of these caravan, sir, actually 
go to really remote areas. The cartels are forcing them to 
transverse really adverse terrain. Why? The Border Patrol has 
to take a long time to get there, and while they are, their LP/
OP says, ``Clear to go to this section,'' and stuff is coming 
across.
    Senator Hawley. Thank you, Mr. Chairman.
    Chairman Johnson. First of all, excellent line of 
questioning. Our compassion is completely being exploited. It 
is. We know how to secure the border, or somebody knows how to 
secure the border. It is just not us. It is the drug cartels.
    I did hear the Secretary--can everybody confirm this?--just 
recently say that they are breaking up child recycling rings. 
Apparently we do not take biometrics on children 14 or under 
14, and so those children can be sent back over the border to 
be hooked up with another adult to come in. Does anybody have--
again, I heard the Secretary talk about that, so I am assuming 
it is true.
    Mr. Morgan. I do not have any stats, and I do not think 
they have those stats yet, but, again, anecdotal, absolutely 
happening. The children are being recycled, and we are seeing--
again, I do not remember the exact stats, sir, but thousands--
Border Patrol has identified thousands of people that are 
claiming to be a parent or guardian, and it turned out to be 
completely false.
    Chairman Johnson. Just real quick, before I turn it over to 
Senator Peters, the drug cartels for years have been using 
minors as mules; because they are minors, they do not get 
prosecuted the same way. That will continue as well, correct?
    Mr. Morgan. Yes, sir, absolutely. I would say it is going 
to expand.
    Chairman Johnson. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman. Before my 
question, I have a statement from Church World Service\1\ that 
they would like to have in the record, and I would like to 
enter it into the record by unanimous consent.
---------------------------------------------------------------------------
    \1\ The statement referenced by Senator Peters appears in the 
Appendix on page 87.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Peters. Thank you, Mr. Chairman.
    One thing we have talked about--we have unpacked a lot of 
issues related to dealing with the situation on the border, but 
to me, as I listen, it is clear that Mexico is an important 
player in all this, and I understand, Mr. Morgan, some of your 
points about other things that we should look at. But, 
nevertheless, folks, to get to the United States, have to go 
through Mexico in order to get there. I remember being on the 
border, actually on the trip that we were on a couple years 
ago, on the border with Guatemala and Mexico, we walked across 
the bridge where the officials were and where they had control. 
But if you looked to your right and if you looked to your left, 
there was basically a flotilla of boats going back across the 
borders that were very porous, to say the least.
    We need to actively engage the Mexican Government in this, 
and it sounds as if they are, at least based on the testimony 
we just heard, they are not in control of the Northern Border. 
It is the cartels that are in charge of the border.
    Dr. Selee, I would ask your assessment of that. Is Mexico 
just unable or are they unwilling to address the large number 
of folks? Or is it a combination of the two? How would you 
assess the Mexican Government right now?
    Mr. Selee. I would say two things, actually, on that, and 
one is, I think we should also be mindful there are sort of two 
other actors. American consumers of illegal narcotics are also 
funding the cartels that control. We are actually the financers 
of some of this. But the other actor that is in the play here 
is the Mexican Government. It is particularly immigration 
authorities in Mexico that are often in league with the 
smugglers. I am sure you have run into this a lot as well. The 
smugglers, the other people they pay off besides the cartels at 
the border along the way is the Mexican immigration 
authorities, both in southern Mexico and at checkpoints along 
the way. The Mexican Government has said that they want to 
clean this up. I think there is--at least in some levels of the 
government, I believe that. I think there are some people they 
have put in place that have a record of fighting corruption 
that want to do this. I think it is a big question. It is not 
the first time I have heard this said in the Mexican 
Government, however. It is a tough thing to do. I think that is 
one area where we could actually play a pivotal role in working 
with the Mexican Government on how you actually begin to clean 
this up because it goes very deep, and it is part of the 
business model of how the immigration authority has worked for 
a long time.
    Senator Peters. I would like you to do a deeper dive into 
that statement. What sort of leadership would we need to see 
from the United States to make that kind of change and to work 
with the Mexican Government for them to step up their actions?
    Mr. Selee. I think there are sort of three things that 
Mexico wants to do. One is to increase their legal pathways, so 
their asylum system, they need to finance it. We could put in 
some incentive money, but it is sort of like we heard earlier, 
sort of you put in one--they put in seven, we put in one. We 
can help them, but it is their job to do. They want to create 
work-based visas. They need to do serious enforcement. They 
have done--Mexico deports more people than we do. I mean, this 
is to Central America. It is a little-known secret. The Mexican 
Government actually does deport a lot of people, and they have 
for years, since 2014. But that said, there is neither a real 
structure around it to figure out sort of the consequence 
delivery that we did in the United States, nor is it done with 
respect for human rights. I mean, on both sides. Neither as an 
enforcement question nor as a rights question is it great.
    The third thing is cleaning up corruption, and there, 
intelligence matters, and also law enforcement experience 
matters. How do you cleanup an agency? We have a lot of 
experience in this. How do you deal with a situation where your 
agents can make three times as much money by being corrupt? How 
do you actually keep them on the right--what are the sort of 
incentives that keep people on the right path? How do you 
recruit the right profile of people?
    Look, we deal with this all the time at CBP. This is an 
issue in ICE, right? We actually have a pretty good track 
record. People have huge incentives to go off the right path, 
and most people do not do it. Right? I mean, we have figured 
this out. Mexico has only begun to start figuring--I think that 
they need to figure this out. A lot of know-how and a little 
bit of intelligence on what we know, because we know a lot of 
stuff about where the smugglers are paying people off as well, 
helping them figure out those specific points that are probably 
of greatest concern.
    Senator Peters. In a Judiciary Committee hearing, 
previously you testified that there were some things that you 
saw potential. I think you have highlighted a couple right now. 
Only a few months have passed since that, but give us an 
assessment. Have you seen them actually taking any action along 
the lines that you thought had potential a few months ago?
    Mr. Selee. I think they have not increased funding to the 
asylum system. They keep talking about doing it, but they have 
not done it as yet. They have not invested in the Immigration 
Institute as yet, although I think the person in charge of the 
Immigration Institute is someone who is serious about cleaning 
it up. It is someone I have known for a while. I believe, his 
previous job, he was someone who cleaned up an institution. I 
think if anyone can do it, he can do it. But I think there is a 
question mark, and we have not yet seen the kind of efforts 
that would create work-based visas. But 4 months in, that is 
probably unrealistic. I mean, the reality is that takes some 
time to figure out how you are going to do it.
    Mexico has work-based visas but for higher-skilled 
individuals. What they do not have is work-based visas for the 
kind of people that we are talking about in this flow who are 
lower-skilled. You have to be able to match that where there 
are actual job opportunities, so you are not creating conflict 
in parts of Mexico where there really is a job competition.
    It is probably too early for that. I see some good signs on 
the corruption side. I see less yet on changing the structure 
and changing the visa side. Enforcement is on autopilot. I 
mean, they are not doing less--they did not drop their guard 
and sort of let people cross the border, and at the same time 
there has not been a lot of innovation also about how you do 
enforcement as yet.
    Senator Peters. But in a sense, active involvement by U.S. 
officials with the Mexican Government you think is promising?
    Mr. Selee. Yes, I think it is promising. I think there is a 
lot of----
    Senator Peters. Because we have not seen enough of that or 
we have not seen nearly enough of that, is your contention?
    Mr. Selee. Right. Senator, I think there there are some 
good people there, and there is a willingness to do it. If we 
partner with them, I think it will get done quicker than if we 
threaten them.
    Senator Peters. One final question, Mr. Chairman, and I 
will let you take the rest here with your questions. You raise 
an issue that Mexico deports more Central Americans than we 
would otherwise suspect. Who are they deporting? We are still 
seeing the flow north to the United States. Have they reduced 
that flow? Or are they deporting a different set of 
individuals?
    Mr. Selee. Mexico deports, I believe it is, about 100,000 
Central Americans more or less a year. I mean, it is actually a 
large number. It is more or less steady. The numbers actually 
rose in March. I think they deported actually 13,000 people. 
They apprehended 13,000 people in March. I do not know the 
deportation statistics--no, actually I do. It was 12,000. It 
has actually gone up a little bit over the traditional number, 
but it has sort of been a lag. But it is and Mexico does not 
actually have some of the same limitations on detaining people. 
They actually deport them fairly quickly.
    Now, a lot of people are applying for asylum in Mexico as 
well. So it has a significant--they are on target of about 
50,000 applications this year from Central Americans.
    Senator Peters. Central Americans see Mexico as the first 
safe country?
    Mr. Selee. Increasingly. By the way, I think, something 
that Chief Morgan said, I do not think Mexico is yet in a 
position to be a safe third country. But if I were--again, this 
goes to policy overreach. I mean, we have wanted Mexico to 
declare itself a safe third country and sign an agreement with 
us. What would be more productive is actually starting a 
conversation saying, ``We want you to be a safe third country. 
Let us think about 5 years from now. How do we get to that 
point where you meet international standards in terms of the 
protections you give people? Let us see if we can get there.'' 
That actually might generate a productive conversation with 
Mexico, the Mexican Government, about how they get to be a safe 
third country, basically a country of first asylum, rather than 
say, ``You have to do it tomorrow,'' because tomorrow, they 
would throw up their hands and say, ``We cannot do it. We are 
not in a position to do it. It is not safe for a lot of 
migrants.'' They are right. But does that have to be the case 
in 5 years? OK, what are the steps we follow? What do you 
actually have to have in terms of your own procedures 
internally? What do you have to have in terms of protections 
for people who are applying for asylum? That is the kind of 
thing they could get there. But we should get into that 
virtuous conversation, virtuous cycle conversation with them.
    Senator Peters. Thank you.
    Chairman Johnson. Would it be a pretty good assumption that 
the people that Mexico is deporting are the ones that do not 
have the money to pay off the officials? Anybody want to chime 
in on that one?
    Mr. Selee. I would guess. I would say that is probably the 
case. You may have some virtuous officials. I would not 
discount that, and I have been surprised by this again and 
again with Mexican law enforcement that you actually do have 
people who do the right thing and people who are in very 
corrupt structures who turn out to be incredibly law-abiding 
and actually in it for the right reasons. I think there also 
may be people who are not bribable, but I would guess it leans 
heavily toward people who are trying to go on their own rather 
than people who are organized.
    Chairman Johnson. Again, I think I am trying to point out 
again the lucrative nature for the drug cartels who are 
businesses. They expand their product line into a more 
profitable and less risky line of business with human 
trafficking, correct?
    Mr. Davidson. Sure, absolutely. I was going to add as well 
that there is some reporting to suggest that what was once the 
Gulf Cartel, the Zetas Cartel, which has sort of broken up into 
a bunch of different cartels in Reynosa, across from McAllen, 
that cartel faction is making more money off of migration now 
than it is off of drugs, and that has become their chief 
enterprise in that city, which is a very high-volume area, the 
Rio Grande Valley, but McAllen in particular. Part of the 
reason they are able to get people across is because the cities 
come right up next to each other on the river. It is a matter 
of minutes after crossing the Rio Grande that you can be in a 
safe house or you can be in a vehicle on the freeway and gone. 
It is an opportunity for them to move families that are seeking 
asylum, but also people who are trying to evade detection who 
are paying more. It has become very lucrative in the McAllen-
Reynosa area.
    The other thing I would add to the question about Mexico, 
there is a political problem in northern Mexico. Central 
American migrants are not very popular there, and there is not 
a lot of patience for having large numbers of Central American 
migrants staying in these northern Mexican cities. The 
incentives for politicians to do things to help migrants or to 
keep them there is not very high. The incentives go the other 
way. They want to move them along, either to deport them back 
to Central America or to get them moving across in the United 
States. But they do not want them to stay in these places in 
northern Mexico, in these cities.
    Chairman Johnson. I met with the Ambassador from Mexico, 
the new administration here, a couple times. She has brought in 
government officials. I personally think they seem to be pretty 
sincere about wanting to work with us because they realize it 
is a real problem for their country as well.
    I was struck in my last meeting that they all talked about 
development dollars, which, again, you have economic 
opportunity, that reduces the draw. But they never mentioned 
what I then brought up, the 800-pound gorilla, which is the 
drug cartels. Part of the problem in terms of enforcement--and, 
Senator Peters, I think you were with me in Guatemala when I 
think we heard the story. A new police official in Guatemala 
gets a little digital versatile disc (DVD) from the drug 
cartels. It shows his wife and children going to church or 
children going to school. I am not even going to tell the 
stories of the horrific abuses in terms of the kind of 
retributions. Of course, then those drug cartels create such a 
level of impunity, which I was struck by that. They said, ``We 
are dealing with two things: corruption and impunity.'' I 
understand corruption. Impunity is the drug cartels are 
untouchable because of our insatiable demand for drugs, which 
we funded. They are untouchable, and that impunity bleeds into 
the rest of society, which begins the extortionists, the 
rackets, go to cab drive, $10 a week or we will put a bullet in 
your brain and we will set the car on fire.
    I do not see how these individual countries with that level 
of brutality, that level of threat to any public official--and 
they have had plenty of examples of people being horrifically 
murdered--how they can do it on their own. I think the only 
solution is some kind of multinational task force and an all-
out effort across the board. But even that, Chief Morgan, you 
were with the FBI. These drug kingpins, it is not like they are 
isolated in a little villa within a peaceful little village. 
Those villages are dependent, their economies, on those drug 
kingpins and the drug trade.
    How can you even--again, it sounds nice that we need to 
cooperate with Mexico to start disrupting these things. I mean, 
I look at this as such a horrific problem. Can any of you speak 
to that? Are my assumptions just wrong? We will start with 
Chief Morgan.
    Mr. Morgan. Chairman, you are 100 percent correct, and you 
started off this hearing by saying long term/short term. What 
you are talking about, what we are talking about dealing with 
Mexico, look, I do not want my testimony to be 
mischaracterized. I am not saying we should not continue to 
work with them. What I am saying is that is a long-term--to 
some degree you could make the argument to totally eradicate 
the cartels is an unrealistic expectation. It does, it needs a 
massive, whole-of-government approach, multinational approach 
to target this, and, yes, but that is long term.
    Chairman Johnson. By the way, we have tried that in 
Colombia. We have had some success, but the Revolutionary Armed 
Forces of Colombia (FARC) still exists.
    Mr. Morgan. Exactly. That is the point. It took a long 
time, too. I was attached to CBP in 2014. I know that they have 
been working with Mexico for a long time. They are working 
really hard with the Mexican officials. They have been talking 
about safe third country for years, and we have gotten no 
traction whatsoever.
    Yes, we keep doing this, and we keep working this. We 
target the cartels. That is long term. But guess what? Next 
month there are probably going to be 115,000 people. Your chart 
is going to continue to go like this----
    Chairman Johnson. Oh, yes, by the end of the year it will 
be up toward the ceiling.
    Mr. Morgan. Yes, sir. It is a crisis. In my law enforcement 
experience, any crisis or emergency takes immediate need, 
immediate swift and bold action to address the crisis. While we 
are talking about all this stuff with Mexico and Northern 
Triangle, that is great and it sounds good. But, one, in the 
past it has not come to fruition. Two, that is long term. 
Three, it is not going to stop the 115,000 coming next month. 
We need to do something now, and I still stand behind my 
testimony. A congressional fix of Flores, TVPRA, and we make 
these individuals wait in Mexico, and we push resources to the 
border to expedite the asylum process. If we do that, you are 
going to take the incentives away.
    Chairman Johnson. Just listening to Mr. Davidson and the 
control of the Southern Border by the drug cartels and the kind 
of dollars you are talking about, there are hundreds of 
millions. What we are going to expend--I mean, I am not 
suggesting this by any means, but the economics of this, they 
are controlling the border for a couple hundred million 
dollars.
    Mr. Davidson. Yes, absolutely. I think this is in my 
written testimony. By way of comparison, if you take $800 a 
person as the tax for the cartels in the Gulf Region, that is, 
$138, $135 million for fiscal year 2018 that would have gone to 
the cartel factions in the Gulf Region. The entire amount, I 
believe, that we have appropriated for the Merida Initiative 
for Mexico for this fiscal year is $145 million. It is not 
nearly enough. I would add, too----
    Chairman Johnson. But what we are spending trying to get 
some level of security over our border, with these broken laws, 
which create the incentive, I mean, we have no hope.
    Mr. Davidson. It is a drop in the bucket. I would add, too, 
that this idea that we are going to close the ports of entry if 
Mexico does not do more is not very productive because we are 
asking Mexico to do something it cannot do. Mexico does not 
exercise sovereignty over all of its territory, and we cannot 
ask the Mexican Government and threaten the Mexican Government 
with closed ports of entry to do something that it is not able 
to do, which is to exercise sovereignty over these areas in 
northern Mexico where sovereignty is effectively being 
exercised by drug cartels.
    Chairman Johnson. Again, my point is we have to recognize 
the true reality, what we can actually accomplish versus what 
is, if possible, a long way in the future with many speed bumps 
along the way here.
    I want to go back to what has happened to the 850,000. What 
is their legal status? OK, they have claimed asylum. They have 
a notice to appear. Their court date is sometime way out in the 
future. What are they doing in the interim? Mr. Davidson, I 
think you talked about a lot of them already have work, but 
they are not working in this country legally. I believe it is 
after 6 months they will get a work permit, but initially for 
the 6 months, what are they doing?
    Mr. Davidson. It was mentioned earlier that we are funding 
the Mexican drug cartel profits. Because there is an appetite 
for illegal narcotics in this country, there is also an 
appetite for cheap labor. They are engaged in all kinds of 
industries in all corners of the country. These folks are going 
from points on the Texas border, they are going to Florida, 
they are going to Virginia, they are going to Illinois, to 
Wisconsin, Oregon, Washington. They are working in agriculture, 
but they are also working in construction industries all across 
the country. They are working in service industries all across 
the country. They are coming here because people are hiring 
them. Companies in the United States are hiring them and paying 
them, likely in full knowledge of the fact that they are not 
here in a legal capacity. So the appetite for narcotics is----
    Chairman Johnson. That is how employers can really exploit 
somebody. ``Oh, I am not paying you enough? Well, complain. I 
will call ICE.''
    Mr. Davidson. Absolutely. It happens all across the 
country, as far north as--I have seen it personally happen in 
fish-buying camps in Alaska that employ illegal labor. It is 
endemic. It has been going on for decades and decades. I think 
as part of the long-term solution, figuring out a way to get 
people who want to come here to work, to come here in some 
legal capacity, if it is a temporary guest worker program of 
some kind, I think you would see a lot of the people who are in 
this right-hand column who are coming here to work, but 
claiming asylum and bringing a kid with them would move into a 
legal framework where they are coming in legally to work 
temporarily and go back home at some point.
    Chairman Johnson. Again, that would be my suggestion. If 
you have a rapid adjudication, is this going to be a valid 
asylum claim or not, as soon as you say, OK, it is going to be 
valid, here is your work permit and we talked about this 
earlier. I have the guest worker permit governed by the States. 
Then we actually know where people are going. We can kind of 
keep track of them. The States would have some responsibility 
for making sure we keep--so, again, the whole point of this 
thing is this is out of control. We need to bring this system 
under some level of control. This is unacceptable for 
everybody. This is not humane. Senator Portman had a hearing on 
this, but in Ohio, I think there were some minors that were 
pretty much put into involuntary servitude on a farm? We have 
had all this publicity on the sex workers in massage parlors 
and stuff. These people are being exploited. There is nothing 
humane or compassionate about that.
    Mr. Selee. There are two questions--we have not talked 
about it in these terms, but there are two questions that we 
need to answer here. One is how you deal with a wave event, 
right? What essentially is a tipping point where people start 
coming in large numbers. How do you change that so there is 
another tipping point and people--and that goes down?
    The other question is how do you deal with the long-term 
structural challenge, right? Those things are interrelated, but 
they are not necessarily the same thing. Malcolm Gladwell has 
this book, ``Tipping Point,'' where he says multiple things 
interact to create a wave and then multiple things have to 
interact to stop that.
    Clearly, the legal changes is a big part of that. I agree. 
That is clear. But, also, it makes sense to go after smugglers, 
right? It makes sense to figure out if Mexico can begin to 
absorb some people or at least create the expectation that they 
are about to absorb some people. It makes some sense to see 
what you do on the ground to give some people hope. Maybe you 
try a pilot program on asylum or refugees or parole authority 
in-country, which does not affect a lot of people because it is 
a pilot, but it creates a hope that maybe you do not have to 
make the journey. There is not going to be one thing that 
changes everything. But there could be many things, and then 
you have to figure out what you do long term.
    Chairman Johnson. Yes. Again, I think you have to separate 
out these potential solutions, again, the likelihood of them 
having an immediate impact on a problem that is at crisis 
levels right now versus something that in the future this will 
have an impact, but it is going to take quite some time.
    In questioning with Senator Hassan, you were talking about 
some of the actions the Administration has taken could be a 
signal saying, ``You better get in here quick because'' What 
was going through my mind and I will make the point now. That 
is the problem, and this is across all Administrations. There 
are only limited things you can do administratively.
    Mr. Selee. Yes.
    Chairman Johnson. Whether it is the Obama Administration, 
the Bush Administration, or the Trump administration trying to 
grapple with this, with what they can do regulatorily, it does 
not work. It is just simply not effective. We have to change 
these laws.
    Again, this is the responsibility of Congress. We have to 
do the problem-solving process, identify the problem, look at 
the root cause, identify an achievable solution, separate out 
immediate effect versus long term, things we need to do long 
term, but what do we need to do short term? Would people agree 
with that?
    Mr. Morgan. I completely agree, and here is a point, 
Senator. Again, you reverse Flores and give CBP and ICE the 
ability to detain these people and expedite the immigration 
process, and you reverse TVPRA so that you apply the same 
standard to everybody, you are going to end catch-and-release. 
Congress can do that. Those two things will end catch-and-
release, and they will remove the incentive so that immigrants 
will stop paying the cartels money to come here because they 
know they are just going to turn around and be removed. The 
cartels will come up with another scheme and adjust their TTPs 
to start doing more stuff, more drugs, etc., but you are going 
to cut that off. I cannot emphasize that enough.
    Chairman Johnson. That is why I started with Michael 
Chertoff's example.
    Mr. Morgan. Yes, sir.
    Chairman Johnson. A much smaller size problem, but 
significant, and the impact was almost immediately, and it 
worked.
    Mr. Morgan. We are clouding the issue--with receiving 
100,000 last month alone, we are clouding the issue with all of 
this other stuff, when right now reverse Flores, fix TVPRA, and 
you are going to end catch-and-release dramatically, and you 
are going to see the numbers go down. That could be done 
immediately while we are doing everything else that needs to be 
done.
    Chairman Johnson. Dr. Selee.
    Mr. Selee. I would throw in one thing. One thing that Mr. 
Davidson has mentioned a couple times that I think is worth 
noting is you were talking about what used to be the Zetas, the 
groups that are left over from the Zetas and the Gulf Cartel. 
These were two of the most powerful cartels in Mexico. The 
Zetas, there was a time not long ago, 7 or 8 years ago when we 
talked about the Zetas taking over Mexico because they were so 
fearsome. They are gone. Now, they are gone relatively 
speaking. There are lots of little groups that are little Zetas 
hanging out there, and there are lots of little Gulf Cartel 
groups. It is not perfect. Right? I mean, we did not solve the 
drug-trafficking problem. We did not solve the question of 
control. But we did create--and this was Mexico and the United 
States working together to go after--really targeted the Zetas 
and the Gulf Cartel at a time they were allied and said: ``This 
is a group that is getting too powerful. We are going to 
degrade them to the point where they are a local threat but no 
longer a national security threat.''
    We have never actually looked at this with smugglers in the 
same way. We do actually have an ability--as much money as 
there is in this, as much money as they can bribe local 
officials and so on, there is actually a pretty good track 
record when the United States and Mexican Governments share 
intelligence and target to go after--and I am not suggesting, 
by the way, that we go dismantle all the trafficking groups. I 
think that is unrealistic, probably unnecessary, but throwing a 
little bit of deterrence and throwing a little bit of a monkey 
wrench in what has been a fairly smooth operation for smuggling 
groups would not be a terrible idea.
    Chairman Johnson. Again, all for it. Anything we can do to 
degrade that evil would be good. How distinct are the drug 
cartels from the human traffickers? Again, I just kind of 
assumed that they just sort of spun--it is an increase in the 
product line. Now, maybe they have split off in different 
divisions. Are these totally separate groups, Chief Morgan.
    Mr. Morgan. Look, I have been doing investigations for 25 
years, and it is all well and good to target the traffickers 
and smugglers, but you have to go to the head of the snake. 
Right? If you go after one smuggling entity or one group of 
traffickers, you eliminate them, and the other one will take 
their place. You have to cut the head of the snake off, and so 
you have to go after the leadership of the cartels.
    But I think John explained it best, that they are like a 
McDonald's franchise. They are independently operated and 
owned, but they still belong and still have to pay to the over-
governing franchise. Yes, they do not own anything, the 
smugglers or traffickers. They have to pay for their routes. 
They have to pay to work in a certain plaza. They have to pay a 
tax to the cartels to be able to facilitate what they are 
doing.
    Chairman Johnson. Mr. Davidson.
    Mr. Davidson. I would just add to Andrew's comments and to 
Mark's comments as well. The fracturing of the cartels that 
happened, the Gulf and the Zetas Cartels, has also created a 
diversification of what the cartels do, so you are now seeing 
gas theft on a mass scale throughout Mexico, fishing theft, and 
then, migration as a source of income as a way to diversify 
income streams. The legalization of marijuana is part of this 
in the United States. The profits that they made from selling 
marijuana have gone down. They have sought to replace those 
income streams through monetizing migration.
    Putting pressure on them has these sort of ripple effects 
that we do not always see. The spike of violence, Reynosa is 
one of the most violent cities in the world right now, right 
across from McAllen, Texas. It did not used to be that way, but 
breaking up the cartels there, ending what they call the 
``cartel peace,'' has caused an explosion of violence in 
Reynosa as cartel factions fight, and fight over income streams 
and over territory.
    I have to agree that doing something to reduce the 
incentives to the customer, to the families who are paying the 
cartels is--you have to do that. That is not going to solve the 
cartel problem in Mexico. But it might affect this part of it, 
which is the monetization of illegal immigration.
    Chairman Johnson. Right. Until we reduce our demand for 
drugs, we will still keep funneling billions down there.
    I believe it is true that we have authorized more CBP 
officers than we have hired, because it is a real problem. I am 
all for hiring more CBP officers, but how do you do it? I want 
to talk to you, Chief. I come from a manufacturing background 
where we operated 24/7. I am not sure there is any industry in 
the private sector that operates 24/7 with three shifts. Again, 
there are 168 hours in a week, and if you divide that by 3, I 
think that is 56 hours per shift, versus divided by 4 it is 42. 
And so you do not burn your people out.
    What has amazed me is--and I think this is a true 
statement--most government agencies that operate on a 24/7 
continuous shift basis do it three shifts. Then they have to 
work overtime and it fatigues people. It does not lead to, from 
my standpoint, probably very good job satisfaction. If you like 
working 56 hours a week--and there are not too many Americans 
that like that day in and day out. Everybody likes the 
overtime, but by and large, people kind of like to stick within 
that 40-some-hour work week.
    Can you speak to that in terms of your experience with CBP?
    Mr. Morgan. I think we should be looking at all options to 
address the issue, because the issue of not hiring enough 
people, it is real. It was an issue when I was there in 2016, 
it was an issue before that, and it is an issue now.
    What I do think is there are a lot of other organic issues 
that really is the issue. I am not disagreeing with you that 
this is not something we should take a look at, and this may 
assist. What I do not believe in my experience, though, is it 
is going to really adjust the needle to any great degree, CBP's 
ability to hire people.
    Chairman Johnson. What is the number one thing we have to 
do? We did kind of correct the lie detector, which was 
disqualifying an awful lot of folks. What is the number one 
thing that you think we need to do to make sure it is an 
attractive enough job so we can actually hire up to the 
authorized level?
    Mr. Morgan. I think they need to continue to do what they 
started a little bit after I left. We talked about it while I 
was there. They really have to go out into the interior of the 
United States, into the Midwest. When I was there, you would go 
out to the Midwest, and a lot of people had no idea what CBP 
even was. They were really concentrating on more the border 
cities and the border areas, and they were really tapped out. I 
really think if they go into the interior United States--they 
have been, and I have seen that, and it is being effective. I 
think they need to continue to do more of that.
    Chairman Johnson. I just want to thank all of you. I really 
think really your testimony was excellent. I think this was a 
great exchange, a lot of good issues brought up by Members. I 
will give each of you--and I will start with Dr. Selee, just 
something that you want to get off your chest here that we did 
not cover or, just kind of summarize what we need to do. Again, 
right now I am thinking short term. What I want our Committee 
to concentrate on is let us try and address this short-term 
crisis as effectively as we can, because we have to change laws 
and what is that going to look like. If you want to chime in on 
that, I would be happy to hear your comments.
    Mr. Selee. I will just repeat what I have said already. If 
we want to change one thing legislatively, although it could 
probably be done as a rule change administratively as well, I 
would change the asylum system adjudication. It is the thing 
that you can convince people is both fair to people who are 
asylum seekers, but also tough-minded with people----
    Chairman Johnson. Let us drill down on that. Do you think 
we should have a higher hurdle rate--right now, my 
understanding, the credible fear, the way that is interpreted 
by the court is you have about a 10-percent chance of actually 
proving your asylum claim.
    Mr. Selee. Yes.
    Chairman Johnson. If we increase that----
    Mr. Selee. About 80 percent----
    Chairman Johnson [continuing]. To a different standard, 
again, I am not a lawyer. These types of things drive me nuts. 
But, people seeing a significant chance, is that what you are 
talking about?
    Mr. Selee. No. I am talking about, I think, that you do not 
send the cases to the immigration courts at all. You send them 
straight to an asylum officer. The U.S. Citizenship and 
Immigration Services (USCIS) has asylum officers. We do have to 
make some investments, although we also have trained officers--
--
    Chairman Johnson. Which I think people are happy--do you 
believe that on a bipartisan basis people would accept the 
determination of those individuals charged with making that 
initial determination that would in effect be final?
    Mr. Selee. Yes.
    Chairman Johnson. The more people that do not meet that 
initial bar and we remove them.
    Mr. Selee. I think you could get a broader consensus around 
it. I do not think you will get everyone on board. I think you 
are going to get some people on both the left and the right 
that will not be comfortable with it. But I think you will get 
a broad spectrum of people who can agree that it is both fair 
but tough-minded. It makes our asylum system have integrity. 
The asylum system should not be used for labor migration. It 
should be used for protection. That is the right thing to do. 
So if we do that----
    Chairman Johnson. It probably should be pointed out, those 
people that get returned can always go to the U.S. embassy, 
claim refugee status, and wait in line as an economic migrant.
    Mr. Selee. Right. I mean, they could try and, get an 
agricultural visa or do something else. I think we do need to 
do some work with Mexico. I think that, frankly, the more the 
Mexicans can send signals that they are going to try and make 
their asylum system work and do some labor migration and they 
do credible enforcement, it helps us. I think the worst thing 
we could do is sort of pull out of Central America because I 
think we will add to the wave. Right? I mean, it is a 
perception thing, but it is also probably a real thing for some 
people will add to the wave. I think we have to hold the line 
on that.
    Chairman Johnson. I have said repeatedly, of all the 
causes, the number one root cause of our unsecured border is 
America's insatiable demand for drugs.
    Mr. Selee. Yes.
    Chairman Johnson. But taking drugs, it is not a victimless 
crime.
    Mr. Selee. No.
    Chairman Johnson. I tell young people all the time, if you 
think that, come down with me to Guatemala, and I will show you 
a shelter for sex-trafficked little girls that is kind of being 
fueled by the drug trade as well. Mr. Davidson.
    Mr. Davidson. I agree with everything Andrew said about 
trying to streamline the asylum process. I cannot emphasize 
enough how much this is driven by word of mouth. If word gets 
back to these communities in Central America that you cannot 
actually get in if you bring a child and you cannot just claim 
asylum if you do not have a valid claim, that you will be 
detained and deported, I think it will affect the wave quickly.
    Chairman Johnson. Can I just point out, 850,000 people that 
have these and people in Central America have these [indicating 
phone], so it is not just--it is using technology.
    Mr. Davidson. That is what I mean. They are in touch with 
their families and their networks and their communities in 
Central America. And so word will get back quickly that you 
cannot, in fact, get in. People are pawning their houses and 
going into debt to loan sharks to be able to pay the fare to 
get in, to make it north to the border and to get across. They 
are not going to do that if they have a strong reason to 
believe that they are going to get detained or deported. I 
think, that is the number one thing you can do to address this 
problem.
    Chairman Johnson. It is tough love, but it is, I think, 
something we have to do. Chief Morgan.
    Mr. Morgan. Just to recap what I have said, I think that, 
again, I agree actually with everything both these gentlemen 
said, specifically with streamlining the asylum process. But, 
again, to reiterate, to fix this problem immediately, we have 
to remove the incentives. If you do not remove the incentives, 
in my opinion, everything else is a little bit of white noise. 
The major things that we can do right now to remove the 
incentive is to allow the border security experts to detain 
these individuals, i.e., fix Flores, the Flores Settlement; 
two, they absolutely need to reverse TVPRA and make sure that 
it is applied to everybody so we do not have that mandate, 
because right now, as I have said, grab a kid, enter illegally, 
one foot on American soil, say the magic words, and you are 
here indefinitely. If you fix those things, you remove--and you 
end catch-and-release.
    The last thing that I will say is that right now what we 
also need to do to remove those incentives, to remove that 
perception that once you get here you are going to remain 
indefinitely, is we need to support and increase ICE 
enforcement and interior enforcement. Right now we have over 1 
million individuals who came here, the majority of them, 
illegally, filed for asylum, and either in absentia or their 
claim was denied, have received a deportation order of 
removal--1 million, yet they still remain in this country 
illegally. If we start an enforcement operation to remove those 
individuals, you will also make a huge dent on the incentive.
    Chairman Johnson. I will repeat, we had a hearing on MS-13, 
unbelievably vicious gang, and that was pretty revealing. But 
as I said, I think Operation Matador, 40 percent of those 
people rounded up in that operation, MS-13, came in as 
unaccompanied children or an unaccompanied child.
    Again, I just want to thank all of you. This is exactly 
what I was kind of hoping this hearing would be. I think we 
have laid out some realities. I think you have certainly 
informed this Committee. The next step is to utilize this 
information to, again, develop--or agree on what is an 
achievable goal, in particularly the short term, and work on 
the policy suggestions. Again, I agree with you, Dr. Selee. I 
think that is the basic, we have to attack that, the way we 
come to that first conclusion, so if we can do it quickly--and, 
by the way, if we do that, the number of detention beds we need 
comes down, the length of time in detention comes down, and we 
get this all under control. But right now part of the things 
that offends the American consciousness, because we are an 
incredibly compassionate Nation, is just these numbers and just 
kind of what the government is trying to deal with and how they 
are trying to grapple with it.
    Of course, just one news story about a child who dies 
because they come to this country with a 105-degree fever with 
a large group and CBP just--you cannot save every life. That 
offends the American public. But if we can get this under 
control, we will see far fewer stories of that, and I think it 
will be better for everyone.
    Again, I just want to thank all of you for your testimony. 
I want to continue to work with you in the future.
    The hearing record will remain open for 15 days, until 
April 19 at 5 p.m., for submission of statements and questions 
for the record. This hearing is adjourned.
    [Whereupon, at 12:02 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------  
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              





                     UNPRECEDENTED MIGRATION AT THE

         U.S. SOUTHERN BORDER: PERSPECTIVES FROM THE FRONTLINE

                              ----------                              


                         TUESDAY, APRIL 9, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Romney Scott, 
Hawley, Peters, Carper, Hassan, Harris, Sinema, and Rosen.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    I want to welcome all our witnesses. Thank you for your 
thoughtful testimony. As I said last week, I really encourage 
all the committee Members, if you have not had a chance, please 
read the testimony. I think these witnesses, again, have done a 
very good job of laying out the reality of the crisis that we 
face on the border.
    I ask that my written statement be entered in the 
record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 143.
---------------------------------------------------------------------------
    Let us quickly put up the chart\2\ that really describes 
this.
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 195.
---------------------------------------------------------------------------
    We do not have final numbers for the final week in March, 
but again, I am not going to go through the full explanation of 
this, but only to point out in less than 6 months, we have 
apprehended more than 240,000 either unaccompanied alien 
children (UAC) or people coming in this country as family 
units, individuals who according to testimony last week are 
part of a process, it is almost a well-oiled machine of the 
human traffickers, the transnational criminal organizations 
(TCOs), individuals that are moving people from Central America 
into this country, completely exploiting our laws, but 240,000 
people in less than 6 months, and that compares to 120,000 in 
2014, the year that President Obama correctly labeled that a 
``humanitarian crisis.'' Again, in less than half a year, we 
are double the level of 2014.
    We are going to be hearing from people in the Customs and 
Border Protection (CBP), the folks that are trying to grapple 
with this growing crisis, how it has completely overwhelmed our 
system.
    But, again, this is going to be a very full hearing. We 
have representatives from the agencies that are grappling with 
this crisis. I want to thank you, first of all, for your 
service to this country, for trying to deal with it, but this 
is up to Congress. We have laws on the books and court 
decisions that need to be addressed through congressional 
action, through passing laws. From my standpoint, the goal of 
this is to reduce, if not stop, the flow of this illegal 
immigration. That has to be the goal of our policy and 
recognizing--I tried to make this point in the last hearing as 
well. We have a short term--it is a long-term problem, but we 
have a short-term crisis, and we have to address this with 
short-term measures.
    I am all for developing and sending dollars and trying to 
help those nations whose public institutions have been 
destroyed by an insatiable demand for drugs in Central America, 
but that is not going to solve this problem anytime soon. We 
have to enact the laws so we can address this problem right 
now. We cannot afford to wait any longer.
    One other chart\1\ I want to quickly put up here, I had my 
staff take a look at this. If we are going to fix this--and Dr. 
Selee last week talked about having a more rapid adjudication 
process for that initial determination of an asylum claim, and 
the reason that is important is if we do not detain 
individuals, we only are able to remove about 7 percent. If we 
detain people and they have an invalid asylum claim, we can 
remove about 77 percent. So we have to be able to have an 
adjudication process in a time period where we have the 
detention facilities so we can actually remove them; otherwise, 
it is kind of a moot point.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 196.
---------------------------------------------------------------------------
    We have to take a look at that initial hurdle in terms of 
credible fear or a more likelihood that their asylum claim 
would be viewed as valid. Eighty-five percent of asylum claims 
are denied. So we have to come to that determination a lot 
quicker.
    This chart right here shows what type of facilities we 
would need based on the number of people coming in this country 
illegally on a monthly basis versus the number of days to 
adjudicate that initial claim, and it is pretty shocking.
    Right now we had about 100,000 individuals is what the 
estimate is for March, about 100,000 people coming to this 
country illegally. If it take 45 days--right now it is taking 
about 40 days I think to get that initial determination--we are 
looking at needing detention facilities. Somewhere about 
125,000 beds is what this chart will show you because you are 
right between 150- and 100,000 beds, 45 to 30 day adjudication 
process. 125,000 beds. We got about 50.
    So this chart also shows you the solution. Reduce the flow. 
Reduce the number of days to adjudication, and then we will 
have plenty of detention facilities.
    Senator Hassan has been talking about this. I do not want 
to detain people. It costs a lot of money. What I want to do is 
I want to come to a very rapid conclusion, a rapid 
determination: This is a valid asylum claim or an invalid one. 
If it is an invalid asylum claim, we have to remove those 
individuals back to their home country.
    We know this works. Secretary Michael Chertoff in 2005 with 
a surge of Brazilians, about 31,000 in that year came in from 
Mexico into our Southern Border. He realized that was a 
problem. So he initiated a process of rapid removal, and the 
next year, it was 1,400. So we know that works. That is what we 
need to do, but we have to pass the laws to do it.
    Again, I will not go on any further, but I am just asking 
this Committee. I will be proposing legislation, hopefully 
working with Senator Peters and others on a bipartisan basis to 
fix this problem. We have to address it, and it is a short-term 
situation that we have to deal with this. We cannot wait for 
the long-term fixes.
    With that, Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Thank you, Mr. Chairman. Thank you for 
holding this hearing today, and to all of our witnesses, thank 
you for being here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appears in the 
Appendix on page 145.
---------------------------------------------------------------------------
    Last Thursday's hearing provided information about the 
scope and the scale of the challenges that we are now facing on 
our Southern Border. Important historical context was provided 
and a chance to examine how we can better work with the 
governments of Mexico, Guatemala, Honduras, and El Salvador.
    During my opening statement, just 5 days ago in the hearing 
that we had last week, I said that securing our borders will 
take cooperation and credibility from this Administration and 
not chaos and not confusion.
    Unfortunately, in the days since, just the 5 days, we have 
seen nothing but more chaos out of the Administration.
    Since this first Southern Border hearing concluded, we have 
seen the Administration withdraw their nominee to be Director 
of U.S. Immigration and Customs Enforcement (ICE), a nominee 
who had a hearing before this Committee last year and was 
approved during the Committee meeting last month.
    We have seen the announcement of Homeland Security 
Secretary Kirstjen Nielsen's resignation. We have seen the 
President fire Secret Service Director Randolph Alles for 
unknown reasons, creating another senior vacancy at the 
Department of Homeland Security (DHS). We have seen reports 
that the White House is potentially preparing to fire the 
Director of U.S. Citizenship and Immigration Services (USCIS). 
It is, in a word, chaos.
    The problems we face at our Southern Border will not be 
fixed with high-profile firings or tweets or press conferences. 
It is going to take leadership, and as I said last week, it is 
going to take cooperation and credibility.
    By the end of the week, the Department of Homeland Security 
will have no Secretary, no Deputy Secretary, no Chief Financial 
Officer (CFO), nobody leading multiple major bureaus and 
therefore virtually no accountability to the American people.
    We are looking at an absence of leadership at the top of 
the third largest Department in our Federal Government, a 
Department charged with preventing terrorism, securing our 
borders, enforcing our immigration laws, safeguarding 
cyberspace, and ensuring resilience to disasters.
    Fortunately, the men and women of DHS and its component 
agencies, career public servants, continue to show up to work, 
and they continue to do their best across the Country in the 
midst of a very difficult situation on our Southern Border.
    Last week we heard that it is not just the number but the 
composition of the migrant groups that is straining our 
infrastructure. Specifically, the influx of families and 
children seeking asylum from dangerous conditions in Northern 
Triangle countries has created an unprecedented challenge for 
our frontline personnel.
    There are no easy answers or quick fixes here, but we know 
that the trauma of detaining young children and separating them 
from their parents puts these children at risk of irreparable 
harm.
    I have asked multiple officials from this Administration 
who have testified before this committee. I have asked, ``How 
long is too long to detain a child?'' I have yet to receive a 
real answer. We must do better.
    We need to reduce the backlogs in processing asylum claims. 
Screening interviews are being delayed. The average wait to 
appear before an immigration court is now over 2 years, and the 
backlog is quickly approaching 1 million cases. This is simply 
unacceptable.
    We need to address root causes of mass migration, take on 
the violence and impunity that regions across the Northern 
Triangle experience and disrupt the transnational criminal 
organizations that cash in on drug trafficking and human 
smuggling.
    This will take careful cooperation with regional 
governments, law enforcement, and civil society, not cutting 
off existing funding to nonprofit organizations operating in 
the Northern Triangle.
    We need Mexico to do more to address the flow of migrants 
across their Southern Border, but it will take sustained 
cooperation and American leadership, not baseless threats and 
disengagement.
    Finally, we need to secure our Southern Border, and I look 
forward to hearing from our witnesses about what is working and 
what is not.
    I look forward to hearing how we can replicate your 
successes and address your challenges, and I look forward to 
discussing how we can improve the data that Congress and 
Federal agencies rely on to make thoughtful decisions.
    Thank you all for being here today.
    Chairman Johnson. Thanks, Senator Peters.
    Again, what it will take is legislation, and we need to act 
now to address this situation. We cannot rely on long-term 
fixes to address this situation now.
    Again, that is why I want to work with you. That is why we 
are holding these hearings is to determine what we need to do 
now to fix this. So it does require legislation.
    It is the tradition of this committee to swear in 
witnesses, so if you all stand and raise your right hand. Do 
you swear the testimony you will give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Mr. Karisch. Yes.
    Mr. Howe. Yes.
    Mr. Tubbs. Yes.
    Mr. White. Yes.
    Mr. Cherundolo, Yes.
    Chairman Johnson. Please be seated.
    Our first witness is Rodolfo Karisch. Mr. Karisch is the 
Chief Patrol Agent for the U.S. border patrols Rio Grande 
Valley (RGV) Sector, and Commander of the Joint Task Force-West 
(JTF-W), South Texas Corridor. He previously served as the 
Chief Patrol Agent of the Tucson and Del Rio Sectors. He also 
previously served as CBP Attache to Mexico. Mr. Karisch.

TESTIMONY OF RODOLFO KARISCH,\1\ RIO GRANDE VALLEY SECTOR CHIEF 
PATROL, U.S. BORDER PATROL, U.S. CUSTOMS AND BORDER PROTECTION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Karisch. Chairman Johnson, Ranking Member Peters, and 
distinguished Members of the Committee, thank you for the 
chance to appear before you today.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Karisch appears in the 
Appendix on page 148.
---------------------------------------------------------------------------
    I am proud to have served as a Border Patrol Agent for more 
than 30 years, currently as the Chief Patrol Agent in the Rio 
Grande Valley Sector, and also have served as the Chief Patrol 
Agent of the Tucson Sector. In my 30 years as an agent, I have 
never witnessed the conditions we are currently facing on the 
Southwest Border. This is not a manufactured crisis created by 
those of us who live and work in the border area.
    The U.S. Border Patrol (USBP) continues to apprehend record 
numbers of people who purposely violate U.S. immigration laws. 
We are taken advantage of by gaps in our legal framework and 
that undermine the rule of law.
    Criminal organizations along the border capitalize on these 
issues and make tremendous profits at the expense of both 
migrants and the American people.
    RGV is responsible for securing 277 miles of border. This 
is a small fraction of the United States, but it accounts for 
38 percent of all illegal immigration along the entire 
Southwest Border.
    To put things into perspective, last year agents in RGV 
made 162,000 apprehensions. We are already at 147,000. At this 
pace, my sector alone, we will have more than 260,000 
apprehensions by the end of the fiscal year (FY). On average, 
we apprehend more than a thousand people illegally crossing the 
border every day. That is roughly the capacity of 17 commercial 
buses.
    Last week agents in my sector apprehended 1,766 people in a 
single 24-hour period. We expect the numbers to continue to 
climb as we enter the summer months, which will undoubtedly 
place both migrants and our Border Patrol Agents at significant 
risk.
    Rescue missions will increase as a result of drawing 
additional personnel from our frontline law enforcement 
mission. Much media attention has focused on caravans from 
Central America, but the fact is that RGV is receiving caravan-
equivalent numbers of migrants every 7 days.
    The majority of people we are apprehending are family units 
and unaccompanied children from the Northern Triangle countries 
of Guatemala, El Salvador, and Honduras. Many are extremely 
vulnerable. Consequently, 30 to 40 percent of my daily 
workforce is doing humanitarian work at any given point in 
time. This includes processing, care and feeding, hospital 
watch, and transportation. It also means that at any given 
point in time, 30 to 40 percent of my workforce is not 
available to secure the border.
    An agent who has taken a migrant to a hospital is not 
available to interdict narcotics, nor are we able to respond to 
other smuggling events or border intrusions when we encounter 
and apprehend large groups of people. The bad guys know this. 
They know our resources are stretched thin in addressing the 
humanitarian issue, which undermines our border security 
operations. They direct the movement of large groups into 
certain border areas as a diversion to facilitate the smuggling 
of drugs. This is an issue of both national security and 
officer safety.
    In addition to the large groups of families and children 
from Central American, other illegal aliens from all over the 
world are caught trying to evade arrest. In my sector along, we 
have encountered people from 50 different countries. That 
includes Bangladesh, China, Turkey, Egypt, Romania, to name a 
few. People are traveling across hemispheres to attempt to 
illegally enter the United States, using the same pathways as 
the Central Americans.
    We also encounter known gang members from some of the most 
violent gangs on earth, including MS-13 and 18th Street. Some 
of these gang members are fraudulently posing as part of these 
migrant families.
    I would like to share with you a translation of a text 
message that we intercepted from an MS-13 gang member who was 
part of one of these fraudulent family units. He wrote, ``You 
should see the amount of Hondurans that are traveling with a 
child, and they pay less to the smugglers in order to be 
delivered to the Border Patrol. It is a direct trip. They have 
them a few days with Border Patrol, and afterwards they are 
released. There are a lot of people with that law. That is the 
easiest way right now. Entire families are coming.'' So make no 
mistake about it. The world is getting out. If you are part of 
a family, if you bring a child, you will be released.
    Just last Friday, our agents apprehended an adult Honduran 
male with a 1-year-old child. After questioning the man, the 
man admitted the child was not in fact his.
    Something has to change. The levels of mass migration we 
are seeing profoundly impacts our ability to control the border 
and stop dangerous people and drugs from entering the country. 
I implore Congress to consider legislative action that restores 
integrity to our immigration system.
    Thank you for your time, and I look forward to your 
questions.
    Chairman Johnson. Thank you, Mr. Karisch. Again, thank you 
for your service.
    Our next witness is Randy Howe. Mr. Howe is the Executive 
Director of Operations for U.S. Customs and Border Protection. 
In this role, he oversees 30 field offices and 328 ports of 
entry (POE). Mr. Howe.

TESTIMONY OF RANDY HOWE,\1\ EXECUTIVE DIRECTOR FOR OPERATIONS, 
OFFICE OF FIELD OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Howe. Good morning, Chairman Johnson, Ranking Member 
Peters, and distinguished Members of the Committee. It is an 
honor to appear before you today on behalf of CBP's Office of 
Field Operations (OFO).
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Howe appears in the 
Appendix on page 148.
---------------------------------------------------------------------------
    U.S. Customs and Border Protection has four priority 
missions: national security, counter-narcotics, economic 
security, and the facilitation of lawful trade and travel. We 
operate 24 hours a day, 7 days a week, 365 days a year to 
accomplish those missions.
    Our job is to move people and cargo through our ports of 
entry, while inspecting all of those for possible hazards and 
stopping threats at the border. Our Nation's economy and our 
national security relies on our vigilance.
    It is an immense task even in the best circumstances. Our 
officers report to duty never knowing what challenges they will 
face or if their lives will be threatened. Factors like port 
volume, resource constraints, and enforcement activities make 
every day unpredictable.
    In recent months, however, we have seen an unprecedented, 
unsustainable trend in our daily operations. Inadmissible 
migrants sometimes traveling in large groups are arriving at 
our ports of entry without proper documentation. The majority 
are family units, unaccompanied children, and nearly all of 
them seeking asylum.
    I would like to give you a snapshot of the daily operations 
at one of our ports of entry. Just this past Saturday in 
Nogales, Arizona, our officers made five separate trips 
transporting migrants to medical facilities, including one trip 
transporting a family of five. Four unaccompanied alien 
children from Honduras arrived at our DeConcini Pedestrian Port 
of Entry. All claimed asylum. A family from Cuba entering the 
country by commercial bus then claimed asylum. A single vehicle 
inspection yielded 70 packages of methamphetamine, weighing 
more than 72 pounds; and a male imposter presenting someone 
else's documents was encountered as a pedestrian and taken in 
for processing.
    Among all this activity, our offices are regularly 
transporting migrants to coordinating centers or into ICE 
custody or accepting detainees from other ports of entry to 
alleviate overcrowding. This is in addition to our work to 
process the people and cargo with a legitimate need to pass 
through our ports of entry every day.
    While the current migration flows have taxed our officers 
at the ports of entry, the levels of migration between the 
ports is catastrophic. To support our colleagues in the U.S. 
Border Patrol, the Office of Field Operations has redirected 
545 frontline officers from our southwest border ports of entry 
to help process and care for the record number of migrants.
    But these actions are not without consequences. Travelers 
and shippers are experiencing increased wait times as they 
approach our Southwest Border ports of entry. This is true 
across all mods of travel: pedestrian, personal vehicles, and 
commercial trucks.
    In El Paso, Texas, just yesterday, passenger vehicle wait 
times at the Bridge of the Americas were as long as 160 
minutes. The peak time last year, same day, was 45 minutes.
    The situation is even more dire in our cargo processing. 
Last year wait times for cargo processing in El Paso were less 
than 15 minutes. Yesterday wait times were as long as 250 
minutes. That is about 4 hours. At the end of the day, 63 
trucks were not processed. This is the direct result of the 545 
CBP officers being reassigned to assist the Border Patrol with 
the care and custody of the surging numbers of migrants.
    I cannot overstate the importance of these operations. The 
border security and humanitarian crisis at the Southwest Border 
has ripple effects that impact the entire Nation. Suspended 
services negatively affect the trade community, the supply 
chain, businesses that rely on these products, and ultimately 
the consumer.
    Despite the challenges we face, our officers continue to 
process migrants claiming asylum, facilitate legitimate trade 
and travel, and interdict narcotics from entering the United 
States.
    I appreciate the support Congress has offered to our men 
and women of the front lines, and I ask that you consider 
legislative action that will address this crisis.
    Thank you for your time, and I look forward to your 
questions.
    Chairman Johnson. Thank you, Mr. Howe.
    Our next witness is Timothy Tubbs. Mr. Tubbs is the Deputy 
Special Agent in Charge for the Homeland Security 
Investigations (HSI), Laredo, Texas, office, which includes 
McAllen and Brownsville, Texas. He previously served as the ICE 
attache to Mexico. Mr. Tubbs.

 TESTIMONY OF TIMOTHY TUBBS,\1\ DEPUTY SPECIAL AGENT IN CHARGE-
     LAREDO, TEXAS, HOMELAND SECURITY INVESTIGATIONS, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Tubbs. Good morning, Chairman Johnson, Ranking Member 
Peters, and distinguished Members of the Committee. I want to 
thank you for the opportunity today to be here to discuss U.S. 
Immigration and Customs Enforcement, Homeland Security 
Investigations, and our frontline perspective on the 
sophisticated smuggling threats that we face on the Southwest 
Border, the approaches that lead up to the border, and some of 
what we do to address transnational criminal organizations, 
that threaten border security, homeland security, and public 
safety by seeking to bring illicit goods, people, and proceeds 
into the United States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tubbs appears in the Appendix on 
page 157.
---------------------------------------------------------------------------
    HSI Special Agents use their vast authority to investigate 
cross-border criminal activity and work in close collaboration 
with U.S. Customs and Border Protection, our Office of Field 
Operations, United States Border Patrol, as well as the Drug 
Enforcement Administration (DEA). We work in a unified effort 
with domestic and international law enforcement partners to 
combat that illicit activity.
    Today I will highlight how HSI since our inception has 
targeted, investigated, disrupted, dismantled, and brought to 
justice transnational criminal organizations who threaten our 
border security, our homeland security, and our public safety 
through their cross-border illicit activity. HSI is grateful to 
you for the continued congressional support that enables us to 
successfully execute our complex investigative mission, both at 
home and abroad, working with our domestic and international 
partners.
    HSI Laredo. So HSI Laredo is my current area of 
responsibility. It is one of the most active areas of 
responsibility for my agency. It covers approximately 300 miles 
of U.S.-Mexico border, and it covers what is the Mexican State 
of Tamaulipas with the United States border.
    If you look at the HSI Special Agents that work in that 
area, they are on the true forefront of what is border 
security, and they truly live every single day what is border 
security for we as the U.S. Government and the United States of 
America.
    Mexico is the front doorstep for transnational criminal 
organizations to bring in illicit goods and people to the 
United States.
    Mexico is a major source country for the transit and 
production of illicit drugs destined for the United States, 
including marijuana, cocaine, methamphetamines, heroin, and 
most recently fentanyl. As a result of Mexico's dominant role, 
both as a source and transit point for illicit drugs destined 
for the United States, it is also a primary destination for 
illicit proceeds that the cartel earns through their 
distribution networks in the United States.
    Mexico cartels use a variety of techniques to repatriate 
illicit funds from bulk cash smuggling to sophisticated trade-
based money-laundering schemes. Many of these more complex 
schemes use third-party money launderers. As such, HSI has 
established an abundance of investigative tools in our arsenal 
to disrupt and dismantle cartel money-laundering operations.
    Also, HSI and the Department of Justice (DOJ), the Criminal 
Division, we have established the Extraterritorial Criminal 
Travel (ECT) Strike Force Program, which addresses U.S. 
security risks posed by TCOs that smuggle special-interest 
aliens, and these special-interest aliens could potentially 
cause a threat to U.S. national security and public safety. 
This ECT program is designated to disrupt and dismantle these 
human-smuggling organizations worldwide through aggressive 
investigations and criminal prosecutions, both domestically and 
extraterritorially.
    HSI works very close with our international partners to 
disrupt and dismantle TCOs. HSI has 68 offices in 51 countries, 
and we are positioned to utilize our established relationships 
with those host-country law enforcement to include the 
engagement in what we call ``Transnational Criminal 
Investigative Units (TCIUs). These TCIUs are composed of DHS-
trained host-country officials who have the authority to 
investigate and enforce violations of laws in respective 
countries. The TCIUs enable both ICE and the host country to 
conduct joint criminal investigations, joint prosecutions, 
while meeting the common mission of both the host country and 
ICE, also respecting the sovereignty of the host country and 
cultivating that international relationship.
    These efforts, often thousands of miles away from our U.S. 
border in countries like the Dominican Republic and Mexico, 
both of which I have had the opportunity to serve, essentially 
act as an outer layer of security for our Southwest Border.
    Mexico specifically, again, where I have served for 3\1/2\ 
years before going to Laredo, has proven to be an outstanding 
partner in the right against TCOs, taking down cartel 
leadership as well as taking down the leadership of these 
organizations that smuggle special-interest aliens and 
ultimately working with us cooperatively in efforts to 
dismantle those organizations.
    The ICE attache in Mexico is our largest ICE presence 
outside the United States, and there, we have an established 
TCIU with the government of Mexico. Through our attache, we 
work well with the government of Mexico in combating TCOs and 
combating the transnational drug smuggling, weapons smuggling, 
human smuggling, and money laundering.
    The spirit of cooperation and joint efforts between DHS 
components and our counterparts in Mexico is unprecedented.
    HSI will continue to work with our law enforcement 
partners. We will continue to work with them both domestically 
and foreign to improve our efficiency and effectiveness of 
information sharing, operational coordination to combat TCOs 
and their illicit border activity, which ultimately threatens 
our border security, our national security, and our public 
safety.
    I want to thank you for having me here today, and I look 
forward to answering any questions that you have.
    Thank you.
    Chairman Johnson. Thank you, Mr. Tubbs.
    Our next witness is Commander Jonathan White. Commander 
White serves in the U.S. Public Health Service (USPHS) 
Commissioned Corps. He is the Health and Human Services (HHS) 
Senior Advisor in the Office of Emergency Management and 
Medical Operations. He previously served as the Deputy Director 
of Health and Human Services Office of Refugee Resettlement. 
Commander White.

 TESTIMONY OF COMMANDER JONATHAN WHITE, PhD,\1\ USPHS, DEPUTY 
     DIRECTOR FOR CHILDREN'S PROGRAMS, OFFICE OF EMERGENCY 
    MANAGEMENT AND MEDICAL OPERATIONS, OFFICE OF ASSISTANT 
  SECRETARY FOR PREPAREDNESS AND RESPONSE, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES.

    Mr. White. Good morning. Chairman Johnson, Ranking Member 
Peters, and Members of the Committee, it is my honor to appear 
today before you on behalf of the U.S. Department of Health and 
Human Services.
---------------------------------------------------------------------------
    \1\ The prepared statement of Commander White appears in the 
Appendix on page 173.
---------------------------------------------------------------------------
    As the Chairman noted, my name is Jonathan White. I am a 
career officer in the U.S. Public Health Service Commissioned 
Corps. I am also a clinical social worker and an emergency 
manager, and most recently, I have been detailed as HHS's 
operational lead in the effort to reunify children who were 
separated from their parents at the Southwest Border.
    I want to talk to you about the Unaccompanied Alien 
Children's program in the Office of Refugee Resettlement (ORR) 
in HHS.
    ORR is responsible for the care and the temporary custody 
of unaccompanied children referred to ORR by other Federal 
agencies, and as a reminder, ORR does not apprehend migrants at 
the border or enforce the immigration laws. HHS is not a law 
enforcement agency.
    As defined by the Homeland Security Act (HSA), if a child 
under the age of 18 with no lawful immigration status is 
apprehended by another Federal agency and there is no parent or 
legal guardian with the child or available in the United States 
to provide care and custody of the child, that child is 
considered, the legal term, as an ``unaccompanied alien child'' 
and is transferred to ORR for care and custody.
    ORR operates shelters nationwide that provide housing, 
nutrition, routine medical care, mental health services, 
educational services, and recreational activities, and these 
provide an environment that has parity with facilities in the 
child welfare systems that house children here domestically.
    The facilities are operated by nonprofit grantees who are 
licensed to provide care to children by State licensing 
authorities, the same that would regulate such facilities 
housing domestic children. The one exception is ORR's temporary 
hard-sided influx care facility on the former U.S. Job Corps 
site in Homestead, Florida, which is not required to obtain 
State licensure because it is located on federally owned 
property. However, children at that location generally receive 
the same level of care and services as children who are in a 
State-licensed facility.
    The UAC program capacity has expanded and contracted over 
the years, driven by the astonishing fluctuations over time and 
the number of children referred and the average time children 
remain in ORR care.
    Currently, HHS maintains about 14,300 beds nationwide. That 
is up from 6,500 beds on October 1, 2017, but it is also down 
from 15,800 beds on November 15, 2018. HHS continues to adjust 
its bed capacity constantly based on the most recent data, 
including information from our interagency partners, to help us 
prepare for changing needs.
    HHS cares for all of these children until they are released 
to a suitable sponsor, almost always a parent or close 
relative, to provide care for them while they await their day 
in immigration court. These children also leave HHS's care if 
they return to their home countries pursuant to an immigration 
judge's order or they turn 18 years of age or they gain legal 
immigration status.
    In fiscal 2018, 49,100 children were referred to ORR by 
DHS. From October through February of this fiscal year, we have 
received over 24,000 referrals.
    In fiscal 2019 through February, children were discharged 
from ORR custody. Ninety-two percent of them were released to 
individual sponsors, and of those sponsors, 46 percent were 
parents, 45 percent were close relatives, and 9 percent were 
more distant relatives or nonrelatives.
    On June 20, 2018, the President issued Executive Order (EO) 
13841, and the U.S. District Court in the Southern District of 
California in Ms. L v. ICE issued its preliminary injunction 
and class certification orders on June 26.
    Pursuant to those, Secretary Azar tasked the Assistant 
Secretary for Preparedness and Response to help us comply with 
that Executive Order and then subsequently with those judge's 
orders, and to that end, we stood up an incident management 
team to reunify children with their parents.
    If the 2,814 children reported to the Ms. L court, as of 
this morning we have reunified 2,160 of them with the parent 
from whom they were separated. Another 595 children have left 
ORR care through other appropriate discharges, in most cases 
released to a family member sponsor.
    There are 16 children still in our care who were separated 
but cannot be reunified with their parent because we have made 
a final determination that that parent poses an unacceptable 
risk to the safety and well-being of that children.
    There are 32 children still in ORR care whose parents, 
after consulting with the American Civil Liberties Union 
(ACLU), have waived reunification, and there are 9 children in 
care whose subsequent review determined had not in fact been 
separated from their parents but were truly unaccompanied 
children.
    As of this week, of the 2,814 children reported to the Ms. 
L court, there are only two children remaining who might still 
one day be reunified. We cannot reunify them at this time until 
the parent conveys their wishes to the ACLU.
    The UAC program's mission is a child welfare mission. We 
seek to serve the best interest of each individual child. That 
has guided us in everything we do, including in our work to 
have each separated child back in his or her parent's arms or 
discharged safely to another family member sponsor when that is 
their parent's wish. We have done, and will continue to do, our 
best as a Department to achieve that goal.
    Thank you for the opportunity to speak with you today, and 
I will be happy to answer any questions that you have for me 
about our program.
    Thank you.
    Chairman Johnson. Thank you, Commander White.
    Our final witness is Greg Cherundolo. Mr. Cherundolo is the 
Chief of Operators for the Drug Enforcement Agency. He leads 
DEA's 222 domestic offices and 90 foreign offices. Mr. 
Cherundolo.

  TESTIMONY OF GREG CHERUNDOLO,\1\ CHIEF OF OPERATIONS, DRUG 
         ENFORCEMENT AGENCY, U.S. DEPARTMENT OF JUSTICE

    Mr. Cherundolo. Good morning, Chairman Johnson, Ranking 
Member Peters, and distinguished Members of the Committee. It 
is an honor to appear before you today to discuss Mexican 
cartels, the extent of their influence to manufacture, 
transport, and distribute illicit narcotics in our efforts to 
combat this threat.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cherundolo appears in the 
Appendix on page 180.
---------------------------------------------------------------------------
    I have had the honor and privilege of serving as a law 
enforcement official for 27 years, with the last 22 of those 
years being as a DEA Special Agent. When I reflect on those 27 
years of experience, the sophistication and capacity of Mexican 
cartels is what worries me most.
    Dangerous and highly sophisticated transnational criminal 
organizations, or cartels, operating in both Mexico and the 
United States have been, and will continue to be, the most 
significant source of illicit narcotics trafficked inside the 
United States. Whether it is heroin or synthetic opioids, 
methamphetamine, or marijuana, the Mexican cartels are the 
primary source of illicit drugs on our streets.
    Perhaps the most disturbing aspect of Mexican cartels has 
been the confluence of three things: the synthetic drug threat; 
the epidemic of opioid abuse; and the cartel's attempt to 
expand their profits by intentionally mixing fentanyl and 
fentanyl-related substances with heroin, counterfeit 
prescription drugs, and other illicit drugs, including cocaine 
and methamphetamine. This is done for one simple reason: greed.
    This is a national threat and a public health emergency 
fueled by fentanyl, which is cheap to make, hard to detect, and 
dangerously potent.
    Now consider this. Chinese and Mexican nationals are 
increasingly operating in concert, resulting in an alignment 
responsible for their proliferation of heroin, fentanyl, and 
related synthetics coming across our Southwest Border.
    Couple this with the fact that a kilogram of fentanyl can 
be purchased for less than $5,000 for China, and potential 
profits from the sale of that kilogram can exceed $1.5 million. 
The cartels are deliberately seizing on the suffering of 
thousands of individuals to generate profit.
    The same organizations are transporting methamphetamine and 
cocaine across the Southwest Border at an alarming rate. We 
cannot afford to lose our focus on cocaine and methamphetamine.
    The cartels are responsible for record amounts of 
methamphetamine entering the United States, and recent 
increases in coca cultivation and cocaine production are 
particularly troubling, likely foreshadowing an increase in 
importation and abuse and overdose deaths.
    DEA anticipates that Mexican cartels, such as the Sinaloa 
Cartel and the Jalisco New Generation Cartel (CJNG), as well as 
others will continue to be the primary networks operating in 
more than one country to plan and execute their criminal 
enterprises. These cartels do not observe boundaries or laws in 
Mexico, the United States, or any other country.
    As you know, in 2017, Mexico extradited Joaquin ``El 
Chapo'' Guzman to the United States, and he was just recently 
convicted in the Eastern District of New York. This is a major 
milestone, but more work needs to be done.
    Now what is DEA doing to counter this threat? We recognize 
this will take persistent efforts across a broad spectrum to 
include interagency and global partnerships. For decades, we 
have maintained a worldwide presence to address the source of 
drugs.
    In Mexico, DEA continues to synchronize and expand 
capabilities to combat the growing epidemic. We have developed 
a bilateral heroin strategy for intelligence sharing, 
coordination of investigations, training, increased sharing of 
forensic information, and the control of precursor chemicals.
    We also participate in the North American Drug Dialogue, 
which focuses on building a strategy to attack the production, 
trafficking, consumption, and misuse of illicit narcotics in 
North America.
    DEA will continue to aggressively pursue criminals 
trafficking in illicit drugs. Targeting the world's most 
dangerous drug traffickers and their criminal organizations is 
a dynamic and evolving mission, and it comes with a myriad of 
challenges.
    Throughout our history, DEA has aggressively met those 
challenges and produced impressive results.
    We look forward to continuing our work with you and your 
Senate colleagues to identify resources and authorities 
necessary to complete our mission, and I thank you for the 
opportunity to testify before the committee today on this 
important issue. I look forward to your questions.
    Chairman Johnson. Thank you, Mr. Cherundolo.
    Again, I really appreciate the attendance here by Members, 
so I will defer my questioning until the end.
    We do have a vote. We are going to deal with it at 11 
o'clock. My intention will be to keep the hearing going. I hope 
we can get some cooperation by committee Members.
    With that, I will turn it over to Senator Peters.
    Senator Peters. Thank you, Mr. Chairman, and thank you 
again to our witnesses for your testimony today.
    Mr. Chairman, I also have a letter here from the National 
Treasury Employees Union (NTEU) that I would like to submit for 
the record.\1\
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Peters appear in the Appendix 
on page 217.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Peters. Thank you.
    A big part of what we have been trying to accomplish in the 
last hearing and this hearing is trying to get just a sense of 
what are the facts on the ground that we can all agree on in a 
bipartisan way, take the rhetoric, push that all aside, and 
just figure out how we can deal with a significant problem.
    Related to that, of course, is having good data. You need 
to have the numbers, and the Chairman is a numbers person, like 
I am. We want to make sure that we are getting that kind of 
information and we are getting it on a timely basis, which has 
not really been happening.
    The Government Accountability Office (GAO) recently 
recommended that the DHS develop and implement a process to 
systematically review and look at the reliability of the data 
used in its Border Security Metrics Report and identify any 
limitations in how it is used.
    So my question is for all the witnesses. Are there any data 
points that we are not collecting now that would provide 
critical insight into these challenges that we are having in 
the border?
    I would like to ask all of you if you have anything to 
share related to what we are not collecting now that you think 
we should be.
    Mr. Karisch, do you want to start us off?
    Mr. Karisch. Senator, we collect a lot of information right 
now, but I think we also need to go a little further in regards 
to the finances of what exactly criminal organizations are 
making. I think that that is key.
    We all have our ideas on how much money flows into the 
hands of criminal organizations, whether it is the brush guide, 
whether it is the transportation cell, the stash house 
operators. I think we collectively need to get better at 
sharing that information to attack the finances. I do not think 
that we are going to be able to interdict our way out of this 
problem without attacking the finances. So I definitely would 
think that more financial information in data shared between 
the different agencies would be helpful.
    Mr. Howe. I agree with everything that Chief Karisch said. 
We are an information agency. We collect lots of data points. 
Everything that we do, the migrants that we are intersecting, 
the different modes of narcotics that are coming through our 
border, working with our interagencies, just to continue to 
work together with our interagencies and sharing information 
and building on those trends so we continue to target the 
narcotic threat.
    Mr. Tubbs. I can tell you specifically for us as 
Immigration and Customs Environment, Homeland Security 
Investigations, that is very important to us in everything we 
do, justifying our operations showing results for the end of 
the year, staffing, etc., and we are very meticulous about our 
stats.
    I can tell you even today, coming forward to be here to 
testify in front of you, we are very careful about the stats 
that we report, the information that we report, and we want to 
make sure that we report that correctly.
    But we do look very closely at the money laundering, the 
finances, every criminal investigation that we conduct, whether 
it is human smuggling. Whether it is narcotics, weapons, child 
exploitation, child pornography, intellectual property rights, 
we have specific groups that just look at finances, and that is 
information that we collect very closely and very carefully. I 
think that is something we can share with our partners in DHS.
    And just across DHS as far as sharing of information, if 
there was a one-DHS information compile and share, I think that 
would be beneficial to all of us.
    Thank you.
    Senator Peters. Great. Thank you. Commander.
    Mr. White. I do not think we have sort of data points that 
we are missing. I think the effectiveness of our agency is 
sometimes challenged by the fact that we are a child welfare 
agency in a surrounding law enforcement process, and I think 
there continue to be challenges with exchange of information 
because of the inherent challenges we have receiving some law 
enforcement-sensitive information that would enable us to make 
the safest placement decisions we could for a child, including 
receiving 213 information on children and those accompanying 
them.
    Thank you, sir.
    Senator Peters. Thank you.
    Mr. Cherundolo. Senator, I do not think there is a data 
point that my partners here at the table do not already collect 
related to the specific border; however, the one data point 
that we can point to at least from a perspective of Chinese and 
Mexican trafficking groups trafficking in fentanyl is how the 
class scheduling of fentanyl and fentanyl analogs has 
affected--when we look at the data points we look at across our 
seizures as a result of our investigations, we find that 
anytime that our Chinese counterparts have controlled fentanyl 
or fentanyl analogs, it has decreased the number of seizures in 
us seeing that analog here in the United States.
    Because those groups are working together to get fentanyl 
into the United States, I think that has helped us to reduce 
the amount of fentanyl that is leading to overdoses in the 
United States.
    But as far as the border-related data points, I think our 
partners have covered down well on that, and we continue to 
share information back and forth as a result of our 
investigations and what they are doing as well.
    Senator Peters. Thank you.
    I have heard all of you talk about sharing of data. My 
question to you, Commander White, in January the HHS Office of 
Inspector General (OIG) concluded that the agency faced 
significant challenges in identifying separated children--and 
this is a quote--``including the lack of an existing integrated 
data system to track separated families across HHS and DHS.''
    So, Commander, based on your experience as the Federal 
health coordinating official for the mission and reunifying 
children who are separated, could you tell us more about that? 
What are the gaps? What do we need to be doing to make sure 
that we are able to identify where the separated children are?
    Mr. White. So, as a reminder, we are able in ORR to tell 
you for any child who has been in our care to whom we release 
that child, what the relationship of that person to the child 
was and the address that they had when we release them.
    I think this is key, while we now know every child who was 
in our care on June 26, of those 12,000 children, whether each 
child was separated or not separated, what we do not know and 
what HHS OIG correctly documented is that we still do not know 
how many of the children we had already released to a family 
member had been separated or referred to us.
    But the problem is not one of interagency data sharing, per 
se. The problem is that children were separated and no record 
was kept of it. That is not a data exchange problem.
    It is also more fundamentally the problem that the 
unaccompanied alien children program is designed for 
unaccompanied children, not separated children, and orderly 
systems for exchange of data do not undo the harm caused by 
separating children from their parents. That is the proper 
focus for all congressional inquiries about separation. What 
are the legitimate conditions under which a child may be 
separated from a parent at the border? What are the appropriate 
systems, including what kind of rights of remedy and appeal 
does a parent have? How can ORR and DHS have equal power to 
determine if a child is accompanied or unaccompanied, so that 
ORR may refuse a referral of a child who is in fact 
accompanied?
    The issue is not how well it was tracked; the issue is that 
it happened at all.
    Senator Peters. Well said, Commander. Thank you for that 
testimony. Appreciate it.
    Chairman Johnson. Commander, as long as we are on this 
topic, just real quick, reading your testimony, it seemed like 
a real challenge was complying with a court order in terms of 
what the definition was of a separated child.
    There are real legitimate reasons to separate a child from 
an adult. For example, we heard in testimony that an adult male 
finally made it with a 1-year-old child who was not his. Could 
you just speak to that?
    Mr. White. We have always seen appropriate separations of 
children, both from parents and from people who claim to be 
their parents fraudulently, and it is our experience that our 
colleagues in DHS very honorably attempt to confront a really 
difficult set of challenges when they apprehend a minor.
    The real problem is that there is no real legal--there is 
no statutory guidance when a child may be separated, under what 
conditions, what is a permissible reason. There will always be 
some children separated from parents for reasons of the child's 
safety or the need to immediately criminally prosecute someone 
with, for example, felony warrants. There will always be 
children separated from individuals who fraudulently claim to 
be parents who are not. But that is different from what we saw 
over the last year.
    Chairman Johnson. Again, I just want to understand your 
testimony.
    Part of the problem and part of the confusion here is for 
years, we have been doing legitimate separations for a host of 
reasons, and part of complying with this was trying to figure 
out exactly what matched the dictates of the court order, 
correct?
    Mr. White. The historical norm is that about 0.3 percent of 
all referrals are separations. In the fall of 2017, that 
increased tenfold to 3 percent. By the spring, it was much 
higher than that as a percentage. So the issue is how do we 
determine what are the reasonable standards for separation, and 
that is a job for Congress.
    Chairman Johnson. So, there again, we need some 
legislation. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Chairman. Thank you for holding 
the hearing and for each of you for your service.
    These are difficult times, are not they? All of you have 
been in this business for a long time. I looked at your 
resumes. You probably have never experienced something quite 
like this, the influx of particularly families and kids. We are 
in a crisis on the border. We certainly are, and it is worse in 
terms of families and kids than it was when President Obama 
called it so, a crisis. So I appreciate what you are doing.
    I have focused a lot on the pull factors. The push factors 
are also important, what we do with these Northern Triangle 
countries--Guatemala, El Salvador, Honduras--is incredibly 
important, but that is going to be a longer-term prospect.
    Short term, I want to ask, if you do not mind, Mr. Karisch, 
Mr. Howe, and Mr. Tubbs, do you believe the people who are 
coming here, family units and otherwise, are coming here 
primarily for economic reasons and primarily to get a job that 
pays better for their families?
    Mr. Karisch. Sir, based on what I have seen out in the 
field at this point in time, the vast majority are coming here 
for economic reasons or, of course, for family reunification. I 
am not saying that there are not credible fear claims or asylum 
claims out there that are true.
    Senator Portman. I am not either. I think that number is 
about 85 percent of those who seek asylum are not getting 
asylum because they cannot meet the criteria.
    But my question to you is, Do you think most folks are 
coming here for economic reasons to get a better job?
    Mr. Karisch. Yes.
    Senator Portman. Mr. Howe.
    Mr. Howe. Agree, Senator, the same. The numbers prove that 
out, the 85 percent that are being claimed.
    Senator Portman. Mr. Tubbs.
    Mr. Tubbs. Yes, sir. I would agree that they are coming 
here for economic reasons. I mean, anytime we look at 
unaccompanied children or family units, one of the things that 
we look at specifically is HSI and doing our criminal 
investigations to ensure that there is no family fraud, to look 
at the welfare of the child, that there is no case where they 
are put in a situation for child exploitation.
    It is also a reason why we have increased our work site 
enforcement, our interior enforcement, because that really is a 
pull factor.
    Senator Portman. Let me focus on that for a second. Would 
it surprise you to know that under our current E-Verify system, 
one, it is not mandatory; two, often people can use a fake ID, 
a fraudulent ID, Social Security card or driver's license? And 
so we do not have a system that is effective to know who is 
legal or who is not so that the employer can make that 
determination. I mean, that is what we have now, correct?
    Would you support a mandatory E-Verify system so that we 
can help to reduce the magnet, the pull?
    Go ahead. Mr. Howe, you came to the mic first.
    Mr. Howe. Yes. Absolutely, we would support that. Anything 
that would reduce the pull factor.
    Senator Portman. Mr. Karisch.
    Mr. Karisch. Yes, sir.
    Senator Portman. Mr. Tubbs.
    Mr. Tubbs. Any tool that we get is going to help us 
greatly.
    Senator Portman. Yes. We have a bipartisan proposal to do 
that, and I think that is something that sometimes we miss in 
this conversation about the border, as important as it is to 
have a secure border. When you have that kind of a pull factor, 
that kind of magnet, people find a way, do not they, to get 
through, over, or around the border?
    Commander White, you and I kind of know each other. I 
believe you are a compassionate person, and I think you care a 
lot for these kids. I think you have been in a very tough 
situation. You have talked about that today.
    I know there is now a discussion about reinstating the 
zero-tolerance policy, which led to the family separations you 
talked about earlier.
    What was the effect on ORR last year when the 
Administration implemented the zero-tolerance policy?
    Mr. White. So the effect of zero tolerance or of other 
policies that resulted in separating children from family 
units, as a reminder, the great majority of children who cross 
our border each day are accompanied. They are part of family 
units. Most typically, they are with a parent, and they are 
accompanied.
    So the first thing that happened to the program is that the 
program's capacity was overwhelmed, but to say that sort of 
understates the severity of the harm because it was overwhelmed 
with children that we are not prepared to serve easily because 
ordinarily the great majority of the children that we receive, 
about 80 percent of them, are teenagers.
    But when you separate children from their parents, we get 
babies and toddlers and other very young children. So, as you 
know, of the 2,814 children, 107 of them were 4 years of age or 
younger.
    Our specific capacity that States have licensed to serve 
what we call tender age under 12 and very young 5-and-under 
children was exceeded. This puts these children at significant 
risk, and of course, it also bears repeating that separating 
children from their parents entails very significant risk of 
severe psychological harm to those children, and that is an 
undisputed scientific fact.
    Senator Portman. Commander, you also have a Ph.D., so you 
have some credibility in terms of understanding that dynamic.
    Let me ask you this. If we were to do it again tomorrow, 
you have said earlier in your testimony there was a systems 
breakdown. Do we have the infrastructure to handle it? Yes or 
no.
    Mr. White. We have made improvements to our tracking. We do 
not have the capacity to receive that number of children, nor 
do we have the capacity to serve them, nor is it possible to 
build a system that would prevent the mass traumatization of 
children.
    Senator Portman. OK. Mr. Howe, I think you would agree that 
your detention facilities are full right now. I am talking 
about your broader detention facilities, not just for 
unaccompanied kids or kids who are separated. So we do not have 
the capacity right now, the infrastructure. Is that accurate?
    Mr. Howe. At our ports of entry, we do not have long-term 
detention, but at the end of the process through ICE 
Enforcement and Removal Operations (ERO), yes, we are full.
    Senator Portman. Yep, we are full.
    By the way, Commander White, has anybody consulted with you 
about the idea of reinstating the zero-tolerance policy?
    Mr. White. No. No, sir.
    Senator Portman. You get about 2 to 300 kids a day now 
coming in, unaccompanied kids? You have about 12,000 kids in 
your care. You are working on this court order to try to 
reunify kids, but I am talking about just unaccompanied kids 
who come in.
    Let me ask you just briefly about your problem you have had 
in getting sponsors. We are very concerned here in this 
Committee and elsewhere that you were sending kids out to 
sponsors who were traffickers.
    In one case in Ohio, as you know, the Marion egg farm case, 
we had kids who were literally given back to the traffickers 
who had brought them up from Guatemala, and they abused these 
kids. There have been, by the way, seven indictments now in 
that case of traffickers.
    But let me ask you. How are you doing now with sponsors? I 
mean, we wanted to be sure that the sponsors were 
fingerprinted, that there was a way to understand who these 
people were, so you were not giving kids out to traffickers 
again. You put that in place. My understanding is there was 
concern about ICE and others following up with those 
individuals, and therefore, your sponsorship pretty much dried 
up. Now you have more sponsors coming back because in the 
appropriations bill, I guess we said that ICE cannot follow up 
from an immigration perspective. Is that accurate?
    So tell us how this is working.
    Mr. White. So we continually adjust our case management 
vetting methods to try and find the right balance between 
safety and discharge and timeliness and discharge.
    We grossly failed in 2014, those children in that egg farm 
case, and that led to a revolutionary change inside the program 
about our standards. Our standards now are not comparable to 
what they were then.
    But in 2017, I would submit that we actually pushed safety 
so far that it broke discharge, and children stayed in care an 
unprecedented average length of time, and our discharge rate, 
which is for every 100 children in care, how many get 
discharged every day, that fell to below 1 percent. This is why 
the Tornillo Temporary Influx Facility was stood up. That was a 
direct consequence of the combination of separation and falling 
discharge rate.
    By making appropriate changes, including now we only--under 
our current operational directive, we only do fingerprint 
background checks. We do all the other kinds of background 
checks on every sponsor, but we only do fingerprint background 
checks on parents if there is another red flag, another 
indication of danger.
    Our discharge rate is back up to 2 percent. The average 
length of time of children in care continues.
    But I want to be clear. We studied every case where we 
denied a discharge to a parent based on the fingerprints, and 
we did not find cases where we did that on fingerprint only. We 
found the identified threats to those children's safety through 
the numerous other methods that we used at identify 
verification, relationship verification, and child safety.
    We are in a different world than we were in 2014, but we 
will continue to make changes as we need to, to balance safety 
and timeliness and discharge.
    Thank you, sir.
    Senator Portman. Thank you.
    Thank you, Chairman.
    Chairman Johnson. As long as we are talking about discharge 
and sponsors, we just got some information from HHS, and I just 
want you to confirm this, Commander.
    Between July 2018 and January 2019, there were a total of 
23,445 unaccompanied children or children discharged to a 
sponsor. 18,459 of those were released, discharged to someone 
without legal status. Is that a pretty accurate figure?
    Mr. White. I do not have in front of me the numbers, but 
those numbers would be consistent with general patterns. The 
majority of sponsors, individual sponsors, are people without 
immigration status.
    Chairman Johnson. I will just ask for consent to enter this 
into the record.\1\
---------------------------------------------------------------------------
    \1\ The information referenced by Mr. White appears in the Appendix 
on page 205.
---------------------------------------------------------------------------
    It just shows again how completely out of control this 
process is right now. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chair, and I want to thank 
you and the Ranking Member for this hearing today. I want to 
particularly thank our witnesses. Thank you for your service. 
Thank you as well to all the men and women who you work with 
each and every day.
    Before I begin my questions, though, I do also want to 
express my profound concern about the turmoil at the top most 
levels of the Department of Homeland Security. The Department 
is tasked with the vital mission of securing the Nation from 
the many threats we face, and the type of turnover we are 
seeing right now presents a direct threat to the ability to 
effectively carry out that mission.
    We need to see qualified leaders put forward who have the 
experience needed to keep Americans safe and who will also 
stand up to the President, if necessary, to uphold the rule of 
law and the values that make us strong.
    I want to turn now to a question to Mr. Howe and Mr. 
Cherundolo because last Congress we passed--and the President 
signed--a bill that would provide more technology for border 
agents to use so that they could detect fentanyl at the border.
    Last spring when I was at the border, I heard during my 
visit that the agents still did not have all the access to that 
equipment.
    Former Secretary Nielsen stated that this was unacceptable 
when she testified before this Committee last May.
    To both of you, can one of you update the Committee on how 
the International Narcotics Trafficking Emergency Response by 
Detecting Incoming Contraband with Technology (INTERDICT) Act 
implementation is going now? Do our agents have the technology 
they need to keep them safe as they are detecting fentanyl?
    Mr. Howe. Thank you for the question, Senator.
    The $564 million that you speak of, the non-instructive 
inspection (NII) enhancements for FY19, that is going to really 
change the way we do business on the Southwest Border. It is 
really going to transform our capability to scan more vehicles 
and more trucks, considerably more than we are doing today. So 
it is going to take some time to work with the vendors, the 
purchase, and to get them into place, but it really is going to 
transform where we are doing the interdiction.
    We know that through our mail facilities that we are seeing 
fentanyl. So the $45 million that we received also in FY19 will 
allow us to enhance our NII, or non-instructive inspection, 
technology in both our mail facilities and our express 
consignments.
    Senator Hassan. OK. So it is still a work in progress is 
what you are telling me. That we do not have all the technology 
that is provided by the funding yet?
    Mr. Howe. We are working through it. It is going to take 
some time.
    Senator Hassan. Mr. Cherundolo, do you have anything to 
add?
    Mr. Cherundolo. Senator, the only thing I would add, that 
any of that is welcome to us because many times those seizures 
at the border are the start of an investigation----
    Senator Hassan. Right.
    Mr. Cherundolo [continuing]. For both DEA and HSI, but we 
would support any advanced technology that can be given to our 
colleagues on the border. But those would not specifically 
apply to DEA.
    Senator Hassan. OK. Thank you.
    I am still concerned that we do not have as much equipment 
as we need. I am very concerned about the safety of the people 
on the front lines. Fentanyl, as we all know, is so dangerous 
even to the touch. So I will look forward to following up with 
the agency about how we can accelerate this.
    Commander White, I wanted to follow up a little bit with 
you on the discussion that you have just been having about the 
family separation policy and the efforts that your agency has 
made to reunite families and children.
    You talked about the numbers in the Ms. L case, that class 
of individuals represented by the ACLU, but we also know that 
there are other children--and you just mentioned it in your 
testimony--who before the policy was announced were apparently 
separated from their families.
    When you appeared before this Committee last year and just 
now, you were very clear about the impact of family separation 
on children. That children are traumatized and can suffer long-
term psychological damage from this kind of separation, and I 
thank you for your clarity and your honesty on that issue.
    But that is why I was so troubled to see your statement a 
few days ago stating that it could take 2 years to identify 
what could be thousands of children who were separated from 
their families. Can you tell me why it will take so long and 
what we can do to speed this up?
    Mr. White. Yes, Senator.
    So what the Senator is referring to is my declaration and 
the plan which I developed and which the government has 
submitted to Judge Dana Sabraw in the Southern District of 
California on how we would do that identification.
    I want to be clear. The 1 to 2 year timeframe is if we 
reviewed all of the approximately 47,000 children who were 
referred by DHS starting on July 1, 2017, and had already been 
discharged to a family member or otherwise appropriately 
discharged by the date of the court hearing.
    The plan--and this is in the declaration--is designed to 
accelerate that process. I do not know that it will, but it 
represents my personal belief if the best, most effective way 
to find the children, to identify which of the children that 
were discharged were separated, and to do so as fast as is 
possible.
    But the answer to your question is because it is 47,000 
children. They have all been discharged, and there is no list. 
This is the fundamental reality.
    The reason that it is challenging now is because there is 
no list of separated children. We must identify them. So we 
will use, if the judge approves it, the methods that I have 
outlined, and if he does not approve it, without getting too 
much in litigation, then I guess we will all be back to the 
drawing board.
    I believe that the plan, which is in my declaration, is the 
best way to identify who the kids were. That is why.
    Senator Hassan. Yes or no. Would more staff help you do it 
faster?
    Mr. White. I do not believe that staffing is the key 
variable.
    Senator Hassan. Would you please commit to submitting to me 
any recommendations you could make in terms of resources or 
other things Congress could provide to you that would help you 
speed that process up?
    Mr. White. Yes, ma'am. I will make that commitment.
    As a reminder, this is before the judge currently, and I am 
awaiting his direction.
    Senator Hassan. I understand that.
    Commander White, I just also wanted to again thank you for 
being clear about the impact of what has been an inhumane and 
un-American policy of family separation, and I take it from 
your comments earlier in your exchange with Senator Portman 
that you do not support reinstating this policy?
    Mr. White. I would never support the use of family 
separation, the systematic traumatization of children as a tool 
of immigration policy, but it is not about what I support.
    Senator, it is about what you and your colleagues support, 
and it is up to you to define the conditions under which a 
child may be separated. Congress has not done that, and you 
need to.
    Senator Hassan. Thank you. I appreciate that very much, but 
I also appreciate that I believe that this Administration 
should not move forward with family separation. I believe there 
are other ways we can secure our borders, and I appreciate very 
much the input and the feedback that you have all provided to 
us today.
    Thank you, Mr. Chair.
    Mr. Cherundolo, I have a question I will submit to the 
record for you about southbound trafficking of guns and cash 
going over from the United States to Mexico. I would like to 
follow up with you about how we can slow that kind of traffic.
    Mr. Cherundolo. We would be happy to get you the 
information, Senator.
    Senator Hassan. Thank you very much.
    Thank you, Mr. Chair.
    Chairman Johnson. Senator Lankford.
    I was told that the vote was delayed by about 10 minutes, 
so we have plenty of time for both you and Senator Romney, if 
you are sticking around.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. We will take it from there. Thank you, 
Mr. Chairman.
    Commander White, the children that are being placed in 
homes, the UACs specifically, you said that vast majority of 
those, you are placing in homes to someone who is also not 
legally present in the United States. So this is typically 
teenagers, and what percentage do you expect are being placed 
in homes of someone who is not legally present in the United 
States?
    Mr. White. I do not know a percentage. I can say only that 
it is the very great majority.
    Senator Lankford. So are we talking 80 percent, or are we 
talking 55 percent?
    Mr. White. I would assume it would be closer to 80, but I 
do not have an exact percent.
    Senator Lankford. OK. How can we get that number?
    Mr. White. We can work, to the extent that we have it, to 
provide it to you.
    Senator Lankford. So you are saying the vast majority, we 
expect are not legally present or we know are not legally 
present?
    Mr. White. I would have to get back to you on that.
    Senator Lankford. So, in the background check, are we 
trying to verify if this person is legally present or not or 
just if they have a criminal record in the United States?
    Mr. White. The background check in many cases does, indeed, 
look at immigration issues, subject to what we get from 
interagency partners.
    So, in each individual case, we would know the immigration 
status of the sponsor, but that does not mean that we have 
ready aggregate reporting. So that is why I do not have all 
the----
    Senator Lankford. OK. Wait. Hold on for a second. Help me 
understand that. So you do know for each sponsor----
    Mr. White. Yes.
    Senator Lankford [continuing]. If they are legally present 
or not?
    Mr. White. Based on the records we receive from other 
agencies, yes.
    Senator Lankford. So then could not we just get a 
percentage, then, of those individuals, the UACs that have been 
placed, what percentage have been placed in homes of someone 
who is not legally present?
    Chairman Johnson. Senator Lankford, really quick, in front 
of you, that is what I just entered in the record. Seventy-nine 
percent from whatever the dates were, were placed with a 
sponsor with no legal status.
    Senator Lankford. Right.
    Chairman Johnson. I think the other thing to point out is 
fingerprints only tell you whether they have a criminal record 
in America. They do not do----
    Senator Lankford. Right.
    Chairman Johnson. OK.
    Senator Lankford. Right. So that is what I am trying to 
figure out.
    So the background check is verifying whether they have a 
criminal record in the United States.
    Mr. White. We seek, to the extent we can get it, to also 
get information on criminal history in the country of origin.
    Senator Lankford. This is just an ongoing issue because we 
have parents or relatives that have come to the United States 
illegally across the border, have worked here for years, who 
have sent a message back home, and then they are out paying 
someone to be able to transition then through Mexico to be able 
to come here. And then we are delivering them the last mile 
back to their families, to be able to reunite families, in that 
sense, of someone who is not legally present here and then also 
with a child that they transited with someone who is a 
nonrelative through Mexico to get here. Is that the typical 
story? Mostly teenagers?
    Mr. White. It is mostly teenagers.
    I do not have any way of knowing how many of them----
    Senator Lankford. Yes, how they got here.
    Mr. White [continuing]. Were with their parent that did the 
transition.
    But the scenario you described would not be uncommon.
    Senator Lankford. Thank you.
    In our hearing last week, Trafficking Victims Protection 
Reauthorization Act of 2008 (TVPRA) and Flores came up as the 
two biggest issues by far.
    Mr. Howe, Mr. Karisch, you were very clear to just say 
Congress needs to act. Last week it was very specific. What we 
need Congress to do is to address Flores and TVPRA. Is that 
your opinion of what needs to be addressed?
    Mr. Howe. Yes. Agree to allow families to stay together 
through the Flores Agreement and then the TVPRA to allow the 
repatriation to noncontiguous countries.
    Senator Lankford. OK. Mr. Karisch.
    Mr. Karisch. I completely agree.
    Senator Lankford. How many individuals do we have coming in 
family groups that are coming from Mexico?
    Mr. Karisch. Very small number right now, Senator. I mean, 
the vast majority, 65----
    Senator Lankford. Give me a ball-park guess. Is it 2 
percent, or is this----
    Mr. Karisch. I would have to get those numbers for you, but 
65 percent on the Central American families that we are seeing 
coming across the board, with a very small percentage of 
Mexicans with families.
    Senator Lankford. So you are saying 65 percent? Is that 
what you said?
    Mr. Karisch. Yes.
    Senator Lankford. Those are families from Central America?
    Mr. Karisch. Central America, Triangle countries.
    Senator Lankford. So the other 35 percent of the folks are 
coming from where?
    Mr. Karisch. Mexico, but we are also seeing them from 
different parts of the world in the people that we apprehend.
    Senator Lankford. You had mentioned just in your region----
    Mr. Karisch. Yes.
    Senator Lankford [continuing]. There were 50 different 
nations represented.
    Mr. Karisch. Yes, sir.
    Senator Lankford. I did not get the time period on that. Is 
that this fiscal year?
    Mr. Karisch. Just for this fiscal year, yes, sir.
    Senator Lankford. So, in the last 6 months, you have seen 
50 different countries----
    Mr. Karisch. Yes.
    Senator Lankford [continuing]. Coming that are family 
units?
    Mr. Karisch. Not family units. Single adults who are trying 
to evade arrest.
    Senator Lankford. OK. So the question becomes very 
difficult here on how to be able to manage the personnel.
    Mr. Howe, you had mentioned before, when you pull people 
off of the land ports of entries to be able to manage what is 
happening between ports of entries, it has a real effect--4 
hours of wait time for a truck to be able to get in and going 
all the way through an entire day and there are some trucks 
that never got processed that go in the next day, makes the 
next day even harder, obviously, as well to be able to move. 
What do you see as the snowball effect of having to be able to 
move people to between ports of entries to what is happening at 
the land ports of entries for long-term shipping and trade?
    Mr. Howe. Yes. Thank you, Senator. I think you have stated 
it, and that is we have pulled 545 frontline officers that 
normally work cargo and passenger vehicles. What we are seeing 
is what I mentioned in my opening remarks. We are seeing double 
the wait times in both privately-owned vehicle (POV) and cargo, 
and this is an immediate response to the crisis that we are 
seeing in between the ports of entry.
    Senator Lankford. Mr. Karisch, the issue of fake families 
was brought up, individuals that are coming with a child that 
is not their own and not directly related to. How has that 
changed in the last year or two in what you have seen?
    Mr. Karisch. I will tell you that back in 2014, less than 1 
percent of the males that were apprehended actually came with a 
child. Right now it is 50 percent.
    Senator Lankford. Fifty percent?
    Mr. Karisch. Fifty percent of the males that are coming 
into this Country right now have a child with them. They 
recognize that because of the Flores settlement is that they 
are not going to be kept in custody. So, I mean, that shows you 
exactly how they are exploiting the system.
    Right now because of volume, it is very difficult for us to 
spend a great deal of time in interviewing every single person.
    Senator Lankford. So our laws are incentivizing people to 
be able to travel with a child. In other words, if you get in 
with a child and put a child through this trauma of all the 
travel and the transit, then you get a more expedited process 
when you get here?
    Mr. Karisch. Yes.
    Senator Lankford. The question is on a child that is not 
related to the person or is very distant related to the person 
they are traveling with. What percentage of people or what kind 
of numbers are we talking about? Is this 2,000? 3,000? How many 
have we seen this year?
    Mr. Karisch. Senator, I will have to take that one back for 
the record. I do not have that offhand, but I can tell you that 
we have seen the fraudulent family units. We have seen the 
recycled children.
    Senator Lankford. So when you say recycled children, that 
is a child that has come, somehow they were sent back over, and 
they are showing up again?
    Mr. Karisch. Yes. We have also seen--I talked about it 
earlier in the fact that the criminal organizations are making 
significant profits out of the smuggling.
    People that are released with documents from our 
facilities, meaning that they can travel anywhere in the 
country, have been found in stash houses in Houston because 
they still have not paid off the criminal organization. So that 
shows you just how much control the smuggling organizations 
have.
    In RGV, there are four specific areas where all family 
units are routed to. Every other zone in the sector is reserved 
for narcotics, so very controlled, very organized, very 
structured.
    Senator Lankford. Mr. Chairman, this is an area that if we 
do not fix the law, we are continuing to look away from human 
smuggling, and that is something we should not look away from 
and should not ignore. What I keep hearing over and over again 
from every panel is they need Congress to act on these areas, 
or this never gets better.
    Chairman Johnson. What I said in the opening statement, 
this is a problem here and now, and we need to act now.
    I thought it was interesting. In last week's hearing, the 
witnesses said that the border is completely controlled on the 
southern side by the drug cartels. Nobody is moving through 
there without paying the fee, paying the ransom basically. So 
we need to recognize this, and we need to act. Senator Romney.

              OPENING STATEMENT OF SENATOR ROMNEY

    Senator Romney. Thank you, Mr. Chairman.
    Thank you, Ranking Member, as well for holding this 
hearing.
    I want to say thank you to the individuals that you serve 
with. Your service and their service is a great tribute to our 
Nation and is critical to our national security and to our 
commitment to principles of human dignity.
    I must admit that I am sure, like many people, deeply 
troubled about the vacancies at the Department of Homeland 
Security and the transition process that has been carried out 
with regard to those vacancies. I think it is dangerous, 
dangerous given what is happening at the border, dangerous 
given the broad responsibility that the Department of Homeland 
Security has for protecting our Nation. It is seriously 
troubling.
    Let me turn with that, with something specifically that 
relates to your testimony. If there were no fence, if there 
were no Border Patrol agents, if there were no ICE, and we just 
said, ``Hey, anybody that wants to come to this country, come 
on in,'' my expectation is you would have tens of millions, if 
not hundreds of millions or more people who would say, ``I 
would rather live in the United States of America than 
somewhere else'' and for many reasons. We are certainly not 
suggesting that, but I do believe that we need to put in place 
processes and measures legislatively, as the Chairman has 
indicated, but perhaps other ways as well to make sure that we 
do secure our border and that we have systems that do not 
attract people here in such huge numbers.
    We have legislative fixes that need to come both short term 
and long term, and like Senator Portman who described the 
importance of E-Verify, I would underscore at least my personal 
view that mandatory E-Verify for hiring in this country is 
essential if we are going to turn off the magnet that draws 
people into the Country illegally.
    But the challenges that you have each described today have 
suggested to me that we do need to have a legislative fix, and 
I am going to ask you not for data about something with which 
you have personally familiar, but instead with regards to 
legislation. What should we do? If you had the opportunity to 
counsel the entire Congress as to what action we should take to 
make sure that our border is more secure, that our children 
that are being separated are given better care, that we resolve 
this extraordinary challenge that we face? What legislative 
action do you think is action that we should be taking?
    I will let you each, whichever order you would like to go 
in, respond to that question. I may have to leave before all 
your answers or given because of a vote that is under way that 
will be over in just a few minutes, but, please, why do not we 
begin with you, Mr. Karisch.
    Mr. Karisch. So I think it is addressing Flores. It is 
addressing TVPRA.
    But I will also say this. We should have a system in place 
that for somebody who has a credible fear or asylum, that they 
walk into an embassy in those Triangle countries. Why not do 
your claim there? We get them out of this dangerous journey, 
whether it is come into the borders in Arizona or South Texas. 
It is to do away with this problem because, unfortunately, 
right now, as I previously mentioned, criminal organizations 
are the only ones who are benefiting from what is happening. 
They are making enormous amounts of money.
    So we have to establish a process where we are continuing 
to admit those people that truly have a fear but yet eliminate 
a lot of the fraud that is going into some of the claims at 
this time.
    Senator Romney. Thank you.
    Mr. Howe. Yes. Adjusting Flores so the families can be held 
together and the TVPRA in order to allow return directly to 
noncontiguous countries.
    Senator Romney. Thank you.
    Mr. Tubbs. I would absolutely support the same as far as 
the Flores and the TVPRA. Immigration as a whole, from workers' 
permits all the way up to obtaining U.S. citizenship, is 
something the U.S. Government needs to look at, just because of 
the history of our immigration laws. But I think besides the 
legislative fix, we also absolutely need to have a secure 
border. I mean, there is no reason--anything that crosses the 
border between ports of entry is illegal, and we as a U.S. 
Government should be able to control the border between the 
ports of entry.
    We are always going to facilitate the flow of commerce at 
the port. We understand that, but between the ports of entry, 
we should be able to control that, period.
    Senator Romney. Yes. Thank you. Commander.
    Mr. White. First, you should in statute define the 
conditions under which it is permissible to remove a child from 
a parent, and I would submit to you that that should only be 
for the safety of the child or if the parent faces criminal 
charges other than misdemeanor 1325 entry.
    Second, there needs to be a requirement that there be a 
process and documentation when children are separated from a 
parent, and parents need to have a right to appeal that.
    Third, ORR needs the legal authority along with DHS, equal 
to DHS, to determine if a child is unaccompanied, so that if a 
child is referred to us who is truly accompanied and has simply 
been separated from a parent not for cause, we can refuse that 
referral.
    Senator Romney. Thank you.
    Mr. Cherundolo. Senator, on top of what my partners from 
DHS have already highlighted, I would say the one single piece 
of legislation that DEA would say would be very important to us 
is the class-wide scheduling of fentanyl.
    We emergency-scheduled that fentanyl last year, and it 
expires in 2020, which could have a significant impact on not 
only DEA and our law enforcement partners in prosecuting those 
analogs, where the chemical makeup of the fentanyl has changed 
slightly, but it will also affect the Department of Justice 
prosecuting of those cases and motions going forward if the 
fentanyl were to come out of a scheduling, the emergency 
scheduling in 2020.
    Senator Romney. Thank you.
    Mr. Chairman, I am going to go vote.
    Chairman Johnson. Senator, before you go, I do want to 
point out that if you claim asylum, if you come to this country 
legally and you claim asylum, we give you a work permit after 6 
months; is that correct? So I mean, E-Verify is, I guess, well 
and good, but when we are actually granting a work permit for 
somebody who comes into this country legally after 6 months, it 
is another one of those rewards that we provide, which I think 
we ought to seriously consider. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you, Mr. Chairman.
    Today's hearing takes on new significance, obviously, in 
the wake of Secretary Nielsen's resignation. As I said in June 
2018, I believe the government should be in the business of 
keeping families together and not tearing them apart.
    The outgoing Secretary's willingness to implement the 
Administration's cruel and most counterproductive immigration 
policies and her willingness to frankly not be honest with 
Congress when questioned about these policies led me to call 
back in June 2018 for her resignation.
    The government should have a commitment to truth and 
accountability. Under the Secretary's tenure, DHS had a track 
record of neither. However, she was reportedly forced out 
because she resisted the White House's desire to embrace even 
more extreme tactics from defying a court order and reinstating 
the cruel family separation policy to closing the Southern 
Border, a political stunt that would cause dire economic 
consequences to our country.
    There are reports that even more turnover in DHS's 
leadership is yet to come. I believe a well-functioning 
Department of Homeland Security is vital to the safety and 
security of our Nation. At moments like this, Congress must 
exercise its duty to provide a check on the Executive Branch 
through oversight, through the power of the purse, and through 
our responsibility to provide advice and consent.
    I urge my colleagues on both sides of the aisle to join 
together in helping to restore some of the much needed 
stability to the Department of Homeland Security and to respect 
and honor the work of the men and women who work there.
    Commander White, I have some questions for you.
    Mr. White. Yes, ma'am.
    Senator Harris. On March 6, CBP Commissioner Kevin 
McAleenan, now the Acting Secretary of Homeland Security, 
testified before the Judiciary Committee. I questioned him 
about reports that immigrant children in the custody of HHS and 
HHS's Office of Refugee Resettlement endured sexual harassment 
and assault. ORR received 4,556 allegations between October 
2014 and July 2018, nearly 200 of which included very serious 
allegations such as staff watching children shower, fondling 
and kissing them and rape.
    According to Justice Department data, sexual abuse 
allegations in shelters skyrocketed at the peak of the family 
separation crisis last spring and summer.
    The Acting Secretary said that he was not aware of the 
allegations and that his colleagues at HHS and ORR are very 
committed to the children in their care, but when I asked him 
whether after learning of these allegations he believed he had 
a duty to voice concern about the safety of the children before 
transferring them to HHS's custody, he said that doing so was 
``the duty of the management and leadership of Health and Human 
Service.''
    Commander White, you are obviously here today representing 
the management and leadership of HHS. Do you agree with him, 
and what, if any, concern do you have about the findings? What 
are you prepared to do about it?
    Mr. White. So three things. First of all, thank you, 
Senator. I do want to talk--in fact, we probably should talk 
much longer than this forum will allow--about the protection of 
children in our care.
    Let me start with one thing and be absolutely clear. If 
even one child is abused in ORR care, we failed that child.
    Senator Harris. Yes.
    Mr. White. We failed that child. This is also true of every 
child welfare system in the United States and every foster care 
system in every State. Every time a child in care is abused, 
the system failed that child.
    I do not excuse it. I do not permit it. Every time it 
happens, it is a call to do more.
    Now, the statistics that have been reported do require 
clarification because we have a strict policy of reporting 
events, and many of these things that are reported as sexual 
abuse under our Prison Rape Elimination Act of 2003 (PREA) 
requirements are actually sexually inappropriate conduct by 
minors. This could include if a minor makes a sexual gesture. 
That is reportable. If a minor uses a sexually charged insult 
for another minor, that is reportable.
    There are, however, also cases at the upper end of the 
spectrum that include allegations of abuse by minors of each 
other and in some cases by grantee staff, never Federal staff.
    Senator Harris. Sir, before you continue, are you 
describing theoretically what happens in the Department? Are 
you referring specifically to the 4,556 allegations that 
occurred between October 2014 and July 2018? I really would be 
interested and only am interested in the nature of the 
allegations that occurred during that period of time.
    Mr. White. Yes, Senator. I am talking about the actual 
reports, and many of these PREA reports are not in fact 
allegations of sexual abuse. They are allegations of sexually 
inappropriate behavior.
    We have a universal reporting standard for our programs. 
They must report in writing within 4 hours of every reportable 
event. These do include some cases which resulted in criminal 
prosecution because we are required in every case to notify 
State, local, and Federal law enforcement and licensure 
authorities for full investigation.
    Senator Harris. Can you tell me, sir, how many of the 
allegations involved abuse by HHS employees or other staff or 
adults working in these facilities whomever employed them? For 
example, I know you have contractors and private entities that 
are also handling or working with these children.
    Mr. White. Yes. There are zero allegations against HHS 
staff. If you give me just a moment----
    Senator Harris. How many allegations are there against 
adults?
    Mr. White. There are allegations reported to ORR of staff 
on minors in fiscal 2018, 49 reports and 6 reports of other 
adults who were not staff--it could be someone who somehow got 
in the building or something like that--non-staff adult on 
minors for a total of 54 allegations in fiscal 2018.
    These are among the cases that would have been reported to 
the FBI, OIG----
    Senator Harris. So this is 103 in 1 year. How about for the 
total of those 4 years? How many adults on children allegations 
are there?
    Mr. White. No, that is, I believe, 55 in 1 year.
    Senator Harris. You said 49 plus 54.
    Mr. White. No. Fifty-four total, 49 and 6, 54 total.
    Senator Harris. OK.
    Mr. White. And 53 in fiscal 2017 of allegations of an adult 
reported to DOJ. These are cases we reported to DOJ.
    Senator Harris. How many in 2016?
    Mr. White. In 2016 reported to DOJ, there were 62 
allegations of an adult sexual abuse of a minor.
    Senator Harris. OK. My time is running out. I would like 
you to report to this Committee how many total allegations were 
there between that 4-year period against adults, whomever 
employed them, regardless of whether the case was referred to 
DOJ or not.
    I would also ask you right now to tell us whether you 
informed the Department of Homeland Security that these 
incidents were taking place in your facilities before or at any 
time during the course of this family separation policy and 
obviously because I am curious to know whether the Department 
of Homeland Security was on notice that these things were 
happening in your facilities before they transferred the 
children to your care.
    Mr. White. So we will be providing a fully detailed 
accounting that will be forthcoming on our PREA reporting.
    Second, I do not know whether our PREA reporting was 
conveyed to leadership at DHS. As a reminder, our programs are 
still safer than State foster care systems.
    Senator Harris. Sir, I do not think that we want to compare 
what you are doing to State foster care systems which are 
notoriously horrendous conditions for many children.
    Mr. White. Precisely what I am saying and I say it again is 
that every time something happens to a child, we have failed 
that child.
    Senator Harris. I agree with you.
    Mr. White. But the traumatization of children by separation 
does not need any child to have been harmed criminally by an 
adult. That act of the government entails harm to a child. So 
these are two important problems, but they are separate 
problems.
    Senator Harris. Thank you.
    Chairman Johnson. Senator Harris, you raised the issue of 
rumors of reinstitution of the zero-tolerance policy. I am not 
aware of that as a policy. I am aware of the rumors in the 
press.
    Let me just state for the record, I would be completely 
opposed to that. My guess, that is a majority, if not a 
unanimous view of the Members of this Committee.
    Let me just cite you some reasons. Commander White, I think 
you would say that----
    Senator Harris. I referred to a family separation policy.
    Chairman Johnson. Yes, family, zero tolerance, whatever you 
want to call it, results in family separation.
    I think you had stated that during April, May, and June 
when that zero-tolerance policy was in effect, HHS was pretty 
well overwhelmed by this. Would you say that is true?
    Mr. White. That is correct. Both our total capacity and 
specifically our capacity to serve very young children, since 
separation disproportionately results in our getting babies, 
toddlers, and young children.
    Chairman Johnson. So, again, I am hoping members of the 
Administration, if they are actually considering this or 
listening to that testimony--and as Senator Peters pointed out, 
I like numbers. So here are the numbers. During April, May, or 
June, on average, we apprehended about 9,500 individuals as a 
family unit, about 9,500.
    The last 3 months, which again shows the growing crisis at 
our border, there has been 29,000.
    So if HHS and CBP were overwhelmed back in April, May, or 
June 2018 with 9,500 per month, this is three times worse, and 
my guess is this is going to continue to increase in severity.
    Again, this is a crisis in the here and now. We need 
legislation, and I would like this committee to lead in that 
effort. Certainly, as Chairman, I will be leading and hopefully 
working with every member of the committee to pass the 
legislation that actually fixes this problem in the here and 
now. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Gentlemen, welcome. Thank you very much for 
being here, for your work.
    My colleagues have heard me say this before, so bear with 
me, but we all have sources that provide us with guidance in 
our lives and values that we hold and the way we try to behave 
and act. There is, I believe, a bipartisan Bible study that 
meets in the U.S. Senate every Thursday, about six or seven of 
us who need the most help. We meet with the Chaplain of the 
Senate who is a retired Navy admiral. He was chief of chaplains 
for the Navy and the U.S. Marine Corps (USMC).
    Almost every Thursday when we meet, he reminds us of a 
passage in the Book of Matthew that deals with the least of 
these. ``And when I was hungry, when I was thirsty, when I was 
naked, when I was a stranger in your land, did you welcome 
me?'' He reminds us of the moral obligation that we have to the 
least of these, including the stranger in our land.
    He also reminds us of the greatest commandment of all, and 
that is the golden rule, treat other people the way we want to 
be treated, which ironically is in every major religion on the 
planet, every one in one form of the other.
    So when I approach a dilemma, a challenge like we have on 
our border, I try to keep those words in mind going forward.
    I also am somebody who focuses like a laser on root causes, 
not on symptoms or problems, but what are the root causes, and 
as you know, the root causes for a lot of folks coming into our 
country from Honduras, Guatemala, and El Salvador are lack of 
economic opportunity and hope and Northern Triangle, prevalence 
of violence and crime in those three countries and also 
corruption. Those are the three drivers.
    The reason why we created the Alliance for Prosperity, with 
those three buckets--lack of economic opportunity and hope, 
crime and violence, and corruption--is because that is what we 
gathered from people coming to us saying, ``This is why I am 
leaving. This is why I do not want to stay in my country.''
    Ironically, I was just down in a congressional delegation 
(CODEL) about 6 weeks ago to see how we are doing with the 
Alliance for Prosperity, and I was actually pretty encouraged 
by the work that is being done. I think it is important that we 
not walk away from it.
    The President I think is intent on ending funding for those 
programs, which would be a huge mistake.
    I have been sitting up here writing some notes to myself 
about how to reduce the likelihood that people will feel 
compelled to leave their countries and to come to ours. For me, 
a big answer is fully execute and execute well the Alliance for 
Prosperity, modeled after Plan Colombia, which has worked, and 
I like to say find out what works. Do more of that.
    The second question I have for people who do leave--and we 
have been messaging countries on those--leaders in those 
countries have been messaging to their people about the horrors 
of transiting Mexico and trying to get into this Country and 
saying it is not going to work well and kind of discouraging 
people from coming. That is not working so well because they 
are coming in ever larger numbers, as you know.
    So I am trying to figure out what is the most humane way to 
deal with the families that make it to our borders, and is 
there a way that we can actually keep the families together, 
expedite the amount of time, reduce the amount of time that 
they have to wait to make an initial judgment as to whether or 
not someone who is seeking asylum, asking for asylum, really is 
in that kind of danger back in their native land? There is a 
way to do that, and while we are doing that, quickly, provide 
for a safe place for these folks, for these families to stay.
    So let me just start with that. Is that something that we 
can do, to make that initial decision? Say a hundred families 
are coming across. Making a decision, I do not think we could 
do it like that. Maybe we could, but just to say is there 
really a case for asylum? Are we really convinced maybe upon 
initial screening that somebody is there really truly because 
they need asylum or not? If they really and truly need to, they 
are brought in for a more in-depth screening, and their 
families are taken care of. We do not separate the kids from 
the families.
    Maybe that is something we are doing. I am not aware of it, 
although I think there is the initial screening, but give me 
some response to that, Greg.
    Mr. Cherundolo. Senator, since Title 21 is our sole focus 
on the enforcement of the drug laws, that probably would not be 
best for me to answer that.
    Senator Carper. Yep. Let me go to Commander White.
    I used to be a commander in the Navy.
    Mr. White. So I will have to defer to DHS colleagues on 
family separations.
    I can tell you that over the years, the reasons that 
unaccompanied children give when they are in our care for why 
did you come to the country as astonishingly the same over 
time, and the top three reasons always are because they feared 
violence in home country, because they lacked economic and 
educational opportunities in home country, and because they had 
parents or their family here in the United States they wanted 
to be reunified with. This seems to be a standard.
    But as regards family units, that is something the DHS 
colleagues would need to speak to.
    Senator Carper. Mr. Tubbs, any thoughts?
    Mr. Tubbs. Absolutely. I agree with your statement that we 
absolutely have to work with our foreign counterparts to work 
at the root causes of why people are leaving the country.
    I can also say that in my 24 years of working for Homeland 
Security and its previous agencies that 9 of those years, I 
spent foreign-stationed in the Dominican Republic and Mexico. 
We do need to work at the root cause. We do need to work with 
our foreign counterparts, but we control a very small portion 
of that. Despite the help that we give them, we do control 
everything here in the United States.
    While we work with our counterparts, I think we also need 
to focus very close on the laws that we have here and the 
capabilities that we have to secure our border and we as HSI to 
conduct our criminal investigations to dismantle those 
organizations.
    Senator Carper. All right. Mr. Howe.
    Mr. Howe. Thank you, Senator.
    Agree we should work to have families stay together. Of 
course, the Flores Agreement, the longest being held in the 20 
days, so adjusting the Flores Agreement allowing those family 
units to stay together through the entire process is the way to 
go.
    Senator Carper. The entire process, I think the backlog is 
like measured not in days, weeks, months, but actually maybe 
even years, and that gets to be, as you know, pretty expensive 
and frankly not very humane. but thank you. Mr. Karisch.
    Mr. Karisch. Yes. But I will also add, Senator Carper, that 
when you detain, you are going to expedite a hearing.
    Ultimately, if the person is granted relief, they are 
released into the country. If they are not, they are 
immediately repatriated because at the end of the day, you do 
need a consequence. Otherwise, you are just going to see that 
flow increase.
    During my oral testimony, I read off the claim from the 
Central American who communicated back to his associated as 
``This is the quickest way. Bring children. You are not going 
to be detained.'' So we have to develop a process that we have 
done in the past.
    The Brazilians that were here in the 1990s, 2000s, the way 
we stopped the problem is detaining families together. You had 
your opportunity. You have to go before an asylum officer or 
immigration judge. If you were granted relief, you stayed. If 
you were not, you were immediately repatriated.
    We can always improve efficiencies in the government. This 
is an area for us to do it, but we also need to have that 
consequence.
    Senator Carper. Thank you.
    I talked with the Chairman and the Ranking Member in the 
last couple of days about the idea of people within these three 
countries, the Northern Triangle, with asylum claims of being 
able to bring those asylum claims not in the United States at 
our border, not in Mexico, but within those three countries.
    I am going to ask you to respond for the record as to 
whether or not you think that Secretary Nielsen, has been an 
advocate of doing that, as you probably know. But I am going to 
ask you to respond for the record as to whether or not that is 
an idea that makes sense. Thanks.
    Thanks, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Carper. Senator 
Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Mr. Chairman.
    During this critical situation on our border, it is 
important to hear directly from the Federal agencies who 
protect Arizona's border and our family and community. So I 
appreciate all of the witnesses for coming and speaking with us 
today.
    As I mentioned in our hearing last week, Arizona faces 
significant security, economic, and humanitarian challenges 
with these recent migration trends. Congress and the 
Administration must focus on ideas and initiatives to help 
improve the situation, and I am glad that the President heeded 
the calls from me, from border experts, and many other Members 
of Congress to not close the Southwest Border.
    But last week, we heard from outside experts about their 
ideas to secure our ports, improve coordination with local non-
governmental organizations (NGOs), deploy critical technology 
between our ports, and improve workforce morale, and I look 
forward to hearing more about a frontline perspective on those 
ideas today.
    As always, I am committed to working in a bipartisan way to 
finding solutions that keep families and communities safe in 
Arizona and to treat migrants humanely and fairly.
    So my first question today is from Mr. Howe. I do not agree 
with CBP's decision to transfer officers away from Arizona 
ports of entry. Our ports have struggled with high vacancy 
rates in recent years, and that has led to the assignment of 
temporary duty officers. I understand that CBP faces 
significant strain on its personnel, but our perspective is 
that this decision hurts trade. We worry about it impacting 
security.
    So I want to know what analysis did CBP conduct regarding 
removing these temporarily assigned officers from the ports of 
Arizona. Can you share that analysis with my office?
    And given that these ports were already understaffed, how 
does this decision not negatively impact security or flow of 
trade?
    Mr. Howe. Thank you for the question.
    The initial response that we provided, our Border Patrol 
colleagues, was to support them in this migration crisis. They 
were overwhelmed, are overwhelmed. So the decision was made to 
provide them the officers that they could use to put their 
agents back in their law enforcement activity.
    So 545 officers from the frontline, a decision was made to 
address this crisis. We knew there would be impact. When 
Commissioner McAleenan had his press conference in El Paso, he 
mentioned that, so 545 frontline officers, 300 from Laredo, 194 
from El Paso, and then 51 from San Diego.
    As you pointed out, we did not pull any from the Tucson 
field office, but the 75 temporary duty travel (TDYs) that we 
had identified, we did not send them for assistance.
    So we know there is going to be impact. We see that every 
day. We see the backups in both the personal vehicles and the 
cargo, but this is a crisis that we are addressing with 
assistance of Border Patrol.
    Senator Sinema. Last week, we heard about the need for 
additional surveillance and detection capacity between our 
ports of entry. We know that the largest drug busts and 
interdiction occur at our ports of entry, but there is still 
significant trafficking for narcotics and other threats between 
our ports of entry.
    So my question for Mr. Karisch, what type of sensors do you 
think are most useful for agents in the general patrol duties? 
Do we need more cameras, more radars? Do we need more unarmed 
aircraft systems (UAS) or something that I have not mentioned 
yet?
    Mr. Karisch. All technology has helped. CBP has made a 
tremendous investment in technology over the last few years, 
but we also need to have relocatable technology because traffic 
patterns will shift from one area to another.
    We saw it in Arizona where I was previously assigned. It is 
having technology that is going to help us with greater 
situational awareness.
    Right now in South Texas, what I see the problem as is we 
do not have any technology that is foliage penetrating. So 
people get into the brush areas. Whether it is the creosote 
cane, whether it is the sugarcane, whether it is the other 
brush that is there, it makes it hard to detect. So it is a 
combination of different systems that we can actually apply on 
to the border is to act as that force multiplier for us.
    But, ultimately, no fence, no piece of technology is going 
to make an arrest or an interdiction. That is going to be done 
by men and women who are out there. So it is important also as 
to be able to bring on additional personnel who can actually 
help us with that.
    Senator Sinema. My next question is also for you, but I 
would like to hear the thoughts of other witnesses if they have 
ideas as well.
    Last week when we were hearing from experts, they were 
talking about the importance of local offices forging close 
connections with the NGO's and local community leaders. As you 
know, we are facing a struggle in Arizona with the release of 
migrants and need to improve communication with our local 
NGO's.
    So my question is, in your experience, what do you find 
works best to help build those close relationships at the local 
level, and are there any tips that we could utilize when I am 
able to go back to my State in the next 2 weeks to try and 
figure out a better solution for the crisis we are facing?
    Mr. Karisch. So I work closely with a lot of the NGO's out 
there in Arizona at the time, Juanita Molina and a number of 
other people who I had the privilege of working with, but also 
even south of the border. During the time when they were 
speaking about a caravan coming up either to Arizona or to 
California at the time, it was sitting down with NGO's across 
the borders to figuring out exactly how many shelters they 
could open up, how they could help the ports of entry and 
organizing the number of people that actually showed up at the 
bridges. So that engagement does happen.
    We have very strong programs in the Border Patrol, border 
community liaison agents who get out there and speak to NGO's. 
We work with them very closely in South Texas. Sister Norma, 
right now she is helping us with the overflow and the people 
that we are releasing from Border Patrol custody to the respite 
centers. So it is working very closely with them to try to 
figure out how they can help the Federal Government but also 
expanding that into other areas.
    Senator Sinema. I would like to follow up with you after 
this hearing. I will be back home in my State over the next 2 
weeks during the spring period and intend to host a meeting to 
bring NGO's together with our local officers to help provide 
more close communication.
    As you know, we have had recent unexpected releases into 
the community that have been troublesome in Phoenix, Yuma, and 
in Tucson.
    If there are others on the panel who have thoughts on this 
question in particular, I would appreciate it.
    Mr. Tubbs. I would like to provide a response to your 
previous question, if I could.
    Senator Sinema. Yes, that would be great.
    Mr. Tubbs. I am stationed on the border. I am in Laredo, 
Texas. Specifically, if you look at what DHS does on the 
border, it is really a whole-of-DHS effort, and when we look at 
the transnational criminal organizations that are responsible 
for bringing aliens and narcotics, weapons across our border, 
we have our uniform presence that deter, that detect, that do 
the seizures. I know that you asked what equipment that they 
might need and what personnel, but what I would ask is Homeland 
Security Investigations because we do a great job in deterring 
and detecting.
    But, ultimately, if we want to dismantle those 
transnational organizations and criminally prosecute them, 
criminally detain them, criminally forfeit their illicit 
proceeds, that whenever you look at providing personnel and 
equipment to our uniform partners that we work with every day, 
that you also look at Homeland Security Investigations because 
ultimately we need to dismantle those organizations and have 
them pay the ultimate price of prosecution and detention.
    Senator Sinema. I appreciate that point. Thank you.
    My time has expired. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you. Thank you, Mr. Chairman, and 
thank you all for being here today.
    This weekend, while I was visiting my home State of Nevada, 
President Trump called the U.S. asylum process a ``scam.'' With 
respect to immigrants, including asylum seekers, the President 
said, ``We cannot take you anymore. Our country is full. So 
turn around.'' Our country is full? Turn around? As a 
granddaughter of Jewish immigrants from Eastern Europe, I 
cannot help but think about the time in the middle of the 20th 
Century when the United States used security concerns as an 
excuse to turn away thousands of refugees fleeing Europe or 
about the MS St. Louis ocean liner in 1939 was made to turn 
around upon reaching American shores.
    I cannot help to think about the many families today from 
El Salvador, Honduras, and elsewhere waiting in squalor outside 
our ports of entry because they are fleeing unimaginable 
violence and can find safety and freedom coming here to the 
United States.
    Yesterday Cable News Network (CNN) reported that the 
President told agency personnel to close the ports of entry at 
the Southern Border. The President told border agents in 
Calexico, California, not to allow any migrants into the 
country.
    In my home State of Nevada, the University of Nevada, Las 
Vegas (UNLV) Immigration Clinic has clients from Central 
America who are teenage girls, teenage girls recruited as gang 
girlfriends, as young as 12 and 13, meaning they face gang 
rape, possible death on a regular basis.
    Under U.S. law, our women and girls like this who are 
fleeing violence, they are entitled to protection and to at 
least apply for asylum. In fact, I know this to be true. A 
person who can prove she would be persecuted because of race, 
religion, nationality, political opinion, or particular social 
group is entitled to asylum under U.S. law.
    I assume, gentlemen, that you are aware that just 
yesterday, a judge in California issued an order blocking the 
Trump administration from requiring asylum seekers to remain in 
Mexico.
    So, Mr. Karisch and Mr. Howe, if the President were to 
instruct you and your agents to deny entry to people seeking 
asylum at the border, in your opinion do you think that 
violates United States law?
    Mr. Karisch. I will start, Senator Rosen, by saying this. 
If they cross between the ports of entry, they are violating 
U.S. immigration law, so they are going to be placed on arrest, 
but that still will not stop them from making an asylum or 
credible fear claim. But effecting an entry into the country 
between the ports of entry, they are in violation of the law, 
and they will be arrested.
    Senator Rosen. Mr. Howe.
    Mr. Howe. If they enter the United States across the 
boundary line at the port of entry and they claim asylum, we 
would be bound to hear that asylum claim.
    Senator Rosen. So my follow up question is, Would you 
follow instructions like those from the President even knowing, 
Mr. Howe, that they are going to violate U.S. law?
    Mr. Howe. We know what the law is, and our attorneys are 
here to advise us. They work for Customs and Border Protection, 
DHS, so I will follow the guidance that we receive from our 
attorneys.
    Senator Rosen. So knowing that we have this challenge, I 
guess I will pose this in another way. Can you describe to me 
the concerns you have with implementing this Administration's 
current policies?
    Mr. Karisch. Ma'am, we have taken an oath of office to 
defend this country. Our officers every day go out there and 
perform a job. It does not stop them from addressing the 
asylum, the credible fear, the different things that they have.
    We are parents. We are grandparents. Our officers do this, 
our jobs, as humanely as we possibly can, but understanding is 
that we do have laws in this country. People have to abide by 
those laws. Otherwise, we stop being a sovereign country.
    We still feel the heartfelt issues of everyone that we 
encounter, but we still have to put them through the process. 
It will not stop them if they do have, in fact, a credible 
fear. That they will have an opportunity----
    Senator Rosen. So you are saying if someone presents 
themself for asylum, you will take them in, regardless of what 
the President has instructed you to do?
    Mr. Karisch. If they enter the United States between the 
ports of entry, they will be apprehended. That will not stop 
them from making an asylum claim.
    Senator Rosen. Thank you.
    I would like to follow up a little bit. Last year I toured 
a tent city in Tornillo, Texas, of course, near El Paso, where 
unaccompanied children and separated children were held. I saw 
teenage children separated by gender, slept in barrack-like 
conditions, access to legal services limited, and phone calls 
to relatives or possible contacts were limited and monitored.
    So, Mr. Howe, I guess I want to ask you again. Do you have 
knowledge about the Tornillo facility that it was owned or 
managed by a for-profit company?
    Mr. Howe. I think I will defer to the Commander.
    Senator Rosen. Commander.
    Mr. White. Yes, ma'am. So the Tornillo Temporary Influx 
Facility was operated by HHS, by the Office of Refugee 
Resettlement. Temporary Influx Facilities, that one was 
operated by a nonprofit grantee who also performed services for 
us operating State-licensed permanent shelters around the 
country.
    Temporary Influx shelters, such as the one that is open now 
in Homestead, are not our first choice. Our first choice is to 
have State-licensed permanent shelter capacity. The 
fluctuations that we see----
    Senator Rosen. You are saying they are for-profit 
institutions? Are they for-profit institutions that we are 
leasing these services out to?
    Mr. White. The Tornillo site was operated by a not-for-
profit grantee.
    Senator Rosen. In your estimation or according to any 
knowledge that you have currently, are some of our detainees 
being held in for-profit institutions?
    Mr. White. The Homestead facility, the children who are 
sheltered at Homestead, we are getting staffing services there 
by a Federal contract, and the entity that won in the 
contracting process is a for-profit.
    Senator Rosen. Thank you.
    I yield back.
    Chairman Johnson. Thanks, Senator Rosen.
    Before I start my questions, certainly in my quest, and I 
think in this Committee's quest, to develop the information 
required to solve this problem without the reality, one of the 
questions I have had is, What is asylum law? What is a valid 
asylum claim?
    What I would like to do is quickly read from--one of the 
better explanations for this comes from Congressional Research 
Service (CRS), a paper written in January of this year, and let 
me just read it, and I will enter it into the record:\1\ To 
qualify for asylum, an applicant has the burden of proving past 
persecution or a well-founded fear of future persecution on 
account of race, religion, nationality, member in a particular 
social group, or a political opinion. The applicant must show 
that one of these protected grounds ``was or will be at least 
one central reason for persecuting the applicant.'' In the 
absence of past persecution, an applicant can show a well-
founded fear by presenting evidence of a reasonable possibility 
or future persecution.
---------------------------------------------------------------------------
    \1\ The paper referenced by Senator Johnson appears in the Appendix 
on page 197.
---------------------------------------------------------------------------
    Here is a key point: The applicant must also show 
persecution by the government or groups that the government is 
unable or unwilling to control, and for purposes of showing a 
well-founded fear, that applicant could not reasonably relocate 
within his country to avoid persecution.
    Again, we will delve more into this, but I wanted to get 
that on the record.
    I am very sympathetic with a lot of people talking about 
setting up asylum claims in the home country. I just find a 
disconnect. First of all, from my knowledge, asylum can only be 
claimed once you are in the asylum country, the safe haven. So 
if you are asking for protection in your home country, that is 
refugee status, and we have different laws and controls over a 
number of refugees. There are no controls in terms of the 
people we let in in terms of asylum.
    Also, if you can claim safely asylum in your country and 
stay there, you are basically not qualifying for asylum because 
your--the government can protect you enough to have you claim 
asylum.
    So I am just trying to figure out the disconnect, what is 
going to work, what is not going to work, but I think it is 
extremely important that we understand exactly what these 
asylum standards are. I would argue this is probably the main 
reason why 85 percent of the claims are denied.
    Commander White, you talked about in your testimony three 
reasons. Feeling violence. There you go. There is a valid 
asylum claim, but economic opportunity is not. Family 
unification is not. As sympathetic as we all are for those 
individuals, it is not a valid asylum claim, and we have a 
process now that whether it is valid or not, we let you in the 
country, and those individuals are staying, which is just 
fueling the crisis. It gives you the numbers. We talked about 
the 9,500 up to 29,000 over the 2018 period versus the last 3 
months.
    Again, this is a complex problem. The solution for the 
here-and-now problem is we have to change these laws. We have 
to reflect the asylum.
    Again, I agree with Dr. Selee from last week, where if we 
can rapidly adjudicate and make a determination is this a valid 
asylum claim or not and then humanely return people, just like 
we did with Texas Hold 'Em with Brazilians, that will 
accomplish our short-term goal of reducing that flow and 
hopefully converting this into a legal process.
    I come from a position, certainly in Wisconsin, there is 
not one manufacturer that can find enough workers. From my 
standpoint, we need more legal immigration tied to work.
    So, again, I just appreciate--and I will say again on the 
record--the strong attendance of Members of this Committee, the 
excellent questions. I think we are getting to the reality of 
the situation. I think we are hopefully creating a desire to do 
something about this, certainly a recognition that the 
Administration cannot do it on their own. They are simply not 
capable--what executive actions they take are overruled by the 
court.
    So this is on our lap. The ball is in our court. We have to 
fix this, and I am really looking forward to dealing with all 
the Members of this Committee to start solving the problem.
    I would like to talk about the well-oiled machine because I 
think it is really important that we recognize this is not just 
a group of individuals deciding to wake up one morning and they 
make their way into--this is a very organized effort.
    So, Mr. Karisch, can you talk a little bit about your 
knowledge of that? I will go to Mr. Tubbs because I think you 
have probably done a lot of investigation on this. Really talk 
about how well organized this is.
    You asked one of the pieces of information. I think it was 
the reporter had done an estimation, thinking it was probably 
about $440 million worth of profits. That is just a back-of-
the-envelope calculation, the fee times the number of people 
coming in here. And the drug cartels--or I guess it is a split-
off business now. Human traffickers kind of flowed from the 
same process and realizing this is a higher profit in many 
cases and a lower risk, form of trafficking than even drugs.
    But can you just talk about the well-organized effort here?
    Mr. Karisch. So very well organized, reaching back into 
places like Central America, and of course, Mr. Tubbs will be 
able to talk with a lot more certainty.
    But from the brush guides to the people who move 
individuals up to the border area, from the criminal 
organizations that are making the tax--we call it ``el piso''-
--down on the Southwest Border, long gone are the days where 
you can simply decide that I am going to cross in Juarez and 
into El Paso.
    Now you are told where to cross. You are charged money, and 
refusal to pay money has consequences, so very orchestrated. I 
would say that the smuggling of people has even become more 
lucrative because it is an endless commodity. On the drug side, 
if it sees it is going to be destroyed, you have to go produce 
more. They have the abilities to continuously bring more 
people, also recruiting younger smugglers, juveniles, because 
they know that the Federal Government cannot prosecute them, so 
a lot of money going into this.
    But the cartels have the ability to shut down bridges, to 
re-divert caravans. That is the type of control that they have 
on the south end of the border at this time.
    Chairman Johnson. So you agree with the testimony last week 
that the Southern Border is completely controlled--or the 
Southwest Border is completely controlled on the south side of 
the border, on the Mexican side, basically completely 
controlled----
    Mr. Karisch. Correct.
    Chairman Johnson [continuing]. By the drug cartels.
    Mr. Cherundolo, you talked about the enormous profits in 
fentanyl. I think you said something like $5,000 is worth $1.5 
million worth of profit. That kind of profit motive, if there 
is a demand, there is going to be a supply for it, correct?
    Mr. Cherundolo. That is correct, Senator.
    Chairman Johnson. But cannot we almost say the exact same 
thing of human trafficker as well, where we have a system that 
is incentivizing and rewarding, that can be so easily exploited 
by a really well-organized effort, people that understand our 
laws, know exactly how they are working, setting up a 
transportation system, using buses, other transportation? As 
long as this remains profitable, it is going to continue and 
probably grow, right? I mean, is not every business venture's 
goal to grow and become more profitable?
    Mr. Tubbs. Absolutely. Again, as we talked before, these 
human smuggling organizations are very organized. You have 
recruiters in the home country. You have transporters in the 
transit countries. You have the stash houses along the way, the 
individuals who get them across the border, plus their methods 
of money remittances, laundering their proceeds as well. And 
human smuggling has become almost or coming to the point as 
profitable as narcotic smuggling.
    We were specifically talking about human smuggling from 
Central America, but I can tell you specifically in Laredo, 
Texas, in 2017, we had an issue that Border Patrol had 
intercepted approximately 200 Bangladeshis, and then in 2018, 
almost 700, where we as HSI took on those numbers. We 
investigated that organization, ultimately arrested the leader 
of that organization in Monterrey, Mexico, the government of 
Mexico, and returned him and brought him to the United States 
to face prosecution. There has been zero Bangladeshis since, 
but they were paying up to $27,000 per alien for Bangladeshis, 
$2,000 to $7,000 for Central Americans. It is a very profitable 
business, and they are coming here for a reason. They are 
coming here because--specifically the Central Americans to 
work, and that is one of the reasons that we are increasing our 
work site enforcement on the interior to take away----
    Chairman Johnson. I think the one thing, we had former CBP 
Chief Morgan on our panel last week. You always hear 90 percent 
of drugs flow through the ports of entry. My question has 
always been, well, how do we know that? I mean, we do not even 
know really what is coming through between the ports of entry.
    And is not it true that when you have, again, over 100, 
groups of 100 this year--and that is a dramatic increase from 
prior years. Again, in a very well-organized effort, it just 
makes sense you use those 100 people as a diversion over here. 
You overwhelm the system. It requires all kinds of CBP officer 
to converge and take care of sometimes six children and that 
type of thing. It makes it pretty easy for somebody to sneak 
across with either drugs or high-value or a higher-paying 
customer in terms of human trafficking, correct?
    Mr. Karisch. Senator, I will add to that. In January of 
this year, we had a 705-pound seizure of cocaine coming into 
the United States between the ports of entry. In close 
proximity to that, there was a group that was sent across with 
170 individuals. So that is definitely a tactic and technique 
that the criminal organizations use. Once again, it is to tie 
up our resources, and then they exploit the gaps on the line.
    Chairman Johnson. Final point before I turn it over to 
Senator Portman who has some more questions is--and I think, 
Commander White, you talked about the death of any child, the 
abuse of any child is a tragedy.
    But I do want to give Mr. Karisch an opportunity to talk 
about--because I know in your testimony, you talk about the 
thousands of lives that CBP has saved because that is now your 
mission as well, and the medical resources were surging to the 
border. People are coming to the border having taken a very 
dangerous journey, some of them almost on life support.
    I just want to give you the opportunity to talk about how 
much time and attention CBP is putting into saving every 
person, the humane treatment that you are providing, and again 
how this is an overwhelming task.
    Mr. Karisch. I appreciate that, Senator.
    Every summer especially, but even in the winter, from 
Brownsville, Texas, all the way to San Diego, Border Patrol 
agents are deployed into areas to rescue people.
    I have seen agents in Del Rio jump in the rivers to save 
children that their mothers had let go because they could not 
keep up with the currents.
    I have seen our agents rescue people off of mountaintops in 
Arizona. I have seen our people rescue people in South Texas. 
We do that on a regular basis.
    Our most important thing is the preservation of life. A 
great man once told me that simply entering the country illegal 
should not equate to a death sentence. So we provide those 
resources.
    We have units of agents who have been out on the border, 
our Border Patrol Search, Trauma, and Rescue (BORSTAR) units, 
but we also have Emergency medical technician (EMTs). We deploy 
a lot of EMTs out there, which is important because during the 
summers, we will see an increase in the number of rescues that 
our agents have to make out there, and it is a mission also 
that we take with great responsibility. But that is in addition 
to everything else we are doing, and what suffers is the fact 
that you still have bad people and things that are coming 
through the border.
    Fifty-three percent of the marijuana that is intercepted 
along the entire Southwest Border by Border Patrol is made in 
RGV. We have had increases in heroin. We have had increases in 
cocaine. So there are other commodities, illegal substances 
also that are coming through between the border, but it is just 
a heavy investment of all of the things that we have to do in 
securing our border but also preserving life.
    Chairman Johnson. Does anybody want to just confirm what 
Mr. Karisch talked about in terms of the efforts of CBP to try 
and save lives or rebut it? Mr. Howe.
    Mr. Howe. We are seeing the same thing at our ports of 
entry. We are seeing the migrants that are claiming asylum that 
are medically in despair in most cases, and in my oral 
testimony, we take them to the hospital right away. So we go 
through great efforts to care for them and to ensure that they 
are safe.
    Chairman Johnson. Anybody else want to speak to that?
    [No response.]
    Senator Portman.
    Senator Portman. Thanks.
    I again want to start by thanking each of you for your 
service. This is such a rare opportunity to speak to a bunch of 
experts who are in the trenches every day dealing with these 
issues that I wanted to come back for a second round, and I 
appreciate the Chairman allowing me to do that.
    First, on the drug issue, I did not have a chance to speak 
to this earlier because there are so many topics, but, Mr. 
Cherundolo, you talked about the fact that fentanyl is now 
coming across the border, and we are having more seizures of 
fentanyl.
    Typically, as you know, it has been coming from China 
through the mail. My understanding in talking to Customs and 
Border Protection, that still is the preferred method for these 
traffickers. So still most of it is coming in through our own 
U.S. mail system because we do not have the tracking that the 
United Parcel Service (UPS) and Federal Express (FedEx) and 
others do.
    We are now putting that in place under the Synthetics 
Trafficking and Overdose Prevention (STOP) Act. I am 
disappointed it has not been done more quickly, but it is 
moving to the point where I think we will have about 100 
percent from China within the next several months.
    But do you think there is more fentanyl being shipped now 
into Mexico then coming across the border, and if so, why is 
that happening? Why would not they simply do what they have 
been doing, which is send it to a Post Office box in the United 
States? Is it partly because of the STOP Act, which now will 
require the post office to have that data, where it is from, 
where it is going, what is in the package, on all the packages, 
which it had not had until now, or is there some other reason 
that they would want to ship it into Mexico?
    Again, my presumption is that it is not being produced in 
Mexico. There were two instances I think where we have found 
some production of it in the past, but my understanding is both 
of those have been shut down. So what is going on? Can you give 
us the dynamics of that, and how can we be more effective in 
stopping it?
    Mr. Cherundolo. So, Senator, certainly the STOP Act is a 
welcome tool, and it has helped. The two primary methods of 
fentanyl coming into the United States, one are by parcel 
shipments into the United States, but again coming across the 
Southwest Borders. Many seizures as a result of the 
investigations DEA is conducting and the investigations our 
counterparts are conducting, we are seeing an increase in the 
number of instances where large seizures of fentanyl are coming 
across the Southwest Border.
    The purity levels that we look at differ slightly. What we 
see coming from China tends to be a more pure form of fentanyl, 
but certainly everything from the investigations we are 
conducting indicates that Mexican cartel organizations are 
increasingly dealing in fentanyl, particularly in the form of 
making them into counterfeit drugs, into pills.
    Senator Portman. That has been happening, but are you 
telling me today that we are now seeing evidence of 
manufacturing fentanyl, the synthetic opioid in Mexico, or is 
this being manufactured still as chemical companies in China 
and then shipped into Mexico?
    Mr. Cherundolo. We are certainly looking at the production 
of fentanyl in Mexico and fearful that the transition from 
production of methamphetamine, which is very prevalent in 
Mexico, to fentanyl will occur, and that is a----
    Senator Portman. You have not seen it yet. You have not 
proved it yet, but you are concerned about it?
    Mr. Cherundolo. Certainly, the two instances that you 
talked about are the instances we see, but the re-tableting and 
the fentanyl being----
    Senator Portman. Making it into a tablet that looks like a 
prescription drug, an OxyContin or something?
    Mr. Cherundolo. But the precursor chemical is coming into 
Mexico too is what we are----
    Senator Portman. Yes.
    Mr. Cherundolo. We specifically started a sensitive 
investigation unit with our Mexican counterparts that addresses 
the precursor chemical flow into Mexico for the production of 
fentanyl.
    Senator Portman. It is something to keep an eye on because, 
as we saw, it just overwhelmed us, and it is by far the number 
one killer now among the opioids. And opioids are the number 
one killer in the country. In my home State of Ohio, we are 
getting devastated still by fentanyl.
    I will say that in a lot of areas of Ohio, we have made 
progress. We actually have the highest reduction of opioid 
deaths from overdoses of any State in the Country in the last 
year. That is not saying much because we started at such a high 
level, but what we are seeing instead now is crystal meth 
coming in from Mexico in a very pure form.
    I was told by a law enforcement official recently, it is 
less expensive than marijuana by weight on the street in 
Columbus, Ohio.
    That crystal meth is coming almost exclusively from Mexico; 
is that correct?
    Mr. Cherundolo. That is correct. The production of 
methamphetamine in the United States is very limited to what we 
call mom-and-pop or shake-and-bake labs that are lower amounts. 
The larger seizures of methamphetamine we see coming into the 
United States as a result of our investigations are coming from 
labs that are producing the methamphetamine in Mexico.
    Senator Portman. It is cheaper and more powerful than the 
stuff that used to be made in the basement or the trailer, and 
that is what we are seeing in Ohio too. We are not seeing any 
environmental damage caused by that, but we are seeing a much 
higher grade, higher quality, more devastating drug, cheaper.
    Mr. Cherundolo. That is correct.
    Senator Portman. So what do we do about it? In the 
appropriations bill, we put unprecedented amount of money into 
this screening technology to be able to look through a truck, 
for instance.
    We have also put in place the INTERDICT Act in addition to 
the STOP Act. We are trying to get more funding into personnel 
because the expertise that you guys need to have to be able to 
identify these products and safely deal with it--how is that 
going, and what should we be doing?
    Mr. Cherundolo. Certainly, for all of us at the table--I do 
not want to speak for everybody, but I think our resources from 
the personnel standpoint is a critical issue, particularly from 
the DEA standpoint. We continue to hire to fill vacancies, to 
have additional agents to do the investigations.
    But our relationships with our foreign counterparts are 
critical. The developing relationship, like I said, with the 
sensitive investigation unit to identify chemicals flows into 
Mexico, particularly from China and from other countries 
throughout the world, are critical and key issues for us, but 
that partnership with our foreign counterparts is critical. And 
it is ever evolving.
    With the changeover in the Administration in Mexico, we are 
still working our way through how our relationships will 
develop, and continuing to strengthen those relationships is 
critical for our way forward.
    Senator Portman. Mr. Howe or Mr. Tubbs, thoughts on this? I 
mean, my sense is 90 percent of the heroin coming into Ohio 
comes across the Southern Border, almost 100 percent of the 
crystal meth now coming in across the border, increasingly more 
fentanyl, still mostly coming from the mail, but more of it now 
coming in. What would you do with this funding we have 
provided? What is the most effective way?
    As the Chairman said, some of it is coming through the 
ports of entry, no question about it. The majority has been 
traditionally because it has been brought through with 
vehicles, but once that is closed down, my sense is they are 
now shifting more to places along the border where they can 
have access between the ports of entry. Is that accurate? Can 
you give us a rundown on what you are seeing?
    Mr. Howe. Thank you, Senator.
    Yes, the $564 million, giving us that Multi-Energy drive-
through system is going to increase our capability. We will be 
able to stop the narcotics from coming in.
    Thank you for the STOP Act. We are seeing improvement in 
that advance, that information coming from China and other 
countries. I think as we work to fully implement that and also 
the money you provided, the $45 million, for NII for our mail 
facilities and more canines, that is all going to be paying for 
it.
    Senator Portman. Excellent. Mr. Tubbs.
    Mr. Tubbs. As I had said prior, as we look at the personnel 
and the resources that go to CBP for the interdiction, as those 
interdictions increase, our criminal investigations are going 
to increase, our responses are going to increase, and we, as 
HSI--ultimately what we are looking at along with working with 
our counterparts with DEA is identifying those transnational 
criminal organizations and working with our foreign 
counterparts and our Sensitive Investigative Unit (SIUs) and 
our TCIUs, so we can truly dismantle those organizations. And 
that is working with our counterparts.
    Senator Portman. We talked earlier about push and pull 
factors, and there is no question we need to do more to keep 
the demand down here in this country because the prevention 
efforts are ultimately going to be most successful and getting 
people into treatment and longer-term recovery. We are making 
progress on that, as indicated, on opioids, but having this 
interdiction is important too because the cost of this drug on 
the streets will be higher. Some of it will be stopped, and 
because of supply and demand, some of it will be higher. That 
is one of our issues right now is it is not only so powerful, 
it is so inexpensive relative to what it has been in the past.
    So we thank you for what you are doing every day. You are 
saving lives by doing that.
    Finally, let me just say what you are doing on trafficking 
is absolutely critical too. My sense is--and, Mr. Tubbs, you 
see this, I know, coming across Laredo. More and more of these 
traffickers are trafficking people in addition to drugs, and it 
is a very lucrative business, just as you talked about earlier 
about how lucrative the drug business is. So keeping a focus on 
that is also much appreciated by those of us here on this 
committee.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Portman, thank you for all the 
work you have done on the STOP Act.
    I think we received good news that it sounds like an 
agreement that President Trump and President Xi had made is 
going to be implemented in terms of China cracking down on 
fentanyl.
    My question for both Mr. Cherundolo and Mr. Tubbs is, how 
soon are we going to be able to evaluate the effectiveness of 
that, whether they are actually going to follow through on 
that, and are we going to be able to notice it?
    Mr. Cherundolo. So, Senator, my understanding is that May 1 
is when the class-wide scheduling goes into effect, and we will 
monitor the different analogs, the fentanyl analogs. Certainly 
the groups, the trafficking groups that profit from this are 
going to continue to produce it, but it has in the instances so 
far, when they have scheduled analogs, has been a positive 
thing for us, where we have seen less of those analogs.
    In your home State of Wisconsin, where they have class-wide 
schedule fentanyl, we are very positive about that. Again, 
because of the number of people dying from fentanyl, we felt it 
was important for us to emergency schedule it.
    I think, again, only time will tell once we get past May 1 
on the reduction in that, but certainly, there is still going 
to be a black market for organizations, transnational criminal 
organizations, both Chinese and Mexican, to traffic in 
fentanyl, but I think anything we can do, any tool that we can 
be given to strengthen similar to the Stopping Overdoses of 
Fentanyl Analogues (SOFA) Act that was introduced last year by 
you would be a helpful tool for law enforcement in prosecuting 
those because it is not a technicality that the analog gets 
switched by a slight chemical makeup and it makes it a legal 
substance rather than a controlled substance.
    Chairman Johnson. Unfortunately, we were not able to get 
the SOFA Act across the finish line, even though every Attorney 
General--I think it is the first time in history--wrote a 
letter asking us to do that.
    So your recommendation, please pursue that, and let us get 
the SOFA Act passed.
    Mr. Cherundolo. We will be glad to provide as much 
technical assistance as necessary for that.
    Chairman Johnson. OK. Appreciate it.
    Mr. Tubbs, what is your sense of Chinese law enforcement in 
terms of their effectiveness of cracking down in fentanyl. Are 
we going to see a dent in that?
    Mr. Tubbs. I think we should be able to measure that in two 
ways. One is the number of intercepts that we have at our 
parcel transport hubs, and if we start seeing fentanyl being 
produced in Mexico, I think that will be a sure sign for us, 
for both of those.
    Chairman Johnson. With my remaining time here, what I would 
like to do is just kind of close out the hearing, trying to lay 
out the current reality, because, again, it is a growing 
crisis.
    Former Secretary of Homeland Security Jeh Johnson was on 
Microsoft National Broadcasting Company (MSNBC) two Fridays ago 
and talks about how when he would come into the office, if 
apprehensions--and this is a paraphrase--were less than 1,000, 
they could deal with that. Over 1,000, it would be a really bad 
day. And yet we have seen apprehensions over 4,000 in recent 
weeks.
    So, Mr. Karisch, I just really want to talk about what is 
happening now. I issued a press release saying that through no 
fault of CBPs, the law enforcement at the border has been 
reduced to nothing more than a mere speed bump for 
unaccompanied children and people coming in family units on 
their path to long-term residency. I think that is a pretty 
accurate assessment.
    But just talk about functionally. We have heard reports 
that HHS is full. The house is full. So HHS cannot accept the 
flow, and so CBP now, even though they are not set up to do 
this, CBP is set up to turn, for example, unaccompanied 
children over to HHS, others to ICE. You are being forced to 
release people in the general population, correct? Can you just 
describe what is happening here?
    Mr. Karisch. Yes. Of course, our facilities were not built 
for this. We do not have the resources. I mean, we are law 
enforcement officers who are dealing with a significant 
challenge with the family units, something we do not want to 
do. In one week in RGV, we had 7,000 apprehensions in a week.
    Normally, our in-custody number for short-term housing 
there is 3,300 in our short-term facilities that we have.
    Chairman Johnson. Which is still massive.
    Mr. Karisch. Yes. But I had days actually where I was 
exceeding over 6,300 people in custody. We cannot keep people. 
We could not keep people in those conditions. We were not built 
to hold the families in the----
    Chairman Johnson. So what is happening right now? What are 
you doing?
    Mr. Karisch. So what we had to do is issue a notice to 
appear, order of recognizance, which basically they were 
released with a promise to appear at a court date in the 
future. So, once again, we are simply feeding a cycle that more 
than likely people will not show up for a hearing. This is not 
the way of doing business.
    If you look at the Southwest Border, over 364,000 
apprehensions as of April 1, over 100 percent increase, we are 
all seeing this.
    Chairman Johnson. Yes. I want to get in the details. So, 
first of all, the notice to appear, back after Deferred Action 
for Childhood Arrivals (DACA), those memoranda were issued, 
that notice to appear was called by the coyotes, the 
``permiso.''
    Mr. Karisch. Yes.
    Chairman Johnson. Again, mis-marketing. DACA applies to 
none of the--that is about 800,000--850,000 people passed the 
DACA line there. It did not apply to them, but it was used. So 
that notice to appear was called a ``permiso.'' Is not that 
correct?
    Mr. Karisch. To them, yes, sir.
    Chairman Johnson. So now CBP issues the notice to appear, 
and then what happens? What do you do with these individuals? 
You give them a notice to appear, which the coyotes call them 
the ``permiso,'' which by and large is their permission to 
enter the country and stay long term. But what specifically do 
you do?
    Mr. Karisch. We right now have worked with the NGO's. We 
are getting a lot of respite centers in our areas to actually 
help.
    Chairman Johnson. NGO's like Catholic Charities.
    Mr. Karisch. Yes.
    Chairman Johnson. OK. Then what do you do?
    Mr. Karisch. Catholic Charities. It is to help them out. 
Some of them are actually taken right to bus stations, already 
have relatives or sponsors in this country. We have to rely on 
the fact is that they are providing us with a genuine address, 
but we found in certain circumstances that after the fact, we 
realized that we actually had criminals in our custody that we 
did not know about at the time. When we tried to look for the, 
many times those were fictitious addresses. So some of them 
will be released in our communities, and we will never see them 
again.
    Chairman Johnson. Within how many days are--let us say you 
got an adult male with a child, and you finally got the adult 
to admit that that was not his 1-year-old child. But how many 
days are they in your custody before you, CBP--you are not set 
up to do this, but are releasing these individuals to--it was 
described last week to the Greyhound bus station. You notified 
Catholic Charities. Catholic Charities comes over and picks up 
this group of people, and there are hundreds in a day. Then 
they have to deal with it, get people on the phone, and then 
give them a bus ticket--this is Catholic Charities providing 
that bus ticket--to all points in America. I mean, that is what 
is happening, right?
    Mr. Karisch. Yes, sir.
    Chairman Johnson. So how many days do you have somebody in 
custody before you deliver them to that Greyhound bus station?
    Mr. Karisch. Right now because of the overwhelming number 
of people that we have in custody, as soon as we can get them 
processed, we are releasing.
    Chairman Johnson. Which is how many hours or days?
    Mr. Karisch. It could be a matter of hours.
    Chairman Johnson. So you really do not have the capacity--
and this is kind of getting to what Senator Lankford was 
talking about--to determine is that the father or is that a sex 
trafficker. Is that his daughter, or is that his sexual traffic 
victim?
    Mr. Karisch. That is correct.
    Chairman Johnson. That is a pretty accurate assessment?
    Mr. Karisch. Yes.
    Chairman Johnson. Commander White, this is not the way the 
system is supposed to work, correct?
    Mr. White. I think it is safe to say that right now, all of 
the lead Federal agencies in this process--CBP, ICE, and HHS, 
ORR--are at or close to their operational capacity. I can say 
that----
    Chairman Johnson. I mean, would not you say it is beyond 
their operation?
    Mr. White. We are at 97 percent, but the system----
    Chairman Johnson. Is it not true--is it not true that----
    Mr. White. The system is over capacity.
    Chairman Johnson [continuing]. HHS is not accepting all the 
individuals that CBP would like to send your way?
    Mr. White. That is actually not true, but let me clarify 
that. We are 97 percent occupancy, and over the last 7 days, we 
received an average of 279 children a day, and we discharged 
267. So over the last 7 days, referrals in have exceeded 
discharges out, and we are at 97 percent.
    Chairman Johnson. Again, you would only be getting 
unaccompanied children, though, at this point in time.
    Mr. White. We only receive unaccompanied.
    Chairman Johnson. So the problem is with family units, and 
is it true, then, that ICE is beyond its capability of 
accepting the number of people in family units, pretty well 
forcing CBP into doing the releasing? Mr. Howe.
    Mr. Howe. We are not releasing from the port of entry. So 
we will be waiting until ERO has that capacity to take, and 
oftentimes Border Patrol will assist us. Some of our ports like 
Hidalgo have the capacity for 30 people, and once we get to 
that number--and if we get overrun where aliens are crossing 
the boundary line, then the number could go up to 95 or 100. So 
then Border Patrol assists us and takes them into custody, and 
if they meet the criteria, to have them released.
    Chairman Johnson. A couple of years ago, the stats I had--
and everything is changing, so nothing is static. But, 
approximately, 20 percent of family units presenting themselves 
or coming in this country or legally apprehended were headed by 
a male.
    The last stats I had--and they are old--about 40 percent. I 
thought in testimony, you were saying about 50 percent now are 
headed by a male?
    Mr. Karisch. Fifty percent in the RGV sector, sir.
    Chairman Johnson. OK. So, again, what you are seeing is--
and by the way, the kind of average number of people in the 
family unit is basically two, correct?
    Mr. Karisch. On average. I mean, we tend to see different 
groups come in to our custody, but it could be one or two. Yes, 
sir.
    Chairman Johnson. To me, that just indicates this is a 
shifting problem. Gone are the days where you are primarily 
dealing with a Mexican economic migrant. That was back in 2000 
and prior to that. Now you are really dealing with 
unaccompanied children and people coming in, family units, and 
they are not trying to avoid apprehension, correct? They are 
turning themselves in.
    Mr. Karisch. Yes, sir.
    Chairman Johnson. When I was down touring with the Border 
Patrol in the Rio Grande Valley, I remember one story of a 
large group of families coming in and starting a campfire and 
then complaining to the CBP officers that it took them an hour 
to get to their location. Is that an unusual story?
    Mr. Karisch. No. Because, first of all, anytime you have a 
large group--we do not have buses staged at every location, so 
it takes time. But I think our agents actually call it them 
apprehending us.
    Chairman Johnson. So, Commander White, real quick, just to 
confirm also some other stats I have, unaccompanied children, 
historically about 70 percent have been male. Is that basically 
true?
    Mr. White. Prior to 2014, they were about two-thirds male. 
The proportion that are girls has grown.
    Chairman Johnson. So what would you estimate now?
    Mr. White. I could look up the exact number, but over 
recent years, girls have at times grown to be as much as a 
third, and among separated children, a larger proportion.
    Chairman Johnson. OK. A third is still leaving two-thirds, 
67 percent, so my stats said about 70 percent, real close, are 
male, and about 70 percent are 15 or older, correct, 15, 16, 
and 17?
    Mr. White. I am sorry. I have the numbers with me. I just 
have to look them up.
    The great majority historically have been over 12. Over 
time, it is trending younger, and those trends come and go.
    Chairman Johnson. OK. I will give all the witnesses an 
opportunity. If there is something that you have not been able 
to make, a point you have not been able to make in response to 
questions, I will let you do it right now. We will start with 
Mr. Cherundolo.
    Mr. Cherundolo. Chairman, the only thing I would point out, 
circling back around to your question about China, hopefully by 
June of this year, our law enforcement to law enforcement 
relationships, we continue to develop those. In June of this 
year, we are hopeful to open another office in the Guangzhou 
Province in China. So that relationship and building upon the 
class scheduling and hopefully being able to provide technical 
support for our class scheduling is something we continue to 
work forward on and with our counterparts throughout the world, 
not just in China.
    Chairman Johnson. You have seen a great deal of interest on 
this committee. So we are going to want to be updated on, 
hopefully, progress. Again, I view this as a really good sign. 
This is exactly what China needs to do, and I am glad they are. 
We just have to monitor and verify this is going to be 
happening. Commander White.
    Mr. White. Thank you, Senator.
    So, Senator Johnson, as you have noted, the current levels 
of migration of migration, including for UACs, are much higher 
than historical norms. We just completed the biggest march in 
the history of the program in terms of number of children 
coming in. This not only speaks to our continuing requirement 
to expand temporary and permanent capacity so that we have a 
bed for every child. It also speaks to the imperative of 
Congress and the Administration working together to prevent 
future separations of children from family units. The program 
cannot support that.
    Chairman Johnson. Again, I stated my thoughts on that for 
the record.
    I think if you do take a look at that chart, you can see 
that the biggest problem right now, the growing problem is 
people coming as family units. Mr. Tubbs.
    Mr. Tubbs. Yes, sir. Again, I appreciate you having me here 
today.
    For myself as an HSI Special Agent and specifically being 
one assigned to the border, I can attest to myself and OFO and 
Border Patrol, our agents work 24/7. I mean, they are at a tax 
point that we are on the border. They are very passionate about 
what they do. They are very professional about what they do, 
and we look forward to continuing support from our legislators 
and our appropriators, so thank you.
    Chairman Johnson. Mr. Howe.
    Mr. Howe. Thank you for the opportunity to be here, and 
thank you for all of the funding that you have provided us to 
improve our NII capability. I think it is going to really prove 
to be very worthwhile, and I thank you for your leadership and 
taking on the necessary legislation changes that we talked 
about today to fix the crisis.
    Chairman Johnson. Mr. Karisch.
    Mr. Karisch. Senator Johnson, thank you for raising 
awareness in a very important issue to this country. This is 
not a manufactured crisis. We are living it every day.
    My men and women are exhausted. They are frustrated, and 
the fact is they are having to release people, but they also 
understand that this is a reality of what we are facing today. 
And this is only a portion.
    I worry about places like Venezuela in what we might see 
from immigration from those countries. So it is a very real 
issue that we are facing, and I appreciate the opportunity 
today.
    Chairman Johnson. OK. Again, I want to thank all five of 
you for your service to this Nation.
    You should not have to be dealing with this. The ball is 
squarely in Congress' court. We have to recognize this problem. 
The first step in solving a problem is admit you have one, and 
we have a problem in the here and now that requires legislative 
action.
    So I want to work with each and every one of you. I want to 
work with the Administration. I want to work across the aisle. 
This should be a nonpartisan issue, and we ought to be doing 
the root-cause analysis. That is exactly what we are trying to 
do here is lay out the reality, going through the problem-
solving process, gathering that information, defining the 
problem properly, the problem we are trying to solve, defining 
what is a solvable problem. What is an achievable goal? From my 
standpoint, that achievable goal is reducing that flow by 
having a consequence.
    We have seen time and time again where there is a 
consequence to illegal activity, it gets reduced, and until we 
enact that consequence in absolutely humane fashion, this is 
going to continue to explode.
    So, again, the ball is in our court. I thank you all for 
your service, for your testimony. Again, I hope all the 
Committee members carefully read it, and I am looking forward 
to working with them.
    The hearing record will remain open for 15 days until April 
24 at 5 p.m. for the submission of statements and questions for 
the record.
    This hearing is adjourned.
    [Whereupon, at 12:38 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------  
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         





                    UNPRECEDENTED MIGRATION AT THE

                 U.S. SOUTHERN BORDER: THE EXPLOITATION


 OF MIGRANTS THROUGH SMUGGLING, TRAFFICKING, AND INVOLUNTARY SERVITUDE
                              ----------                              


                        WEDNESDAY, JUNE 26, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Ron Johnson 
presiding.
    Present: Senators Johnson, Portman, Lankford, Scott, 
Hawley, Peters, Carper, Hassan, Sinema, and Rosen.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order. I want to welcome everybody for attending. I want to 
thank the witnesses, first of all, for your service to this 
country.
    The issues we are dealing with here are challenging, to say 
the least. I was at the opening ceremony with Senator Carper, 
opening up St. Elizabeth's, and the comment I made there is it 
is pretty easy, from the dais here, to criticize, take 
potshots, to detail out what problems are not being addressed 
as perfectly as we would like to see, but I am thoroughly 
convinced, from all the contact I have had, quite honestly, the 
honor and privilege in working with the men and women of the 
Department of Homeland Security (DHS), I am thoroughly 
convinced that the men and women are showing a great deal of 
integrity, dedication, dignity, and courage in trying to deal 
with this horrific situation. We will talk a little bit more 
about that.
    I would ask that my written statement be entered into the 
record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 303.
---------------------------------------------------------------------------
    This hearing, and it is called ``Unprecedented Migration at 
the U.S. Southern Border: The Exploitation of Migrants through 
Smuggling, Trafficking, and Involuntary Servitude,'' really 
started a couple of years ago with Senator Portman holding a 
hearing through his Permanent Subcommittee on Investigations 
(PSI) on an example of involuntary servitude at an Ohio egg 
farm. More recent news stories after the Robert Kraft massage 
parlor scandal, The New York Times wrote a really good 
investigative story, just laying out the reality of these 
massage parlors, and often Asian women that had been smuggled, 
trafficked into this Nation, they come into this country with a 
$30,000 or $40,000 debt owed to their human traffickers, and, 
of course, they pay it off through prostitution. Disgusting 
reality, but that is the reality.
    My most recent trip to McAllen--I made a couple in the last 
couple of months with Senator Hassan and Senator Peters--there 
were a couple of things that got my antenna definitely 
twitching. First of all, we were briefed and were told about 
the detection of a number of fraudulent families, and we really 
do not know how large that is. I have seen different things--
13, 25, and 33 percent. We just really do not know. We were 
told about a 3-year-old boy left in a hot cornfield with just a 
nonworking telephone number and his name supplied, written out. 
The telephone number was written on his sandal and we saw a 
picture of that.
    Senator Hassan, Senator Peters, and I, when we went through 
the McAllen facility, saw an 18-month-old little girl 
struggling to get away from, I do not know, a 40-or 50-year-old 
man. Having just been briefed about fraudulent families, I 
mean, I do not know the truth there but it did not look like 
that was the daughter of that man. I could be wrong, but I 
could not help but wonder what was going to happen to that 18-
month-old girl if that was not her father.
    At the border, the last two trips I have made, I have been 
surprised in talking to the people who just crossed--women, 
men, with tender-aged children. None of them are admitting to 
paying their human traffickers any money, which is a concern 
for me when you also tack on the evidence that we are seeing of 
these family units showing up at stash houses.
    The process is, again, completely out of control, 
overwhelmed. People are turning themselves in to U.S. Border 
Patrol (USBP), Border Patrol is overwhelmed in their 
facilities--I think something like 19,000 people held at border 
patrol facilities, that according to the now former director of 
the Customs and Border Protection (CBP), or of Border Patrol, 
the capacity is only 4,000.
    But trying to process people as quickly as possible, the 
largest group on record now, 1,000 people coming in through El 
Paso, and trying to process them, complete their file, turn 
them over to U.S. Immigration and Customs Enforcement (ICE). 
There is a backlog there because ICE does not have enough beds 
to hold them, and then for unaccompanied alien children (UAC), 
trying to turn them over to the Department of Health and Human 
Services (HHS), where there is not enough capacity, or into 
non-governmental organizations (NGO) to find family members, 
help them buy tickets to just get dispersed all over America. 
You would think they would be dispersed all over America but 
instead, some of them are showing up at some of these stash 
houses, and of course, in testimony we will hear stories of 
those people, probably about ready to be put into involuntary 
servitude, but we have records of people being beaten, videos 
taken of that, videos sent back down to their home countries, 
demanding payment.
    Once we got back from that trip, a story broke in 
Wisconsin. I am going to read you some excerpts from a story 
that just ran in the Milwaukee Journal Sentinel on June 20. 
``Five people were indicted in late May, in a Georgia-based 
human trafficking scheme that Federal authorities say illegally 
brought dozens of Mexican workers to work on Wisconsin farms.
    ``The defendants, through two companies they operated, 
received U.S. Department of Labor (DOL) approval to bring the 
Mexican nationals to the United States to work on Georgia farms 
through a program that allows employers to hire seasonal 
foreign workers if they cannot find domestic workers to 
cultivate and harvest crops. Thus, the workers were in the 
country legally.
    ``But according to the indictment, the defendants who 
illegally brought the employees to work on Wisconsin farms gave 
them false IDs and took away their passports so they could not 
leave. The workers faced threats and were made to believe they 
would suffer serious harm if they left. All but one of the 
workers identified as victims told authorities they had to pay 
recruiting fees ranging from $200 to more than $600, to be 
placed on a list to come to work in the United States. Some say 
they also had to turn over titles to their properties in 
Mexico, their families' homes or land, as collateral to get the 
job.
    ``The workers said they were left without medical attention 
when they got sick and were forced to work more than 10-hour 
days without being allowed to take breaks other than lunch. 
Some workers said they were not always provided water, even on 
hot days. They were told not to talk with anyone outside the 
company, not to leave their Wisconsin motel without supervision 
or permission. Two workers said they were threatened with 
deportation if they left. Another feared not ever being able to 
return to work legally in the United States if he was 
deported.''
    Now again, this is the exploitation of migrant workers in 
the country legally. I have no idea. I was hoping this hearing 
would give us some sense of how prevalent this is. I do not 
think we are going to get that. I think we will hear some other 
examples. Maybe it is not that big of a problem. I have a sense 
that it is a huge problem.
    I think we should get our chart up here.\1\
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 322.
---------------------------------------------------------------------------
    You have all seen this. I have had to turn the piece of 
paper the long way. Through May, through 8 months of this 
fiscal year (FY), more than 400,000 unaccompanied children or 
people coming in as families--generally one adult, one child--
have crossed the border illegally and been apprehended, and 
processed and basically dispersed. If we are to maintain May's 
rate, that number would exceed 800,000 by the end of the fiscal 
year, in just four more months.
    I think we have seen a slight decline, based on the weekly 
numbers. It is getting hot. Mexico seems to be doing more, so 
hopefully we will not hit that 800,000 number. But, I do not 
see how anybody can take a look at this and not realize, this 
is a huge problem that must be addressed, and we are simply not 
addressing it, not effectively.
    I did not have time to have a picture blown up but we have 
all seen it, of Oscar Alberto Martinez Ramirez and his 23-
month-old daughter, Valeria. Now I realize tragedies occur all 
over this country, all over the world. I do not want to see 
another picture like that on the U.S. border. I hope that 
picture alone will catalyze this Congress, this Senate, this 
Committee to do something.
    I called up Senator Peters earlier this morning. I said I 
had half a mind to canceling this hearing and instead just have 
a discussion between what I believe are U.S. Senators of good 
faith, that have sat through 30 or more hearings of this 
problem on the border, and start coming to some conclusions. 
What can we agree on to actually start improving this 
situation?
    What I have found, in 8\1/2\ years here in the U.S. Senate, 
there is not much of a problem-solving capability, not for the 
big ones, not for the big problems. This Committee has actually 
demonstrated pretty good capacity for solving smaller problems, 
on a totally nonpartisan basis, quite honestly. I am pretty 
proud of that. We should all be proud of that. Our staffs ought 
to be proud of that.
    Just last week, in our mark-up, we addressed the problem of 
government shutdowns, and Senator Lankford, Senator Hassan, and 
I know Senator Portman, Senator Paul had other bills, but we 
passed a bill to end government shutdown. Hopefully the rest of 
the Senate will pick that up. Hopefully the House will pass 
that and we will never have to have another shutdown again.
    This is a much more difficult problem we are dealing with 
here. What I proposed to Senator Peters--and again, I 
appreciate the Senators we have here at the dais, and I am also 
talking to the other Senators' staffs, and I am dead serious 
about this. I want to set up our table down there, like a mark-
up, but it is not going to be a mark-up, and in a very 
organized process, an organized fashion, I want to go through a 
problem-solving process. That is what we have been doing with 
all these hearings. We have been gathering a lot of 
information. We still need more information.
    But I want to have an open and honest and genuine 
discussion about the scope of the problem, the root causes of 
this problem, and what we can do to start solving it. 
Continuous improvement. We are not going to solve this 
overnight, but we can make some 
improvement in the situation. We have to start doing 
something--Congress. The men and women at DHS are doing what 
you can do, with limited resources. Congress has to act, and it 
has to start with an honest and open discussion and 
conversation.
    We will go back and forth, find the areas of agreement. I 
do not know if that ends up in an overall piece of legislation 
or elements that could be tacked onto a piece of legislation 
that would probably be under some other committee's 
jurisdiction, but we need to start doing something. It is well 
past time. And that picture that all Americans woke up this 
morning looking at, again, should be used as a catalyst for 
that kind of action.
    So again, one thing that we are going to try and do--and 
Senator Peters has been great working with me on this--but 
hopefully we can sign a letter in support of Operation Safe 
Return, a pilot program, very small in scope, but a program 
that is designed to rapidly and more accurately determine those 
families that clearly do not have a valid asylum claim and 
safely return them to their home country, as a message to 
people in Central America--do not indebt yourself to these 
human traffickers. Do not mortgage your home. Do not pay them a 
year's worth of salary. Because on a bipartisan basis, we are 
not going to let the human traffickers exploit our broken 
system. And then the next step would be to actually start 
fixing that system.
    But I think the beauty of the pilot program, Operation Safe 
Return, is while it is being implemented we are going to be 
tracking its effectiveness. We are going to find out how many 
people actually do have a valid asylum claim. We will be giving 
them interpreters. They will have access to counsel. And that 
is something, on a bipartisan basis, we can send a strong 
signal and message that we want to fix this problem.
    So again, I have yammered on a lot longer than I normally 
do in an opening statement, but if there was ever a moment that 
requires that the nonpartisan effort of the Members of this 
Committee, I would say it is now. And so that is what I am 
asking for, for every Senator, every Staff member in this 
Committee. Let's come together. Let's have these discussions. 
These will be multiple meetings, a number of hours. But I am 
asking for full involvement and a very open and genuine 
discussion.
    With that, Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Thank you, Mr. Chairman, and I can assure 
you all of us on this side of the aisle also want to work on 
this issue. It is an important issue and I think we can 
hopefully come together and have some solutions to what is a 
very vexing problem impacting our country and people right now.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appears in the 
Appendix on page 305.
---------------------------------------------------------------------------
    But I also want to thank you for convening this 
particularly hearing here today, and I look forward to 
discussing with our witnesses how we can combat human 
trafficking. It is a horrific criminal enterprise that exploits 
vulnerable people arriving at the Southern Border, and really 
all across our country.
    Desperation drives people into the hands of human 
traffickers, and that same desperation drives some families to 
attempt a journey to the north on their own. And like the 
Chairman and, I think, everybody on this Committee--I speak for 
all of us--we were devastated by the photo showing Oscar 
Martinez Ramirez and his daughter, Valeria, who drowned 
clinging together in the final moments as they attempted to 
cross the Rio Grande Valley (RGV) for asylum here in the United 
States.
    No one is more vulnerable than a child, and like most 
Americans I am heartbroken that migrant children in U.S. 
custody, including toddlers and infants, have been subjected to 
unsafe conditions and sometimes denied basic necessities. It is 
unconscionable that the Administration would argue in court 
that it should not be required to provide soap and a toothbrush 
for a child in its custody. Even prisoners of war are provided 
with soap, under the Geneva Conventions. There is no question 
that children in Federal custody deserve basic necessities, 
including warm meals, blankets, and access to medical care. We 
must prioritize keeping families together and keeping our 
children safe and healthy.
    I have made inquiries to the Customs and Border Protection, 
Immigration and Customs Enforcement, and the Office of Refugee 
Resettlement (ORR) to learn more about these reports and the 
conditions experienced by children in U.S. custody, and I will 
continue working with my colleagues to ensure that they are 
treated with dignity and receive appropriate care.
    We cannot fully address this situation on our Southern 
Border and keep children safe without disrupting smuggling 
networks and combating the scourge of human trafficking. Human 
trafficking is the fastest-growing criminal enterprise in the 
world, and it is a serious issue along both the Northern as 
well as the Southern Borders. My home State of Michigan has the 
sixth-highest number of reported cases of human trafficking in 
the country, and despite the scope of this problem there is a 
lot we do not know about the illicit business of human 
trafficking.
    We need a better understanding of how transnational 
criminal organizations (TCOs) operate, finance, and profit from 
these smuggling rings. We need to work with Mexico and the 
Northern Triangle countries to address corruption, lawlessness, 
and other root causes of immigration. We need strong, stable 
border security policies.
    Traffickers thrive on chaos and leverage American threats 
of future crackdowns to induce families to quickly embark on 
this dangerous journey. We need less chaos. We can all agree 
that the status quo is both unacceptable and unsustainable. We 
all share the goal of protecting vulnerable people from human 
traffickers.
    That bipartisan support is reflected in the supplemental 
funding bill the Senate will soon be considering. This 
legislation was approved last week by the Appropriations 
Committee by a vote of 30-1. It includes critical resources to 
help offices like Homeland Security Investigations (HSI) root 
out smuggling networks. We must provide the right resources in 
addressing the challenges we face at our Southern Border and we 
need a full understanding of the facts on the ground to 
properly align efforts across the Federal Government.
    Chairman Johnson and I share an appreciation for data-
driven discussions. We need to improve the Department of 
Homeland Security's data analytics in order to better combat 
transnational criminal organizations, disrupt human 
trafficking, and deliver long-term solutions to secure our 
borders to protect vulnerable populations.
    So I want to thank our witnesses for being here today. I 
look forward to your testimony and hearing more about how we 
can stamp out human trafficking.
    Chairman Johnson. Thank you, Senator Peters.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Hastings. I do.
    Mr. Howe. I do.
    Mr. Nevano. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Brian Hastings. Mr. Hastings currently 
serves as the Chief of Law Enforcement Operations in the U.S. 
Border Patrol Headquarters in Washington, DC. Previously he was 
the Chief Patrol Agent of the Buffalo Sector Office in New 
York. Mr. Hastings.

   TESTIMONY OF BRIAN S. HASTINGS,\1\ CHIEF, LAW ENFORCEMENT 
 OPERATIONS DIRECTORATE, U.S. BORDER PATROL, U.S. CUSTOMS AND 
    BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Hastings. Thank you, Chairman Johnson, Ranking Member 
Peters, and Members of the Committee. It is my honor to 
represent the men and women of the Border Patrol before you 
today, as they are hard at work addressing the current crisis 
on the border.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hastings appear in the Appendix 
on page 308.
---------------------------------------------------------------------------
    Interdicting illegal aliens, drugs, cash, and weapons at 
the border is a key component of U.S. border security, and by 
extension, our national security. Cartels and other 
transnational criminal organizations, are a threat that 
requires comprehensive strategy and an aggressive approach 
across government.
    I am sorry to report that Border Patrol's contribution to 
this whole-of-government effort is currently strained, as we 
are forced to devote 40 to 60 percent of our manpower to the 
humanitarian flow that serves as a lucrative line of business 
for smuggling organizations.
    We are overwhelmed by the sheer volume of apprehensions and 
cannot conduct in-depth interviews that provide vital 
intelligence on smuggling and trafficking networks. While 
agents are distracted with the nearly 200 large groups 
apprehended this year, trafficking organizations are using 
these opportunities to move illicit narcotics and aliens 
seeking to evade apprehension. Simply put, the current 
humanitarian crisis has forced us to put border security and 
national security at risk.
    TCOs conduct their illicit operations without regard to 
human life. Smugglers control where and how aliens cross our 
border, putting lives at risk. In the Del Rio Sector alone, 
Border Patrol rescues have risen from 44 individuals all of 
last year to over 400 so far this year.
    Smugglers are often placing children in nothing more than 
makeshift rafts or on pool toys to cross the dangerous Rio 
Grande River. On multiple occasions, smugglers have pushed 
adults and children out of these rafts, knowing that agents 
would prioritize the preservation of life while the smugglers 
swam back to Mexico to evade arrest.
    So far this fiscal year, Border Patrol agents have rescued 
more than 3,400 people in distress along the border and saved 
nearly 2,500 people crammed into tractor-trailers. Earlier this 
month, agents freed 14 people from a locked and unventilated 
trailer compartment that measured 124 degrees. All of these 
people paid smugglers to bring them into this country and 
nearly paid with their lives.
    Others were not so fortunate. This past weekend, in the Rio 
Grande Valley, they mounted an extensive search effort when 
subjects reported that they had left several children who had 
died just north of the border. Sadly, on Sunday night, agents 
recovered the bodies of three children and one adult in the 
thick brush.
    Unfortunately, I know that these will not be the last 
tragic deaths that we encounter. Summer temperatures are 
increasing and we continue to see high volume of families and 
children cross the border. Border Patrol has apprehended more 
than 664,000 illegal aliens on our Southwest Border so far this 
year, a nearly 140 percent increase compared to the same 
timeframe last year.
    While June is beginning to show signs of seasonal decline 
that we expect in the summer months, we are still setting 
record highs. Just 3 weeks into the month we have already 
surpassed the apprehension level of every June since 2007.
    The flow continues to overwhelm resources throughout the 
immigration system. Border Patrol has made significant 
investments in humanitarian care, including consumables, soft-
sided facilities, medical support, and transportation. We have 
requested additional funds for this purpose in the supplemental 
as well.
    We have been forced to direct manpower away from the border 
security mission to alien processing, simply to keep pace with 
the high level of apprehensions. We have detailed agents, we 
have shut down checkpoints, pulled agents from task forces, 
canceled leave, canceled training to address this crisis.
    Since we began direct releasing non-processed criminal 
family units on March 19, we have significantly reduced the 
time families spend in our custody after processing. With more 
than 96,000 family members released so far, this currently 
represents over 60 percent of the apprehensions but only about 
25 percent of those in custody. Together with our partners we 
have reduced the number of people in Border Patrol custody from 
the peak of 19,000 in May to 12,000 to 13,000 today.
    Of significant concern are the single adults and 
unaccompanied children that are spending extended time in 
custody. Our facilities simply were not designed for long-term 
care in custody. I cannot stress enough the immediate impact of 
funding for ICE and HHS bed space would have on the Border 
Patrol's in-custody population, for both numbers and the 
duration.
    In the immediate term, we need Congress to provide 
supplemental funds requested by CBP and our partners, but the 
funding will only do so much without a long-term fix. I urge 
Congress to pass legislative changes. that we have repeatedly 
requested, to stop the draw of UACs and families.
    I thank you for your time and I look forward to your 
questions.
    Chairman Johnson. Thank you, Chief Hastings. Our next 
witness is Randy Howe. Mr. Howe is the Executive Director for 
Operations for U.S. Customs and Border Protection. In this 
role, he oversees 30 field offices and 328 ports of entry. Mr. 
Howe.

TESTIMONY OF RANDY HOWE,\1\ EXECUTIVE DIRECTOR FOR OPERATIONS, 
OFFICE OF FIELD OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Howe. Good morning, Chairman Johnson, Ranking Member 
Peters, and distinguished Members of the Committee. It is an 
honor to appear before you today on behalf of CBP's Office of 
Field Operations (OFO).
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Howe appears in the Appendix on 
page 308.
---------------------------------------------------------------------------
    When I last appeared before this Committee in April, I 
described the challenging conditions at our ports of entry 
(POEs). I mentioned long wait times for cargo processing and 
ballooning passenger wait times. I explained the ripple effects 
that redirecting CBP personnel would have on the trade 
community, the supply chain, and the American consumer, and I 
asked that you consider legislation action that would help 
address this crisis.
    I wish I could say that conditions at the ports of entry 
have improved or that our Border Patrol colleagues no longer 
require additional manpower. I also wish I could say that CBP's 
Office of Field Operations at our ports of entry were able to 
dedicate all of its energies toward our priority missions--
national security, counternarcotics, economic security, and the 
facilitation of lawful trade and travel.
    But the fact is that the conditions at our ports of entry 
have not improved. Most every statistic is higher. More 
inadmissible migrants are at our Southwest ports of entry, long 
wait times, more detainees in custody, and more officers from 
our ports of entry have been redirected to assist the Border 
Patrol.
    The variables driving this crisis are the same--
unprecedented numbers of family units and unaccompanied 
children from Central America, many in large groups, and nearly 
all of them seeking asylum and arriving without proper 
documentation. And spikes in migration, like the one we are 
experiencing on the Southwest Border, can both fuel and conceal 
human trafficking.
    The International Labor Organization estimates that there 
are over 40 million victims of human trafficking globally. In 
terms of population, that is more than the State of California. 
Seventy-five percent of them are female and a quarter are 
children.
    Due to our unique position at our ports of entry, CBP 
officers play a critical role in our country's efforts to stop 
human trafficking. Earlier this month, CBP officers and ICE 
Homeland Security Investigation agents arrested Naason Joaquin 
Garcia, the leader of an international religious organization 
at Los Angeles International Airport. He was charged with human 
trafficking, production of child pornography, and forcible rape 
of a minor, among other felonies.
    Because our officers are among the first people travelers 
encounter when they enter the United States, we are trained to 
detect the signs of human trafficking. In addition, our 
interviews are crucial for identifying victims of trafficking 
because the interview determines the purpose of their travel. 
For example, in 2017, CBP officers at Dulles Airport 
interviewed a woman from Spain who had arrived from Paris with 
her minor child. The woman stated she was a victim of human 
trafficking and that a Russian criminal organization was 
forcing her to work as a maid and have sex with men against her 
will to pay off a debt.
    The traveler added that the Russian organization had grown 
impatient at the rate that the debt was being paid off, and 
were sending her to the United States to earn money more 
quickly. Alerted by CBP and ICE's Human Trafficking Division, 
we were able to take the woman and child to a shelter for 
further processing and interviews.
    Not every trafficking situation is so straightforward. That 
is why education is important. In 2013, CBP launched the Blue 
Lightning Initiative to boost awareness about human trafficking 
in the airline industry. Together with the Department of 
Transportation (DOT), the Blue Lightning Initiative provides 
training on how to recognize indicators of trafficking and how 
to report this suspected trafficking to law enforcement.
    We do everything we can to recognize and intercept human 
traffickers and hopefully rescue their victims, but we cannot 
do it alone. We work closely in collaboration with ICE and 
other law enforcement partners.
    I thank you for your time and I look forward to your 
questions.
    Chairman Johnson. Thank you, Mr. Howe.
    Our final witness is Gregory Nevano. Mr. Nevano is the 
Assistant Director with Homeland Security Investigations. He 
previously served as Chief of Staff to the Deputy Director of 
Immigration and Customs Enforcement. Mr. Nevano.

    TESTIMONY OF GREGORY NEVANO,\1\ ASSISTANT DIRECTOR FOR 
INVESTIGATIVE PROGRAMS, HOMELAND SECURITY INVESTIGATIONS, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Nevano. Good morning, Chairman Johnson, Ranking Member 
Peters, and distinguished Members of the Committee. I am 
honored to appear before you today to represent the more than 
8,500 brave men and women from U.S. Immigration and Customs 
Enforcement Homeland Security Investigations to provide an 
update on our efforts to combat human smuggling and human 
trafficking and the ongoing security and humanitarian crisis at 
our Southern Border.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nevano appears in the Appendix on 
page 316.
---------------------------------------------------------------------------
    Throughout my nearly three-decade career, I have witnessed 
firsthand the perils individuals are willing to endure to seek 
a better life in the United States. There is no better 
illustration of this than in June 1994, when I encountered 11 
remaining stowaways hidden in a container on a vessel in South 
Boston, Massachusetts. The stowaways spent nearly 2 weeks in 
the container with limited food and water and only a small hole 
cut in the side of for them to breathe.
    As a young officer, this incident made me appreciate the 
freedoms we often take for granted as well as to treat every 
person I encounter in the line of duty with dignity and 
respect.
    Human smuggling and human trafficking are often conflated 
as one in the same type of crime. I would like to take a few 
moments to explain the key differences between them. Human 
smuggling involves the provision of a service for a fee, 
typically transportation to an individual who voluntarily seeks 
to enter a foreign country illegally. In fiscal year 2018, HSI 
initiated 1,671 cases, made 4,081 criminal arrests, and 2,987 
administrative arrests for human smuggling.
    Human trafficking, however, is a crime involving the 
exploitation of someone for the purposes of compelled labor or 
a commercial sex act, either a minor or through the use of 
fraud, force, or coercion. Often a dream for a better life in 
the United States starts off as a human smuggling event, where 
the person is complicit to the act but turns quickly into a 
human trafficking event. In fiscal year 2018, HSI initiated 849 
cases, made 1,588 criminal arrests, and rescued 308 victims of 
human trafficking.
    Our intelligence indicates desperate migrants pay smugglers 
upwards of $8,000 to be smuggled from the Northern Triangle 
countries and over $70,000 to be smuggled from an Eastern 
Hemisphere country on their illegal journey. To put this in 
perspective, consider a kilogram of cocaine is estimated at 
just about $30,000 U.S. dollars, and therefore it is more 
lucrative for a transnational criminal organization to smuggle 
a person than it is narcotics.
    A key component of HSI's efforts to combat human 
trafficking is the Victim Assistance Program, which employs a 
victim-centered approach whereby equal value is placed on the 
identification, rescue, stabilization of the victims, and on 
the deterrence, investigation, and prosecution of the 
trafficker. I would like to thank Congress for appropriating 
$7.5 million to HSI in February 2019. This funding will be used 
to enhance our Victim Assistance Program by hiring nearly 60 
employees. These employees will significantly assist HSI in 
dealing with the humanitarian crisis along our Southern Border.
    In response to this crisis, beginning in April 2019, HSI 
dedicated over 400 personnel to assist CBP in combating this 
issue. HSI deployed teams to interview persons suspected of 
attempting entry by fraud, including as part of a fraudulent 
family unit. To date, HSI has identified 316 fraudulent 
families, 599 fraudulent documents, and presented 629 
individuals to the Department of Justice (DOJ) for various 
criminal violations.
    In furtherance of our efforts to combat this crisis, in 
early May 2019, HSI initiated a rapid Deoxyribonucleic acid 
(DNA) pilot program in El Paso and McAllen, Texas. During this 
operation, a total of 84 family units were DNA tested, after 
providing consent. Sixteen family units were found to be 
fraudulent during the testing. About half of the confirmed 
fraudulent family units were identified prior to DNA testing, 
when the adult alien recanted their claim of a familial 
relationship when asked to consent to the test.
    There is no better case illustration but when a 51-year-old 
Honduran male confessed prior to testing that he was not the 
father of the infant child he initially claimed to be his son, 
and purchased the child for $84.
    In addition to DNA testing, in early May 2019, HSI and CBP 
began identifying adult migrants and accompanying children that 
entered the United States as alleged family units along our 
Southern Border. However, the children have subsequently 
departed the United States with unrelated adults via commercial 
airlines to the Northern Triangle. HSI is currently 
investigating these incidents to determine if these children 
are being used and recycled by adult migrants for the purposes 
of defrauding the United States.
    HSI is committed to augmenting CBP's resources at our 
Southern Border to ensure the safety of children and to prevent 
them from being utilized by criminal enterprises to exploit our 
immigration laws. However, without additional congressional 
support we will be unable to sustain this effort.
    I thank you for the opportunity to appear before you today 
and I look forward to answering your questions.
    Chairman Johnson. Thank you, Mr. Nevano. Normally I would 
throw questions out to our Committee Members right away but I 
have a couple I want to go over quickly.
    Mr. Hastings, you talked about current levels, 12,000 to 
13,000 being held in CBP custody. John Sanders quoted, in the 
newspaper today, said the capacity of Border Patrol stations is 
about 4,000. Is that pretty accurate?
    Mr. Hastings. Yes, sir. That is accurate, and that is 
across the entire Southwest Border. So 4,000 is a healthy 
number. So even though we have brought those levels from 19,000 
in May, as I talked about earlier, we are still sitting at 
12,000 to 13,000 every day, which is well above the capacity 
level.
    Chairman Johnson. Again, that is the capacity of the 
standard stations, correct? You have put up things like PGA 
tents, we saw those, other types of military tents, the types 
used by our military in Iraq, that type of thing. Correct? Is 
that how you have expanded capacity?
    Mr. Hastings. That is, sir. So, I mean, you have seen, in 
multiple areas, primarily RGV in El Paso, where we have been 
forced to move bodies out, transport them out, because we are 
over capacity in that location. We have transported them to 
either Del Rio Sector to process or to Laredo Sector to 
process.
    To your point, we have stood up additional soft-sided 
facilities. We have stood up two at Donna in RGV, and we have 
stood up one in El Paso as well, to assist, and there is one 
currently being stood up at Yuma to assist.
    Chairman Johnson. So talk about the roadblock, because I 
know Border Patrol, you are trying to process, create the A-
file as quickly as possible and then turn them over to ICE. 
Correct? I mean, that is the process. You apprehend them, 
develop the--screen them for medical conditions, take them to 
hospitals, do anything you can to treat them with as much 
compassion as possible, but your job is really to turn them 
over to ICE as quickly as possible. Correct?
    Mr. Hastings. So two things. One, yes, we process the 
family units and the single adults as quickly as possible, and 
the job is to turn them over to Enforcement and Removal 
Operations (ERO) ICE. The UAC, they are our top priority. We 
process them first, so we can get them entered into the system 
to be turned over to HHS.
    Chairman Johnson. So what is the roadblock in terms of why 
you are so over capacity?
    Mr. Hastings. So one is sheer volume. The system is 
overwhelmed, so just sheer volume alone. If you look back, 
historically, demographically, 70 to 90 percent of who we 
arrested we could easily repatriate immediately back to Mexico. 
Today we are seeing 82 percent of those that we arrest are from 
other than Mexico, and that population is very difficult to 
repatriate under the current laws that we have going.
    Chairman Johnson. So one of the complaints I hear on the 
border, from Border Patrol, is ICE does not have the capacity, 
so Border Patrol is saying, ``ICE, take these individuals'' and 
ICE is saying, ``We do not have the capacity.'' And then, of 
course, ICE, particularly the children, go to HHS, and we do 
not have the capacity either. It is just kind of backing them 
right up to Border Patrol, right?
    Mr. Hastings. It is. So I think everyone in the system, the 
entire system, is overwhelmed right now. That is absolutely 
correct. We are holding these individuals longer than we want 
to. We do not want to be holding these individuals for longer 
than 72 hours. If we could get rid of them quicker than that, 
that would be great as well. But we do not want to be holding 
kids in detention facilities, our detention facilities, which 
were not designed for that. If we had zero in custody that 
would be great.
    Chairman Johnson. Yes, again, there is no incentive. You 
are not trying to hold children longer than 72 hours. You would 
just like to turn them over to ICE and to HHS as quickly as 
possible. It is just not possible right now.
    Mr. Hastings. As I understand it, HHS is at max capacity, 
as is ICE ERO, and they need additional funding for bed spaces.
    Chairman Johnson. Mr. Nevano, you talked about a case where 
a child was purchased for $84.
    Mr. Nevano. That is correct, Senator.
    Chairman Johnson. You also listed a number of different 
stats in terms of how many people had been apprehended, the 
number of fraudulent families, fraudulent documents, that type 
of thing.
    In the scheme of things, where you are looking at over 
400,000 accompanied children, primarily people coming in as 
family units, one of the things I was trying to get a sense of 
in this hearing is how prevalent the human trafficking element, 
the sex trafficking, the involuntary servitude is within this 
process. You obviously have limited resources in terms of how 
many things you can investigate. I mean, I have heard 
statistics in terms of how many crimes are actually ever 
detected or prosecuted or arrests made.
    What is your sense of how prevalent this is? I mean, do you 
have any sense, whatsoever? Are you as suspicious as I am that 
there is a lot of this going on?
    Mr. Nevano. Senator, keep in mind that a lot of times you 
do not need a border nexus to have human trafficking. So a lot 
of times it is very difficult for our CBP counterparts at the 
border to actually identify a human trafficking element or 
crime. Usually the human trafficking element occurs once they 
make it into the United States, and that is when we are seeing 
more of the human trafficking element. So a smuggling event 
starts off at the border, but once the person gets into the 
interior, as you mentioned in your opening comments, it often 
turns into a situation of exploitation where that migrant is 
then charged, held against their will, their families are 
exported back home to pay more money to pay off their smuggling 
debt.
    Chairman Johnson. So let's go back to the process. Border 
Patrol apprehends, processes, turns over to ICE. ICE then--
again, when I was, for example, in El Paso--turns them over to 
an organization like the Annunciation House, who also helps 
allocate them to other churches to further care for 
individuals, but try and identify family members or relatives 
or some place where they can be sent to. People buy plane 
tickets, buy bus tickets, and these individuals are sent all 
over the country. Is that basically what is happening? Again, 
as rapidly as possible. That is occurring within 6, 7, 8, or 9 
days, general.
    Mr. Hastings. Yes, sir, that is occurring very quickly. In 
March we began releasing non-criminal, processed families, 
because we were at 19,000. So we began releasing them, working 
closely with our NGO partners to provide service for them after 
release.
    Chairman Johnson. Now when you say you began releasing, 
Border Patrol began releasing them, right, bypassing the step 
with ICE, right into non-government organizations.
    Mr. Hastings. That is correct, sir. Our capacity levels at 
19,000 and climbing, for the safety of our officers, our 
agents, and for those that we detained, we began releasing.
    Chairman Johnson. So my final point is, in part of that 
processing, I think the migrants give you an address where they 
think they are going to go. Correct?
    Mr. Hastings. Yes, sir.
    Chairman Johnson. But once you turn them over to non-
government organizations you have no idea where they really go.
    Mr. Hastings. That is correct. They are provided with a 
change-of-address form, in case they go someplace else, but 
where they ultimately go after we release them, or on an order 
of recognizance, we do not control where they go or how they 
get there.
    Chairman Johnson. Again, the assumption is they are going 
to meet up with some relative? A lot of people have come in 
during the Central American wars from the 1980s, so there are a 
lot of people they know, and they have social media. But we 
still are finding families in stash houses.
    Mr. Hastings. That is correct. Yes, sir.
    Chairman Johnson. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman. I know two of our 
Members, Senator Hassan and Senator Rosen, have a mark-up so I 
would defer my questioning and defer to Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you very much, Senator Peters, for 
the courtesy. Thank you to Chairman Johnson and Ranking Member 
Peters for this hearing. Thank you to all of our witnesses for 
being here to testify as well as for your service to our 
country, and please thank all the men and women you work with 
on our behalf as well.
    We all want to make sure that those of you on the front 
lines have the resources you need. We also want to make sure 
that you are doing your jobs consistent with American values, 
and I think that is something we all share.
    Mr. Howe, I wanted to start with a question to you. It 
would be great if we could have a brief update on drug seizures 
at our land ports of entry along the U.S.-Mexico border. Have 
we seen an increase in trafficking of any particular narcotic 
over the past 6 months?
    Mr. Howe. Thank you, Senator, for the question, and thank 
you for visiting McAllen in May.
    Our narcotics users are on track to match our numbers from 
last year. Year to date we have seized more than 39,000 pounds 
of methamphetamine, which is tracking a little bit higher than 
normal; 38,000 pounds of cocaine; 3,200 pounds of heroin; and 
nearly 2,000 pounds of fentanyl.
    Senator Hassan. Thank you. In particular, have fentanyl 
seizures increased or decreased over the past 6 months, and 
what does that tell you about the drug cartels' plans for the 
trade of fentanyl?
    Mr. Howe. I think we are seeing less through our mail 
facilities and is trending up slightly on the Southern Border 
with the fentanyl.
    Senator Hassan. Right. Of course, while the size of the 
seizures of fentanyl that you just recounted sounds smaller 
than the other drugs, 2,000 pounds of fentanyl is an awful lot 
of fentanyl, given its lethality.
    Mr. Howe. Absolutely.
    Senator Hassan. Mr. Hastings, how do Border Patrol's drug 
seizure numbers compare with CBP's seizures at ports of entry?
    Mr. Hastings. Thank you for the question. So we have a 
noticed the hard narcotics generally trending up, and what I 
mean specifically, cocaine seizures are up, methamphetamine 
seizures are up, and heroin seizures are up. Cocaine, about 
9,700 pounds of cocaine seized so far this fiscal year between 
the ports of entry.
    Senator Hassan. Right.
    Mr. Hastings. About 9,800 pounds of methamphetamine seized 
between the ports of entry. Heroin, 448 pounds of heroin seized 
so far between the ports of entry. Marijuana is slightly down 
at about 200,000 pounds, and fentanyl, although down a little 
bit at 149 pounds, still obviously very highly concerning.
    Senator Hassan. Thank you for the information.
    Mr. Hastings, I want to turn to another topic. I understand 
very clearly, from my visits to the border, the one I just did 
with Senators Johnson and Peters and the one I did last year, 
that we are facing a humanitarian and security crisis along the 
Southwestern Border. I agree with you that we need 
comprehensive immigration reform in order to help relieve some 
of the flow of migrants into the United States. However, there 
is absolutely no excuse for the reported conditions at Border 
Patrol facilities that house child migrants.
    Outside lawyers recently visited a Border Patrol facility 
in Clint, Texas, where they reported widespread instances of 
children living in squalor, being denied the ability to shower 
for weeks at a time, caring for infants just a few years 
younger than themselves, and being locked in cages for the vast 
majority of the day.
    Similar reports of gross mismanagement and horrible 
conditions have come to light at the Border Patrol facilities 
at McAllen and El Paso, as well as a private facility in 
Homestead, Florida.
    I truly understand how overwhelmed Border Patrol is. I 
think you have done a very good job of highlighting it in your 
testimony. I certainly saw a great deal of it when I was down 
at the border just last month. I also understand that CBP needs 
funding to address this crisis. Hopefully we will be able to 
take action here in the Senate on an emergency aid package in 
the coming days.
    However, when dealing with children, your first and 
foremost priority is to ensure that the children in the Federal 
Government's custody are treated with the same kind of care, 
dignity, and support that we would want and expect for any 
child.
    To that end, Mr. Hastings, I would like a very clear answer 
on these questions. First, does CBP have an obligation to 
provide toothpaste and soap to children in your custody? Yes or 
no.
    Mr. Hastings. We are providing that in El Paso, in Clint 
Station.
    Senator Hassan. The news reports say otherwise, but you now 
say you do have an obligation to do that.
    Mr. Hastings. We have been at the Clint Station, and 
generally all of our stations across the Southwest Border are 
provided with a variety of hygiene products. Even though our 
facilities were not constructed for the demographic we are 
seeing----
    Senator Hassan. I understand that, and my time is limited 
so I do understand that you are dealing with difficult 
facilities. I do understand that there is a backup with HHS, 
which I think HHS could do more to solve. But at the end of the 
day, what I am hearing you say is that you agree that children 
should be provided soap and toothbrush if they are in your 
custody, which is a different position than what the 
Administration has been saying in court.
    Mr. Hastings. We are providing those things now. We have 
been and we will continue to.
    Senator Hassan. Do you have an obligation to feed, clothe, 
and clean the children in your custody?
    Mr. Hastings. We provide three hot meals a day and snacks 
are unlimited to those in our care.
    Senator Hassan. You do understand that that is in direct 
contradiction with the news reports that we have been reading, 
and from what lawyers who have been visiting these children and 
interviewing them are telling us.
    Mr. Hastings. I would ask that you understand that those 
are the plaintiffs' attorneys who have a case against the 
government.
    Senator Hassan. You should understand that I am a member of 
the bar of Massachusetts and New Hampshire, and I hold 
attorneys to very high standards, and I doubt very strongly 
that any attorney would be fabricating this information.
    Mr. Hastings. I understand, ma'am.
    Senator Hassan. What steps is the Border Patrol taking 
right now to ensure that the mismanagement of child migrants in 
Clint, Texas, is not occurring at every other border patrol 
facility along the Southern Border?
    Mr. Hastings. So all of the allegations that you have 
mentioned above that were made have all been reported to the 
Office of the Inspector General (OIG) and will be thoroughly 
investigated. They have also been reported to the Office of 
Professional Responsibility (OPR) within CBP. They will be 
thoroughly investigated.
    Senator Hassan. I am pleased that they will be 
investigated, but my question is what are you actually doing to 
make sure that as you are dealing with an unprecedented number 
of migrant children that you are ensuring that there is enough 
soap and toothbrushes, that there is enough food and enough 
time for them to be outside and out of very confined spaces? 
What I am asking is, what are you operationally doing to change 
the circumstances?
    We are hearing reports, not just from one facility, not 
just from two facilities, not just from one source, that these 
children are living in terrible conditions that would violate 
any standard of any institution that we all would expect in 
this country. What are you doing to actually make sure that 
children are getting the care and the sanitary conditions and 
the food that they need?
    Mr. Hastings. So we have done a great deal. As I mentioned 
earlier, we have brought in shower facilities just for this 
population and for others, due to the new demographic and how 
long we are holding them. We have increased our medical 
contract across the Southwest Border for medical assessments 
and medical care. We have increased, as I mentioned in my oral 
statement, the amount of operational funding that we are 
spending on consumables, diapers, food, formula, all of those 
things.
    If you walk into many of our locations on the Southwest 
Border, including Clint, you will see an area, a storeroom, 
that frankly looks like Costco, with these supplies that are 
available, and when agents are providing these supplies they 
are documenting what they are providing.
    So we have those supplies readily available and we are 
offering and providing those supplies now.
    Senator Hassan. I am over time. I thank the Chairman for 
his indulgence. There is a huge disconnect between your 
testimony and between what we are getting as reports from the 
facilities. I hope very much that we can just focus on making 
sure the children are clean, well cared for, safe, and released 
as quickly as possible.
    Thank you.
    Chairman Johnson. Senator Hassan, we will work with you to 
get those answers. One thing I do know that Border Patrol is 
doing, for example, in El Paso, instead of 28 Border Patrol 
agents on the border, 25 are caring for children and families 
and we have 2 or 3 of them over an 11-mile stretch, and we are 
taking OFO officers from ports of entry and also putting them 
on the border.
    Senator Hassan. We saw that at the border. My issue is not 
with how hard the men and women on the front lines are trying. 
My issue is what we are doing operationally to change the 
circumstance on the ground so that these children are well 
cared for and safe. Thank you.
    Chairman Johnson. Right. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you. Thank you, Mr. Chairman. Thank 
you, Senator Peters, for deferring to our committee, and thank 
you for the service and work that you all do. It is difficult, 
it is challenging, and oftentimes heartbreaking, so we do 
appreciate that.
    And like the Chairman said, we all saw that awful and 
heartbreaking photo of the toddler who drowned while clutching 
her father's neck. I cannot even begin to imagine, as a mother, 
what those last moments for that father and daughter were like, 
and I believe the mother was on the other side of the river, 
and I do pray, like the Chairman, that this photo, and what we 
talk about today, moves this body into action.
    So let's talk about the Remain in Mexico policy. According 
to the State Department's Trafficking in Persons June 2019 
report, over the past 5 years we know that human traffickers, 
as was said, have exploited numerous victims in Mexico. We know 
the vulnerable groups--women, children. The vast majority of 
foreign victims are forced into labor, sex trafficking, mostly 
from countries in the Northern Triangle. They are on their way 
to the United States.
    But against this backdrop, in January 2019, DHS issued a 
new policy guidance on Migrant Protection Protocols, known as 
the Remain in Mexico policy. Under this policy, certain asylum-
seekers, including families, are sent back to Mexico to wait in 
that country for the entire duration of their U.S. immigration 
court proceedings. That could take months; it could take years.
    And so we do know that there is a challenge in Federal 
court, but I am concerned that this policy is going to drive 
more and more people into the arms of those who wish to exploit 
them, making the problem worse, and I can tell you that the 
State Department's own annual report backs me up on this.
    So my question to you, and I am hoping that you can provide 
us the numbers if you do not have them, do you know how many 
individuals seeking asylum, that DHS has returned to Mexico 
under the Migrant Protocols Policy (MPP)? Any of you?
    Mr. Howe. Thank you, Senator, for the question. I have the 
numbers for Office of Field Operation, so for the ports of 
entry we are running MPP in San Diego, and to date we have 
returned 665; in Calexico, 96; in El Paso, 539. So 1,300.
    Senator Rosen. How many families were arriving as family 
unit? Excuse me.
    Mr. Howe. I will have to get back to you on that number. I 
do not have that.
    Senator Rosen. Also, do you know the number of 
unaccompanied minors?
    Mr. Howe. Minors would not be a part of the program. They 
are not considered for MPP.
    Senator Rosen. To your knowledge, are these programs--are 
there plans to expand these policies beyond San Isidro, 
Calexico, and the El Paso ports of entry?
    Mr. Howe. We are in ongoing discussions internally and with 
the Mexican authorities on expansion.
    Senator Rosen. So you do not have a timeline for when----
    Mr. Howe. I do not.
    Senator Rosen. You can report back to us when you do?
    Mr. Howe. Yes, ma'am.
    Senator Rosen. Thank you. I also want to say that reports 
have indicated that DHS has returned to Mexico asylum-seekers 
who are pregnant or children with neurological disorders. That 
is despite guidance that clearly states individuals with known 
medical issues should not be subject to this policy. Have we 
been investigating these cases? Do you know of any?
    Mr. Howe. I am not aware of the allegations but we 
generally do not include migrants that have a known physical or 
mental illness, if there is any criminality, history of 
violence.
    Senator Rosen. What about pregnant women?
    Mr. Howe. If a migrant is in a long-term pregnancy or there 
are sensitivities to the pregnancy----
    Senator Rosen. They are all long-term pregnancies. They 
have an end to the term. We know the term of that.
    Mr. Howe. Yes. They would not be considered.
    Senator Rosen. Thank you. I have a couple of minutes. I 
want to go back and talk about metering at the ports of entry. 
Of course, again, CBP, you have a practice of metering, queue 
management, as you call it, at the ports of entry all along the 
U.S.-Mexico border, where asylum-seekers are required to wait 
for indefinite periods for the opportunity just to be 
processed.
    Can you talk to me about why you are employing the process 
of metering or queue management, and is it happening across all 
ports of entry?
    Mr. Howe. Thank you, Senator. Yes, it is. It is a 
discretionary balance used by our port managers to really 
balance and assess our mission requirements--our 
counternarcotic, our facilitation of trade and travel, and the 
processing of migrants, and balancing our resources against 
that. So putting them in all those different areas, and without 
focusing them in any one particular area.
    Senator Rosen. So how could we help? As Congress, how can 
we help you speed up this process so you do not have to manage 
this queue and you can get through----
    Mr. Howe. I think it is the whole process, Senator. It is 
our facilities that were not designed to house large groups of 
individuals, and then ICE ERO is not in a position to be able 
to take them. So if we did increase and we would be holding 
them longer, and ERO would have an increased difficulty in 
finding bed space.
    So it is a balance that right now, with ERO and HHS's 
capacity issues, it is adequate.
    Senator Rosen. So we need to have people talking to each 
other to increase the flow and the capacity of what we can do, 
and, of course, to Senator Hassan's point, doing it in a human 
and kind way.
    Can you tell me, too, the numbers, quickly before I end 
here, how many migrants you are processing at CBP daily?
    Mr. Howe. At our ports of entry?
    Senator Rosen. Yes.
    Mr. Howe. It varies across the Southwest Border, based on 
that balance, as I mentioned, the discretionary balance of what 
we are----
    Senator Rosen. Can you give me a rough estimate?
    Mr. Howe. Three hundred.
    Senator Rosen. Do you know how many are currently in line 
waiting in Mexico?
    Mr. Howe. That is difficult to nail down because those 
numbers come from the Mexican authorities. But we have been 
told in each one of the areas roughly 3,000 to 4,000.
    Senator Rosen. And so based on what you know, what do you 
know to be the average time an asylum-seeker will have to wait?
    Mr. Howe. It has been some time since I have checked with 
San Diego but what I last heard, a few months ago, was 5 to 6 
weeks.
    Senator Rosen. Five to 6 weeks. I hope that, again, we can 
do something about this, that we can help. I have so many more 
questions that I will submit for the record about the 
conditions for children, young families, and we want to be sure 
that we stop the exploitation because nothing in my mind is 
more heartbreaking, and I can only imagine when you opened that 
trailer what it did to you, and the nightmares you probably 
have remembering that. So I want that to motivate us to do the 
right things.
    Thank you.
    Chairman Johnson. So, Senator Rosen, because we asked a 
similar question. I have to respond to get it in the record.
    Currently, as of June 16 of this year, 11,575 individuals 
have been returned to remain in Mexico. 1,109 came from the 
ports of entry, 10,466 came from Border Patrol. So about 10 
percent come through the ports of entry and the rest have come 
into this country illegally and then they are returned. So 
again, the total number is 11,575. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman. I want to pick up 
on those questions of Senator Rosen and the numbers. So is that 
the number of individuals turned away at the port of entry 
under the current metering practices? If you can give me a 
number of that, I just want to clarify that, either Mr. 
Hastings or Mr. Howe? Yes. How many have been turned away 
because of the metering process?
    Mr. Howe. That is extremely difficult, if not impossible, 
to identify the number that are not crossing the boundary line. 
In many cases, the NGO's are holding them in Mexico or caring 
for them until there is an opportunity for us to take on more 
migrants. That is a communication between us, the Mexican 
authorities, and the NGO. So it is nearly impossible.
    Senator Peters. There are not folks coming across and you 
are saying, ``You cannot come across today because of the 
metering process?'' You are saying you do not know that number?
    Mr. Howe. We do not.
    Senator Peters. Obviously the tragic situation we have all 
talked about, with this father and his young daughter, the 
story is that he died after attempting to seek asylum at a port 
of entry and he waited for over 2 months in Mexico. To both Mr. 
Hastings and Mr. Howe, what do you think is the relationship 
between the metering at the ports of entry and an increase in 
families that we are seeing that are trying to cross between 
ports of entry?
    Mr. Hastings. Sir, I just know that--I mean, we have seen 
an increase in the volume of family units continue to build 
month after month. I am not sure what the result is with the 
queue management. When we are interviewing these individuals, 
quite frankly, what they are telling us is ``we have heard on 
social media or we have heard from folks who are already in the 
country, bring a child and you will be set free.'' I mean, that 
is what we are hearing.
    Senator Peters. That is not my question. My question is 
what is the relationship? You are metering folks that are 
coming across the port of entry, so they cannot. We know this 
gentleman, who tragically died with his daughter, was waiting 2 
months and said was turned away from the metering, and so then 
decided to go not in a port of entry--and we are seeing more 
and more folks. What is the relationship of people who, if they 
cannot come through a port of entry they are now trying to 
cross at other places on the border?
    Mr. Howe. I think it is difficult for me to speculate, 
Senator, what numbers that occur. I mean, as I said to Senator 
Rosen, it is that delicate balance of managing our resources at 
all our different mission sets and processing migrants is 
important, but if we were to process more migrants it is going 
to have to come from something. It is not going to come from 
our counternarcotic mission. It is not going to come from our 
international security initiative. So it would have from 
facilitation. We do not want to have U.S. citizens waiting 
longer to return to the United States. So that balance is what 
we are trying to strike.
    Senator Peters. We are discussing, also, trafficking and 
smugglers and the problem related to that. Does it make sense 
that if it is more difficult to come across a port of entry and 
just present yourself at a port of entry to the legal process, 
and then you want to go then, or attempt to get into the 
country a different way? That might actually increase the 
business for smugglers and cartels who will say, ``We will take 
care of the situation for you. Just pay us and we will get you 
in some other way.'' Is there a correlation there? Is there or 
not?
    Mr. Howe. Again, I think it is difficult to speculate. We 
do have smuggling attempts that occur at our ports of entry. We 
have over 400 a year across the Southwest Border, where 
migrants are either presenting somebody else's documents or 
they are hidden in a vehicle. So it is difficult for me to 
know.
    Senator Peters. Is there anything being done at the Mexican 
border to ensure the migrants who are waiting to cross are not 
being recruited by smugglers at the border, that are being 
approached to use their services? Are either we or the Mexican 
government engaged in attempting to disrupt that kind of 
business connection?
    Mr. Howe. I do not have first-hand knowledge of that but 
the Mexican authorities would have that responsibility.
    Senator Peters. Would we want to know what the Mexican 
authorities are doing, and wouldn't we encourage them to do 
something along those lines?
    Mr. Howe. Absolutely.
    Senator Peters. Why has that not been done?
    Mr. Howe. I am sure it has been done at the local level.
    Senator Peters. Can we find out? Is it possible to get that 
information?
    Mr. Howe. Absolutely.
    Senator Peters. I would appreciate that.
    CBP has said that between mid-April and June 14, over 1,800 
family units were interviewed who presented indications of 
fraud, with 275 fraudulent families identified, as based on the 
data that I have. Chief Hastings, how many total migrants 
crossed the Southern Border during that timeframe? I believe it 
was roughly over 200,000. Is that accurate?
    Mr. Hastings. Sir, what was the timeframe again? I am 
sorry.
    Senator Peters. Mid-April to June 14, so 2 months.
    Mr. Hastings. April to June? So we have had a high volume, 
I think 132,000 last month. I can tell you, for the year, that 
we have had 5,100 fraudulent claims so far, fraudulent family 
claims that we know of.
    Senator Peters. What timeframe is that?
    Mr. Hastings. That is for the fiscal year.
    Senator Peters. Oh, fiscal year. Yes, I am looking at a 2-
month period here.
    Mr. Hastings. I do not have that specific information but I 
think the biggest thing, and one of the most important things 
is you heard Chief Rodolfo Karisch testify last time, it is due 
to the volume that we are seeing. It is very difficult to spend 
time interviewing and getting in-depth with these individuals.
    Senator Peters. So my question also is, what do you 
consider--how do you define a fraudulent family? Is a 
grandmother and a grandson considered a fraudulent family? Or 
is an aunt or nephew, an adult sibling of a minor sibling? What 
is a fraudulent family?
    Mr. Hastings. So by Trafficking Victims Protection 
Reauthorization Act (TVPRA) definition it is a parent or a 
legal guardian or one that is less than 18 years old.
    Senator Peters. A parent or legal guardian. So a 
grandmother bringing a grandson would be a fraudulent family.
    Mr. Hastings. It is not necessarily counted as fraudulent. 
They are just not a family unit. They will be--in other words--
--
    Senator Peters. So it would show a non-family unit as 
coming across. A grandmother with her grandson or granddaughter 
would be considered not a family unit----
    Mr. Hastings. That is correct.
    Senator Peters [continuing]. Based on your definition.
    Mr. Hastings. Yes, sir.
    Senator Peters. Could you give some examples of the 
indicators that you would use to warrant them being interviewed 
as a possible fraudulent family?
    Mr. Hastings. A lot of times we will see just the sheer 
reaction between the child and the adult. The agents will see 
that and notice that, and they will start questioning further 
to try to determine if, indeed, it looks like there is true 
familial relationship. We also saw quite a bit of false 
documentation, specifically from Honduras and Guatemala as 
well, birth certificates.
    Senator Peters. Could you also describe the way the CBP 
officers identified the migrants that participated specifically 
in the DNA pilot double helix? These were not random sample of 
families. Is that correct, that these are folks that agents 
suspected as unlikely to be with a parent before you did the 
DNA testing?
    Mr. Nevano. Thank you for your question, Senator. We sent a 
team down to McAllen and El Paso, Texas, and the referrals were 
given to us after Border Patrol had an opportunity to interview 
those individuals. If there were individuals that they had been 
suspected of being in a fraudulent family unit they would refer 
it to the team that was down there to conduct the DNA testing. 
This was after interviews, a review of their documents, and as 
my colleague stated, if the behaviors did not appear to be in a 
familial relationship, where there seemed to be some distance 
between them, they used those factors to refer that family unit 
over for a DNA test.
    Senator Peters. I am out of time, Mr. Chairman, but just 
one last question. Do you have an after-action report that you 
could share with Congress to assess the viability of 
implementing DNA testing on a wider scale?
    Mr. Nevano. Senator, we did do an after-action report and 
we will see about allowing you to see that report.
    Senator Peters. I would appreciate it if you could get that 
to me. Thank you, Mr. Chairman.
    Chairman Johnson. A couple of points. Those DNA tests are 
about $200 a test. If we had 150,000 family units that is about 
$30 million to do DNA testing. Also, according to the chart,\1\ 
93 percent of the family units and UACs have crossed between 
the ports of entry; 7 percent, 30,000 of those have come 
through the ports of entry. I mean, the vast volume really is 
coming illegally between the ports of entry, because that is 
the easier ticket in.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 322.
---------------------------------------------------------------------------
    So I understand the point you are making but I think it is 
just so widely known that the way to cross is coming across 
illegally, because within 6, 7, 8 days you will be set free. 
Senator Scott.

               OPENING STATEMENT OF SENATOR SCOTT

    Senator Scott. Thank you, Chief, for being here, and thank 
you for what you are doing. I am disgusted with how Congress 
has handled all that. I mean, you could not make this up. We 
know we want a secure border. Then people want to complain that 
you are not doing your job. I think it is disgusting what 
people are doing.
    So Mr. Hastings, what do you need Congress to do to allow 
you to do the job you were actually hired to do, rather than 
the job you are having to do today because Congress has not 
acted?
    Mr. Hastings. Thank you for the question, sir. So as I said 
in my opening, first and foremost, short-term, we need 
additional funding for the supplemental, as do our partners, 
because, as I mentioned again, the volume of what we have in 
our custody right now, that 13,000 is primarily unaccompanied 
alien children, approximately 1,000 today, and then in addition 
to that it is single adults that we have in custody as well. So 
HHS and ERO need funding for bed space to get those out of 
Border Patrol custody and into the care of those who are set up 
for long-term detention. That is short-term.
    Long-term, we need a fix that quits allowing this draw for 
family units and unaccompanied alien children to come to the 
United States. We have to stop this draw.
    Senator Scott. Mr. Howe.
    Mr. Howe. I agree. Thank you, Senator. I agree with 
everything that Chief Hastings said, but in addition, just to 
underscore the importance of ICE ERO to get the proper funding 
and bed space and HHS so that they can relieve our facilities 
that were not designed for the long-term detention, so we are 
not in that situation.
    Senator Scott. OK. Do either of you believe we need to have 
more border protection? I mean, so far you have talked about 
supplemental, and the Flores decision, primarily, so what 
about--do we need any funding to secure the border? I mean, 
this would not be happening if we had a secure border.
    Mr. Hastings. Right now I think we absolutely need more 
funding for border security, but our biggest issue now is 
pulling away from that 40 to 60 percent of agents that we are 
pulling off the line to deal with the humanitarian crisis, the 
families, and the UACs. That is the biggest problem that we 
have right now, and in the meantime, while we are dealing with 
that demographic, a large number of single adults are still 
trying to evade arrest, to your point. A large dynamic of drugs 
as well, trying to evade. They are using these family units who 
are trying to cross as a diversion tactic, in a lot of cases, 
to be able to make money on drugs and single adults trying to 
evade arrest.
    Senator Scott. Mr. Nevano, would you like to add anything?
    Mr. Nevano. Sure. Thank you for your question. We are the 
investigative arm of the Department of Homeland Security, and 
the concern that we would have is the more resources we take 
away from conducting the complex criminal investigation, 
targeting the transnational criminal organizations that are 
actually organizing these smuggling loads and human trafficking 
by putting people on the border to augment the need that CBP 
has taken away, potentially, from conducting our mission, which 
is, protecting the homeland via investigations and trying to 
target these transnational criminal organizations.
    Senator Scott. Mr. Hastings, how does it make you feel when 
you get asked questions to suggest that you or your team does 
not care about these children that you are taking care of? How 
do you all feel every day when you get up and you read the 
papers or see the news where somebody suggests that you are not 
doing your job?
    Mr. Hastings. So it is disgusting to me and it is hurtful 
to me because daily, I see our agents doing just the opposite. 
Yesterday I saw our agents in Carrizo Springs jump out of the 
water, save a 13-year-old child who was unconscious, give him 
Cardiopulmonary resuscitation (CPR), give him mouth-to-mouth, 
and essentially bring him back to life. That happened yesterday 
on our border and that happens quite often, time and time 
again. Our men and women are out there risking their lives 
every day to save those migrants that are either put into a bad 
position by smugglers or put themselves into a bad position.
    So above and beyond that, our agents go to the maximum to 
care for these children. You have seen pictures, as well, of 
our agents holding these children, trying to comfort them. So 
it is very hurtful for us, for our agents who are out there 
trying to do the best they can at securing our border and 
dealing with this humanitarian crisis.
    Senator Scott. How has it impacted your ability to recruit 
and retain your team to do this job?
    Mr. Hastings. So our workforce is doing well right now but 
they want to see a light at the end of the tunnel, quite 
frankly, to be able to go back to their primary national 
security mission, and that is what we are hopeful for, that we 
go back to a primarily national security mission and we see 
legislative changes that allow us to do that, that quit the 
draw for the family units and the unaccompanied alien children.
    Senator Scott. So do you have concerns when you do your job 
every day that because of how much time you are having to spend 
because Congress will not act that we have individuals that are 
crossing the border that want to harm Americans?
    Mr. Hastings. I am concerned with that. I am concerned with 
recruiting individuals in this current state that we are in 
right now, recruiting good agents to do this in the future, and 
I am worried when we are diverted by the humanitarian crisis 
what is coming through our border.
    The best example I could give is about 2 months ago we had 
a large group come across in Rio Grande Valley. This was broad 
daylight. At the same time we had 791 pounds of cocaine a mile 
away, cross the border in broad daylight. That tells me that 
there is very little fear in the minds of the smuggling 
organizations and the narcotics traffickers because they know 
we are tied up with other things, humanitarian mission.
    Senator Scott. Anybody else?
    Mr. Nevano. Senator, I have been around for almost three 
decades and I have been use to this, via my career, but I would 
like to put it in perspective. Can you imagine a new agent that 
has just come on, that just went out and had a very successful 
day. They seize enough fentanyl that could kill hundreds and 
millions of people, or they arrested a potential terrorist 
suspect, or a gang member, or they rescued a child from an 
exploitation.
    They get home and they turn on the nightly news, and there 
is information on the news saying abolish certain agencies. Can 
you imagine how that agent feels? I know, personally, when I 
come home I do not even want to watch that because it is very 
hurtful, as my colleague stated. So it is very hurtful, and the 
men and women of ICE, HSI, ERO are out there every day trying 
to make this country safe.
    Mr. Howe. I will just add, Senator, it is an unnecessary 
distraction. Our officers want to be mission-focused. They want 
to be doing what they were hired to do, enforcing our laws and 
facilitating lawful trade and travel. We do not want to be 
distracted with processing migrants to the numbers we are.
    Senator Scott. I have been here 6 months. I am disgusted 
that we sit here, and you watch on the news, people who are 
trying to do their jobs are getting attacked and Congress sits 
here and does not do their job. It is the most disgusting thing 
I have ever seen in my entire career, my business career. You 
would not do this in your business career. Thank you.
    Chairman Johnson. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman. Can I just agree 
with what Senator Scott just said? I mean, the behavior of this 
Congress is absolutely pathetic. I mean, it is just pathetic. 
People up here should be apologizing to you for the total 
dereliction of duty that this Congress has undertaken. I have 
never seen anything like it in my life. This is, by my count, 
the sixth hearing, full hearing, I have sat through in 4 months 
on the border, which is great. I am glad we are paying some 
attention to it. The problem is this Congress never does 
anything. This Congress refuses to do anything. We know what 
the facts are. You have outlined them again today. CBP is over 
capacity, underfunded, undermanned. ICE, over capacity, 
underfunded. HHS, over capacity, underfunded. Yet this Congress 
will do nothing.
    Meanwhile, the cartels and the smuggling rings, what are 
they doing? They are lying to vulnerable families, exploiting 
children in order to turn profits and abuse our broken asylum 
system. We know it needs to happen. We know we need to reform 
the asylum system. We know we have to stop the pull factors, as 
well as address the push factors. We know all that, but this 
Congress will not do anything.
    This morning I have heard, just from my colleagues across 
the aisle this morning I have heard statements like, ``I am 
heartbroken,'' ``No one is more vulnerable than a child,'' 
``The status quo is unacceptable, it is unsustainable,'' but 
yet we do not do anything to change it. There is no will to 
change it. Children are being exploited.
    This morning we woke up to the picture of the man from El 
Salvador and his young daughter dead, face-down in the water. 
Why? Because they were exploited. Who knows how much that poor 
gentleman paid to some smuggling ring who told him that if he 
just came to the United States, to our border, and claimed 
asylum he would automatically get in. That was a lie. Who knows 
what lies he was told? And here he ends up, he and his little 
baby, dead, and this Congress still refuses to act.
    It is absolutely unconscionable. We know what needs to be 
done. Nobody will do it. My view is we can talk and talk and 
talk, but until this Congress is willing to take some action--I 
am sorry for what it is you have to deal with. I am sorry that 
this Congress has left you without the resources you need. I am 
sorry that this Congress has not done its duty. I am sorry that 
this Congress has left not only our Southern Border exposed and 
vulnerable but has left children exploited, day after day after 
day. And until this wretched Congress decides to do something I 
do not know why we even bother to have these hearings. I do not 
know why it even matters, because this Congress will not act. 
This Congress refuses to act, and it is a complete dereliction 
of duty.
    So thank you, gentlemen, for your service. Thank you for 
what you are doing. I would just say to the President, I would 
encourage the President to take every action that he possibly 
can, within the bounds of the law, to address this crisis and 
secure the border, because it is clear to me that this Congress 
will not act in any meaningful way. And so long as this 
Congress refuses to act, the President needs to act. I would 
urge him and urge the Administration to do everything within 
their lawful authority to address this crisis, because this 
Congress is not going to.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Hawley, you missed the opening, 
when I described the process that this Committee is going to 
undertake. Obviously the reason we hold these hearings it is a 
problem-solving process to lay out the reality. And so what I 
proposed, in talking to Senator Peters, and hopefully we can do 
this, is in as nonpartisan and uninflamed way as possible, but 
sit down at those tables, like we did last week, where we 
passed the End Government Shutdown Act, a smaller problem but 
one that, I think that legislation solves, Senator Lankford's 
legislation, Senator Hassan's legislation, but start working 
through this problem in a very organized fashion, have open 
meetings where we discuss these things, and we talk about what 
do we need to do? I come from a manufacturing background, 
continuous improvement--what can we do to start the process?
    Senator Peters is working right now with me, other Members, 
on the letter of support of Operation Safe Return, a pilot 
program where we can gather information, where we can surge 
resources to--I am not going to repeat it. But, we are working 
on that.
    But I am hoping that you will participate, and I hope every 
Member of this Committee will participate in this process, a 
number of meetings, hours long, where we thoroughly discuss 
these problems, the different elements of the problem, and 
start coming up with solutions. Again, I do not know if that 
ends up in a complete piece of legislation or in those 
discussions, in an organized fashion, we come up with different 
elements that can be tacked onto a piece of legislation.
    So again, this place does not work. It does not have much 
of a problem-solving capacity. That is a frustration, Senator 
Scott, that you are certainly relaying. We all experience it. 
And so we are going to do something different, do something 
paradigm-shifting. Again, whether we do accomplish something or 
not, at least we have had a very, hopefully a thorough 
discussion.
    Senator Scott, did you want to----
    Senator Scott. I do not believe any of it. I sit here and 
preside. I sit here and preside this week and I hear people, 
Democrats, get up there, and all they do is complain about 
these people. They do not come up there and say, ``We ought to 
fix the Flores decision.'' They do not come up there and say, 
``We ought to secure the border.'' All they do is try to 
embarrass these individuals sitting here. It is disgusting what 
they are doing.
    I watched it yesterday presiding, that somebody did it, for 
15 minutes, just sit there and lambast them about what they are 
doing. I mean, what--Mr. Hastings, how many people have you 
ever worked with that, ``I do not care about children? I want 
to do the wrong thing today.''
    Mr. Hastings. Just the opposite. I have seen agents, on 
their own, go out and purchase toys, bring them in for the 
children to play with. I have personally stopped by and bought 
meals for those that I had arrested. I have seen agents do the 
same thing. I have seen agents give up their lunches so people 
can eat. I mean, I have seen the humane professionalism and 
outstanding work by our agents since I have been in this 
agency, and long before that.
    Chairman Johnson. So Senator Scott----
    Senator Scott. Do you know what they are doing today? The 
people that are going down to debate are going to the Homestead 
facility just to make news, not to solve a problem. They are 
not going to appear to solve a problem. They are appearing--how 
do I make some news?
    Chairman Johnson. I fully understand that. I am as 
frustrated as you are with the process. I am hoping this 
Committee will be different. I am hoping this process will be 
different.
    So engage in it. Let's give everybody a chance.
    So let us get around the table like we did last week and 
let's see what we can make of this. I mean, again, you have to 
be tenacious. We have to start moving the football forward, or 
we can throw up our hands and say we will never fix this 
problem. I am saying that photograph ought to catalyze us and 
we ought to try something different and start trying to solve 
the problem, OK? Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. So I want to join my colleagues in the 
frustration of this day. I think what we are experiencing today 
is some pent-up, abject, total frustration. March 28th of this 
year, at that time Secretary of DHS came to this hearing, and 
then followed up with a letter, and this was the exact quote 
from her: ``We now face a system-wide meltdown. DHS facilities 
are overflowing. Agents and officers are stretched too thin, 
and the magnitude of arriving and detained aliens has increased 
the risk of life-threatening incidents.''
    Then she said: ``My greatest concern is for the children 
who are put at high risk by this emergency, who are arriving 
sicker than ever before after traveling on the treacherous 
trek.'' But instead of actually providing funding during that 
time period, this Congress delayed and did not provide the 
funding, did not engage, did not try to solve it.
    That same secretary, over and over and over again, said 
none of this gets better until the Flores agreement is settled. 
I have had personal conversations with Democrat and Republican 
Members on this Committee and said at what point do we finally 
admit the obvious statement that the Obama Administration made, 
that the Trump administration made, that if we do not resolve 
the Flores settlement none of this ever gets better because 
traffickers will continue to move children across our border.
    The children are currently being used as pawns now on the 
border, to try to hurt the Trump administration. My Democratic 
colleagues are trying to identify children that are not getting 
care at the same time slowing down the process of getting 
humanitarian aid to try to hurt this Presidential election.
    These kids are not pawns, and the Administration has said 
for month after month after month, we need additional 
humanitarian assistance. But here is what has happened. Nothing 
happened after that meeting in March. On May 1st, HHS sent us a 
protracted letter to try to get additional assistance and 
saying that we are at a crisis moment. On May 17th, they 
contacted us again and said we are a critical moment. Secretary 
Alex Azar, from HHS, came back and said, in that same time 
period, we are at a critical moment.
    We tried to move a humanitarian relief package with the 
disaster relief package on May 22, and Leader Schumer came to 
the floor and made this statement: ``The Democrats are ready to 
pass the bipartisan disaster relief package that has already 
been agreed to and written but we should pass disaster 
agreement as is and return to unrelated issues at a later 
date.'' ``Unrelated issues'' is this humanitarian issue. To say 
these unrelated issues are slowing our disaster work so we will 
put the humanitarian work off until later. And then yesterday 
Senator Schumer was back on the floor, criticizing the 
President and criticizing all of these folks and their 
agencies, saying why aren't you taking better care of the kids? 
When this Committee has talked about it for months, you all 
have asked for it for months, and all we have gotten to is we 
will get to unrelated issues later.
    Now, I am tired of people calling my office and saying, 
``How come you do not care about the kids?'' I am sure you are 
tired of reading it in the media every day, ``How come you do 
not care about the kids?''
    If 500 people showed up at your house tomorrow and said, 
``I am going to stay here for a week,'' would your house be 
ready to take 500 people? What would you do if 500 people came 
to your house tomorrow and said, ``I need to stay here?'' You 
all are having to manage thousands of people showing up at 
facilities that are not prepared for thousands of people, that 
never have been, and that are certainly not set up for kids, 
and the whole time we argue about what are we going to do when 
everyone knows the issue. It is the Flores settlement. Every 
smuggler uses that, and we will not acknowledge it, and there 
has been a dramatic slowdown on trying to actually get 
humanitarian aid.
    Now the Senate comes to an agreement, finally, on a 
humanitarian aid, and the House response with a solely partisan 
bill, and says, ``No, we are going to try to do a partisan 
bill,'' and then the conversation this week was, ``We may not 
get to the humanitarian bill this week, if we do not get a 
certain vote want on the National Defense Authorization Act 
(NDAA). As Democrats, we may hold off the humanitarian bill and 
NDAA for 2 weeks from now.'' Yet another delay because it is an 
unrelated bill.
    So I do not know if we get the humanitarian vote again this 
week, because Democratic leadership is postponing, again, while 
going to the floor, and saying, ``Why isn't the Trump 
administration doing more about this?'' You cannot have it both 
ways. This is not about hurting the President and his 
Presidential election hopes for next year. This is about a 
group of kids that we need to reduce the incentive for them to 
be able to come illegally across our border, and we need to 
take care of the folks that are already here. This is not that 
hard. But it has become this horrible partisan issue that I 
think all of us are really frustrated with, to say this has 
been discussed to death. We have to be able to act on this.
    So I want to ask just a couple of stats. How many folks are 
coming across as males at this point and claiming to be 17 
years old? Is there a disproportionate amount of males crossing 
the border and saying ``I am 17?''
    Mr. Hastings. Sir, I do not have the exact numbers but I 
can tell you that we are seeing a higher number of families 
with fathers as they are the primary parent that is coming 
across. So we are seeing an increase in fathers with children. 
I do not have the exact numbers with me.
    Senator Lankford. How many countries have you seen crossing 
our border with minors?
    Mr. Hastings. So 140 different countries that we have seen 
apprehensions, that we have made, from 140 countries, 52 
countries for family units. So we have family units from 52 
different countries that have crossed into the United States 
this fiscal year.
    Senator Lankford. And that is just this fiscal year, so 
that would be since October 1 of last year.
    Mr. Hastings. That is correct, sir.
    Senator Lankford. Eighty-two percent of the people, you 
testified, of people that are crossing the border, are coming 
from countries other than Mexico, at this point. Is that 
correct?
    Mr. Hastings. That is correct, sir.
    Senator Lankford. Guatemalan authorities that I met with 
this week have stated that DHS has worked very hard with them, 
and that Guatemalan authorities are continuing to be able to 
work because, quite frankly, the Guatemalan authorities do not 
want those kids also making this trek and they are trying to do 
what they can to be able to slow down the flow from their side 
as well. They were very appreciative of the work that DHS has 
done to be able to partner with Guatemala, specifically.
    Now I am sure if I talked to the Honduran authorities, and 
the El Salvadoran authorities, they would say the same. But the 
Guatemalan authorities, this week, were very grateful to our 
government and the work that they are doing to be able to help 
not only protect those kids but, quite frankly, they want their 
kids back home, to be able to be there, and they are a little 
frustrated by this whole journey as well.
    As a country, we have put hundreds of millions of dollars 
into Central America, into the Northern Triangle for quite a 
while, to help stabilize those governments, and continue to be 
able to do that, to be able to provide a safe place that is 
there.
    So all of this conversation about we are doing nothing to 
be able to help the issues there really is we are doing a lot 
of things to be able to help the issues in Central America. 
What is not being done is dealing with the pull factors here, 
in the Flores settlement, and frustratingly enough, also not 
the humanitarian assistance.
    With that I yield back.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. I was here 
earlier and had the opportunity to hear you, Mr. Hastings, and 
hear some of the discussion with my colleagues, Senator 
Johnson, in particular, on what is going on at the border and 
also from Senator Peters. I think there is now a consensus--I 
certainly hope so--that we are facing a crisis. It is an 
immigration crisis. It is also, by the way, a drug crisis, 
impacting my home State of Ohio and every State represented on 
this dais. Crystal meth is now coming in in unprecedented 
numbers, as an example. We already knew that heroin was coming 
in. Crystal meth is coming in entirely from the Mexican border 
now, we are told.
    It is also a humanitarian crisis. There is no question 
about it. The men and women who you represent are being put in 
an impossible position, and I hope that every member of this 
body protects the right of American law enforcement to do their 
job. It is a tough job, but I think you are doing it in a 
professional way, and I know it is difficult.
    I guess what I would like to focus on is solutions. I do 
think there are some potentially bipartisan solutions, and I 
want to hear from you on them. One that has always struck me as 
a reasonable approach that we should be taking, which we have 
done during the Obama Administration, is to have people apply 
from their home country. They would apply, technically, as 
refugees from their home country because you claim asylum when 
you come into the United States. The criteria are the same. The 
criteria that have to be met are the same that are eventually 
adjudicated over here. We are finding about 15 percent of those 
who apply for asylum actually receive asylum. That number, may 
not be entirely accurate going forward, but the point is most 
people who are applying are not receiving it. Why? Because they 
are deemed, through our judicial system, to be economic 
refugees, probably, and not meeting the criteria.
    But what if we set up a system, as was done, again, in the 
Obama Administration, where people, instead of being told by 
the traffickers you have to come on this arduous journey, and 
we are going to mortgage your house for you, and we are going 
to take your paycheck for the next half year, and we are going 
to take your kids because if you are a kid, under the Flores 
decision, then you cannot be held in detention for more than 20 
days. Instead, the traffickers had to say, ``You have to apply 
here. You have to apply from country.''
    Now two things would have to happen. One, we would have to 
raise the cap on refugees, which has been lowered during this 
Administration, and that should be acknowledged. It would 
require, specifically, a cap to be raised for Central American 
countries.
    Second, we would have to provide the resources, although, 
as you know, with refugee resettlement, primarily that is done 
through international bodies, including the United Nation (UN) 
refugee resettlement operations. So this is something that 
could be internationalized.
    I have talked to a number of my colleagues on the 
Democratic side of the aisle about this. They have not said no. 
It certainly makes sense, as part of an overall strategy, in my 
view. The pull factor is the fact that you can misuse our 
asylum system now. It is also the fact that you can get a job 
here in America and make 10 to 20 times more than you can make 
in your home country. If I was in that situation, or you were, 
you would be tempted to do the same thing. It does not make it 
right.
    One way to do this is to have people, instead of being told 
you have to make this journey up north is to say you have to 
apply right here. And let's adjudicate these cases. Let us 
provide the funding for it. Let us use the United Nations and 
other international bodies. That reduces the flow in a 
substantial way.
    I just wondered if any of you, Assistant Director Nevano, 
you may have some thoughts on this, Mr. Howe, Mr. Hastings, if 
you had any thoughts on this idea of going back to a system 
where people apply from their home country.
    Mr. Nevano. Thank you for your question. I am not as versed 
in that area, but the argument that you make seems to make 
sense. I am familiar, back in my younger career, I actually did 
process refugees, and a lot of Vietnamese, Russians back in the 
early 1990s, and it was an effective system that worked. So I 
could see the merits of that system and look forward to working 
Congress, working with our partners if that is something that 
is decided to try that out and see if it something that can 
help stop this crisis.
    Senator Portman. Yes, and I know you are familiar with 
this, but the criteria you use to determine whether somebody 
was eligible for refugee status is the same criteria we used 
for the asylum status.
    Mr. Nevano. Yes. It is just a difference of the section of 
law. I believe it is Section 207 of the Immigration and 
Nationality Act (INA) and Section 208 of the INA is the 
difference, but the statutes are very similar, like you 
mentioned, whether they apply here in the United States or 
apply outside of the United States.
    Senator Portman. There is also a requirement, should 
somebody receive refugee status, that there is assistance 
provided. Usually it is through a private sector entity, but 
the Federal Government plays a role. Refugee resettlement we 
are all familiar with. So it is a little different process but 
it keeps people from coming up to this border. It keeps the 
numbers we see here, hundreds a day, thousands a week, hundreds 
of thousands a month, from coming up to our border. Instead, 
they are told if you want to apply for this status you have to 
do it back home.
    Mr. Howe, Mr. Hastings, any thought on this--is this common 
sense?
    Mr. Howe. Senator, I am very intrigued by it. I think, yes, 
this is probably common sense. It reduces the pull factors. We 
will let our lawyers work out the details, but if it can be 
done, if it has been done before, and working with the State 
Department, and our international partners, it just makes 
sense.
    Senator Portman. Mr. Hastings.
    Mr. Hastings. Thank you, sir. I would welcome anything that 
allows our Border Patrol agents to get back to their primary 
mission of securing our borders and reduces the flow.
    Senator Portman. Yes. Your testimony earlier was striking 
to me, when you talked about the fact that 40 to 60 percent of 
your people have been pulled off their jobs, essentially, to 
deal with the humanitarian crisis. I understand why they are 
doing it, and they have to do it. We want to be sure that we 
are providing the emergency care that so many of these migrants 
need. But that is not their job.
    And that leads me to my final question, which is about the 
drug issue. When the Border Patrol is not on the border trying 
to detect and stop these illegal drugs from coming into our 
country that are killing the people I represent, that creates a 
whole other crisis. It is not on the border; it is in Ohio. It 
is in every State represented on this dais. And maybe, Mr. 
Nevano, you can talk a little about these transnational 
trafficking groups that are smuggling people but also smuggling 
drugs at the same time. What can we do better to be able to 
detect and stop this poison from coming into our country? 
Crystal meth--back in the day we had meth labs in our States, 
people made meth in their basements or their homes, and 
environmental problems with that, obviously, in addition to 
this poison being made that was harming our communities. We do 
not see that anymore. Why? Because the crystal meth from 
Mexico, pure crystal meth, is so cheap and so powerful. I am 
told by law enforcement in Columbus, Ohio, it is less expensive 
than buying marijuana on the streets now. And it is killing 
people.
    So, Mr. Nevano, what can we do to stop some of these drugs 
from coming in, and how are they related to these transnational 
gangs that also get involved with trafficking people?
    Mr. Nevano. I had the opportunity to testify before your 
Committee before about the opioid addiction in the United 
States, and I know you are very well aware that we initiated a 
Border Enforcement Security Team (BEST) in the State of Ohio, 
and I know you were present for. That is a recent occurrence 
that we are trying to stop the opioid flow into the State of 
Ohio.
    But our Border Enforcement Security Teams, we have 65 of 
them across the country, and those teams are crucial because it 
takes resources from State, local, and Federal authorities to 
attack a problem, and the more Border Enforcement Security 
Teams that we have to tackle the drug problem, I think the 
better we can identify it.
    Also, too, continue our capacity-building overseas. We have 
trained what we call Transnational Criminal Investigative Units 
(TCIU). We have 16 of those stationed all across the country, 
and all over the world, and those individuals are dedicated and 
are eyes and ears overseas to help provide us the intelligence, 
the information, and execute the laws that we do not have the 
authority to do so in the Central America area, in Mexico, and 
the drug-producing countries. So we rely very heavily on our 
trained partners and our Transnational Criminal Investigative 
Units.
    Senator Portman. Thank you for your service. Thank you, Mr. 
Chairman.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks very much. Normally we just ask 
questions of our witnesses. I am going to use this as a chance 
to have a colloquy with two of my colleagues who I have a lot 
of high regard and affection for. I might ask you questions but 
I may not.
    But it seems peculiar to me, as I was putting together a 
congressional delegation earlier this year, and we looked at 
the flow of folks coming here from Mexico over the last, I do 
not know, 15 or 20 years. As you know, there are more Mexicans 
going back into Mexico these days than there are Mexicans 
coming into the United States.
    And getting ready for our CODEL we looked at illegal 
immigration numbers through the end of last October, and this 
was about maybe the very beginning of this year. But we looked 
at immigration numbers through the end of October. My 
recollection was that in the previous 15 years, illegal 
immigration from Honduras, Guatemala, and El Salvador had 
dropped by--actually, illegal immigration across our Southern 
Border, over this last 15 years, through the end of October, it 
was down by just a little over 80 percent. I was almost ready 
to declare victory.
    In the months since then, 5, 6 months since then--actually, 
7, 8 months since then--we have seen this surge, this 
incredible surge of illegal immigration from Honduras, 
Guatemala, and El Salvador. What has happened with Mexico? 
Pretty much the same. When I say ``pretty much,'' it has been 
pretty much what it has been for years. They are not surging 
from Mexico. There are still, I am told, more Mexicans going 
back into Mexico than there are Mexican Americans coming into 
the United States.
    Why is it these three countries, but we are not seeing this 
kind of surge from Mexico? They have property there, they have 
crime there, and so forth. Why aren't they coming?
    There is a great need for leadership on this issue, and I 
think it has to come from this Committee. I have heard the 
Chairman say, any number of times, this Committee has a great 
record, history of bipartisanship, and frankly, I think this 
Committee attracts people who like to get things done, work 
across the aisle, and look to build consensus. We really see an 
opportunity here. It is a very sad situation but we also see an 
opportunity to fix it.
    I would like for us to be the committee that provides that 
kind of leadership. I am not interested in pointing blame. I 
could easily say, in response to some of our colleagues at this 
point that this Administration, point out all of their sins. I 
am not going to do that. But let's see what we can do to fix 
this problem. I want to sign up to do that. And, see, I look at 
the four of us and if the four of us cannot work this out, 
nobody can. I mean, this is just ripe for our working on it.
    Do you all have anything else you want to say with that 
spirit that I have just tried to kindle here? Anything you want 
to say in response to that? First of all, I just thank you all 
for what you do with your lives. When I was Chairman of this 
Committee I used to go to the floor every month and talk about 
different units of the Department of Homeland Security and 
praise the men and women for the work that they do. The 
Chairman and I were just out there for the opening of the new 
Department of Homeland Security at St. Elizabeth's. It was a 
very exciting day.
    But just in the spirit of what I have just said, I would 
like for you guys to say something.
    Mr. Howe. Thank you, Senator, for what you said and your 
commitment to work together, to work out legislation or 
whatever needs to be done to address the crisis. The men and 
women on the border work hard, they are proud of what they do, 
and let's mission-focus them on what they need to do.
    Senator Carper. Alright. Thanks. Anybody else want to say 
something?
    Mr. Hastings. Sir, I appreciate it, and again, for the men 
and women of the Border Patrol we would just ask to work on the 
legislative fixes, please, to allow them to get back to doing 
their primary mission.
    Senator Carper. Mr. Nevano.
    Mr. Nevano. I would reiterate what my colleague said. Thank 
you for addressing the issue, whatever you can do to help us 
out. Again, we want to focus on the transnational criminal 
organizations and focus on the large criminal networks that are 
actually exploiting these individuals. Whatever you can do to 
make us get back to doing that type of work and less dealing 
with the border crisis, we would greatly appreciate it. Thank 
you very much for bringing that up.
    Senator Carper. The Chairman and I have oftentimes said, in 
this room, that we have to focus on root causes. It is pull 
factors and push factors. Some of the situations we have seen 
in visits down to Honduras, Guatemala, and El Salvador, if we 
were living down there we would want to get our kids and our 
families out of there too. Somehow it has gotten a lot easier.
    People used to have to walk 1,500 miles, in all kinds of 
bad weather and danger and so forth. They still do it but now 
they can get in a bus and come on up, an air-conditioned bus, 
and get dropped off at the border, and a lot of people are 
doing it. The coyotes, the folks that are running these 
operations, they are very entrepreneurial. They can find all 
kinds of ways to make money, including on the bus service 
business. We have to be smart enough to figure out how to shut 
down. We cannot do it by ourselves, which the Mexicans--if we 
are ever going to get this United States-Mexico-Canada 
Agreement (USMCA) confirmed, I am not going to say that should 
be one of the conditions, that they work with us to shut down 
those buses. That would be part of it. There are all kinds of 
things we could do.
    The other thing I would say is, we have been working now 
for about 3 years on Alliance for Prosperity, as you know, and 
it is not the whole answer. It is part of the answer. I like to 
say there is no silver bullet. There are a lot of silver BBs 
and some are bigger than others. I think one of the big BBs is 
making sure that we address the root causes of why people are 
trying to get up here--lack of economic opportunity, and crime 
and violence and corruption. What we are trying to do with the 
Alliance for Prosperity is to address all three of those.
    Sadly, when we look at the supplemental--and the President 
has cutoff that funding to the Alliance for Prosperity, 
suspended it. When we look at the legislation, the supplemental 
focuses on the border and illegal immigration, we do not 
restore it, which I think is a mistake. So we have to be able 
to--I would like to say walk and chew gum at the same time. We 
have to address those root causes and we have to address the 
pull factors as well. I would sign up for doing that, and I 
suspect my colleagues to my left would do so as well. Thank 
you.
    Chairman Johnson. First of all, Senator Carper, let me say 
I appreciate your willingness to participate in this process, 
and it is going to be a different kind of process. It is going 
to take advantage of, I think, the nonpartisan attitude by so 
many Members of this Committee. We have spent more than 30 
hearings gathering information, trying to define the many root 
causes of this problem. I continue to say the primary root 
cause is America's insatiable demand for drugs, which has given 
rise to drug cartels, destroyed these public institutions. But 
having been a manufacturer, having solved a lot of problems, 
there is a process you go through, and that is what I want to 
see this Committee engaged in, not here at the dais but down 
there, with genuine conversations, and we will do it in a very 
organized process, trying to address all the complexities of 
this, but also then trying to find the priorities. What are the 
things we have to fix now, in the here and now, and what are 
the longer-term solutions as well?
    So I am absolutely dedicated to doing this, and it is going 
to be a completely different process than this Senate has been 
participating in as long as I have been a Senator. It is going 
to be genuine conversation, it is going to be, I think, 
Senators with goodwill who recognize the problem and working 
toward real solutions. So again, I appreciate that. All you 
have to do is show up, but we are going to be holding multiple 
meetings, and they will go on for quite some time. You know how 
tenacious I am.
    With that, Senator Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Chairman. Our Nation faces a 
crisis along the Southern Border. I am committed to continuing 
our bipartisan work to strengthen border security, stop the 
flow of migrants to our Southern Border, and ensure fair and 
humane treatment of the migrants who do come.
    The situation on the ground in Arizona with our 
communities, our NGO's, and our border workforce is not 
sustainable, so I want to make sure that we are working 
together to develop bipartisan and common-sense solutions. 
These solutions have to include measures that push back against 
the human traffickers and the criminal organizations who prey 
on migrants, and I am pleased that we are having this hearing 
and I look forward to our discussion.
    My first question today is for Mr. Nevano. According to 
recent data, over 590,000 migrants have crossed our borders 
just this fiscal year, and all along the over 2,000-mile 
journey from Central America to Arizona migrants are targeted 
by criminal elements--human traffickers, smugglers who 
transport migrants through Mexico for a fee, and other 
criminals who are seeking to hurt these families.
    Of the migrants who are coming to our border, approximately 
how many have had some interaction with a criminal element 
during their journey to the United States, and how many of 
those migrants received assistance on their journey from 
smugglers?
    Mr. Nevano. Senator, thank you for your question. I am not 
sure that anyone can give you the exact numbers as far as the 
estimates that you are asking for. However, I would say to make 
that 1,500-mile journey it is very difficult to do that on your 
own. These smuggling organizations are recruiting these 
individuals, making false promises to them about getting into 
the United States, making a better life, promising them 
lucrative jobs when they get here, and once they get here the 
traffickers take over and put them in totally different 
circumstances.
    I will say that in order to make that journey a very high 
percentage of these individuals are seeking assistance, paying 
upwards of $7,000 to $8,000 for that journey, to make it to the 
border, thinking they are coming for a better life, only to be 
exploited once they pass the border, whether it is between 
ports of entry or through a port of entry.
    Senator Sinema. Mr. Nevano, regarding these smugglers who 
are, quote, ``assisting'' individuals to come to this country, 
do you have any information about how closely linked they are 
to transnational criminal organizations that work to ship drugs 
as well as people across the border?
    Mr. Nevano. Sure. That is a very excellent question. What 
we term ``illicit pathways,'' these illicit pathways are 
controlled by the cartels. They are used to bring narcotics 
through those pathways and they will use them to bring people. 
Those smugglers, the transnational organizations, criminal 
organizations, do not care what the product is, whether it is a 
commodity, whether it is a person. They use those same 
pathways. The human smugglers may have to pay a fee to the 
cartels to use those pathways to come up, but there is a direct 
correlation between the pathways used for smuggling narcotics 
as those for smuggling persons.
    Senator Sinema. Thank you. My next question is actually for 
all of the panel. I would welcome all of your thoughts. It is 
clear to me, and to many Arizonans, that our Nation faces a 
direct threat from these smuggling operations, and, of course, 
they are taking advantage of people in Central America. I would 
like to hear a little bit more about what our national strategy 
is to defeat this threat, and what are some of the steps that 
your agencies are taking to counteract these criminal 
transnational organizations?
    Mr. Hastings. Thank you, ma'am. So for the Border Patrol, 
again, I do not want to sound like a broken record but I will 
say it is very hard to delve in, to interview, and to follow 
through with getting the proper intelligence when we are just 
trying to get the throughput. When we are overwhelmed by the 
mass amount of UACs and families that are coming into our 
facilities, it is very difficult to take the time to delve into 
a smuggling case. We try to the best of our ability but we also 
are trying to balance that with the humanitarian crisis that we 
currently have.
    So it is very difficult, and that is why we would, again, 
ask for the legislative changes that stop this draw, so we can 
go back and focus on the smuggling, focus on the trafficking, 
focus on the DTOs that are bringing thousands of pounds of 
narcotics into our country through the ports of entry and in 
between the ports of entry.
    Mr. Howe. Thank you, Senator. Similar to Chief Hastings, 
were are in the interdiction phase, so we are identifying the 
smuggling attempt and stopping it. I mentioned earlier, on 
average, there are about 400 criminal prosecutions on the 
Southwest Border, for people that are trying to be smuggled 
into the United States. We are on that front end of it. The 
back end, that investigation, really is through our ICE 
partners, to get into the details of the DTOs.
    Mr. Nevano. Senator, the paradigm of effective border 
security starts 1,500 miles out with capacity-building and 
training foreign police officers to interdict, train them, 
provide them the equipment, and that is something that Homeland 
Security is doing to attack the foreign problem. We know that 
does not always work, and our brothers and sisters at Customs 
and Border Protection are the interdictors, so there is 
definitely a border security at our borders.
    But interior enforcement is equally as part of that three-
pronged approach to the paradigm of border security, and that 
is taking the pull factor, the magnet, away from them, by 
having an effective worksite enforcement strategy. Because 
worksite enforcement bleeds several other collateral crimes. 
These individuals, once they get here, they know they are 
promised a job, and that is where the human trafficking, the 
fraudulent documents, the identity benefit fraud, that is where 
all that happens, the false promise of a job.
    So it has to be a three-pronged approach to effective 
border security.
    Senator Sinema. I appreciate that. A quick follow up 
question. Director Hastings, you mentioned changing American 
laws, which I think we could all agree is difficult in our 
current political climate. What I am looking for, and really am 
grateful to be working with the Chairman and others on this, is 
ways to help the Administration improve the credible fear 
process. That is something that we are working on, to try and 
figure out how can we do that, given the difficult partisan 
political climate that we are living in.
    I am also really interested in figuring out how do we 
disrupt these smuggling networks, so that they no longer see a 
financial benefit, and they do not see this as a smart business 
plan to bring groups to the United States and try to exploit 
the so-called loophole?
    Mr. Hastings. So for us, and what we hear in the field, and 
I shared this earlier, but it is from those who we interview, 
time and time again, frankly, what we are told is from social 
media or from a family member here or from a friend here, ``I 
have heard bring a child and I will be released within 10 to 20 
days.'' Until there is something that can address that flow, 
allow us to keep that family unit together, and allow us to run 
them through the proper cycle, to allow them to have their due 
process and due rights, and then return them if there is no 
credible fear, and apply a consequence. If we are not applying 
a consequence then we are going to continue to see this issue.
    Senator Sinema. I am glad you mentioned that. That is the 
exact issue that we are working on, to try and figure out how 
do we get folks and families--I am talking about legitimate 
families, not the illegitimate ones that we see--how do we help 
process families in a timely manner to address the Flores 
issue, while also sending a clear message to those Northern 
Triangle countries that this is not an effective strategy to 
get into the United States of America. It is going to be 
difficult, I understand, but that is something that we are very 
interested in doing, is figuring out how do we help process 
families and folks faster, to actually get folks back home if 
they do not qualify for asylum or for some other legal status 
of entry to our country.
    Mr. Chairman, I see that my time has expired.
    Chairman Johnson. Senator Sinema, first of all, thank you 
for working and cooperating with me and my staff on Operation 
Safe Return, along with Senator Peters, so hopefully we can get 
that letter of support and DHS can implement that, as just a 
first step, to provide that consequence, with real care and 
compassion. So thank you for your efforts there.
    I want to thank, again, the witnesses for just your service 
to this country. Chief Hastings, thank you for providing that 
example of a Border Patrol officer pulling somebody out of the 
river, applying CPR, saving their life. That is just an example 
of, I am sure, thousands of examples of compassion, the type of 
care that the Border Patrol, ICE, the DHS really provides 
people.
    We saw passion today at the hearing. That is good. It shows 
that the Members of this Committee are deeply concerned and 
want to get to a solution. So that will be my job is turn that 
passion into commitment to actually act.
    I want to thank all of you for your service. I want to 
thank Senator Sinema, my colleagues on the Committee, and 
again, my commitment. We will start holding these meetings 
where we will have a genuine and robust discussion in that 
problem-solving process, and it will result in good ideas, 
areas of agreement, and possibly a full piece of legislation, 
or, if not, elements, components that can be added to other 
legislation, that other committees may take up as well.
    But this Committee has led on this issue. I do not think 
any committee has held more hearings, gathered more 
information, shocked to understand this problem and all its 
complexities more than this Committee has over the last 4\1/2\ 
years, and now it is time to turn that into action. Again, I 
think we have the Members of this Committee, Senator Sinema is 
one of them, that really will come to that table, right here in 
this committee room, probably starting the week after we 
return, and have those robust discussions to come to some 
agreement and start solving this problem.
    So again, thank you all.
    The hearing record will remain open for 15 days, until July 
11 at 5 p.m., for the submission of statements and questions 
for the record.
    This hearing is adjourned.
    [Whereupon, at 11:27 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------  
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               





                   ROUNDTABLE UNPRECEDENTED MIGRATION

                      AT THE U.S. SOUTHERN BORDER:

                   BIPARTISAN POLICY RECOMMENDATIONS

              FROM THE HOMELAND SECURITY ADVISORY COUNCIL

                              ----------                              


                        WEDNESDAY, JULY 17, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:18 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Scott, 
Hawley, Peters, Carper, Hassan, and Rosen.

            OPENING STATEMENT OF CHAIRMAN JOHNSON\1\

    Chairman Johnson. Good morning. I want to call this 
business roundtable to order.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 381.
---------------------------------------------------------------------------
    I want to thank the participants for taking your time and, 
first of all, for just working on the Homeland Security 
Advisory Council (HSAC) and, from my perspective, producing a 
really good report, a really good basis for, hopefully, 
legislation that we could pass on a bipartisan basis, but prior 
to that working with us to try and accomplish something to 
start addressing this tremendous problem.
    We just keep upping this thing. The top-line number is down 
a little bit because June is reduced a little bit from May 
because I was projecting this out based on the most recent 
month. Based on May's numbers, the total number of individuals 
coming in here is either an unaccompanied alien child (UAC) but 
primarily as a family unit. It was over 800,000 projection. Now 
it is just over 700,000.
    But one thing I have been pointing out, since 2014, these 
bars represent currently 5 years, 9 months, 1,086,000 people 
coming in this country illegally, being apprehended. Most of 
them are coming as a family unit, about 822,000, and of that 
822,000, we have returned a whopping 12,021 individuals, even 
though I know in your report, you talk about 15 percent of 
people having a valid asylum claim.
    So this is a clearly broken system. We are trying to 
grapple with it. That is what you are trying to do.
    I am really pleased to have at the roundtable, four 
individuals who have been working on the Homeland Security 
Advisory Council. I will quickly read your names and a quick 
bio here, and then we will just go.
    Do you want to start with----
    Mr. Ahern. Start with Karen.
    Chairman Johnson. Start with Karen? OK. So you have it all 
worked out, and again, take the time you need, but we have 
Karen Tandy.
    By the way, the reason we do this in a roundtable too is it 
is just a more free flow of information. Feel free to 
interrupt, but I want to stay on the same theme. If you do it 
in a hearing form, it is one Senator, 7 minutes, and they kind 
of go through their own questions. And you just get disjointed. 
I just think this is a better way of opening up the discussion 
here.
    But we have Karen Tandy, who formerly served as 
Administrator of the Drug Enforcement Administration (DEA). Ms. 
Tandy also is a former Associate Deputy Attorney General (AG) 
for the Department of Justice (DOJ).
    Sitting to her right is Jay Ahern. Mr. Ahern is Principal 
and Head of the Security Services at The Chertoff Group. Mr. 
Ahern also served as a former Acting Commissioner of U.S. 
Customs and Border Protection (CBP).
    Sitting to the left of Ms. Tandy is Dr. Sharon Cooper, a 
development and forensic pediatrician at the Womack Army 
Medical Center. Dr. Cooper also holds faculty positions at the 
University of North Carolina, Chapel Hill, Department of 
Pediatrics and the Uniformed Services University of Health 
Sciences.
    And then last but not least, Leon Fresco. Mr. Fresco is a 
partner and immigration attorney at Holland & Knight law firm. 
Mr. Fresco also served as the Deputy Assistant Attorney General 
for the Office of Immigration and Litigation at the Department 
of Justice Civil Division.
    My final comment is the Homeland Security Advisory Council 
literally is a bipartisan group. I think you have members--
first of all, policy experts in a variety of areas but also 
spans the political spectrum, and you have come together and 
produced a solid product.
    So, with that, I will turn it over to Ms. Tandy.
    Oh, I am sorry. Gary, do you have any comments?
    Senator Peters. No, that is fine.
    Chairman Johnson. Are you sure?
    Senator Peters. Yes. Let us hear from the panel.
    Chairman Johnson. OK.

 TESTIMONY OF HONORABLE KAREN TANDY, CHAIR, CUSTOMS AND BORDER 
PROTECTION FAMILIES AND CHILDREN CARE PANEL, HOMELAND SECURITY 
                        ADVISORY COUNCIL

    Ms. Tandy. Thank you, Chairman Johnson, Ranking Member 
Peters, and Senators of the Committee. We are grateful for the 
opportunity to share our interim report\1\ and to have that 
discussion today.
---------------------------------------------------------------------------
    \1\ The interim report referenced by Ms. Tandy appears in the 
Appendix on page 388.
---------------------------------------------------------------------------
    You have before you 4 members of the 10-member Homeland 
Security Advisory Panel that was created in October 2018. At 
that time, the 10 of us were given direction by then Secretary 
Nielsen of the Department of Homeland Security (DHS) to make 
findings and recommendations on CBP's care of families and 
children at the border, recommendations on best practices, 
training, policy changes, and any legal changes that were 
needed for the care of families and children at the border.
    From December through March, this panel went to multiple 
places along the Southwest Border. We spent multiple days on 
each trip. We went to every State along the Southwest Border 
and to six of the nine Border Patrol sectors. That included 10 
U.S. Border Patrol stations, four ports of entry (POE), as well 
as a variety of facilities where children were being cared for.
    Over the period of our work leading from October up to 
April, we received briefings from 109 subject-matter experts. 
We reviewed a prodigious amount of material and data and spoke 
to non-government organizations (NGOs), medical professionals, 
government officials, and a variety of other experts.
    Very early on, this panel certainly drew the conclusion 
that the immigration system is overwhelmed and fractured at 
every critical point. The tender-age children, especially 
children below the age of 12, are at the heart of this crisis.
    The primary issue that was clear to this panel was the 
result of a shift in immigration, one that went from what was 
predominantly single males and processing and facilities for 
predominantly single males that completely shifted to a more 
than 600 percent increase of children, and family units. 
Typically, a family unit would be one adult and a tender-age 
child, 12 and under. That is a family unit. The shift was for 
these family units and unaccompanied children to come from 
Central America. That was the critical stage of what became the 
ultimate major stress in the immigration system and our crisis 
at the border.
    What happened was children were endangered. They were 
endangered during the 1,200 to 2,000 mile journey to our 
Country. They were endangered during the crossing, and children 
were preyed upon. They were preyed upon by smuggling 
organizations. They were preyed upon by drug trafficking 
organizations and by others who were benefiting and making 
money off of their attempt to get into the country.
    The overwhelmed DHS and the Department of Health and Human 
Services (HHS) capacity to care for these children was another 
result of the fractured system. Customs and Border Protection 
exercised and continues to exercise valiant efforts to deal 
with this crisis. It is outside of their training. The 
humanitarian piece of this is outside of their training. It is 
beyond the capacity of their facilities and until recently 
beyond their funding.
    As a result, our national security has been endangered 
with, at any given time, as many as 4 out of 10 Border Patrol 
agents who are no longer performing their border law 
enforcement mission. They are instead doing the things they 
were not trained to do, which is providing the humanitarian 
relief to the best of their capacity.
    At this time, if I could have the graph presented?\1\
---------------------------------------------------------------------------
    \1\ The chart referenced by Ms. Tandy appears in the Appendix on 
page 426.
---------------------------------------------------------------------------
    I think this depicts, more closely than anything, the 
crisis. This is a graph of family units that were apprehended 
by Border Patrol.
    When this panel started in October, there were less than 
17,000 family units apprehended at the border, and I am talking 
about between the ports of entry, the remote areas of the 
border, the uninhabited parts of the border. That went from 
October to April, instead of less than 17,000 family units that 
were apprehended, we were now up to 58,000 a month that were 
apprehended. By the next month, it was peaking at 84,000.
    Why that graph is so important is that it shows you how the 
crisis escalated and the surge of these family units that 
require such special care and attention.
    You can see currently in June, the numbers have actually 
dropped. Even at the June numbers, if is at the same level as 
when this panel filed our report in April, and we deemed it an 
emergency then. This is not our final report. We did not plan 
to file an interim report. We were so alarmed at what we saw at 
the border, the conditions at the border, that we determined an 
emergency report was required.
    During this fiscal year (FY)--again, the number of children 
who are apprehended between the ports of entry in these remote 
areas was 266,657. These children have illegally crossed the 
border in between the ports of entry. That is a staggering 
number and why this is so important that changes are made, and 
made quickly.
    This panel, all 10 of us, parked our politics at the door. 
We are bipartisan, as the Chairman pointed out. We parked our 
politics and unanimously arrived at our recommendations in this 
report. Each recommendation is integrated with the others, and 
standing alone, any one of them is not a panacea to turning 
this crisis around.
    But we do urge the Congress to take action. We are pleased 
that Congress took action on supplemental funding at the end of 
June. It was critical, and now we urge Congress to make the 
other changes that we recommended in the report.
    Thank you, Mr. Chairman, Mr. Ranking Member.
    Chairman Johnson. Thank you, Karen.
    Who is going to go next? Jay. My recommendation is just 
bring that microphone a little bit closer to you, and then you 
can turn them off because I think only so many work at the same 
time.

   TESTIMONY OF JAYSON AHERN, VICE CHAIR, CUSTOMS AND BORDER 
PROTECTION FAMILIES AND CHILDREN CARE PANEL, HOMELAND SECURITY 
                        ADVISORY COUNCIL

    Mr. Ahern. Got it. I may not be quite as soft-spoken as 
Madam Chair.
    Ms. Tandy. Oh, I have never been accused of that.
    Mr. Ahern. But thank you for the opportunity to be here 
this morning.
    I have the opportunity and the pleasure to serve as Karen's 
vice chair of this panel and was appointed to the Homeland 
Security Advisory Committee by Secretary Nielsen almost a year 
ago.
    I come from perhaps a different perspective than many 
others on our panel. I actually served in Customs and Border 
Protection for 33 years and predecessor organizations as well. 
When I look back over the 33 years that I actually spent in 
government before I ended up leading the agency for the last 4 
years as the Deputy Commissioner, then as the Acting 
Commissioner at the end of the Bush Administration and through 
the first full year of the Obama Administration, I must say 
that I am just very stunned and very concerned about the 
transformation that happened at our border.
    When I take a look back at what we used to deal with years 
ago, starting in the mid-70s when I first came on board, we 
were confronted with challenging environments of dealing with 
people who try to escape and evade and avoid apprehension.
    Today we are seeing people that are rushing to the first 
person they see in a uniform to surrender themselves. You have 
to ask yourself why is that. Why is that? I think the answer is 
pretty obvious. It is because of the broken immigration system 
that we have to go ahead and deal with today that need some 
other changes.
    When you take a look at some of the family units that we 
have seen and unaccompanied children--by the way, I have not 
seen the recent numbers, but they are well into the 4- and 
5,000 range of unaccompanied children who have actually been 
recycled by smuggling organizations for the purpose of being 
able to be conveyed across the border so that they will have an 
advantage in the process to be able to go ahead and be put into 
quick release proceedings, to be able to set up for a hearing 
that may happen years later. That is a concern.
    When you take a look at the challenges that many of these 
families have as they are making their way to the border and 
all the challenges and all the horror stories that have 
actually been conveyed, I think those are certainly significant 
issues that need to be addressed, and we will talk about some 
of those things on the push factors that are occurring in some 
of those countries where we will have an opportunity to go in a 
couple of weeks to spend a few days in each one of the Northern 
Triangle countries.
    But we have dealt with some of these challenges in the 
past. We have dealt with immigration surges over the years, 
whether it be some of the Cuban migration issues in South 
Florida with the Mariel Boatlift right at 1980, or some of the 
challenges we had when I was still working over 10 year ago in 
government with the Brazilian crisis, when we were surging in 
the amount of Brazilians that were trying to gain entry 
illegally in the United States.
    It kind of shifted from the traditional Mexican population 
of people trying to gain entry to a group of Brazilians, and 
some of the same expedited removal proceedings and return-to-
Mexico proceedings that were allowed under law at the time were 
not the same for people from other than Mexico and dealing with 
the Brazilian population. There needed to be swift action to go 
ahead and put them in removal proceedings, and guess what? It 
stopped.
    I think those types of circumstances, we need to consider 
today because the challenges that we focus on today, 
unfortunately, are the things that get characterized in the 
media every night, and there are some very tragic 
circumstances. You can see each one of those, but 
unfortunately, the agency I had the opportunity to lead for 
many years gets judged by the one-off circumstances that occur, 
not the daily circumstances and the challenges they have to 
deal with on a daily basis.
    Some of those things are very important, and that is where 
I get very concerned about the mission of Homeland Security.
    I had the pleasure and the honor to serve with Tom Ridge 
and Governor Hutchinson when we started to stand up the 
Department of Homeland Security, right after the President 
signed the Homeland Security Act in 2002, and we had all of 
4\1/2\ months to stand it up on March 1, 2003. It is still 
maturing years later, but it was brought about to go ahead and 
secure the homeland. What deeply troubles me today is that it 
has actually turned into the immigration agency of this 
Country, and that is a concern. It should be a concern for all 
the Members of Congress, both sides of the House and both 
parties, because what deeply concerns me is what is happening 
to the rest of the mission.
    I really applaud a lot of the efforts that are going on 
with the frontline officers and agents securing the homeland as 
best they can but having to consume their time dealing with the 
humanitarian crisis that is right in their face and they have 
to deal with.
    But what else is happening? We saw when we were there, 
right at the shift change, where migrant families were coming 
in surges to go ahead and distract the Border Patrol from the 
drug interdiction mission, as the cartel members, who also are 
profiting by moving these people across the border, take 
advantage of that surging and capitalizing on the agents being 
consumed with having to manage that with them running their 
drugs right to the left and to the right.
    We cannot let that happen as a country. We have to continue 
to focus on all aspects of the mission. There are still bad 
people trying to get into this country. Many of them do come 
across the Southwest Border. It is not all people from the 
Northern Triangle countries. These are issues we need to deal 
with as a body, whether it be the administrative branch, the 
legislative branch, and certainly, we need to make sure that 
those who are charged with setting the laws and executing those 
laws have the best capabilities they have to be successful.
    Ms. Tandy mentioned that the supplemental was certainly 
very helpful. I would say it came too late. The agencies within 
DHS and many within DOJ and HHS had to exhaust their budgets 
just to be able to keep up with some of the challenges that 
they needed to be able to procure things for people.
    They are hundreds of millions of dollars in debt before the 
supplemental, and I hope that it actually helps recover some of 
the budget so that none of them are anti-deficient. As an 
agency head, that is the last thing you ever want to have 
happen, but there was the challenges they were doing to deal 
with the mission. That was first and foremost for them.
    When you see and hear the stories of they are given warmed-
up burritos in a microwave, why is that? The procurement laws, 
that they had to go and acquire things, and the budget was not 
there to support what they needed for the mission, and the 
frontline people actually went out and procured it with their 
own funds, with their own capabilities to be able to do the 
best they could, given the circumstances they had.
    The processing facilities at a border patrol station--for 
those of you that are here, you know that; for those that are 
listening and watching here in the audience--think of it as a 
police station. There are cells to do immediate processing 
after somebody has been arrested, not for long-term detention, 
but given the entire process, take a look at it as a continuum 
or as a supply chain is broken because every step of that 
process needs to be reevaluated, reassessed, and improved.
    So, yes, it is a process improvement, but also legislative 
change needs to occur to be able to make it better. It is not 
just what happens at the Border Patrol station with the intake 
and they have up to 72 hours, but as you take a look at then 
when one moves into Immigration and Customs Enforcement (ICE) 
detention and then all the other things that have to happen 
with HHS housing for family units or the administrative judges 
that need to provide the hearings, this system just backs up 
tremendously. The most obvious point and the visible point is 
at those Border Patrol stations and then at the ICE detention 
facilities.
    Every step of this process needs to have review, and it is 
not just more about adding more Border Patrol agents or 
building a wall or things of that nature. It is taking a look 
at the entire process end to end, giving them laws to be able 
to be effective, giving the appropriate level of support for 
the administrative judges, the bed space that is needed to be 
able to house people throughout the entire process, but also 
evaluating what is the cause and effect here.
    The push factors are very important. As we have looked at 
intelligence reports and some of the data from people that have 
actually been interviewed upon arrival, it is not for fear of 
persecution. I am sure there are many people that are, but we 
have had intelligence briefings from people that are involved 
with doing deep study and analysis.
    The murder rates, the violence rates have not changed that 
dramatically in the last 5 years. The agricultural situation 
because of the drought has. The economic situation has because 
of corrupt governments in those Northern Triangle countries 
where people have lost complete confidence in their country, 
and they are looking to go ahead and find better opportunities 
elsewhere. When you flip to then the interviews of why here, 
education, medical, the opportunity to be reunited with family 
that is already here illegally, and also more confidence in our 
government.
    Building the capacity and the trust and confidence in those 
locations where they live and where they likely want to be, if 
it were not for those other circumstances, is a key part of 
this going forward, but at the same time, we got to fix some of 
the push, the pull factors on our end. That is the legal 
system, and that is some of the things that required statutory 
change.
    So I will end there.
    Chairman Johnson. Thank you, Jay.

TESTIMONY OF LEON FRESCO, MEMBER, CUSTOMS AND BORDER PROTECTION 
 FAMILIES AND CHILDREN CARE PANEL, HOMELAND SECURITY ADVISORY 
                            COUNCIL

    Mr. Fresco. You want me? OK. Thank you, Senator. Thank you, 
everybody.
    I will just be very brief and just say I think I associate 
myself with the comments of my colleagues, and this was a 
bipartisan report.
    I think one of the key things to focus on moving forward 
into how we get to actual solutions is to say I think we need 
to define the problem. I think people are disagreeing on what 
the problem is, and it is valid to disagree because depending 
on how you view this, there could be three different problems.
    Problem one could be I want to eliminate the total number 
of crossings, period, through the border. I do not care what 
the purpose is of the person who is crossing. I just want it to 
all go away. That is one way to define the problem.
    A second way to define the problem would be I want to take 
the group that is coming into the United States and 
successfully vet who is coming here as a refugee, and if you 
are a legitimate refugee, allow you to come and enter the 
United States, or if you are not a legitimate refugee, then 
remove you from the United States. So that would be a second 
way of defining this.
    A third way would be it does not matter to me why you are 
coming. I just want that bad things do not happen to you when 
you arrive in our custody, and that is it. That is a third way 
of looking at this.
    And so at least from my point of view, I was working with 
my colleagues to try to come up with this second option of how 
we successfully vet people in a manner where people who are 
coming with legitimate refugee claims can come in a very quick 
fashion, be assessed. We know who is coming for the purposes 
that the law permits and who is coming for the purposes the law 
does not permit, and that they are treated compassionately 
while that vetting process is occurring. I think if you have 
that as your goal, it is easiest to get to a bipartisan 
consensus. Whereas, if your goals are the others, this is where 
it becomes a more problematic formulation.
    So that is the frame of approach that at least if people 
want to ask me questions where I am coming from on this, it is 
how do we take the population that is coming, make sure that 
they are treated in a compassionate manner while we vet, to 
decide if the reasons they are coming are reasons permitted 
under our law or reasons not permitted under our law.
    Chairman Johnson. Thank you, Leon.
    Doctor, again, get the microphone as closest as you can. 
There you go.

TESTIMONY OF SHARON W. COOPER, M.D., FAAP, MEMBER, CUSTOMS AND 
 BORDER PROTECTION FAMILIES AND CHILDREN CARE PANEL, HOMELAND 
                   SECURITY ADVISORY COUNCIL

    Dr. Cooper. Thank you very much.
    As a pediatrician of now more than 40 years and who worked 
first as a military officer retiring from Fort Bragg, where we 
have the largest pediatric population in the Army, it was an 
honor to serve with this Committee.
    I must say that the challenges for children are severe and 
significant. At this particular time, there are more than 
67,000 minors who have been present at the CBP station and have 
come across the border in that manner.
    As our report reflects, many of these challenges reflect 
the fact that there are communicable diseases, which can be 
fatal and have been fatal for several of the children who have 
come across the border.
    Whenever you have children that are in groups such as this, 
the risk for influenza, for example, which has been one of the 
primary causes of death for many of the children who have come 
across the border, has been very difficult and great.
    I think it is very relevant that in reviewing the mortality 
cases that we have already seen, the overwhelming majority of 
these children were seen at medical treatment facilities and 
were sent back to the border stations and unfortunately 
succumbed to diagnoses that were not clear when they were seen 
by medical treatment facilities.
    Another part of our report has to do with the 
identification of these children as being biologically related 
to the parents, the individuals who are cited as parents when 
they come in as a family unit. Having appropriate biometrics 
was a real challenge in our discussion as a committee because 
of some of the existing restrictions with respect to facial 
photographs and things of that nature.
    So we have made some recommendations in our report on 
trying to make sure that the children who are going to be 
coming across the border and released to the interior are going 
to, in fact, be children who are going to be cared for.
    The issue of recycling of children brings us to the risk 
for sex trafficking and labor trafficking of children and 
trafficking in general.
    Because I am a forensic pediatrician, I work quite a bit 
with trafficking victims and circumstances of that nature, and 
that was one of my greatest concerns, which was affirmed when 
we had our first meetings regarding the risk of children who 
would be brought into the United States and then sent back to 
Central America to come back into the United States with 
different people posing as their parents. That kind of stress 
and trauma for children is untenable and will have, without a 
doubt, far-reaching psychological impact over the time that 
they are going to be continuing through their childhood.
    Finally, I would want to say that the recommendations by 
the American Academy of Pediatrics (AAP) are excellent. They 
are relevant. They are available to any health care provider, 
free on the Internet, on all of the different medical problems 
and means of surveillance that should be taken, and that is 
really very helpful.
    What we would really like to see as was recommended in our 
report, that there be onsite health care providers, rather than 
individuals who are not versed in the care of young children 
and adolescents. Because of the nature of the concentration of 
these children in these settings, it is very important that 
they not only be screened within the first 24 hours by a health 
care provider upon arrival, but also may require rescreening, 
sometimes daily, if there are soft signs of potential 
infectious problems that we see in order to make sure that they 
can survive this last part of the journey that they have taken.
    Thank you very much.
    Chairman Johnson. Thank you, Doctor.
    Just real quick on the point of health professionals, 
pediatricians at the border, both Senator Peters and I talked 
to Dr. Sally Goza, who is the incoming head of that 
organization, and I had talked to Mark Morgan that same day or 
the day after about facilitating whatever professionals want to 
get down there are willing to serve in that capacity to get 
that done. The Acting CBP Commissioner was very open to trying 
to work within the rules and laws, and who knows what 
bureaucratic hurdles may exist on that? But, again, very 
receptive to getting those pediatricians and those types of 
medical experts down there at the border to help alleviate or 
mitigate some of the problems.
    Dr. Cooper. Yes. You are quite correct about that, and 
thank you very much.
    One thing that I noticed--and we made recommendations for--
was that initially in the smaller CBP stations, there was not 
really a location that was available for the right kinds of 
equipment, etc, but I think that that can be modified very 
readily.
    In fact, when we got to the Clint Station, there was 
already a contract provider who had been hired to help 
facilitate evaluation of patients.
    Chairman Johnson. Great.
    Again, I want this pretty free flowing, but the order was 
Peters, Scott, Hassan, Rosen, Portman, Carper, Hawley. I really 
do want this free flowing because I totally schlepped over 
Senator Peters' opening.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. That is all right.
    Chairman Johnson. I will just turn it over to you. If you 
want to make any comments or state the questioning, go ahead.
    Senator Peters. Just the questioning. I want to pick up on, 
Dr. Cooper, your comments. The question I have been asking at 
all these hearings of folks is really how long is too long to 
detain a child, and I have never gotten a straightforward 
answer. What is your view, and what is the view of the folks 
here?
    Dr. Cooper. The American Academy of Pediatrics feels and 
states that no time is a good time----
    Senator Peters. Right.
    Dr. Cooper [continuing]. As far as detention is concerned.
    Senator Peters. Do you agree with that?
    Dr. Cooper. My feeling is that you have to make sure once 
children have crossed the border that there is going to be a 
safe place for them to land.
    You want to make sure that they are not going to be a risk 
of still being under the power and control of smugglers, for 
example, or people who are falsifying their identifications to 
increase the risk for these children. So once that has been 
ascertained, it would be very good not to have them in the herd 
circumstance, that you have within detention because it will 
really foster a higher risk for infectious disease 
complications.
    Chairman Johnson. Do you not have to define detention, 
though? What is harmful depends on what the facility is, right?
    Dr. Cooper. Yes. Let me respond to that.
    I have visited two detention settings. In one particular 
detention setting, the setting was with families, family and 
children, and what we found was that at that particular 
setting, which was in Dilley, Texas, it was an extraordinarily 
excellent location.
    These families had their own individual apartments, if you 
will. There was a dining facility with very excellent food. 
There was education, a school situation from kindergarten to 
12th grade, provided for them. There was recreational space for 
them, and there was also medical care, extremely good medical 
care that was provided by the United States Public Health 
Service onsite. That is a setting that would be the most ideal.
    Senator Peters. But that is not typical what folks are 
confronting right now.
    Dr. Cooper. No, that has not been what we have seen in----
    Senator Peters. What I have seen looks very different from 
what you just described.
    Dr. Cooper. Right. The Inspector General's (IG) report 
certainly revealed that that was not the typical, but that 
would be the desired type of setting.
    Senator Peters. That has to be the goal.
    You talk about screening of folks, which is important to 
have professionals there onsite.
    Dr. Cooper. Yes.
    Senator Peters. I know the report talks about telemedicine 
as a possibility, but talk to me about that. There has to be 
some limitations to telemedicine.
    Dr. Cooper. Yes.
    Senator Peters. We need to have professionals actually 
onsite not doing it via telemedicine. I have some concerns 
about that, what I read in the report.
    Dr. Cooper. So telehealth is a very acceptable method of 
care, depending upon the condition.
    If you are looking at a child with respect to a potential 
infectious disease problem, your telehealth capability has to 
be very good because many of these children present with 
rashes, for example, that will indicate that there is an 
infectious problem, such as measles or they may have mumps, 
etc., but influenza, which is our greatest concern, is going to 
only be diagnosed by febrile reaction and soft symptoms, even 
softer the younger the child. So those children by definition 
need not to remain in a detention setting nor should they 
remain in a CBP setting. They need to be taken to a medical 
treatment facility without doubt.
    Other types of telehealth capability will offer itself as 
long as you have a good health care provider to describe what 
is going on or a para health professional extender, such as a 
nurse or a paramedic who can give other information; for 
example, trauma injuries that may have occurred to a child.
    Some of the other children who have died--at least one 
child died from really severe congenital heart disease, and in 
that situation, telehealth will not be beneficial, except to 
affirm the need for immediate transfer for a patient like that.
    Senator Rosen. Can I ask a question about this? So we know 
that health screenings are supposed to go on, but right now 
they are going on by CBP officers instead of health 
professionals.
    Dr. Cooper. Definitely not the right outcome.
    Senator Rosen. So is not a medical professional what we 
need to provide these screenings as often as they need to be 
done on a daily basis?
    I can tell you I am suffering from a summer cold. Two days 
ago, I did not have it, and today I am taking all kinds of 
medication and trying not to spread my germs.
    Chairman Johnson. Josh, if you want to move---- [Laughter.]
    Senator Rosen. Right. So we know how rapidly.
    How quickly do you think the American Academy of 
Pediatrics--I had them in my office. We know that we have 
health care professionals willing to go down, willing to go to 
the border, willing to volunteer their time at these 
facilities. What do we need to do to facilitate that for the 
safety of our children?
    Dr. Cooper. Absolutely, Senator Rosen. I agree with you 100 
percent.
    To have a pediatrician would be the very best 
recommendation that I could make, and you are absolutely right. 
Daily evaluation of children is indicated because they are in a 
high-risk setting.
    Senator Rosen. Keeping them in these crowded conditions is 
not something that is safe, even for the CBP workers that are 
working there.
    Dr. Cooper. But especially for the very young children, you 
do not want to have them----
    Senator Rosen. Right.
    Dr. Cooper [continuing]. In that setting. You would like to 
get them out of those settings, and you would like to make sure 
that you are going to have health care providers who can see 
them on a regular basis.
    Chairman Johnson. Real quick, when we were down at the 
border, it was the Coast Guard corpsmen that were doing the 
initial testing. Is that your evaluation as well? Is that what 
you saw?
    Mr. Ahern. Yes.
    Chairman Johnson. Not the attritions, but their----
    Mr. Ahern. Right. It is a mix, and depending as far as what 
facilities you are talking about, there are certainly some 
variances. I think, again, making the distinction between a 
Border Patrol station where the initial arrest processing, 
before they go into detention facilities, there are 
distinctions and differences that need to be recognized, like 
the particular type of stage or facility--and stage in the 
process.
    I think I would also point to one of the key 
recommendations of our report, which is the regional processing 
centers, where you have the ability to have the right kind of 
facility with first, the right type of caregivers available to 
be able to have a triage upon entry into it by medical 
professionals, who would be stationed there, all the way 
through the court and the hearing procedures and second, the 
provisions for providing attorneys for people who need to go 
and appear before an immigration judge.
    Being able to have that all in one concentrated location 
and probably three or four locations along the border and one 
in Guatemala is what we recommended.
    Senator Rosen. How quickly do you think that you can ramp 
up and do this? Because we have children suffering now, tender-
age children, that they will suffer for the rest of their lives 
because of this, who came here--we cannot let children suffer 
because of whatever we may think of how they got there, who 
brought them here, or why they brought them here. The fact is 
they are here, especially the tender-age ones, not of their own 
choice, and so while all of the adults--we want to work 
together. We can talk about policy and procedure and all those 
things, but in the meantime, how quickly can we do something to 
protect these children who----
    Mr. Ahern. It takes funding, and I would just ask you all 
to look at how long it took to get the supplemental funding 
approved. Those were months that were lost.
    Senator Rosen. But we did not have the funding because 
these children are risk.
    Senator Carper. But they did not.
    Senator Hassan. Right. But can I wanted to take a step 
back, and first of all, thank you all for being here and for 
your work.
    I appreciate the work that the panel has done, and I 
understand as well that the Administration wants the ability to 
indefinitely detain families, and that the CBP Families and 
Children Care Panel prioritized that as a recommendation.
    Doctor, I understand the concern about vetting families and 
making sure children are, in fact, related to the adults they 
come with, but let us just start with a fundamental 
proposition. Do you believe that the indefinite detention of 
children is harmful to children? And let us just go right down 
the line, all four of you.
    Mr. Fresco. Yes. Indefinite detention, I do not think would 
be any of our goals.
    Senator Hassan. Yes or no. Is indefinite----
    Mr. Fresco. Yes. Indefinite detention is harmful to 
children.
    Senator Hassan [continuing]. Detention is harmful to 
children? Yes or no.
    Mr. Ahern. Certainly, it would.
    Senator Hassan. OK. Ma'am?
    Ms. Tandy. We did not recommend indefinite detention.
    Senator Hassan. What I am trying to get is a shared set of 
values and understanding that we can then have a discussion 
based on, because if you lift the Flores limit, you are talking 
about the possibility of indefinite detention.
    So is it or is it not? I am not just talking about exposure 
to communicable diseases here. Is it or is it not harmful to 
children?
    Ms. Tandy. This panel found that a period of detention in 
the proper setting--which is not the current setting--was an 
important balance of the Nation's security, Customs and Border 
Protection's processing requirements, and the care of these 
children who arrive often ill and traumatized and----
    Senator Hassan. I understand that, but----
    Ms. Tandy [continuing]. Being provided with health 
facilities and health care in a center that could be a 
detention center, but it is not parked in a detention center.
    Senator Hassan. So I would like to submit, Mr. Chair, for 
the record, a letter that a group of medical and child advocacy 
organizations led by the American Academy for Pediatrics sent 
to the panel.\1\ The letter from these child health experts 
expresses strong opposition to the panel's recommendation to 
allow for the indefinite detention of children.
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Hassan appears in the Appendix 
on page 383.
---------------------------------------------------------------------------
    Here is what the letter said. This is just a quote: 
``Detention of children for even brief periods causes known and 
well-documented developmental, physical, and psychological 
harm. These impacts may be particularly pronounced for asylum 
seekers who have frequently fled severe violence and trauma in 
their countries of origin. Detention also poses significant 
barriers to accessing legal counsel to assist families in 
preparing and presenting their claims for legal protection.''
    So what is the response to this medical advice, and why 
does not your report reflect those findings? That is the 
question.
    I will also say this is not an either/or. We can be secure 
and not harm children by indefinite detention, and both are 
really important priorities. This is a security issue and a 
humanitarian one.
    Chairman Johnson. Let me first ask because I think----
    Senator Hassan. Yes.
    Chairman Johnson [continuing]. It is incredibly important 
to make this point again. I do not know what definition 
``detention'' that group is----
    Senator Hassan. Exactly.
    Chairman Johnson. If they are looking at the Border Patrol 
stations, absolutely. I do not think anybody would say that 
that is not going to create harm, but if you are talking about 
Dilley, if you are talking about Donna facility, where you have 
the families there, that is a different type of situation.
    Senator Hassan. Senator, that is----
    Chairman Johnson. But, anyway, we will enter that in the 
record.
    Senator Hassan. Detention of children, indefinite 
detention, putting them in an institutional facility, period, 
according to pediatricians and experts, causes them harm. It 
does not matter--obviously, better conditions are better, but 
it does not undo the harm. That is why in this country, unless 
we find an adolescent who has committed a crime or is harmful 
to themselves or others, we do not detain them because any 
detention is harmful.
    What I am concerned about is we keep presenting this as 
either we have to detain kids or we are not going to have 
secure borders, and that is a polarity I reject and I think the 
U.S. Government could easily address.
    Senator Portman. Senator Hassan, can I speak briefly?
    Senator Hassan. Yes.
    Senator Portman. I just got back from the border on Friday, 
and I know that you are looking for a practical solution here.
    Senator Hassan. Right.
    Senator Portman. But I think what we are missing is why 
these children are coming in the first place, and under Flores, 
which is the recommendation----
    Senator Hassan. Right.
    Senator Portman [continuing]. You think Flores should still 
apply to unaccompanied children but not to the families with 
children.
    It is definitely an incentive to come to America, and so 
you are--frankly, if you are focused on having a solution to 
the long-term detention, you should be focused on keeping these 
children from coming in the first place.
    Senator Hassan. Right.
    Senator Portman. There is no good solution here.
    Senator Hassan. Actually, there are----
    Senator Rosen. But what about the children who are there 
now?
    Senator Portman. Wait. Let me finish. Let me finish because 
you had a long time to talk.
    Senator Hassan. Right.
    Senator Portman. There is no good solution here unless you 
deal with the incentives because you are encouraging these 
children to leave their homes in Central America and to join 
traffickers to come to our border, or you are encouraging 
children--this report has said 4- to 5,000 kids have been 
recycled already. When I was down at the border, they had 
numbers that were higher than that.
    They know who these kids are because they process them, and 
they process them again and process them again.
    So I could not agree with you more. We do not want kids to 
be detained at all. That is not good for kids.
    Senator Hassan. Right.
    Senator Portman. But what is really bad for the kids is the 
U.S. Congress refusing to do the things that we all know that 
should be done--and I know you know should be done--to 
discourage them from making this long and dangerous journey in 
the first place, and that is what this report is getting at is 
as long as you have this notion that under Flores that a 20-day 
limit is place, and as long as you have a situation now where 
partly because they are overwhelmed, there is no way you can 
process these children or families within those 20 days. They 
are simply permitted to go into the United States.
    They go to a nonprofit. The nonprofit gets them on a bus or 
an airplane, and they are in New Hampshire. They are in Ohio. 
Again, 15 percent at the end of the day according to this 
report and according to all the data we have are getting their 
asylum claims granted, if they do claim asylum. It is on 
average over 2 years, but really, as the report indicates, it 
is 4 to 5 years. The report also indicates that very few people 
are ever removed. That is what you said in your report.
    So if you are a trafficker, this provides you the perfect 
opportunity to say to these kids and families, ``If you pay me 
$5,000 or $10,000,'' somewhere in between there, ``we will take 
you up to the border and, frankly, just dump you at the 
border.'' As we know, 30 percent of the women and girls, based 
on the best data we have, are sexually assaulted during that 
journey. I mean, this is the problem.
    So we can talk about detention, and I could not agree with 
you more. We do not want to detain anybody, but the real issue 
is how do you keep these kids from making this dangerous 
journey in the first place.
    Senator Hassan. That is right.
    Chairman Johnson. You want to detain them to prevent them 
from going to a stash house or getting put in a sex trade 
situation or the egg farm. One of the alternates of detention 
is teaming back up with the human traffickers, who they have 
not paid their debt to, who are controlling their families down 
in Central America. So we have not focused enough on the human 
trafficking element and the danger these children are in if we 
do not try and protect them in some form.
    Senator Hassan. There are other solutions. There is short-
term detention, which we process them through, and I do not 
want to dominate the discussion. But I do feel a couple of 
things that I want to clarify.
    One is I would not say that it is the children themselves 
who are being incentivized to make these decisions. They are 
being exploited by a lot of different people, a lot of 
different conditions. So let us focus on----
    Senator Portman. But it is the laws and the rules.
    Senator Hassan. Let us focus on the incentives.
    Senator Portman. It is the laws and the rules.
    Senator Hassan. Let us focus on the incentives to the 
adults who then bring the children.
    Second, the notion that the only way, then, to deal with 
this is to extend the Flores limit beyond 20 days or to let 
them go is a false choice.
    There are other recommendations that other groups have made 
that indicate that we could in fact keep track of these 
families. We could case manage these families. We could surge 
our capacity so that the hearings could be held within 20 days. 
Those are all things we are capable of doing if we will provide 
the resources to do it, and that is my concern.
    Chairman Johnson. Of course, that rapid adjudication is the 
whole goal of Operation Safe Return.
    Mr. Fresco. Right.
    Chairman Johnson. But I would like to turn it over to Leon 
because you actually are an immigration lawyer. I think your 
proposed solution as part of this was that rapid adjudication, 
but we are also being told too that--and Operation Safe Return 
is only going to evaluate based on a credible fear standard 
because we do not have the time in 20 days to do the full 
adjudication process. Can you just talk about it?
    Mr. Fresco. Right.
    Chairman Johnson. Also, talk about the basic asylum law and 
asylum standard.
    Mr. Fresco. So what is complicated is there are two 
completely different case tracks. There is what is called an 
``expedited removal track,'' and there is a ``normal track.'' 
So the attempts to solve this problem have all been geared 
currently around the expedited removal track, which is where 
the government, if you do not express a credible fear, can 
immediately remove you.
    The issue is most people express a fear of removal. So then 
you have to make this adjudication. Is that fear credible? And 
if it is, you can stay, and if it is not, then you can be 
removed.
    The question that our panel had put to ICE--because this 
had been tried, both in the Obama Administration and in this 
Administration. We asked has any family, not 20, 30, or 1,000. 
Has any family been removed that has been placed in the 
expedited removal process? And their answer that they gave us 
was no.
    I mean, I do not know if you guys remember that question.
    Chairman Johnson. Let me quickly give you the numbers.
    Mr. Fresco. Yes.
    Chairman Johnson. So since 2014, 822,000 individuals coming 
in as a family member, we have removed 12,021. That is 15 
percent.
    Mr. Fresco. Yes. That is after they were--I am talking 
about through----
    Chairman Johnson. It could be voluntary.
    Mr. Fresco [continuing]. Context of what they used the 
Family Removal Centers that they are using now.
    So what we started to think about when we were thinking 
about that is, well, then what you are doing is if you are 
detaining anybody for any amount of time, you are wasting the 
time because you are not actually accomplishing a removal. The 
whole point of a detention would be to accomplish a removal in 
that situation, and you are not accomplishing a removal. Why 
are you doing the detention?
    So there are two alternatives. You can either make changes 
to the expedited removal system, which I am not a big fan of--
others are--or you can actually move people toward the real 
removal system, and it is my belief that the biggest delays you 
have in the normal removal system are you have to give people 
time to find counsel, which takes many months. And that is why 
you blow through all of these time limits, and you have to give 
people opportunities to get documents, which a lot of times 
they cannot get because they are fleeing their country.
    In my view, if you give the people counsel on day one and 
you expedite the hearing and you establish the courts right 
there on the site and you say, ``Unless the claim sounds 
incredible, we will deem it as credible. You do not need to get 
these documents,'' because the underlying theory is that a lot 
of these cases do not qualify legally anyway for asylum. Then 
you can actually get these proceedings done in 20 or 30 days.
    That is why when you say Flores extended, we will not 
saying extended from 20 days to 1,000 days. The question is if 
it will take 24 days, 26 days, something like that to get the 
proceeding done and you are holding someone in a facility that 
we can all agree is a facility that will meet whatever 
standards the policymakers thinks are good standards, then a 
lot of people will get asylum and will be able to stay in. A 
lot of people will not get asylum and----
    Senator Rosen. Can I ask one question? This is about 
adults. Who does the credible fear screening for minors, 
especially those tender-age minors?
    Mr. Fresco. The same U.S. Citizenship and Immigration 
Services (USCIS) officer who does the family, they do the whole 
family.
    Senator Rosen. But if they are unaccompanied?
    Mr. Fresco. Oh. If the child is unaccompanied, they cannot 
be put in expedited removal proceedings at all.
    Senator Rosen. So they are just held in these conditions?
    Mr. Fresco. No. What happens is they then go through the 
normal regular proceeding that I have talked about, which means 
CBP can only hold them for 72 hours, and after those 72 hours, 
they have a legal obligation to send them into the custody of 
the Department of Health and Human Services until that 
Department can find an adult who is capable of being their 
custodian.
    And then the removal proceeding that I have just spoken 
about, the second track, will play out, and either they will 
win and they will be able to stay, or they will lose and they 
will be ordered----
    Chairman Johnson. But they almost all stay.
    Because I want to drill down this while we are on it. Talk 
about the disparity between the vast majority being granted the 
credible fear versus your report saying about 15 percent 
actually have a valid asylum claim and really would be subject 
to removal, although we are removing none. Just talk about that 
disparity and how that plays out in the few cases that actually 
are adjudicated, where it is not granted asylum.
    Mr. Fresco. Do you want me to?
    Ms. Tandy. Go for it, Leon.
    Mr. Fresco. OK. So the problem is, you have different legal 
standards, and so the standard for achieving a credible fear 
standard, which is what you have to establish to get yourself 
out of expedited removal and into the normal removal process, 
is that there is a significant possibility that you have an 
asylum claim.
    Asylum is defined, although in dicta, but in dicta that 
people talk about all the time in the Supreme Court law, about 
having a 10 percent chance you will be persecuted.
    So what you have to show is you have a significant 
possibility of having a 10 percent chance of being persecuted, 
so it is a generous standard.
    Chairman Johnson. Basically, you say, ``I am afraid to go 
home'' and----
    Mr. Fresco. It is a generous standard because that is the 
standard that was written. I mean, you can do that.
    Chairman Johnson. I understand. So that is why they call it 
``credible fear.'' They say, ``Hey, I am afraid to go home.'' 
OK, that is credible. Now you are into the process.
    Mr. Fresco. That is correct.
    Chairman Johnson. How long is it, and what kind of 
evidence? What do they have to provide, and then why then at 
the very tail end only 15 percent would be granted asylum?
    Mr. Fresco. Let me say this. Having come from the 
Department of Justice where we were constantly having to re-
correct our statistics in court, I am a little suspect on all 
of our statistics.
    Chairman Johnson. I agree.
    Mr. Fresco. So let us just say I do not know what the 
statistics are, and if anybody claims to know what the 
statistics are.
    Chairman Johnson. You are correct.
    Mr. Fresco. So we do not know what we do not know, but 
having said that, let me just say that it is a fair point that 
there are a large number of asylum claims that once presented 
do not meet the standard, and the problem is because we do not 
know what the standard is currently being adjudicated in the 
courts right now.
    It is unclear. We have no idea. The Supreme Court will 
eventually decide this.
    Chairman Johnson. Just lay out the basic premise.
    Mr. Fresco. The basic premise is that people are making 
claims right now that they are going to be persecuted in their 
home country because of domestic violence concerns or gang 
concerns that their country is--and that is a different two.
    So it is not clear whether those claims qualify or not for 
asylum. That is being worked on right now.
    Chairman Johnson. That is what is being----
    Mr. Fresco. Yes.
    Chairman Johnson. There are five basic----
    Mr. Fresco. Right. The five basic ways of getting asylum 
are race, religion, national origin, social group, or political 
opinion.
    Chairman Johnson. As a social group, it is the----
    Mr. Fresco. Social group is the one that they are claiming, 
correct.
    Chairman Johnson. Contentious one. I want to just lay this 
thing out.
    Senator Portman. One thing just quickly. Again, being down 
there on Friday, I learned something I guess I should have 
known, which is I talked to five or six families. At one point, 
I worked down along the border, so I used the best Spanish I 
had, and it was exactly what you would expect. People are 
saying they cannot get a job in Central America, the drought. 
Most of them were working in agricultural. One was not. A 
mechanic. One was in the tourist business. But they were saying 
they want a better life for their kids. Not a single family was 
saying anything about a credible fear.
    I probed a little bit, and they did not. But I am told--and 
I guess I should realize this--that along the process--so these 
families will all be released within a couple of days of being 
in the processing center. I mean, there were a thousand 
families there. This was at Donna.
    They will be released on their own recognizance. Along the 
process here, they can claim asylum at different points. So if 
they do get counsel, 6 months from now, they can claim asylum.
    Mr. Fresco. You would hope in every area where you have an 
officer of the court who is bound by law, not to produce fake 
asylum claims that they would not be producing--that a lawyer 
would not help someone to make----
    Senator Portman. Right.
    Mr. Fresco [continuing]. A fake asylum claim.
    Senator Portman. But is it true that some of them do claim 
asylum later in the process?
    Mr. Fresco. Well, you can. So here is what is complicated, 
what people do not realize about the expedited removal process. 
It is in order to use the expedited removal process, you 
actually have to have detention capability and USCIS officers 
who can do the credible fear screening. We do not have 
sufficient of either of those right now, which is what you are 
describing when people are released without even having the 
credible fear screening. They are released to do what I called 
``track two,'' the normal removal hearing.
    When you have a normal removal hearing, at that point, the 
system does not know anything about you. It asks you, ``OK. Do 
you concede to removal or not?'' and if you say, ``No,'' they 
ask you what is your defense to removal. At that point, you 
could introduce a defense of asylum.
    Senator Portman. Which is at what time during the process?
    Mr. Fresco. That would be whenever you get that hearing. It 
could be 2 months or 3 months later.
    Chairman Johnson. But, the process is so overwhelmed.
    Senator Portman. Is it typically 2 or 3 months later?
    Mr. Fresco. Yes, for the first hearing.
    Senator Portman. OK. That is what I thought.
    Mr. Fresco. And then depending on when the next trial is--
--
    Senator Rosen. Can I interject here, though? It seems to me 
we have two different issues. We have an immediate issue with 
all these children----
    Mr. Fresco. Sure.
    Senator Rosen [continuing]. At the border detained, whether 
you want to say cages or holding areas, whatever your 
definition is.
    Chairman Johnson. There are 200 right now in Border Patrol 
stations, 200.
    Senator Rosen. That is the total number of children that 
are detained.
    Chairman Johnson. Once they finally got the funding, it 
went from 2,000 down to a couple hundred, and again, they 
turned them--I just want to ask you. Do you have an average 
number of days in those Border Patrol facilities? And they are 
trying to do it in a couple of days, right?
    Ms. Tandy. It is very hard to get a correct answer to that. 
The standard is 72 hours. If it is children, it should be 24 
hours.
    Senator Rosen. So children are moved out of these cages in 
24 hours?
    Ms. Tandy. No.
    Mr. Fresco. No. That is the law. The law is 72 hours, and 
their goal is 24 hours. Yes.
    Ms. Tandy. But bear with me in terms of the reality. Forget 
the standards because that is not what is happening.
    Senator Hassan. Right.
    Ms. Tandy. What is happening is the surges of these people 
who are coming across, principally family units and children, 
have overwhelmed a facility meant to keep people for hours, not 
days, not weeks, and longer.
    But what has happened is to move people out of these 
facilities. It is very difficult for Border Patrol to do full 
processing that they should be doing. They are attempting and 
they are trying very hard. But what is typically happening is 
that these people are given notices to appear (NTA). And they 
are released.
    What used to happen is that, first of all, every part of 
the chain had the funding and space requirements to meet their 
obligations. So they did move in 24 and 72 hours, a year ago. 
What happened now is that it is backed up. HHS does not have 
the bed space. ICE cannot take the people from Border Patrol 
unless they have someplace to put them through HHS.
    Previously, there were travel plans that were actually 
accomplished by ICE. They would determine where the people were 
going. They would confirm the receiving entity at the other 
end.
    Senator Rosen. No, I appreciate it, but you are actually 
making my point that we have an immediate issue with children 
and families, how they are being held, and then we have a long-
term policy issue of what we do going forward, either to deter 
it or to take care of them or to move it. So there are two 
different issues, one very immediate for the health, safety, 
and care particularly of tender-age children and families, and 
then we have the long-term policy issues that are----
    Chairman Johnson. But what you are describing is that 
health care is all about the overwhelming nature of the flow. 
You have so many people----
    Senator Rosen. But you are not going to stop the flow in a 
day, Senator. So we have to get through what we are doing now 
to take care of--they are not these people. They are human 
beings.
    Chairman Johnson. That is their recommendations. Jay.
    Mr. Ahern. I think that is the point. You cannot 
disassociate the two. There is no one who would argue they do 
not need to do a better job in handling the kids within that 
first 24 hours, without question.
    But the capacity of the system is so exceeded by the surge 
of people that have occurred because of the broken immigration 
this country allows to continue to happen. That becomes the 
focus that people want to look at, and not looking at what 
actually is happening in a Central American location. What 
happens in the interior of the United States?
    Senator Rosen. So even if we put a law in place today----
    Mr. Ahern. In the interior of the United States, one of the 
things again----
    Senator Rosen. There is a backup.
    Mr. Ahern [continuing]. This body would be questioning ICE 
is if they were releasing kids to sponsors here in the United 
States who were using them for sex trafficking or human 
trafficking.
    Senator Hassan. Right.
    Mr. Ahern. There is a very deliberate exercise that goes on 
to make sure that they are not putting them back into the hands 
of those who are going to create more concern and more 
exploitation for these kids in the country.
    No one is satisfied with the processing time. We can 
understand all the different influencing factors here that are 
causing challenges.
    Chairman Johnson. But we were told these families are 
showing up at stash houses, and they are being beaten. The 
videotapes are being taken----
    Senator Hassan. Some of them, yes.
    Chairman Johnson [continuing]. Down to Central America for 
ransom.
    Mr. Fresco. That is why we recommend these regional 
processing centers. That would have, in the short term, the 
medical, the legal, everything in there. So you could move them 
out of these CBP facilities. That is why we recommended that we 
stand up these large regional processing centers as soon as 
possible to get people out of CBP and start moving the rest of 
this process.
    Senator Hassan. Which----
    Senator Lankford. Mr. Chairman, can I jump in with a quick 
statement as well?
    Chairman Johnson. Yes.
    Senator Lankford. So reading through your recommendations 
on the Flores issue. Did you all have any conversation about 
what to do with 17 year old males? Because the highest number 
of people coming in right now as far as percentage are single 
males that are coming across the border claiming to be 17. I 
assume that they have been coached that if you claim you are 
17, you will be treated differently. There is no papers or 
documentation, we do not know if they are 25 or if they are 17. 
They just come across and say they are 17. Did you all have any 
conversation on that? And then I have one more follow-up 
question on that as well.
    Ms. Tandy. We had some. But the emergency nature of our 
report focused on fixing the biggest problem, which is the 
family units----
    Senator Lankford. Right.
    Ms. Tandy [continuing]. Not the unaccompanied, and 17-year-
olds would be in the mix. So, we had some recommendations.
    Our final report will address those types of concerns.
    Senator Lankford. So the Trafficking Victims Protection 
Reauthorization Act (TVPRA), when I talked to foreign ministers 
and leaders in El Salvador, Guatemala, and Honduras, they all 
say the same thing to me, ``We want our kids back.'' It is a 
very odd statement to say--these kids cross the border, and if 
we had an American that entered into Guatemala, Americans would 
demand their child back. We have a child from El Salvador that 
comes, and we say, ``No, we are going to keep them.''
    Salvadoran minister was in my office yesterday saying, ``We 
would like our kids back.'' If they are an unaccompanied child 
from El Salvador, why cannot the Salvadoran government say, 
``Send them back to us. We will then repatriate them with their 
families''? We actually created a barrier on that instead of 
allowing them to be able to return back to their own country.
    Did you all have any conversation about that?
    Ms. Tandy. The subject of one of our recommendations was to 
amend the TVPRA----
    Senator Lankford. Right.
    Ms. Tandy [continuing]. To permit----
    Senator Lankford. I saw it, but it had a parent to be able 
to----
    Ms. Tandy. The United States to send them back to the 
custodial parent or a parent in their home country who wants 
them back.
    Senator Lankford. Right. But what about the country itself 
as far as their embassy, there as a national entity to be able 
to say please send the child back? It is the same thing we 
would do. If a parent was here, a parent was not here, we would 
reach out to another country and say, ``Send that American 
child back to us. We will take care of it.''
    Dr. Cooper. But would not you have to make sure that child 
was going to be safe? If a child says the reason they are not 
there in the first place is because they are not safe, 
certainly we would not want to send them back.
    Senator Hassan. If a gang is coercing the parent to 
requesting the child back.
    Chairman Johnson. We are not ensuring they are safe here in 
America. We release about 79 percent of unaccompanied children 
to an undocumented person in America.
    Dr. Cooper. But I would venture to say that our laws are 
such that they would be more likely to be safe.
    Chairman Johnson. Oh, I completely agree, but I am saying 
this is no guarantee here in terms of what is happening.
    Senator Lankford. It is just a strange anomaly that if a 
country says we want our child back, we basically tell them no 
at this point.
    Mr. Fresco. The complication, Senator Lankford, is the 
question is whether you are doing this systemically or 
individually, and what I mean by that is if you are doing it 
individually, what you have is you have a child presenting 
themselves individually saying, ``I cannot go back to my 
family's home because my dad beats me''----
    Senator Lankford. Right.
    Mr. Fresco [continuing]. ``And it is an unsafe home.'' So 
even if the government is saying, ``I want the child back,'' 
well, OK, government. Where are you going to put this child if 
we send them back to you? And so that is the problem. How do 
you deal with that individual claim versus how do you deal with 
a systemic claim?
    I am not giving a recommendation. I am just going to say 
what the law says now is you have to then do a proceeding on 
what is in the best interest of that child. Is it to remain 
here with a guardian, or is it to be removed back?
    Mr. Ahern. You will get a different answer from a foreign 
minister versus a parent who is kind of encouraging some of the 
kids to come north.
    Senator Lankford. To come because they have a brother that 
is already here.
    Mr. Ahern. The reasons to come north are for education 
opportunity, better health care, and whatnot.
    Also, one of the other reasons for why, there is an awful 
lot of kids, thousands who are going back, is because sometimes 
as many as four or five kids at a time come north in the hands 
of a smuggler.
    Senator Hassan. Right.
    Mr. Ahern [continuing]. These kids go back, then put at the 
starting line, and then brought back to the country again.
    Senator Lankford. To come back again.
    Senator Hassan. Yes.
    Mr. Ahern. That is unconscionable.
    Senator Hassan. Yes.
    Mr. Ahern [continuing]. That is something we cannot let 
continue to happen in our country.
    Senator Hassan. That is true.
    Chairman Johnson. So just real quick, Leon, when you made 
your opening statement, you defined the problem, and to a 
certain extent, you were kind of defining solutions.
    The way I continue to talk about this is the problem is in 
the chart,\1\ OK? From my standpoint, the initial--and this is 
the first step. The initial goal should be to reduce the 
illegal flow, to dis-incentivize families and children taking 
that dangerous journey.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 382.
---------------------------------------------------------------------------
    What I am trying to do with Operation Safe Return is, first 
of all, tell human smugglers, on a bipartisan basis, ``We are 
not going to allow you to exploit our laws anymore. It is going 
to take some time, but here is the initial first step.'' The 
message to Central American families is ``Do not. Please do not 
indebt yourself to the human smugglers. Do not mortgage your 
house. Do not pay them a year's worth of salary.''
    When I talk about indebting, one thing, we had the same 
conversation with the families on the border, and I was 
surprised at how many--and, again, you do not know what they 
are being told by the human traffickers, but I have not paid a 
human trafficker anything, which is a little concerning because 
they will have to pay, which is why they end up at stash 
houses, and they are going to have to work out their debt.
    We had the Robert Kraft, the massage parlor story. The New 
York Times did a great job talking about Asian women, $30,000 
to $40,000 indebted to human traffickers, and how are they 
paying it off? In the sex business.
    So from my standpoint, the goal of our policy initially, 
the first step is we need to reduce that flow, and that is 
where I go to your recommendations in terms of how do we do 
that. Is that kind of what you are saying is the first step and 
why this is an emergency in your report?
    Ms. Tandy. Absolutely, Senator. Integrated in all of our 
recommendations is to stem the flow so that these children are 
not placed in danger to begin with. Part of the recommendation 
to stem the flow is to give them a safe place to assert their 
claims in Central America, in Guatemala at a processing center.
    If they continue to flow to the border and move with a 
notice to appear, if they file their claims, we may not see 
them again for years. So if that continues, it will just 
continue to pull these families in.
    So we want them to be able to assert their claims and to do 
it in a humane setting. The best place to do that is in a safe 
place down there that we establish with international 
cooperation like Guatemala. So that we can save them from a 
terrible journey and terrible crossing into this country.
    Chairman Johnson. Gary.
    Senator Peters. Yes. I want to pursue that because, 
obviously, we do not want to send folks back, children back to 
an unsafe place, they are fleeing. But now you are saying, 
``You have to stay in that place that you are fleeing while we 
process your claims,'' which could take a long time.
    Tell me more about the international effort to put them 
someplace. You are talking about a refugee camp in Guatemala 
for folks? Because if they believe that they are being 
persecuted, attacked, or threatened by drug cartels, we have to 
keep them safe while we go through this process, I would think.
    Ms. Tandy. So one of the panel members is a former U.S. 
Ambassador to Mexico in the Clinton Administration, and he was 
one of the principal proponents of establishing such a center. 
It does no good for the center to be on unsafe ground in 
Guatemala. So it has to be a center where there is an agreement 
with the government of Guatemala, where there is security 
provided, and where you would have all of the other types of 
support such as medical, security, welfare, asylum officers who 
would do the processing, judges, additional judges who would 
take care of the back end of the claim. All of that would have 
to be a concentrated effort.
    Such a center does not exist, but there is a belief that it 
could exist with an international agreement with the government 
of Guatemala. It could be created, and it could stop the danger 
to these kids who are going through Mexico to get up here and 
then all of the ills that we have talked about that happened to 
them.
    Mr. Ahern. Just to add to that, I think one of the things 
that, again, we get so focused on is what is happening at the 
initial Border Patrol station during that first 72 hours; 
whether it be 24 hours for children or 72 hours for adults, in 
the time they spend in ICE detention centers or before they go 
off to the HHS family centers.
    We lose sight of the fact, first, the conditions that they 
lived with before they started this trek to the United States, 
and second, the horrific stories we have heard and seen from 
people along the way. Those things are really of concern. While 
certainly somebody could be cared for better, I do not agree 
with any of the current standards, and I think they all need to 
be improved.
    Senator Hassan. Yes.
    Mr. Ahern. But let us not lose sight of the fact of what is 
happening in transit and the exploitation. We cannot scoff at 
that. That is something we have to go ahead and look at.
    Chairman Johnson. I have never published on our website the 
folders I have of the dead, desiccated animal-chewed bodies----
    Senator Peters. We all understand that, that is horrible.
    Chairman Johnson [continuing]. In counties both in Texas 
and----
    Mr. Ahern. So what can we do to go ahead and stop the flow? 
What can we do to stop the push factors that occurred?
    Senator Peters. Right.
    Mr. Ahern. That is going to take more patience than 
oftentimes the U.S. Government tends to show because that is an 
effort of capacity building.
    Senator Hassan. I think some of this is a discussion about 
capacity building--former Assistant Secretary of Homeland 
Security Juliette Kayyem wrote a piece yesterday saying you 
meet a surge with a surge.
    Now, it does not mean that we do not also work on the pull 
factors and the push factors, which are important. It does not 
mean we also do not fix our immigration standards.
    But I will go back to Flores for a second, not because I 
want to beat a dead horse here, but because I think it is 
important. I was a Governor. I ran a number of systems. My own 
view is that every time you give human beings deadlines and 
limits, they go right up to them, and then they go a little 
past them and a little past them.
    So my concern is not--I am not critical of the personnel 
trying to do their best at the border, given how overwhelmed 
they are and the fact that those time limits are very hard for 
us to meet right now, given the lack of capacity at the border 
on our side and the numbers that are coming to our border.
    My concern is instead of changing the standard, we change 
it to 25 days, because it is human nature, now it is going to 
be 28 days or 35 days before kids get out.
    If you instead change the focus to the capacity of what we 
need at the border as the United States of America to keep 
children safe within the standards we already have--that is the 
surge capacity that I would like to see us focus on--while we 
are fixing the long-term problems, I think there is a lot of 
agreement for it at this table.
    Chairman Johnson. The problem is we do not know what 
capacities--is it from the last 3 years, or is it this year? 
And is next year going to be even worse?
    There was a study done in Guatemala that said a third of 
Guatemalans intend to migrate to the United States. That would 
be 5.8 million people. If they start coming through quickly, we 
will not have anywhere near enough facilities.
    Ms. Tandy. If I could just address----
    Senator Rosen. I understand that work on legislation that 
will stop the push or the pull, and so if you do them both 
simultaneously----
    Chairman Johnson. That is a long-term solution. We have a 
problem in the here and now.
    Ms. Tandy. If I could just address, Senator Hassan, your 
points that this panel only recommended a change in Flores for 
children who are accompanied by a parent. We did not recommend 
changing any of the time limits that Flores applied originally 
in 1997.
    The extension of those time limits a few years ago by the 
Flores courts to push that into the family units is where this 
crisis really took off.
    Senator Hassan. Right. I understand that, and I have the 
footnote with your recommendation on Flores in front of me 
because I wanted to reread it before we had this discussion.
    But the issue is this. We know separating children from 
families is not only wrong but unacceptable to Americans 
everywhere, on all sides of the aisle, and we know that 
detention of children is harmful.
    What I have been trying to focus on is just our capacity as 
a country, the greatest country on earth, with more resources 
than any country on earth, to do the right things by kids, 
which I believe we have the ability to do while we are working 
on these other issues.
    I understand why the recommendation is there. I just think 
we are seeing it as a false choice, and I think we can do 
better. I would look forward to continuing to have that 
conversation with all of you because I know you are trying to 
do your best by kids too.
    Dr. Cooper. Senator Hassan, if I could respond to what you 
said about building capacity at the border or wherever these 
either unaccompanied children or children with families are 
going to be, from a medical perspective, there needs to be a 
fixed location at every border station separate from the border 
detention environment, so that health care providers can 
humanely evaluate and treat children and monitor them, even 
keep them overnight if necessary in a safe and appropriate 
manner. That would be a very achievable and not extraordinarily 
expensive intervention that I think should be present at every 
one of those sites.
    Senator Hassan. Thank you very much.
    Senator Peters. So part of--and I want to get back to, 
Leon, your point about the choice, the number two choice where 
you try to process quickly.
    So that was part of the aspects of your report is to have 
this rocket docket at the regional center where you bring folks 
together. I guess my question is, How realistic is it to 
actually get the kind of due process necessary to do it in 20 
or 30 days?
    I know the Acting Secretary said 20 days is not enough. I 
mean, what are the practical aspects associated with it? How 
many immigration judges are you going to need? You said the 
difficulties of getting documents, of really getting full.
    Mr. Fresco. Sure.
    Senator Peters. Give me some substance behind that.
    Mr. Fresco. Yes. Under the current system, it could not 
work because under the current system, if you are not providing 
people with counsel, you have to give them time. If you are not 
providing people with an opportunity to get documents, you have 
to give them time.
    Senator Peters. So you are recommending that counsel be 
provided?
    Mr. Fresco. I am recommending you give them counsel on day 
one, so you are not spending a lot of time with people saying, 
``I need time to find counsel,'' because you already have it.
    Senator Peters. So they get it. On day one, they get 
counsel provided to them.
    Mr. Fresco. Yes, exactly. The issue of the documents was 
something that was just added in the Real ID Act in, I think 
2004. Before, if you had a claim that sounded credible, then 
what the court would do is they would decide, ``Does this claim 
sound credible?'' If you say, ``I flew on a magic unicorn 
here,'' that is not a credible-sounding claim. But if you give 
a claim that sounds credible, they used to not make you 
corroborate that with documents because it wasted a lot of 
time. This is what happens now, and what you do is you can just 
plug in the legal factor. Is this still a cognizable asylum 
claim?
    There is a lot of people who are making the assertion that 
this is not a value social group, and other people say it is a 
valid social group. Let us get to those claims without wasting 
all the time. The entire waste of the asylum hearing is forcing 
people to go get documents that they do not have already 
because they fled the country, and they are not going to be 
able to get those documents. If you take those two things out 
of it and just move to the nuts and bolts of the adjudication, 
you can in fact do it very quickly.
    Senator Peters. In 20 days.
    Mr. Fresco. In 20 days if you had a significant number of 
judges that you added to the courts and you gave people 
counsel.
    Senator Peters. What would we need? Did you do any analysis 
on how many?
    Chairman Johnson. It depends on what the flow is.
    Senator Peters. Yes. But, I mean, per person.
    Ms. Tandy. When in April, Senator, we recommended doubling 
the current number of judges--so that would be, at that time, 
an additional 30 judges, who in a way, the last in/first out 
(LIFO), so that the judges would have no other docket except 
for the border surge. And they would address that first instead 
of the entire backlog of these asylum claims.
    Mr. Ahern. Which actually is the right way to do them 
because, with the current number, if you can believe the number 
as being accurate, it is somewhere around 800,000 cases 
currently backlogged before Executive Office for Immigration 
Review (EOIR).
    Senator Peters. Right.
    Mr. Ahern. So if you just put the most recent one at the 
end of that list, the individuals coming here, if their 
objective is economic interest, they are going to achieve that 
over the several years it will take before they actually get 
their appearance notice to come before a judge for a hearing. 
So the last in, first out is a critical component.
    Chairman Johnson. The system is tracking people----
    Mr. Ahern. That is right.
    Chairman Johnson [continuing]. Which is why the numbers are 
growing.
    Mr. Ahern. That is right.
    Mr. Fresco. Many times, the lawyer will advise the person, 
in my view, if the whole system is running the way it is 
supposed to, ethically, ``Sir or ma'am, you are not 
articulating an asylum claim. You have to concede to 
removability here,'' if they are not.
    If they are a genuine refugee, then they will say, ``OK. 
You can move forward in this situation.''
    Chairman Johnson. So I am still trying to twist these two 
Senator arms to help sign the letter of support for Operation 
Safe Return.
    As imperfect as that is, I still believe--because you are 
talking about changing the law, and I am not seeing that happen 
anytime soon, unfortunately.
    We may be able to pass something in Senate, but again, I 
think we still have a pretty high hurdle in the House.
    So, again, my assumption is we are not going to be changing 
any law anytime soon. So within existing authorities, the 
letter of support for Operation Safe Return would use 
authorities in use as of June 30, so nothing further. It is 
just what authorities, laws, regulations are in place there.
    I mean, is that something you could continue to work with 
us on to try and hone--a really good idea by Senator Peters 
where you are trying to go through this was real-time 
evaluation through the Inspector General Office and the 
Government Accountability Office (GAO) in terms of getting the 
individuals in, evaluating why they are coming in, how many are 
reaching that credible fear claim, how many being adjudicated--
again, real-time information to inform future public policy, 
future law changes.
    Again, it is not the solution----
    Mr. Ahern. Right.
    Chairman Johnson [continuing]. But it is a step that can 
maybe make an improvement. If we could return people that do 
not even achieve that initial credible fear claim, start 
returning those people in a credible fashion to send that 
signal--``Do not take this risk. You are going to go home.'' 
You might be able to see that floor reduced as you said with 
the Brazilians when you had the process of expat removal.
    So, again, just kind of get your----
    Mr. Ahern. Sure. So I think the first response to that is 
any movement that will go ahead and add consequences to the 
current flow that would then result in it being reduced is a 
positive step, without question. The question becomes is how 
much of a material impact will it have on the overall body and 
the numbers.
    But you have to start. Please understand that does not take 
the Congress off the hook for some of the legislative changes 
needed.
    Chairman Johnson. Not even close, but it is something.
    Mr. Ahern. The funding that is needed as well. It is all 
about the messaging as well because there is a tremendous 
amount of narrative that goes down in those Northern Triangle 
countries. A lot of it is controlled by traffickers and even by 
almost quasi-travel agencies. These things start----
    Chairman Johnson. They have cards like a travel agency is 
what we have been told.
    Mr. Ahern. I know. We have seen them, and we will see them 
when we go back down in a couple of weeks.
    Say it is $200 a week or a day. I believe that they can be 
a multiplication factor for the numbers that would actually 
decide not to go if they start to realize as a consequence that 
it is not just a free pathway to being able to stay in the 
United States for a number of years while they wait for their 
hearing.
    So if the number is small--I wish it would be bigger, but 
it is small. But it is a start.
    Chairman Johnson. You publicize it.
    Mr. Ahern. But the consequences could be more significant 
if that messaging factor goes down to the Northern Triangle 
countries.
    Senator Peters. The rub here--and I just want to--because 
the kind of issues we have worked through this is having not 
just access to counsel, but actually having counsel. So if 
there was a program that says you have access to a counsel, how 
realistic is that to really get counsel for these folks? So 
what is the timeline versus what you are proposing, Leon, which 
is actually providing that government attorney? Is that the 
standard we should be looking at?
    Mr. Fresco. I mean, here is the issue that makes things 
complicated for me is if you are trying to do a pure expedited 
removal-based solution, I actually feel like that was--for 
better or for worse, that was what the Dilley, Karnes 
facilities were created to do.
    The problem is the expedited removal solution did not 
engender a lot of removals. I do not know what the number is so 
I will not quote any more numbers, but I think that is why--and 
the reason it does not is because of the legal standard you 
have to apply, and so that is why I think----
    Chairman Johnson. By the way, that alone in terms of 
Operation Safe Return would be good information to have----
    Mr. Fresco. Yes.
    Chairman Johnson [continuing]. So we have the numbers and 
say, ``That is why this is not working.''
    Mr. Fresco. Right. I mean, that is what I think. The 
complication is twofold, or here is what my concern would be. 
But I think you are on the right track. I just think the 
concern would be if you end up detaining people for the entire 
time necessary to try to accomplish this and you cannot because 
you keep hitting the 20 days of Flores and you have not 
accomplished the removal, then the whole thing fell apart.
    Chairman Johnson. It is a pilot program.
    Mr. Fresco. Yes.
    Chairman Johnson. Again, we would learn from that, then.
    Mr. Fresco. Yes. Oh, of course.
    Chairman Johnson. Again, in our phone conversation, I agree 
with you. I originally said it as those include that have a 
valid asylum claim, and we realized, well, that is not going to 
be possible. We have to do it based on credible fear, but you 
do what you can do. Right now, this is the only thing we really 
can do within existing law, existing authority, but it will 
inform the process.
    Trust me. I realize it is not a panacea. I realize it is 
not the solution, but if we can do something in a bipartisan 
fashion that literally communicates to human traffickers, 
again, on a bipartisan fashion, ``We are not going to allow you 
to exploit our laws anymore. We are going to start moving in 
that direction on a bipartisan basis,'' recognizing this is not 
acceptable.
    This is causing harm to people, and we want to dissuade it. 
We want to deter it. That is what we are trying to accomplish 
here is just a first little baby step toward bringing a 
solution.
    Again, I will make the appeal publicly. Please sign on the 
letter of support, and work with us and DHS to do it.
    Senator Hassan. You gave it in last----
    Chairman Johnson. OK.
    Ms. Tandy. If I could just add, Senator, Operation Safe 
Return, is a baby step. If the laws are not going to be 
changed, as this panel has recommended, there is nothing else. 
There is nothing that is going to stop these children from 
getting harmed. There is nothing that is going to stop the 
dangers that we are seeing right now. It will just continue, 
and it will increase.
    A baby step is better than nothing. But having said that, 
this Operation Safe Return is not an act of Congress. It is 
within current authorities and funding. So there is no reason 
that the Department of Justice, the Department of Homeland 
Security, and HHS cannot just do it and do it yesterday.
    So I realize that----
    Chairman Johnson. Here is the problem is anything the 
administration does it challenged in court, and what I am 
trying to do is----
    Ms. Tandy. No, I understand.
    Chairman Johnson [continuing]. To at least try and provide 
bipartisan support saying we actually want the administration 
to do this. Maybe not bad, but this.
    Ms. Tandy. You will give beleaguered agencies the cover 
that they need to do this. I do not know that it is enough to 
keep courts from intervening, but nonetheless, we do applaud 
doing something.
    The real critical factor that is going to change these 
numbers is rolling back Flores to what it was originally 
intended for so that we can get these processes with funding, 
with judges, with a rocket docket, and get this stopped. 
Without that, this is what will happen.
    Chairman Johnson. I want a quick----
    Ms. Tandy. Can I just finish my point, Senator? This is 
what will happen. You know these criminal elements on the other 
side of the border, and what will happen is the Operation Safe 
Return will be the point of no return for these criminal 
traffickers. They will move elsewhere on the border and push 
people elsewhere on the border, and some of the worst places on 
the border for these sick children is in New Mexico. Border 
Patrol stations are not even open 24 hours. They are so remote. 
So there is a risk that it will divert the flow.
    Chairman Johnson. You can go from all over the border and 
then be accumulated in Dilley.
    Ms. Tandy. Yes.
    Chairman Johnson. You can do it so that that is not an 
incentive.
    Ms. Tandy. So, ideally, Senator, this toe in the water is 
not just in Dilley. It starts, and it starts all over the 
border to prevent that from happening.
    Chairman Johnson. But that would be like your regional 
processing center, though, OK?
    Ms. Tandy. It would be.
    Chairman Johnson. So anybody from the border, any part of 
the border could go there and have this process.
    Ms. Tandy. Yes.
    Chairman Johnson. But I did want to quickly talk to Leon, 
because you are on the other--oh God, I totally lost my train 
of thought. I will come back to you. Sorry.
    Ms. Tandy. Sorry about that.
    Dr. Cooper. One thing I would also like to encourage is 
that we increase the funding to DHS because these children and 
families that are coming into the interior are all going to 
have to go into public school settings, and for the 
unaccompanied children, they are going to have to go through 
our out-of-home care settings and child welfare settings. 
Having spoken to several directors of various communities, 
where large groups of children have been brought, it is 
obviously very overwhelming for them, and so I think that that 
would be the other thing that we should do to try to 
accommodate those children who are already in the interior.
    Chairman Johnson. I remembered. Again, you are a Democrat, 
right?
    Mr. Fresco. Yes.
    Chairman Johnson. OK.
    Mr. Fresco. A Schumer staffer.
    Chairman Johnson. Do you agree with Secretary Johnson, who 
vehemently disagreed with the Flores reinterpretation, that 
Flores settlement agreement did not apply to accompanied 
children?
    Mr. Fresco. The specific problem with asking me that 
question, I was actually the attorney who was arguing that 
Flores would not apply.
    Chairman Johnson. Oh, I did not----
    Mr. Fresco. That was my job in the Department of Justice.
    Chairman Johnson. Sorry. I did not----
    Mr. Fresco. I actually argued that in court about the 
Flores agreement did not apply to families.
    Chairman Johnson. OK.
    Mr. Fresco. We did not win that. We did not win that 
argument.
    Chairman Johnson. Rats. I wish you were a better witness 
for that.
    Mr. Fresco. Yes. [Laughter.]
    Chairman Johnson. That is the first thing. I would tell you 
to take a look at what we are trying to do with Flores is just 
go back to the intent of the Flores agreement, which was for 
unaccompanied children, and the fact that some courts somehow 
decided, that it applies to accompanied children as well----
    Mr. Fresco. There is an hour YouTube clip. You can watch me 
making that argument.
    Senator Hassan. But let me be practical for a second, which 
is most of the people, as you have heard me articulate, there 
are a lot of us who believe the reinterpretation was correct, 
given what happens to kids in detention.
    So if that is where the House is going to be, the question 
becomes whether you all have looked at the alternatives that 
have been suggested. They have not been piloted in any 
meaningful way, and whether there are other things we can do--
because, again, if we go back to the fact that none of us want 
to have what happens here unnecessarily add to the trauma that 
children experience, what other things can we do in terms of 
access immediately to attorneys, penalizing smugglers who are 
faking their relationship to the child or exploiting that? What 
are the--and case managing families so that they show up and 
having enough judges so that they are not here for years 
waiting for their process?
    There are a lot of suggestions that have been made that, 
yes, require resources, but I think, again, in a bipartisan 
way, targeted resources of some of that could begin to impact 
numbers too.
    I think that is where the practical piece is. We could try 
to re-litigate the Flores reinterpretation. Some of us agree 
with it; some of us do not. But it is what it is.
    Chairman Johnson. Here is my concern about resources is 
that at the current level, I mean, the resources we are going 
to have to employ here, I am not sure we have enough, OK?
    So, you can maybe resource this if we are down a couple 
hundred thousand people a year, but now we are starting to 
approach a million. So that is a concern.
    One question I had, because we have not talked about this, 
I am starting to read news accounts on how schools are having 
to deal with the dispersion. You have children coming in from 
the mountains of Guatemala, completely different dialect. You 
do not have people that speak their language.
    Plus, as James was talking about, the large number of 17-
year-olds. Unaccompanied children, 70 percent are male, 70 
percent are over 15, the perfect population, if they are not 
already a gang member coming out of El Salvador or out of 
Guatemala. You do not speak the language. You are going to 
gravitate toward people that do. Got a pretty good chance of 
joining a gang.
    So we are really not focusing enough, from my standpoint, 
on the human trafficking element, but also the societal 
challenges, whether it is in our school systems or whether it 
is in our inner cities where those gangs might operate, is that 
something the council took a look at in any meaningful way?
    Mr. Ahern. The panel probably did not review the issue to 
the extent that you are suggesting. But I think one of the 
things, as I mentioned in my beginning statement, we need to 
look at this as a continuum. We need to look at is this process 
as a complete supply chain. What is happening down south in the 
Northern Triangle countries? What is Mexico doing to control 
its border?
    There have been some recent changes. It will be 
interesting. Their history has not been good at being able to 
sustain efforts.
    What then happens at our border, and unfortunately what 
gets on the nightly news are the horrific situations that is 
being dealt with at the border.
    Chairman Johnson. Right.
    Mr. Ahern. That is a piece of it. People do lose sight of 
the fact of what then happens when it goes off to detention, to 
HHS----
    Chairman Johnson. Actually, it is a very short piece.
    Mr. Ahern. It is.
    Chairman Johnson. You are literally talking days.
    Mr. Ahern. When you add the amount of time it takes for 
them to go ahead and come in transit, to make it to the border, 
beyond the time they spend at the border and in detention, 
there is more at the other ends. But looking at the 
consequences after arrival is not being looked at.
    Ms. Tandy. To that point, we are now receiving information 
and briefings that are being scheduled on the consequences. So 
it is the interior consequences, as you suggest, schools, 
communities, and the impact of not stemming this flow and what 
it is doing on the interior and will continue to do. So that 
will be part of our final report, which we expect to have at 
the end of September.
    But, Dr. Cooper, I know that you are very focused on the 
maltreatment and a national expert on the maltreatment of 
children.
    Dr. Cooper. Yes, very much so. What I was going to say is 
17 is a magic number, but we do have the medical capability 
with x-rays to have a better determination about whether an 
individual is a fully grown or completely mature adult versus 
an adolescent. We have that capability. It has not been used 
because we do not have x-ray machines available, but it is 
usually a radiographic evaluation, one of the things that could 
be beneficial for all these individuals.
    Chairman Johnson. We have Deoxyribonucleic acid (DNA) 
testing. You are talking about the fraud aspect of this, which 
is----
    Dr. Cooper. I am talking about the age.
    Chairman Johnson. The age, the age fraud, but also 
fraudulent parents too.
    Dr. Cooper. Yes, that is correct.
    Senator Peters. You mentioned Mexico and the issues there, 
but yet the report recommends the safe third country agreement 
with Mexico. How realistic do you think that is, panel?
    Mr. Ahern. I think if you can actually take the current 
president of Mexico at his campaign promises, he is pretty 
strongly against it. So if he is going to stay true to that 
promise, it is going to be a real challenge.
    I think something that perhaps has all the elements of a 
safe third country, perhaps it will remain in Mexico type of a 
protocol, some of the Migrant Protection Protocols (MPP) things 
that were being considered may be achieving some of the same 
objectives without having that label of a ``safe third,'' 
because I think signing a safe third is probably not likely.
    Chairman Johnson. Did you see the public opinion poll of 
Mexicans that came out today?
    Mr. Ahern. Yes.
    Chairman Johnson. It is pretty negative against the 
immigrants. People coming into Mexico are taking Mexican jobs, 
potentially if they are going to stay. So they really have very 
little publically or I would say----
    Mr. Ahern. Over the last few years, the Mexican economy has 
stabilized pretty well. That was one of the impacting factors 
about slowing the flow here to the United States. There was no 
need to come here for economic reasons. So they were able to 
stay in Mexico. Now that is putting a new dimension into the 
challenge within Mexico.
    Mr. Fresco. In an ideal world, what you would have, in my 
view, is one or two staging facilities where you would make 
these claims, and then you would have an entire western 
hemispheric refugee resettlement program. We would take some. 
Brazil would take some. Chile would take some. Argentina would 
take people. We would take refugees from all over, and we would 
do burden sharing. I think that is, in my view, a much better, 
longer-term----
    Chairman Johnson. In an idea world, America would not have 
an insatiable demand for drugs.
    Mr. Fresco. Yes.
    Chairman Johnson. So you would not have the drug cartels 
which have destroyed public institutions, the impunity and the 
breakdown of so many aspects.
    Mr. Fresco. There is a lot of factors.
    Chairman Johnson. I think America bears responsibility, but 
that is a very long-term project right there because, as I have 
tried to explore, how do you get to the drug cartels, well, 
they control a large percentage of communities in Central 
America, even in Mexico. Those communities are supported by the 
drug cartels. It is not like you can go in there with surgical 
strikes and get rid of a drug cartel. This is a pervasive 
problem, again, because of our insatiable demand for drugs.
    Senator Carper, you missed all the solutions. We have it 
all figured out.
    Senator Carper. You solved the problem.
    Chairman Johnson. Without you.
    Senator Carper. What did Winston Churchill used to say? 
``Success is never final. Failure is never fatal.'' There you 
go.
    We have simultaneously a hearing going on in the 
Environment and Public Works (EPW) Committee focused on climate 
change, sea level rise and all that, and the role that electric 
vehicles are playing in that and how we need to recycle the 
batteries from electric vehicles and we generate all of these 
employment opportunities by doing so, so pretty good stuff.
    I am sorry I had to slip out and missed part of what you 
were saying.
    I understand from my staff that--Abby gave me this notice. 
I understand I missed some discussion around Operation Safe 
Return. For my benefit, would you please summarize?
    Chairman Johnson. Yes. Twisting your arm too.
    Senator Carper. There you go.
    What are some of the risks and some of the benefits of that 
pilot, and what are three things that we need to do to make it 
better?
    Leon, do you want to start?
    Mr. Fresco. Sure. I did not either endorse or not endorse 
Operation Safe Return. I personally do not view the expedited 
removal process as the ideal way to go through this because I 
think the legal standard is an illegal standard that if you are 
doing it correctly will lead to high credible fear 
determinations, and if you are doing it incorrectly, it will 
lead to litigation, which will not also create the returns you 
want.
    So what my focus----
    Chairman Johnson. But I am not saying it is ideally----
    Mr. Fresco. Oh, no, no, no. Fair enough. We have all 
options that are suboptimal. I am totally with you there, 
Senator.
    So my only point is I--this is just me. So I am not 
speaking for the Homeland Security Advisory Committee, but I 
would want to say you have resources now. Congress does not 
have to change the law. You could actually get people lawyers 
on day one, put them in the normal removal process, not the 
expedited removal process, and see if we can actually get 
removal hearings done as quickly as possible, not expedited 
removal hearings, because the expedited removal hearing will 
end--we have seen this 80 or 90 percent of the time--with a 
credible fear determination saying yes, and now what? Now we 
are back, so we have wasted all of those 20 days.
    Chairman Johnson. If we do not do anything----
    Mr. Fresco. No. I agree.
    Chairman Johnson. I guess what I would say is I am happy to 
have Operation Safe Return morph into something that works 
better and better. I mean manufacture it, incremental and 
continuous improvement. I look at that as a first step, and I 
want to move in that exact same direction. I am just not sure 
whether we can, but Operation Safe Return would allow us to 
have a program that can morph into something that is more 
effective.
    Now are you in support of it?
    Senator Carper. Let me go back to----
    Mr. Fresco. Supportive or not supportive. I want to keep 
talking to your staff, with everybody----
    Chairman Johnson. I am a salesman. I am trying to get----
    Mr. Fresco. I hate saying anything to not be supportive but 
we need to work on it.
    Mr. Ahern. I can tell you something from a historical and 
operational perspective for over 30 years. Anything you do that 
is going to have a consequence on the flow is a positive. For 
that, I think this body really needs to take a strong look at 
beginning that as a pilot.
    It is a very small first step. Make no mistake, the 
legislative fixes still are required. But anything that will 
start to go ahead and send a different message than the message 
currently sent by this Country down to those Northern Triangle 
countries is an important step. It is going to yield a very 
small number. But again, let us look beyond just the numbers of 
who would actually be physically put into removal proceedings. 
The impact that could have on the messaging down in the 
countries of origin could be more significant. But, again, we 
need to start. It is a beginning of a process. It is not a huge 
step forward.
    I think the other thing that will be very interesting to 
see is how the interim final rule that came out from DHS and 
DOJ in the last 24 hours on asylum is going to have the impact 
on flow as well.
    So staying close to those factors are important. But to 
really impact those pull factors that this country has put out 
there is going to be important to manage the flow.
    As we talked about children, for a large part of this 
hearing, a lot of those issues go away and the situation 
becomes a lot easier to manage if we manage that flow and 
reduce it substantially back to a more normalized number. These 
are the steps that need to be taken going forward.
    Ms. Tandy. I would just add, Senator, that if Congress is 
unable to change the law and put Flores back to where it was 
with only unaccompanied children addressed and if TVPRA is not 
going to be amended, Operation Safe Return, to the extent that 
it is within existing authorities and within existing 
resources, is something that absolutely should be pursued.
    It is a step, and to the extent that it is described as a 
research and opportunity to--as an experiment, if you will, to 
see if it will work, I think it could provide very valuable 
data.
    There is a facility in Texas at Dilley where it is 
underutilized right now, and it has all of the capability of 
implementing Operation Safe Return.
    Our colleagues, Dr. Cooper and Jay Ahern, were there just a 
couple of weeks ago.
    Senator Carper. Where is it?
    Ms. Tandy. Texas.
    Mr. Ahern. It is in Dilley.
    Senator Carper. Where is that?
    Mr. Ahern. It is 65 miles south of San Antonio, and it has 
four or five courtrooms already established, with video 
capability to get the administrative judges to be able to go 
ahead and actually video in if they are not actually physically 
there. It is currently a 2,400-person capacity.
    Sharon, what was it? 600 people were there at the time?
    Dr. Cooper. Yes. It has excellent medical facilities, 
everything, x-ray, everything you could need to handle any 
health care issues that would arise, even in a group setting 
such as that manner.
    Chairman Johnson. Jay and Karen convinced me. Come on, 
Leon. [Laughter.]
    Ms. Tandy. So it is not a panacea, Senator. It is not a 
panacea, but I think it is an important step. If the other 
things are not going to happen that we have recommended, it is 
a very important step and will give you some kind of data to 
know how to factor in the laws, the legal changes that should 
be made and what the legal framework should be.
    So to that extent and because it is something that could be 
done right now, I do think it is an important first step.
    Chairman Johnson. That data collection, by the way, that 
was Senator Peters that put in process.
    Ms. Tandy. Excellent input.
    Mr. Fresco. Yes. You would need to know if it worked for 
sure.
    Mr. Ahern. One final point, obviously.
    Senator Peters. There is just a dearth of data on this 
whole process, which is really frustrating trying to come up 
with policy.
    Chairman Johnson. Your fingerprints are all over that 
thing, so you might as well sign on.
    Mr. Ahern. One of the key questions too as you go forward 
is to consider obviously how you operationalize it. The issue 
of how to operate becomes always a question in dealing with the 
operational agencies like CBP and ICE on what will be the 
operational impacts. As Karen mentioned a few minutes ago, you 
do not want to necessarily forecast to the trafficking 
organizations what corridor you are going to be running during 
that particular day and week.
    They can all go to Dilley. That is fine. But where you 
actually are operating and what population of people you are 
going to be using----
    Chairman Johnson. They want to keep that----
    Mr. Ahern. We did this in our drug days together.
    Ms. Tandy. Right.
    Mr. Ahern. You want to be able to have jump capability to 
move around. So you are trying to play a more unpredictable 
game with a very adaptable adversary, like the cartels, and the 
same people you are dealing with today. So being able to go 
ahead and have a good operational program that is attached on 
how they would do the implementation----
    Chairman Johnson. That is something we have to implement 
from day one.
    Anybody? Any other comments?
    Senator Carper. If I could, my colleagues may recall I led 
a congressional delegation down to the Honduras, Guatemala, and 
El Salvador back at the very beginning of this year, and we 
were looking at numbers through really beginning of November in 
terms of illegal immigration. The numbers were pretty flat, and 
as you look at that chart\1\ back there, pretty flat right up 
until the beginning of November. It sort of exploded.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Carper appears in the Appendix 
on page 426.
---------------------------------------------------------------------------
    Among the things, we focus a lot--and it is important that 
we do focus--on symptoms of the problems at the border, what we 
see at the border, but it is also critically important, as my 
colleagues know, that we try to figure out what is going on 
down in Honduras, Guatemala, and El Salvador sending all those 
people up here.
    It turns out El Salvador, the surge has been a lot less 
dramatic, and one of the reasons why is they had an election 
there. They elected a new president. His name is Bukele. He is 
like 37 years old. He is the former mayor of San Salvador, and 
people have hope. People have hope that there is going to be a 
better day.
    Meanwhile, in Honduras last year, Juan Hernandez, the 
president of the country, got the Supreme Court to declare that 
their constitution was unconstitutional and he could run again, 
and he won a razor-thin reelection that just really rubbed a 
lot of people the wrong way. I mean really made people angry. 
They are still angry.
    Over in Guatemala, Jimmy Morales, who is the president, who 
everybody had very high hopes for 4 years ago when he was 
elected, it has turned out to be a bitter disappointment. He 
tried to chase out of the country, the United Nation (UN) 
entity that is there to try to go after the corruption and so 
forth. When they had their Presidential election, the best 
person that could have been on the ballot was not even allowed 
to come into the country and campaign, Thelma Aldana, the 
former Attorney General who was like death on corruption when 
she was Attorney General. And so people are just really like 
fed up.
    Plus, you have the situation with climate, climate problems 
and situations that people cannot grow coffee up in the 
highlands, and there is a real surge of people there. There is 
a lot going on there. So it is important that we focus on the 
stuff that we are talking about here today but also be mindful 
of some of the things that I just mentioned.
    There is one of my favorite songs. I love music. One of my 
favorite songs is a song called ``Hope in a Hopeless World,'' 
and this is not an easy problem to solve. But there is hope, 
and the work the four of you and your presence here and our 
Chairman and Ranking Member hosting this roundtable today gives 
me hope and what for many people is an all too hopeless world.
    Ms. Tandy. Thank you, Senator.
    I would add----
    Senator Carper. I will not sing.
    Ms. Tandy. I am sorry?
    Senator Carper. I will not sing today.
    Chairman Johnson. Thank you. [Laughter.]
    Ms. Tandy. That would probably keep people here.
    Senator, we are looking at those push factors and traveling 
to the Northern Triangle to Guatemala and Honduras as a panel. 
That is coming up next month.
    In the meantime, we are receiving a number of briefings 
from the State Department, NGO's, and others regarding the very 
matters that you just talked about with regard to corruption, 
extortion, and other issues in the Northern Triangle that are 
affecting these flows.
    So our report was an emergency report focusing on the pull 
factors and trying to stem the flow quickly on the family unit 
side. We are yet to address the push factors, which will be in 
our final report in September.
    Senator Carper. Good. We as a body, the Congress, House and 
Senate, in a bipartisan way have been supporting, focusing on 
the three major causes for people that want to get out of those 
countries: one, lack of economic hope and opportunity; two, 
crime and violence; and three, corruption that is just endemic.
    Ms. Tandy. Absolutely.
    Senator Carper. What we are doing with Alliance for 
Prosperity, which we get about--for every dollar we invest, we 
get $5, $6, or $7 from other sources invested to address those 
three major push factors.
    Thank you.
    Chairman Johnson. Senator Peters.
    Senator Peters. All set.
    Chairman Johnson. Anybody else want to make any further 
comments?
    Ms. Tandy. On behalf of the panel, we sincerely appreciate 
the opportunity to talk about the issues in our interim report 
as we saw them and are grateful for your focus. We have high 
hopes as well, Senator, and look forward to the outcome.
    Chairman Johnson. Let me just say I want to echo what 
Senator Carper was talking about, how much we appreciate what 
you have done.
    Oftentimes Congress will set up a commission. This was done 
by the Department of Homeland Security, but a really well-
designed council from my standpoint. I think really well 
staffed, talking about the members, and the fact that you do 
have a broad spectrum, and you are coming together. You are 
accommodating each other's views and really doing a very 
thoughtful job of problem solving. We talk about it all the 
time, gathering the information, defining the problem, root-
cause analysis, and then establishing achievable goals and then 
start designing solutions. Everything I am reading, everything, 
all of our discussions, you are going through that very 
thoughtful process.
    I appreciate the fact that you recognize this was an 
emergency and you had to issue an emergency interim report, and 
I am just looking forward to September, a final report, but 
also continue to work with you because I think this council can 
really have an impact.
    Again, because the bipartisan--I actually prefer using the 
term ``nonpartisan nature.'' I think it is what this Committee 
has a pretty good track record under Tom's chairmanship and 
Susan and Joe Lieberman. It is just a tradition here.
    I think working together, we really can move the needle on 
this. I will take the incremental. I will keep twisting Leon's 
arm to get support fetches, that baby first step, but it is a 
step. Otherwise, we just sit back and we do nothing and we just 
keep yacking about this.
    Again, I think we were all pretty well moved by that 
picture of that father and his daughter. I called up Gary that 
morning and said, ``OK. Are not you sick of this? Let us start 
doing something different. Let us start having these 
discussions,'' and I thought this was a very good discussion, 
kind of wide-ranging, maybe not as focused as I would have it, 
but that is the nature of the beast.
    So we will continue to have these discussions with a very 
sincere desire of starting to develop solutions, improve the 
situation on a continuous basis, and again, I just cannot sing 
your council's praises enough and all of your involvement. 
Thank you for doing it.
    So, with that, the hearing record will remain open for 15 
days until August 1, 5 p.m., for the submission of statements 
and questions for the record.
    This hearing roundtable is adjourned.
    [Whereupon, at 11:07 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------    
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               



                     UNPRECEDENTED MIGRATION AT THE

     U.S. SOUTHERN BORDER: WHAT IS REQUIRED TO IMPROVE CONDITIONS?

                              ----------                              


                         TUESDAY, JULY 30, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Romney, 
Scott, Hawley, Peters, Carper, Hassan, Sinema, and Rosen.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    I want to welcome our witnesses. The title of this hearing, 
``The Unprecedented Migration at the U.S. Southern Border: What 
Is Required to Improve Conditions?'' I think it is incredibly 
important that we concentrate on what we can do to improve 
conditions. Continuous improvement. I have a manufacturing 
background. That is what we seek to do.
    I will say at the outset that nobody is satisfied with the 
conditions on the border. Nobody is. This is unprecedented what 
is happening on the border. It is overwhelming. It is out of 
control.
    I was talking to the Acting Commissioner before the hearing 
here and mentioned how former Department of Homeland Security 
(DHS) Secretary Jeh Johnson was on MSNBC a couple months ago, 
and he talked about how, when he came to the office, if 
apprehensions for the day were under 1,000, it was not too bad 
a day. If they were over 1,000, he knew he was going to have a 
really bad day.
    The fact of the matter is in May the average daily number 
of apprehensions and people presenting themselves at the port 
of entry (POE) without proper documentation claiming asylum was 

4,652--4.6 times 1,000 a day. In June that number dropped to 
3,476. For a number of reasons, I think the Acting Commissioner 
will be getting into that. Currently we are probably less than 
3,000 a day, but we are still close to 3,000 a day.
    Everybody has seen my chart.\1\ We continue to update it. 
That chart only shows unaccompanied alien children (UAC) and 
people coming in as a family unit. You can see how it has 
exploded here in fiscal year (FY) 2019. As of June, the first 9 
months of this fiscal year, 495,000 children and family units 
have come to this country. If June's pace continues, we will be 
over 700,000, again, primarily people coming in as family 
units, generally one adult, one child. In total, through June 
we have had 780,000 people cross the border legally or present 
themselves to a port of entry without proper documentation 
claiming asylum. Again, if June's pace continues, we will be 
about 1.1 million.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 485.
---------------------------------------------------------------------------
    So those are the numbers that we are having to deal with. 
That is what Border Patrol is having to deal with on a daily 
basis. I ask my colleagues, I ask anybody criticizing the 
conditions down there: How would you handle 4,652 people a day, 
then wake up the next day and handle another 4,652 people? By 
the way, it does not stop at 5 o'clock at night. It continues 
24/7. It is overwhelming.
    I had an earlier interview with a reporter from the 
Washington Post, a real good interview, very interested in kind 
of the full complexity of this problem, the reporter asked me 
my evaluation of Acting Secretary Kevin McAleenan. My point was 
if you are looking to see criticism from me, you will not get 
any. I will not criticize any former Secretary, Acting 
Secretary, or current Secretary of Homeland Security. It is an 
overwhelming task. We are not only talking about the border. We 
are talking about natural disasters and the Federal Emergency 
Management Agency (FEMA), so many responsibilities of that 
position. First of all, I am just grateful anybody would take 
the position.
    Commissioner, I am grateful you stepped up to the plate in 
your capacity. I am particularly grateful to the men and women 
of DHS, of the U.S. Border Patrol (USBP) that have kind of 
rallied to try and deal with this overwhelming situation.
    There may be some instances, there may be a few bad apples, 
but the men and women that I talk to, that I see, dealing with 
this humanitarian crisis on the border are doing everything 
they can to treat these individuals with care and compassion. 
But they are overwhelmed by the situation.
    I just want everybody to keep in mind what the reality of 
the situation is. Ask yourself, how would you handle it? How 
would you manage this? What I would suggest is the solution 
which we have been suggesting all along is in this case, with 
this problem in the here and now, is let us address the root 
cause, this uncontrolled flow of individuals. I would argue 
that the goal of our policy, the first goal--and we have so 
many different problems associated with this illegal flow. But 
the first goal of our policy should be to reduce that flow, 
which is what the letter we sent to DHS, working with them to 
design a pilot program called ``Operation Safe Return,'' whose 
goal would be to rapidly and more accurately determine those 
individuals that clearly do not have a legal claim to stay in 
this country and safely return them to their home country to 
the safe regions of Central America. There are safe regions in 
Central America. That is important to point out.
    So, again, the focus on this Committee hearing is what can 
we do with this overwhelming situation to improve the 
conditions. We all want to do that. I am not particularly 
interested in placing blame. I am interested in what can we do 
to address this overwhelming and out-of-control situation.
    I would ask that my written statement be entered into the 
record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 465.
---------------------------------------------------------------------------
    With that, I will turn it over to Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\2\

    Senator Peters. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Peters appears in the 
Appendix on page 467.
---------------------------------------------------------------------------
    At the end of May, Chairman Johnson, Senator Hassan, and I 
were together visiting the U.S.-Mexican border, and on that 
trip we saw firsthand the tremendous challenges that the 
Department of Homeland Security personnel and local communities 
are facing at the Southern Border. It is clear that our 
infrastructure and our personnel are overwhelmed. Resources are 
stretched thin and are being shifted away from other priorities 
like the Northern Border. Our capacity to address the 
humanitarian needs of children and families is overburdened.
    Despite those difficulties, we witnessed hardworking law 
enforcement officers, public servants, volunteers, and civic 
leaders all doing their very best to manage a very difficult 
situation. At the same time, it is impossible to ignore the 
reports and the images that have emerged regarding substandard 
conditions and unacceptable treatment and tragic deaths of 
children at some Customs and Border Protection (CBP) locations. 
I am also alarmed at the reports that we have seen regarding 
unprofessional and unacceptable conduct from a small number of 
Border Patrol agents.
    The situation at our Southern Border is, of course, 
incredibly challenging. It is clear that our current system is 
not equipped to process and care for the unprecedented number 
of families and children seeking asylum at the Southern Border. 
Some of the images that we have seen and the stories we have 
heard I believe do not reflect the overall efforts of the 
Customs and Border Protection folks, the hardworking men and 
women who secure our borders. They certainly do not reflect the 
values of this great Nation.
    But it is clear that there are significant challenges on 
the ground and to some extent problems within the agency's 
culture that must be swiftly and adequately addressed. In 
recent weeks we have seen a decline in the number of migrants 
arriving along the Southern Border. The pressure appears to be 
decreasing, at least temporarily. This drop has helped ease 
overcrowding at many border facilities.
    Billions of dollars in supplemental funding has enabled DHS 
to improve their response to these challenges, and today I hope 
this Committee will hear specifics on how those additional 
taxpayer dollars are being used. However, as Members of this 
Committee know, much of the migration that occurs from Mexico 
and the Northern Triangle countries is seasonal. This fall we 
can expect to see the number of arrivals rise again.
    We now have an opportunity to examine where we have failed 
and where we have succeeded and put lessons into practice. We 
need innovative ideas to improve migrant processing to relieve 
the strain on our front-line border security professionals and 
other agencies that have provided support services in recent 
months and to keep our border secure and our country safe.
    Few issues we face are as complex as this one, but today I 
hope we can find common ground, identify bipartisan solutions, 
and deliver real comprehensive results for the American people.
    I would like to thank our witnesses for being here today, 
and I look forward to your testimony and responding to our 
questions.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Peters.
    It is the tradition of this Committee to swear in 
witnesses, so if you will both stand and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Morgan. I do.
    Ms. Costello. I do.
    Chairman Johnson. Our first witness is Acting Commissioner 
Mark Morgan. Commissioner Morgan began serving his country as a 
U.S. Marine and his community in local law enforcement. After 
completing a 20-year career in the Federal Bureau of 
Investigation (FBI), he began service at the Department of 
Homeland Security as the Acting Assistant Commissioner for 
Internal Affairs before being appointed by President Obama as 
Chief of the U.S. Border Patrol. He served as Chief until 
January 2017. He returned to DHS as the Acting Director of 
Immigration and Customs Enforcement (ICE) in May of this year 
and began his current role as Acting Commissioner of U.S. 
Customs and Border Protection on July 7th. Commissioner Morgan.

TESTIMONY OF MARK MORGAN,\1\ ACTING COMMISSIONER, U.S. CUSTOMS 
  AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Morgan. Chairman Johnson, Ranking Member Peters, and 
Members of the Committee, thank you for this opportunity to 
appear before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Morgan appears in the Appendix on 
page 469.
---------------------------------------------------------------------------
    I would like to begin with a story. On May 30th Border 
Patrol agents from the Del Rio Sector saw a group of 
undocumented migrants crossing the Rio Grande Valley (RGV) in 
Texas. The agents watched as smugglers carried a paraplegic man 
to the river and then callously threw him in. The paraplegic 
man, of course, immediately began to drown. Fighting the strong 
river current, agents were able to reach the drowning victim 
and safely bring him to shore. Had agents not been there, he 
would have added to the 172 deaths discovered along the 
Southwest Border in desolate locations and rivers resulting 
from the dangerous trek and complete disregard for human life 
at the hands of smugglers.
    This is one of more than 4,000 rescues performed by CBP 
this year, with Border Patrol leading the way. This is who the 
men and women of the United States Customs and Border 
Protection are. They risk their lives every single day to help 
and protect whoever is in distress. They do not ask what the 
person's nationality is or whether they are trying to illegally 
enter this country. They simply see a human being needing help, 
and that is exactly what they provide them.
    The men and women of the CBP are not running concentration 
camps, making those in our custody drink from toilets, nor 
denying them access to toothbrushes. That is simply not true. 
This is the kind of irresponsible rhetoric that they have to 
endure from both the media and even some of our own 
congressional leaders. It is unjust and does nothing to bring 
us closer to resolving one of the most divisive issues that we 
face in our country.
    Stories of agents saving lives from drowning in the Rio 
Grande, dying of dehydration in the desert, and suffering in 
stash houses or at the hands of smugglers, that goes 
unreported. The demonizing of law enforcement professionals 
must stop. These false, misinformed, and overheated attacks are 
demoralizing and serve to further deteriorate the public's 
understanding and perception of what the true issues are and 
what needs to be done to end this crisis.
    We should be coming together to focus our efforts on the 
real enemy--the cartels and smugglers who make billions of 
dollars at the expense of an extremely vulnerable population 
while exploiting loopholes in our immigration legal framework 
to facilitate their operation.
    Over the past year, Homeland Security leadership has 
repeatedly told Congress and the press that we have an 
emergency on our hands. We have provided some statistics about 
the alarming and unprecedented increase in apprehensions. That 
number is over 800,000 year to date. We have explained how the 
demographics of this mass migration are unlike previous 
arrivals and how families and children from Central America 
present significantly different challenges with regard to their 
care and processing. Over 450,000 of these apprehensions were 
family units, and over 80,000 were unaccompanied children. 
Combined, that is over 300,000 children have entered our 
custody since October 1 of last year. These numbers are 
staggering, unprecedented, and have overwhelmed every aspect of 
our border and immigration enforcement system.
    Last week I met with the Ministers of Security from the 
Northern Triangle countries who all--all of them--expressed 
their collective frustration that ``the future of [their] 
countries are leaving for America'' and ``they want their 
children back.''
    We at CBP, at DHS, we are comforting infants. We are taking 
the sick to the hospital, averaging over 800 hospital visits 
per day. We are expanding our medical care, ensuring children 
are provided medical screenings. We are building soft-sided 
facilities to provide a more adequate environment for families 
and children, costing tens of millions of dollars per month to 
operate. We are providing food, clothing, and other basic 
necessities.
    We have pulled agents from the border security mission to 
help process the massive volume of migrants. In some sectors, 
up to 50 percent of agents are pulled off the line to support 
the extraordinary humanitarian effort along our Southwest 
Border. We have pulled agents from our northern and coastal 
duty stations. We have pulled more than 700 officers away from 
ports. We have called for volunteers from all across the 
government to help us manage this surge of humanity.
    The recent supplemental, it helped. But as we have been 
saying, this is merely treating the symptoms of this crisis. It 
does not cure the cause.
    It looks like I have about run out of time. If I could have 
just a few more seconds?
    Chairman Johnson. Take the time and finish your statement.
    Mr. Morgan. Smugglers openly advertise a safe and legal 
journey to the United States. They tell migrants and their 
families that there is a policy in the United States that 
anyone who arrives with a child will not be deported. We have 
stats and facts to show that is exactly what is being 
communicate, and our laws support that perception.
    If there are not specific and meaningful changes in our 
laws, our detention facilities will continue to be overwhelmed. 
Our personnel will continue to be diverted from their primary 
missions to safeguard this country. Legitimate trade and travel 
will continue to suffer. Our ability to prevent dangerous 
narcotics and criminals illegally entering our country will 
continue to be greatly diminished. And smugglers, like the ones 
who threw the paraplegic man into the Rio Grande, they will 
continue to profit.
    Although we are seeing the numbers across all demographics 
decreasing at the moment, due in large part to the efforts of 
this current Administration, working with the Government of 
Mexico as well as our Northern Triangle countries to address 
this as a true regional crisis and concern, this is not a 
durable, long-term solution concerning the national security 
and humanitarian crisis we are facing. Congress must 
acknowledge this is a crisis and pass meaningful legislation to 
address the loopholes in our current legal framework.
    Thank you for your time. I look forward to answering your 
questions.
    Chairman Johnson. Thank you, Commissioner.
    Our next witness is Jennifer Costello. Ms. Costello is now 
the Deputy Inspector General (IG) for the Department of 
Homeland Security. Prior to Thursday, when we actually did get 
confirmed Inspector General Cuffari, she was the Acting 
Inspector General, and we appreciate your service from that 
standpoint. Ms. Costello has been at the Department of Homeland 
Security Office of Inspector General (OIG) since 2017, and 
prior to her experiences at DHS, she spent over 13 years as 
Assistant Director in the Forensic Audits and Special 
Investigations Unit at the Government Accountability Office 
(GAO).
    Again, I appreciate you spending some time in my office 
where we talked a little bit about how GAO can help get the 
metrics on Operation Safe Return. Ms.Costello, welcome.

TESTIMONY OF JENNIFER L. COSTELLO,\1\ DEPUTY INSPECTOR GENERAL, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Costello. Chairman Johnson, Ranking Member Peters, and 
Members of the Committee, thank you for inviting me here today 
to discuss DHS OIG's recent work on conditions at Customs and 
Border Protection holding facilities at the Southern Border. My 
testimony today will focus on our two recent Management Alerts 
regarding the dangerous overcrowding and prolonged detention 
observed by DHS OIG inspectors at the El Paso Del Norte 
Processing Center in May of this year and facilities in the Rio 
Grande Valley in June. We issued these alerts because the 
conditions we observed posed a serious and imminent threat to 
both the health and safety of DHS personnel and detainees.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Costello appears in the Appendix 
on page 475.
---------------------------------------------------------------------------
    DHS OIG conducts unannounced inspections of CBP facilities 
to evaluate compliance with CBP's Transport, Escort, Detention, 
and Search (TEDS) standards. TEDS standards govern CBP's 
interactions with detainees, providing guidance on things like 
duration of detention, access to medical care, access to food 
and water, and hygiene.
    Our unannounced inspections enable us to identify instances 
of noncompliance with TEDS standards and to propose appropriate 
corrective action to the Department. In doing so, we seek to 
drive transparency and accountability at the Department of 
Homeland Security.
    Although CBP has struggled at times to achieve full 
compliance with detention standards, our recent unannounced 
inspections revealed a situation far more grievous than those 
previously encountered by our inspectors. For instance, when 
our team arrived at the El Paso Del Norte Processing Center, 
they found that the facility, which has a maximum capacity of 
125 detainees, had more than 750 detainees onsite. The 
following day, that number increased to 900.
    Additionally, at all the Border Patrol facilities we 
visited in the Rio Grande Valley, we observed serious 
overcrowding among unaccompanied alien children. We also found 
that individuals, including children, were being detained well 
beyond the 72 hours generally permitted under TEDS standards 
and the Flores Agreement.
    For instance, at the centralized processing center in 
McAllen, Texas, many children had been in custody longer than a 
week, and some UACs under the age of 7 had been in custody for 
more than 2 weeks.
    Under these circumstances, CBP has struggled to comply with 
TEDS standards. For instance, although all facilities we 
visited in the Rio Grande Valley had infant formula, diapers, 
baby wipes, and juice and snacks for children, two facilities 
had not provided children access to hot meals as required until 
the week we arrived. Additionally, children at three of the 
five facilities we visited had no access to showers, limited 
access to a change of clothes, and no access to laundry 
facilities.
    Space limitations also affect single adults. The lack of 
space has restricted CBP's ability to separate detainees with 
infectious diseases such as chicken pox, scabies, and 
influenza, from each other and from the general population. 
According to CBP management, these conditions also affect the 
health of Border Patrol agents who are experiencing high 
incidence of illness. Further, there is a concern that the 
overcrowding and prolonged detention may be contributing to 
rising tensions among detainees. A senior manager at one 
facility in the Rio Grande Valley called the situation ``a 
ticking time bomb.''
    Despite these immense challenges, we observed CBP staff 
interacting with the detainees in a professional and respectful 
manner and attempting to comply with standards to the extent 
possible. Notwithstanding these efforts, Border Patrol requires 
immediate assistance to manage the overcrowding in its 
facilities. CBP is not responsible for providing long-term 
detention, and CBP facilities like those we visited are not 
designed to hold individuals for lengthy periods of time. 
However, with limited bed space available in ICE facilities and 
the Department of Health of Human Services (HHS) facilities 
nationwide, detainees are left in CBP custody until a placement 
can be found.
    In its response to our recent Management Alerts, DHS 
described the situation on the Southern Border as an ``acute 
and worsening crisis.'' Our observations comport with that 
characterization, which is why we have called on the Department 
to take immediate action to begin to remedy the situation.
    DHS OIG will continue to monitor and report on the 
situation at the border. In the meantime, the Department's 
leadership must develop a strategic coordinated approach that 
will allow it to make good on its commitment to ensure the 
safety, security, and care of those in its custody.
    Mr. Chairman, this concludes my statement. I am happy to 
answer any questions the Committee has.
    Chairman Johnson. Thank you, Ms. Costello.
    I want to throw a couple numbers out on some of these 
issues that have been raised. We talked a little bit about the 
capacity of the border stations. First of all, generally, 
except for the McAllen, Texas, facilities and some of the 
temporary facilities, these Border Patrol stations are 
basically police stations, correct? They are not designed 
whatsoever to really house any volume of people.
    Ms. Costello. No, not at all, and that I think is the 
problem. What we are seeing in the overcrowding is simply not 
designed to house the capacity of migrants that they are 
getting at this time.
    Chairman Johnson. Commissioner Morgan, I think we got 
information from you that the basic capacity of the hard-sided 
facilities is about 4,000?
    Mr. Morgan. Yes, sir, that is correct. During this time 
period that the reviews were being done by the OIG, which we 
appreciate, welcome, and enjoy their partnership, at that time 
we reached the highest apprehensions in the month of May, over 
140,000. At that time our detention capacity of those we had in 
custody reached 19,000, and our capacity was 4,000.
    Chairman Johnson. I have 19,699 on June 3rd. Even at that 
4,000 capacity, is that fire code capacity or is that just how 
many we can generally chock in one facility?
    Mr. Morgan. That is all across the Southwest Border, 
including the sectors and approximately 70 stations. That is 
what we refer to as--4,000 to 4,500, we refer to that as ``a 
manageable population.''
    Chairman Johnson. Senator Peters made the comment and asked 
the question about how have the dollars been spent. It was 
unfortunate it took 2 months for that emergency funding request 
to be passed, but, my information I have received, I think from 
you and others, is that prior to the funding, we had about 
2,700 unaccompanied children in the custody of Border Patrol 
beyond 72 hours, up to as many as 10 days, a few outliers 
beyond that. But within a couple weeks we were down to a little 
bit more than a day's intake, about 300, with an average stay 
of about 30 hours. Is that pretty accurate in terms of what the 
conditions were and what they are currently?
    Mr. Morgan. Yes, sir. Again, during the time of the OIG 
review, we were topped out at about 2,700 unaccompanied minors, 
and today we are averaging in the past week between 250 to 300, 
with less than 20 over 72 hours. Several of those are due to 
medical conditions.
    Chairman Johnson. The reason you were backlogged so much is 
there simply was not the bed space or detention facilities open 
in HHS until they had the funding. Is that correct?
    Mr. Morgan. Yes, sir, that is correct. I think she 
represented it well, that we have interdependencies. When it 
comes to UACs, we are reliant on HHS Office of Refugee 
Resettlement (ORR) to take those children. And then for single 
adults and families, we rely on ICE to remove those from our 
custody.
    Chairman Johnson. So Border Patrol had really no option 
other than to continue to hold those children until bed space 
opened up in HHS. You could not just let them into the 
communities. You were responsible for them, and you had to keep 
them in your custody, in obviously crowded conditions because 
you a capacity of 4,000, and you had more than 19,000 people in 
custody.
    Mr. Morgan. Yes, sir, that is correct. In both El Paso and 
RGV at the time, and still RGV to this day, they were two of 
the sector that were getting inundated the most. El Paso, and I 
am sure you have already heard, one day, one single large group 
of over 1,000, of which 90 percent of them were families and 
kids, hit the El Paso Sector in a single day.
    Chairman Johnson. Ms. Costello, I appreciate the fact that 
you made the comment that the Border Patrol personnel that your 
inspectors talked to were professional, they were respectful. 
They were doing everything they could do to take care of these 
children and family members in their custody that they have 
been basically given the responsibility to take care of. Is 
that accurate?
    Ms. Costello. That is a fair assessment, Senator, and those 
are our experiences. Obviously, OIG would never discount 
anybody else's experience, but our inspectors have been doing 
this for a while and have always encountered very professional 
CBP staff.
    Chairman Johnson. It has certainly been my experience when 
I have encountered them at the borders. I have talked to Border 
Patrol personnel. They are trying to cope with the situation 
with as much humanity and compassion as they possibly can 
muster. 
So, again, there may be a few outliers. There may be a few 
instances--we saw the texts or the whatever. Those are 
obviously unacceptable and regrettable. But the vast majority 
of the men and women of DHS and Border Patrol are trying to 
cope with this.
    In your testimony you were talking about Border Patrol 
agents becoming ill, the illnesses coming across the border. We 
have a pretty long list of them. I am concerned about drug-
resistant strains of tuberculosis, those types of things. I am 
concerned about Border Patrol attrition. Is that something that 
you are really taking a look at in your inspections, basically 
the basic morale of Border Patrol personnel trying to cope with 
this?
    Ms. Costello. Morale in and of itself is not a specific 
focus of our work, but we are looking into the drivers behind 
that prolonged detention to see, as Mr. Morgan was suggesting, 
what is going on with ICE and HHS that is leading to some of 
these problems.
    Chairman Johnson. The Commissioner talked about the larger 
aspect, a dimension that I do not think is reported on enough, 
the whole human-trafficking element. We had an Homeland 
Security Investigations (HSI) witness here talking about a 
child sold for $84, when we were down at the border, a child, a 
3-year-old boy, left in a field, his name and a phone number 
written on his shoe, the fact that we are finding these 
families in stash houses that are being beaten, the beatings 
being videotaped, being sent back to Central America demanding 
ransom, the involuntary servitude that Senator Portman had an 
investigation a couple of years ago on unaccompanied children 
showing up in involuntary servitude, a situation in an egg 
farm.
    Are you looking at that aspect in the Inspector General's 
office?
    Ms. Costello. No, not at this time, and we would have to be 
careful about jurisdictional issues related to some of that. 
Having said that, we are very open to considering all sorts of 
issues on the table. But, what we actually have authority and 
purview over is one of the first questions we ask.
    Chairman Johnson. Commissioner Morgan, let me throw it to 
you in terms of your concern over just basic attrition. I do 
not think anybody would want to spend the night in those 
facilities. I am highly concerned. Again, I went down there, 
and you can see the holding cells for scabies, for chicken pox, 
and for flu. I would be concerned about Border Patrol personnel 
kind of giving up and trying to take a position elsewhere, 
either in the Federal Government or in the private sector. Can 
you just kind of talk to your generally assessment--you have 
been on the job now for a few weeks--of the Border Patrol?
    Mr. Morgan. Yes, sir, and I harken back to my time as Chief 
of the Border Patrol in 2016. I think the IG's report captures 
it well, and the Border Patrol, CBP personnel, all those 
entities are helping us, they are mothers, fathers, brothers, 
and sisters. The overcrowding that you see, we have all said 
that we have to do better, that children and families should 
not be held in police stations for a long-term period of time. 
We all agree with that. So, absolutely, it affects them every 
single day. I worry about their health and their morale, and I 
think absolutely it is being impacted.
    Along with the frustrations, they also know Congress could 
do some things if they could work together to pass meaningful 
legislation. That is equally as frustrating for them as well.
    Right now, though, the hiring numbers for us are OK. They 
are not going in a downward departure. But I am concerned about 
the future.
    Chairman Johnson. That is good to hear. I have run out of 
time. I do want to talk about the solution in terms of reducing 
that flow, but we will save that for later on. Senator Peters.
    Senator Peters. Mr. Chairman, my office has received a 
statement from Church World Services (CWS), and I would like to 
ask unanimous consent that it be entered into the hearing 
record.\1\
---------------------------------------------------------------------------
    \1\ The statement referenced by Senator Peters appears in the 
Appendix on page 495.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Peters. Thank you.
    Mr. Morgan, it is clear that we are confronted with a 
significant problem on the Southern Border, and the challenges 
are wide-ranging and require, I think, significant coordination 
from a number of Federal agencies coming together, and that 
means also Federal, State, and local. Truly a whole-of-
government approach is necessary to confront this.
    So could you describe how CBP is coordinating with other 
DHS components, including U.S. Citizenship and Immigration 
Services (USCIS), ICE, and CBP, as well as HHS and ORR?
    Mr. Morgan. Yes, sir. So the coordination specifically with 
USCIS and ICE, that is really done on a daily basis. For 
example, we talked about the interdependencies that we have 
specifically with respect to ICE. One of the largest challenges 
we have right now are single adults. Again, ICE does not have 
adequate bed space, and so it is a constant struggle with the 
number of apprehensions we have to be able to ensure and get 
them out of our custody as fast as possible to ICE.
    So we are coordinating with ICE on a daily basis with 
respect to how we can expeditiously get those single adults out 
of custody into ICE. USCIS, obviously we work with them on a 
daily basis. They are the asylum officers. They are the ones 
that actually determine and adjudicate someone's credible fear 
claim as they go through the process. They are at our stations. 
We work with them constantly. DHS, again, this is not just a 
CBP issues, this is not just an ICE issue. It really is a DHS 
issue. It is even outside of DHS. Right now we have hundreds of 
volunteers from across DHS that have been deployed to the 
Southwest Border to help us specifically with the humanitarian 
crisis.
    Senator Peters. So you talk about daily coordination, but 
is there an interagency group in a formalized way that is 
actually coordinating this on a regular basis? Or is this ad 
hoc as you are just talking to other agencies?
    Mr. Morgan. No, it is both. So we both have working groups 
at the local level in each field. So each field has their own 
entity that they work, whether it is El Paso, RGV, with those 
entities. And then at DHS there is also a working group that is 
led by DHS that has a lot of different subgroups and 
subcommittees. But we are doing it on a formal basis.
    Senator Peters. Because that is important. When we are 
trying to think about how we coordinate all these activities, 
which it is going to require, I am always frustrated as to 
knowing who is actually in charge. Who is actually responsible 
for making sure all of these pieces are working together? I 
never seem to get a real good answer about that, and that has 
me concerned.
    I guess, that leads to the question: Is anyone at the White 
House facilitating the coordination of these activities?
    Mr. Morgan. They are absolutely involved in every aspect of 
this crisis.
    Senator Peters. Who is doing that at the White House?
    Mr. Morgan. Different entities. It depends on what lane 
it----
    Senator Peters. Different entities are coordinating. Is 
there one entity that is really responsible for coordinating 
all this?
    Mr. Morgan. I would say it depends, sir, on what element 
you are talking about with respect to the certain conditions 
you are talking about. I mean, we could talk about media. That 
could be held by a different individual. If you are talking 
about what we can do within the current legal framework to stem 
the flow of migration, then we would be talking to different 
people within the White House.
    Senator Peters. Is there someone who is in charge of 
coordinating State and local governments as well as Non-
governmental organizations (NGO's), which are a critical 
component of all this?
    Mr. Morgan. Yes, sir. DHS has a State and local partner 
coordinator, yes, sir.
    Senator Peters. So that person is in charge that we could 
ask how is that coordination going?
    Mr. Morgan. Yes, sir.
    Senator Peters. Mr. Morgan, the fiscal year 2019 
appropriations bill has included $128 million for CBP to 
contract with medical professionals, and a recent emergency 
supplemental included roughly $112 million for medical care and 
consumables.
    Given the number of children who are arriving at our 
Southern Border, how much of the fiscal year 2019 and 
supplemental funding has been spent on pediatric medical 
professionals?
    Mr. Morgan. So on specific pediatric care, I do not have 
those numbers in front of me. But we are looking at $63 million 
for continued additional medical assets and high-risk support 
across the Southwest Border. That was contained in the 
supplemental moving forward.
    Senator Peters. But we want to know how it is being spent, 
how many folks are involved. Part of our oversight function 
here is to understand exactly how that money is being spent. It 
is the intent of Congress to make sure we are providing medical 
services to those folks who need it, and we are accountable to 
the taxpayers for that money and how it is spent. So I would 
certainly like to do a deeper dive with you to have a better 
sense of that.
    Mr. Morgan. Yes, sir, and I have that data. I will be able 
to provide that, sir.
    Senator Peters. Where these professionals are being sent, 
any shortfalls, challenges, all of that is going to be 
important for all of us to do our work.
    Mr. Morgan. We have all that data, sir.
    Senator Peters. Thank you.
    Senator Peters. While the recent Management Alert is 
certainly the main discussion point for us today, it is my 
understanding that this alert, Ms. Costello, is part of a much 
larger oversight effort that is related to the CBP and ICE 
detention facilities. I think it is important for this 
Committee to hear you describe what other reviews are currently 
in progress. More importantly, when do you expect those reports 
to actually be released?
    Ms. Costello. Senator, we have a lot in this space. 
Following on the Management Alerts, I think in my written 
testimony you may have seen this is part of a larger series of 
unannounced inspections that we did all along the Southern 
Border. So these two alerts were issued because of the serious 
nature of what we found, but we will be issuing a Capping 
Report this fall to identify the findings in all the 
facilities.
    We are also looking at, since you were asking Mr. Morgan 
about it, we are going to audit how that aid is being spent, 
not all of it but the consumables, the medical access, things 
of that nature. We are looking at asylum seekers at the 
Southern Border, separating families at ports of entry, whether 
or not families were given the opportunity to be removed with 
their children, things of that nature.
    We are looking at the underlying causes of the prolonged 
detention, so why 72, why are we going beyond the 72 hours? 
Between HHS, ICE, CBP, and some of the other folks in play what 
are the factors at play in driving that?
    We have a data analysis audit underway looking specifically 
at the tracking of children during zero tolerance. We are also 
looking at ICE's ability to quickly and easily remove criminal 
aliens. It is a lot of work in this space.
    I think the first job that will be issued will be the data 
tracking work. We will follow shortly with most likely the 
Capping Report on all these inspections and perhaps some asylum 
seekers work this fall.
    Senator Peters. When you say ``this fall,'' when do you 
expect that to be?
    Ms. Costello. You are going to pin me down, aren't you?
    Senator Peters. Broadly speaking.
    Ms. Costello. I think the reports will start coming out 
September and roll out toward the end of the year.
    Senator Peters. That is great. Mr. Morgan, as we talked 
about in my office on other occasions, transparency is 
critically important. I would certainly hope that we have your 
commitment to ensure that the OIG retains access to unannounced 
facility visits and anything else necessary to conduct 
oversight, which is absolutely critical to maintaining 
transparency.
    Mr. Morgan. Absolutely, sir. There is an old saying. I 
think great agencies remain great because they believe they can 
get better, and I believe that the OIG is one significant step 
in how we maintain that.
    Senator Peters. Great. Thank you.
    Chairman Johnson. Thank you, Senator Peters.
    Before I turn it over to Senator Portman, because you 
raised the issue of pediatricians, Commissioner Morgan, I have 
spoken with you about the fact that I met with both the 
representatives from the American Academy of Pediatricians 
(AAP) as well as nurse practitioners who are offering, I guess, 
individuals who want to go down and help, and you said you 
would do everything to facilitate that. Do you want to just 
make that kind of public commitment?
    Mr. Morgan. Yes, sir, absolutely. There are some challenges 
with that, obviously, but anyone who wants to come and assist 
us with our continuing expanding medical care, it is 
absolutely--I would be more than welcome to work with them. We 
have done a lot. We are hiring four pediatric advisers and a 
patient safety officer at this time. Just last week I 
authorized for CBP to go forth with hiring our own chief 
medical officer. We have expanded our medical contract now to 
almost, I think, a little under 300 medical professionals that 
we are sending out across seven sectors and 20 of the stations, 
and we are expanding more every single day.
    Chairman Johnson. I do not want to just have people show up 
at the border, so it has to be coordinated. I guess I would 
just suggest if you would be willing to meet with those same 
representatives and you can kind of hash out a coordinated 
technique or method for those individuals to help out.
    Mr. Morgan. Yes, sir, and we have two physicians right now, 
one at DHS that is coordinating the overall Southwest Border 
medical initiatives. We have one that is detailed specifically 
to CBP. I think it would be a great idea to include the 
pediatricians into the fold with these physicians and have some 
meaningful dialogue on how we can get better.
    Chairman Johnson. We will try and facilitate that. Senator 
Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman, and thank you 
both for being here today.
    This is a tough issue, and what we have been trying to do 
in this Committee is to look at it from an objective point of 
view and try to get some bipartisan solutions, particularly on 
the root causes. It has been hard. Obviously, we do not have 
consensus yet, and that is frustrating because I was down there 
on July 12th, as I think you know, Commissioner, and had the 
opportunity to go to the McAllen Sector and see what was going 
on, went to the Donna processing facility and also the Customs 
and Border Protection processing facility there, the station. 
It is a bad situation. There is obviously a huge influx of 
individuals, but what is really tough is the influx of families 
and kids, and that is unprecedented. There has been no previous 
time in our Nation's history we have had this many people 
coming across the border who are in family units and have to be 
taken care of differently.
    One of the things that was interesting at the Donna 
processing facility--and I think this is something that some of 
my constituents have found surprising--the families I talked 
to--and I spoke to five or six families. My Spanish is good 
enough to get by, and I asked them, why are they here and how 
long they plan to be here. I also talked to the Border Patrol 
about that, of course, Customs and Border Protection. The 
honest answer is they expected to be released into the United 
States, and the Customs and Border Protection people expected 
to release them within a few days--in fact, for some of them, 
within a couple days, I was told. And so that is the 
understanding on both sides, and the reason is that they cannot 
be processed during the time period that we have, particularly 
if they have, again, a minor child with them.
    It is pretty common sense. Unless we fix those laws, change 
those laws, we are not going to be able to keep people in any 
kind of detention facility or processing facility long enough 
to be able to assess whether it is appropriate for them to come 
into the United States legally. We are simply releasing them 
into the community and the nonprofits are helping to ensure 
people have what they need when they leave the processing 
facility and get them on the buses and get them on the 
airplanes and take them to communities around the country. 
These people have been processed, and they have been told to 
show up at a court hearing, and some of them do and some of 
them do not. Typically, it takes a couple years, actually 
between 2 and 3 years, for the first hearing, and then 
typically 5 or 6 years, we were told, before the case is 
finally resolved. You can imagine during that time period a lot 
of folks tend to stay in the United States and not show up at 
those hearings.
    Those numbers are hard to get in terms of how many show up. 
I do not know if you have anything on that today, either one of 
you. The numbers I have heard, fewer than half actually show up 
for the final hearing to be able to determine their status. Is 
that still accurate?
    Mr. Morgan. That is accurate, sir. That is the information 
that I have.
    Senator Portman. Ms. Costello.
    Ms. Costello. We do not have any information on that. That 
would be a Justice statistic.
    Senator Portman. So today we are focused on the conditions 
at the border, but I guess my point is this will continue, and 
we are not going to be able to resolve it unless we come up 
with some common-sense solutions to a very obvious problem, 
which is traffickers going to poor families in Central America 
and saying, ``If you come, if you are willing to pay us 5,000 
to 10,000 bucks and come with us, we can get you into the 
country. In fact, we do not even have to do anything else other 
than leave you at the border, and you walk across a bridge,'' 
or in the case of some of the families I met, across the river, 
``and present yourself and you can go into America.'' When you 
can make 10 to 20 times more here in America than you can in 
your home country, it makes sense. You and I would do the same 
thing, probably, if we were given the opportunity to help our 
families. But we have a legal immigration system, and there are 
people waiting not just for months but for years in those same 
countries to come legally.
    I do not think the problem is really that hard to 
understand. The asylum issue on top of it, obviously, adds some 
complexity.
    In terms of the overcrowding and what I saw was 
overcrowding in the men's facility at the Customs and Border 
Protection processing facility. The analogy that the Customs 
and Border Protection people were telling me, which I think 
makes sense, is this is more like the police station where you 
process people, but it is not a detention facility. The 
detention facilities ICE runs. Congress in the $4.6 billion 
that we sent down to the border--which I think was absolutely 
necessary, and I am glad it is there, and it is being used to 
help with the humanitarian crisis on the border. But Congress 
said, no, we are not going to fund these ICE beds. I saw the 
report from the Inspector General, the OIG finding from your 
trip to the border, I imagine, Ms. Costello, and your 
colleagues, it says, ``Due to shortage of ICE beds, Border 
Patrol has had to hold detainees longer than 72 hours.'' That 
was one of your findings.
    Ms. Costello. Yes, that is accurate.
    Senator Portman. So it is not that complicated. If we are 
not willing to fund ICE beds and under Flores you cannot hold 
people for more than 20 days and you cannot process people 
during that time period, it leads to a bad situation. Is 
everything perfect on the border? No, it is not. There is 
overcrowding.
    Now, I will say at the Donna facility, which is a soft-
sided facility, we did not see the overcrowding. It is a new 
facility. My understanding is you have a new processing 
facility for adult males. Is that up and going yet? I know you 
are talking about putting a new one in place.
    Mr. Morgan. It should be in the next 10 days, sir.
    Senator Portman. In the McAllen----
    Mr. Morgan. Yes, sir.
    Senator Portman [continuing]. District as well. I think 
that Congress has a pretty obvious choice here, which is, one, 
how to deal with the immediate crisis, provide the ICE beds, 
provide more judges, expedite these processes as much as you 
can, take away the ability for traffickers to say if you just 
walk in, you get in; otherwise, this continues. Second, we have 
to look at the root causes, and that does include our asylum 
system. I have been promoting this idea, and some Democrats 
have expressed interest in this, in having people processed in 
their home country or in a third country. United Nations High 
Commissioner for Refugees (UNHCR), the United Nations, does it 
all over the world, and they have four or five processing 
centers in Central America. They have one in Mexico. They have 
expressed some interest in working with us on that. That to me 
makes a lot of sense. It is the same criteria as the asylum 
criteria, the credible fear. And then what the Chairman has 
talked about in terms of expediting the processing, Operation 
Safe Return. And then, finally, more effective aid to these 
countries, because we have spent a lot of taxpayer dollars in 
the Northern Triangle, and, obviously, the results have not 
been impressive in terms of the socioeconomic conditions and 
the great poverty that is down there. There is no question 
about that. We can do a better job.
    But we cannot address that problem and expect that someone, 
again, who can make 10 to 20 times more coming to this country 
is not going to continue to have that incentive if, in fact, we 
have a system in place that allows them to come into our 
country.
    On the asylum front, of course, people that have a credible 
fear ought to be taken care of, but when you get to the end of 
that process we talked about earlier, after the 4 or 5 years, 
only 15 percent of those migrants are granted asylum. And that 
can be determined much earlier in the process, and preferably 
earlier in the process so they do not have to make the long and 
arduous and dangerous journey north, which so many traffickers 
are exploiting so many poor families in Central America to take 
that journey.
    Anyway, thank you for your service, both of you. Thank you, 
Mr. Chairman.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman and Ranking Member 
Peters, for this hearing, and thank you to both of our 
witnesses for being here today.
    I also want to take a minute to thank the men and women of 
the Border Patrol for their hard work and to thank so many of 
them who I know work to save lives on the border every day.
    I also want to note that we can absolutely address the root 
causes of this crisis, which are multiple, and improve 
conditions for migrants and secure our border without taking up 
controversial issues like the Flores decision.
    Mr. Morgan, 3 weeks ago I asked CBP's Chief of Law 
Enforcement Operations Directorate, Brian Hastings, about the 
conditions at the Clint, Texas, Border Patrol facility 
following reports by a group of lawyers sent to inspect the 
facility describing the horrid conditions endured by migrants 
detained there. Mr. Hastings repeatedly dismissed the reports 
as not true, and he implied that the lawyers were exaggerating 
solely to advance the case of their clients. Only 6 days later, 
Ms. Costello issued a report about facilities in the Rio Grande 
Valley depicting some of the same troubling conditions as 
reported by the group of lawyers that inspected the Clint 
facility.
    Mr. Morgan, I have been to the border twice, and I get that 
the Border Patrol is overwhelmed and that its agents feel like 
they are under fire. However, our job in Congress is to conduct 
extensive oversight and to use that oversight as a way to help 
drive our funding decisions and to uphold our values.
    When senior officials from the Border Patrol refuse to be 
transparent or seek to mislead Congress, it does serious damage 
to the credibility of the entire Border Patrol. It exacerbates 
agents feeling as if they are under fire. Most importantly, it 
undermines the security and humanitarian mission that we are 
all grappling with. It keeps us from addressing the root causes 
in the way we need to.
    So to that end, Mr. Morgan, please answer yes or no to the 
following: Will you commit to giving Congress full visibility 
into the Border Patrol, its detention practices, its treatment 
of all migrants, and any credible allegations made by 
detainees?
    Mr. Morgan. Yes.
    Senator Hassan. Do you have the support of your superiors, 
namely, the Acting Homeland Security Secretary and the 
President, to be fully transparent with Congress as you deal 
with this crisis?
    Mr. Morgan. Unquestionably I do.
    Senator Hassan. Thank you. Will you take appropriate action 
if any CBP or Border Patrol subordinate seeks to mislead or 
deceive Congress or the American public?
    Mr. Morgan. Yes.
    Senator Hassan. Thank you. Mr. Morgan, there really are two 
different crises occurring at our border facilities. The first 
is the lack of supplies and space driven by the huge surge in 
migrants. Congress has passed an aid package to address the 
surge with our own surge of resources. More needs to be done, 
and it will be.
    However, the second crisis is much deeper. Allegations of 
cruel and the illegal treatment of migrants in Border Patrol's 
custody have plagued the agency in recent weeks. These 
allegations include the sexual assault of an underage migrant, 
the attempt to humiliate a migrant by forcing him to wear a 
sign that says, ``I like men,'' and intentional deprivation of 
basic necessities of migrants, including children, as a way to 
punish them.
    Mr. Morgan, this troubling pattern of the Border Patrol's 
culture--and I know it is not everybody in Border Patrol--has 
to be addressed immediately. What steps are you taking right 
now to change this culture?
    Mr. Morgan. First of all, I think we have to be cautious 
about, when there are allegations that have not been fully 
adjudicated yet, to refer to this as a pattern or part of the 
culture. I do not believe that, ma'am. I served as Chief of the 
United States Border Patrol, and I would not say what you 
described is a culture within the Border Patrol or a pattern. 
But what I will say--and I promise and commit to you--is that 
any allegation will be thoroughly and completely investigated, 
and anybody, any man or woman, in the United States Border 
Patrol or CBP that violates their oath and violates what they 
swore to do and uphold, I assure you that they will be held 
accountable for and properly disciplined.
    Senator Hassan. I thank you for that. I will note that the 
revelation about the Facebook page and the number of people 
participating in that tends to give credence to the notion that 
there is a troubling culture, at least among some of the 
officers. What I am trying to just get at is what you are doing 
to make sure that you are disrupting that culture and improving 
it.
    Mr. Morgan. Yes, ma'am. On the Facebook, the 1015, I would 
be more than happy to, offline, come to your office and provide 
you an extensive brief of exactly what we are doing in that 
matter as well. But I will say it is one of those posts that we 
all know about is horrendous.
    Senator Hassan. Yes.
    Mr. Morgan. Absolutely, hands down. But I can assure you 
that overall this is a very small group of Border Patrol 
agents.
    Senator Hassan. Ms. Costello, do you think CBP is doing 
enough in terms of addressing the issues of culture that I just 
outlined?
    Ms. Costello. So we do not really have any information on 
what they are doing in the culture, but I can tell you that we 
are also looking into that Facebook issue, not so much the 
conduct of the specific agents themselves, which is better 
investigated by CBP's Office of Professional Responsibility 
(OPR). But what we are looking into is the allegations that 
leadership knew and was using the sight for information, so who 
knew what when and was appropriate action taken when it needed 
to be. I think perhaps in the course of that review, some 
information about culture might be elicited.
    Senator Hassan. Thank you.
    Mr. Morgan. If I could add, ma'am, we are working with the 
IG every day. On Facebook, for example, right away we got with 
the IG, and we continue to work with them.
    Senator Hassan. I appreciate this. I just do want to point 
out that it is going to be very important that you all are 
transparent about what you do and do not know. As you 
investigate allegations, you have to be transparent with us and 
the American public so we can improve, because these kinds of 
reports and these kinds of behaviors that are reported and the 
conditions are really hampering our capacity to address a 
security and humanitarian crisis at our border, and that is 
something we all need to do together.
    Mr. Morgan. You have my absolute commitment to full 
transparency.
    Senator Hassan. Thank you.
    I have one other issue, and I am going to touch on it very 
briefly because I am just about out of time, but it has come to 
my attention, Mr. Morgan, that in May a Customs and Border 
Protection subcontractor, a company called ``Perceptics,'' was 
a victim of a cybersecurity breach. Hackers stole tens of 
thousands of photos of travelers' faces and license plates 
collected by CBP on the U.S.-Mexico border from the 
subcontractor's network and then leaked these images publicly. 
This breach has serious implications not only in cyberspace but 
also for the security of our borders.
    It is my understanding that this data was not supposed to 
be present on the subcontractor's network to begin with and 
that CBP has since terminated this contract. However, this begs 
a bigger question about the vulnerability of CBP because its 
subcontractors seem not to be taking cybersecurity seriously.
    So realizing my time is about up or over, what I would like 
to do is work with you and follow up with questions about this 
to ensure that the contractors and subcontractors adhere to the 
highest cybersecurity standards.
    Mr. Morgan. Absolutely.
    Senator Hassan. Thank you. Thank you, Mr. Chair.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman. Both of you, 
thank you for the work.
    I just returned back from the border last weekend, spending 
last weekend at five different facilities in the Rio Grande 
Valley area and then spent much of the night riding along with 
members of the Border Patrol as they did night patrols to get a 
feel for what is really going on on the ground.
    I went into each facility and asked to be able to see their 
supply room, to see food, water, hygiene products, diapers, 
clothing, toothbrushes. In every facility that I went into, all 
of those supplies were there in ample supply. I also found in 
some of the facilities a couple of pieces of used equipment 
like car seats, and I asked about that and said, ``These seem 
like used car seats. Where did they come from?'' And they said 
some of the children have to be moved to different places, and 
so Border Patrol agents have brought their own car seats for 
their kids here to be able to make sure these kids have car 
seats when they actually move from facility to facility.
    What I found was a tremendous number of very professional 
people trying to be able to find a way to be able to manage a 
problem where they have thousands upon thousands of people 
coming at them.
    In the McAllen station, in that area alone they have 1,500 
to 2,000 people a day that are coming across the border 
illegally, and they are trying to figure out ways to process 
them. When I asked the agents, ``What would help you the 
most?'' the first response I got from everyone was, ``Allow ICE 
to be able to detain people. That is what they do, not what we 
do.'' What I heard as a pretty clear statement was when this 
whole movement on abolish ICE or defund ICE came about and the 
push to not allow ICE to get more funding and the adamant 
pushback we have had on adding additional funding to ICE, it is 
backing up thousands of individuals into Customs and Border 
Patrol facilities to be able to be held while they are waiting 
for a place for them to go. We have almost 50,000 beds in ICE 
facilities but 4,000 beds in Customs and Border Patrol. When 
you have thousands of people a day coming at them with nowhere 
to go, you are not going to just release them on the street. 
That is not the obligation of Federal law enforcement just to 
release people. It is to be able to process and find out who is 
a risk and who is not a risk and then to figure out how to be 
able to transition them.
    So my simple question to you is: Are your facilities 
designed and set up to hold thousands of people? Is that the 
mission of Customs and Border Patrol?
    Mr. Morgan. Absolutely not, Senator. We have stated that 
again and again and again.
    Senator Lankford. I have heard it, and so much of our 
conversation at this dais and through Congress is what we are 
going to do to get Customs and Border Patrol in a better 
position to hold more people, ignoring the obvious question: 
Why are we not adding additional funding to ICE? That is what 
they do. They do have the facilities. They do have the 
contracts. They do have all of the oversight there to be able 
to allow a lot more people to be held as they are trying to 
process them.
    So I am a little frustrated that our conversation seems to 
be what can we do to help Customs and Border Patrol be better 
at detaining people when that is not even the mission of 
Customs and Border Patrol.
    Mr. Morgan. Yes, sir, and that is correct. Right now, just 
in the past 60 days since the IG review, we have done so much. 
We have created four soft-sided facilities for family units 
alone, a capacity of over 2,000; two more soft-sided facilities 
are coming on for single adults, a capacity of 4,500. I could 
keep going. Modular systems we are setting up. I could keep 
going on and on. This is tens of millions of dollars a month we 
are spending on this. We are talking about for us to do more 
and for CBP to get more for these temporary facilities, when 
you just outlined the answer, we fund ICE. We asked for $200 
million in the supplement. It was denied. And then we question 
why we are overcrowded. We are overcrowded because ICE does not 
have the funding to have the bed space as the system is 
designed. We are interdependent. We are overcrowded in part 
because HHS was overcrowded, because ICE was overcrowded. It 
was not being properly funded, and ICE is still not being 
properly funded.
    Senator Lankford. No, it is not, and that is part of our 
challenge that we have to be able to break through this. We are 
spending over $200 million on one soft-sided facility this 
years instead of giving $200 million to ICE to be able to 
manage all of those. So it is not only wasteful to the 
taxpayer; it is not fair to those men and women that are 
serving Customs and Border Patrol to be able to help do 
something that they were not first set up and trained to do to 
try to do makeshift facilities rather than actually to have 
better facility for folks to be able to go through this 
process.
    I had lots of questions there about the Flores settlement, 
and we have even heard some conversation on this dais that the 
Flores settlement is not the issue. What I heard when I was at 
the border was adults that are traveling with a child, when 
they arrive with a child and there is a 20-day clock that is 
ticking at that point, are we able to get criminal records from 
countries outside of the United States, obviously, from other 
countries within 20 days of who this adult is traveling with 
this child?
    Mr. Morgan. Not efficiently.
    Senator Lankford. So some countries can, some countries 
cannot. Is that correct?
    Mr. Morgan. That is correct.
    Senator Lankford. So do you have situations where you have 
had to release an adult because of this time period, this 
Flores Agreement time period, where you have released an adult 
traveling with a child and later discovered that that adult is 
a felon from that country?
    Mr. Morgan. I do not have those statistics, sir.
    Senator Lankford. I will tell you what I heard this past 
weekend from some of the Border Patrol folks that I talked to 
there on the border. They gave me two specific examples that 
have happened recently: that they released an adult and then 
found out after they released an adult with a child and then 
found out 2 weeks later that that adult had a murder warrant in 
their home country, and they just released them into the 
country, and they could do nothing about it.
    I also found out that--one of the agents was telling me 
they had released an adult traveling with a child, and then 
found out after they were released when they got the criminal 
records in from the home country that that was a convicted 
pedophile from that country now traveling with a child 
somewhere in our country. Because we could not detain them for 
longer than 20 days and we could not get those criminal 
records, they are released in the country, and they are 
traveling with a child.
    The other thing that I heard that I thought was interesting 
was it was children that were maybe 7 to 10 years old that were 
traveling with adult males. But when I got to the facility in 
McAllen last week, it was almost all infants and very young 
children. When I asked about that, they said, ``We were able to 
pull people out and separate the child from the adult, 
interview the child, and the child could often tell us, `That 
is not my dad.'"
    Now, with infants, you cannot do that anymore. Have the 
cartels changed methods?
    Mr. Morgan. Absolutely. That is why they are a multi-
billion-dollar organization, because they change and they 
profit from it every single time. Border Patrol alone has 
identified 5,800 fake families. HSI, an investigative element 
of ICE, has put resources down there. They discovered hundreds 
of fake families. The stories are happening every single day, 
and it is very clear. It is very clear, Senator, that they 
know, you grab a kid, that is your passport into the United 
States because of the Flores Settlement Agreement. That has to 
be changed, and it is going to take a legislative fix to do 
that.
    If that does not happen, all this other stuff we are 
talking about, the care which we absolutely have to do, it does 
nothing, though, to stem the flow. If we do not address the 
Flores Settlement Agreement, they are going to keep coming.
    Senator Lankford. OK. Mr. Chairman, I yield back.
    Chairman Johnson. Thank you, Senator Lankford. Excellent 
line of questioning.
    I want to quick follow up before I turn it over to Senator 
Rosen. Where are we at in terms of Deoxyribonucleic acid (DNA) 
tests? Because when we were down there, there were some pilot 
tests of that. It is about $200 per DNA test. Are we doing more 
of those or is that on hold?
    Mr. Morgan. So ICE is in charge of that program, so they 
did do a pilot program. It was very successful, and they asked 
for additional funding in the supplemental, which they were 
granted. So they are going to begin to expand that program. But 
right now I do not know the specific details of where and when. 
I would have to defer to ICE.
    Chairman Johnson. Because we are really releasing right out 
of CBP, in many cases bypassing ICE. Won't Border Patrol have 
to do the DNA tests to try and get some handle on the 
fraudulent families?
    Mr. Morgan. Right now what is happening is ICE is actually 
deploying HSI agents to the Southwest Border to actually be in 
the stations to do that.
    Chairman Johnson. OK. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you. Thank you, Chairman Johnson, 
Ranking Member Peters, for considering my request to hold a 
hearing on conditions of migrant children at CBP facilities 
today on this critically important topic.
    It is vital that we work together to ensure the safety and 
well-being of children, so I want to thank you, Commissioner 
Morgan and Deputy Inspector General Costello, for your 
testimony, for your work, and your commitment to doing the 
right thing here.
    I asked last month for three needed reforms. I placed a 
hold on two DHS nominees. I am going to keep my hold in place 
until the facilities drastically improve. As you know, a couple 
of weeks ago, we went down and we visited Donna, McAllen, and 
Ursula, saw the conditions of the detention centers holding 
migrant children. They are slightly better than what was 
reported weeks prior, and those facilities are still no place 
for children to stay for prolonged periods of time--or really 
any amount of time.
    I have been advised by child welfare advocates from various 
nonprofit organizations that there are three immediate changes 
needed at CBP: one, more medical professionals with pediatric 
experience at CBP facilities; two, the hiring of trauma-
informed child welfare professionals to ensure the best 
interests of the children are being met; and, three, providing 
NGO access to CBP facilities to assist with humanitarian 
efforts.
    Last week I sent a letter to Secretary McAleenan outlining 
these needs, and in spite of the urgent situation at the 
border, I have yet to hear back from him. So I am asking in the 
interest of time if you would answer these similar questions in 
yes-or-no fashion.
    So, Commissioner Morgan, who currently--well, this is not a 
yes-or-no. Who currently screens children for illnesses or 
injury after apprehension by CBP? Is it a medically trained 
professional?
    Mr. Morgan. So we have a couple areas, ma'am, that I will 
not quickly. So we have Border Patrol agents who, when they are 
first apprehended, do a first layer of screening, whether an 
emergency medical technician (EMT) or advanced EMT. Once they 
get to the processing center or the place where they are going 
to be held, then they are also screened. The majority of the 
children right now are screened by a medical professional, such 
as a nurse practitioner.
    Senator Rosen. Are they using standardized screening tools?
    Mr. Morgan. Yes, ma'am. The protocols were actually 
developed by a physician that we have at DHS that has designed 
those protocols with respect to medical standards and industry.
    Senator Rosen. So they are taking vital signs such as body 
temperature, blood pressure, and heart rate?
    Mr. Morgan. Yes, ma'am, every single one. They actually 
have a range of temperature they file as part of the protocol. 
If it falls within that range, that means immediate transport 
to a hospital.
    Senator Rosen. Do all CBP facilities have adequate working 
medical equipment for children?
    Mr. Morgan. No, all do not. We are doing it by flow and 
threat and need right now, but we are expanding that every 
single day. Seven of the nine sectors have it. Over 20 of the 
70 stations have it. Every day we are putting more medical 
resources online.
    Senator Rosen. Thank you.
    Mr. Morgan. Supplemental health.
    Senator Rosen. If a child is found to be injured or sick, 
is there a process for them to receive additional evaluation by 
a health care professional?
    Mr. Morgan. Yes. We work with local emergency medical 
services (EMS), local medical facilities as well. Again, based 
on those protocols, if the individual is meeting those 
standards, we transport them immediately to a hospital.
    Senator Rosen. Do your medical professionals onsite at 
those facilities walk into pods or cells to look for sick 
individuals who may be too young to voice their needs, unable 
to ask for help, or are too afraid to ask for medical 
attention?
    Mr. Morgan. So we do do welfare checks. Whether each one of 
those welfare checks they actually go into the holding 
facilities, I would need some more fidelity on that. But there 
are welfare checks that are mandated by TEDS every 15 minutes.
    Senator Rosen. Approximately how many more medical 
professionals with pediatric experience and child welfare 
professionals do you plan to hire?
    Mr. Morgan. That is a good question. I would say I am 
welcome to anyone that you just described that continue to work 
with us to help us come up with that strategy and end game. We 
are welcome to any ideas and suggestions. But those numbers are 
being worked right now, again, from the physician that DHS has 
as the overall medical coordinator as well as other, I would 
say, health care provider associations.
    Senator Rosen. I am going to ask, is there pediatric mental 
health screening in detention?
    Mr. Morgan. Not at this time. Again, I would just say that 
I understand, but, I want these children out of--even the soft-
sided facilities, I agree with you, ma'am, that is not where 
kids should be. I want them out of there as fast as possible to 
a more adequate environment.
    Senator Rosen. So who is ensuring that very young children 
have their basic needs met, such as diaper changing, feeding, 
bathing or brushing teeth?
    Mr. Morgan. We actually have coordinators in every one of 
those facilities, and the Border Patrol and other agencies that 
are helping with this are responsible for that. We actually 
have detailed logs when someone is fed, whether they receive a 
hot meal, a cold meal, how many times they receive a shower, 
etc. We have detailed logs on that.
    Senator Rosen. So you have expressed just now interest in 
working with me to make some things happen, so are you 
developing a policy to provide access for NGO's to CBP 
facilities to assist with these humanitarian efforts?
    Mr. Morgan. So what I can say is those have been ongoing 
discussions, and, Senator, I am absolutely willing to work with 
you to come up with a workable solution.
    Senator Rosen. Because we do have people willing to come in 
to help alleviate some of the situation and provide comfort 
care specifically for children.
    Mr. Morgan. Yes, ma'am, what I can say, in the 115th and 
116th Congress, you have had over 100 codels, staff dels almost 
the same number. We have had countless numbers of IG reports 
and other access and reviews. So we are not shying away from--
--
    Senator Rosen. But we would like to see NGO's have better 
access, to be sure they can evaluate children who oftentimes 
cannot express concern or express what is happening to them. So 
I would like to be sure that we are able to do that and can 
work with you. I have people ready, willing, and able to come 
to your facilities.
    Mr. Morgan. Yes, ma'am.
    Senator Rosen. I just have a short time left. I want to be 
sure that--Senator Hassan talked about abuse. Can you talk a 
little bit about the process for migrants to safely report any 
abuse that they have and if they are aware of that?
    Mr. Morgan. Yes, again, from the start, they have the 
ability from the moment that they are apprehended to report 
anything. What we have found, though, is once they leave Border 
Patrol custody, CBP custody, and they go to HHS, specifically 
for the children, that is when we found that most of the 
reporting is being done after they leave our custody.
    Senator Rosen. So they are not reporting there. They are 
reporting after they leave.
    Mr. Morgan. That is what the statistics show, yes, ma'am.
    Senator Rosen. To your knowledge, is there a confidential 
process there for them to report so they do not receive 
retaliation wherever they go in the future?
    Mr. Morgan. Yes, ma'am. It is hard to have that 
confidentiality when you are in a central processing center or 
the soft-sided Donna facility that you saw. That is why it 
opened. But we absolutely take every allegation seriously and 
do everything that we can to make sure that it is followed 
through and we coordinate with the appropriate entity, whether 
it is the IG, Civil Rights and Civil Liberties (CRCL), or any 
other appropriate entity.
    Senator Rosen. Do you have a specific place where the logs 
are kept once abuse is reported, do you have a central location 
where that is kept so that NGO's or other places can take a 
look and see what is going on?
    Mr. Morgan. Yes, ma'am. So we have a Joint Information 
Center (JIC). So anytime there is a complaint or alleged 
complaint, that goes to the JIC that OPR from CBP manages, and 
that database is kept.
    Senator Rosen. So if NGO's want to come in and represent 
someone, there will be transparency with these records?
    Mr. Morgan. So there is some privacy concerns with respect 
to ongoing investigations, but I would be more than happy to 
work with you offline to see where we can reach an appropriate 
compromise for transparency. But there are privacy concerns 
with respect to investigations.
    Senator Rosen. Thank you.
    Chairman Johnson. Senator Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Mr. Chairman, and I appreciate 
our witnesses being here today.
    I remain extremely concerned about the recent allegations 
regarding the treatment of migrants at the Yuma Border Patrol 
station. I am committed to fixing our broken immigration 
system, finding solutions to the ongoing crisis at our Southern 
Border, and ensuring that migrants are treated fairly and 
humanely.
    The recent reports regarding what happened in Yuma clearly 
indicate we need to do better on all those fronts, so I look 
forward to our witnesses shedding light on how CBP can do 
better and how Congress can help do better.
    My first questions are for Mr. Morgan. As you know, a big 
part of the problem at Yuma seems to be communication between 
HHS and CBP. The news of the Yuma allegation broke because NBC 
News obtained incident reports put together by HHS case 
managers after migrant children had left CBP custody. But it is 
unclear to me if the HHS information flowed into CBP in an 
efficient manner and in a way that CBP could then take 
immediate action to ensure the well-being of these children.
    What steps is CBP taking or have you already taken to 
improve the response and ability to respond in a timely fashion 
to allegations that come through HHS?
    Mr. Morgan. Senator, you are right, I think there is 
definitely an area where we can improve the flow. There is an 
old saying: ``Justice delayed is justice denied.'' And so I 
think we can get better at that.
    Once we saw that article, we actually immediate worked with 
the IG. There were three separate allegations contained in the 
article. One of them had already been opened and was already 
being worked by the IG. The other two, based on the article, we 
opened up our own investigations. And then we went to HHS ORR 
to ask them about the alleged 30 that were contained in the 
article. What we found is that on a consistent basis ORR sends 
those to CRCL Division, which is good. It is another layer of 
oversight, because some of the allegations are not always 
specific misconduct of employees and may say, ``Our cell was 
too cold or too hot,'' which still needs to be looked upon and 
action.
    And so then we coordinated with CRCL. We found out through 
this process that 381 entries had been made by ORR with respect 
to a series of allegations. We actually obtained all 381. OPR 
triaged those, and because of that, we opened up 23 additional 
investigations.
    Now, having said that, the bottom line is what we are 
trying to do is work with CRCL and HHS ORR, and what we asked 
them to do and they have agreed is, as they sent it to CRCL, 
they also send those significant activity reports directly to 
CBP OPR so we can action them right away.
    Senator Sinema. So then, Commissioner, you are getting them 
in real time as of today?
    Mr. Morgan. I cannot speak as of today, but that is the end 
state, and we are working with them.
    Senator Sinema. OK. My second question is: As I understand, 
the information from HHS, as you said, enters DHS through the 
CRCL or through the OPR. But when OPR receives the series of 
allegations, how do they use that information to prevent 
additional incidents? So what do they do to take action, one, 
to protect the alleged victims at the time and then also to 
prevent that same behavior from allegedly occurring to other 
individuals? And what mistakes were made in this overall 
communications process that you all have learned from that you 
can fix and change for the future?
    Mr. Morgan. So through OPR--we also work with them, and so 
it is not just about the investigations, but then it is also--
once it has been adjudicated and effective discipline has been 
handed down, we also look at that and analyze that and then 
take that back to the field to see, hey, are there other areas 
that we can improve upon. So it is not just about handing down 
the discipline, as you said. It is about taking corrective 
actions to get better at what we do to try to prevent any other 
incident from happening in the future.
    As far as the coordination and control, again, as I 
explained, it is continuing to work with CRCL, it is continuing 
to work with HHS ORR to make sure we have a streamlined system 
as far as reporting. What we have asked them to do is give 
that, and that goes directly into our JIC that I talked about a 
minute ago, and then it gets actioned immediately.
    Senator Sinema. For children who have alleged sexual abuse, 
that obviously is quite different than an allegation that a 
cell is too cold or someone does not have a blanket. One you 
rectify by changing the temperature and providing a blanket. 
The other, alleged harm may have already occurred with the 
resulting trauma that comes from that. What actions are taken 
to provide appropriate mental health care to children who may 
have been traumatized by these alleged sexual assaults?
    Mr. Morgan. Again, I would have to refer to HHS ORR because 
once they are released from our custody and the allegation is 
made, as far as continued care for that child, it is really 
outside our purview.
    Senator Sinema. OK. My next question is for Ms. Costello. 
According to the news reports--and we just mentioned there were 
30 allegations of issues at the Yuma facility that flowed from 
HHS to DHS. Did your office get to see all these complaints 
right when HHS transmitted them to DHS? From your perspective, 
how could the information sharing between HHS and DHS as well 
as between components of DHS be improved?
    Ms. Costello. Thanks for the question, Senator. We did get 
your letter on this matter. I think Mr. Morgan has accurately 
described this process, and your letter and the news reports 
caused us to go back and take a look as to how this was 
working, and he is correct. HHS is getting the allegations to 
the Civil Rights and Civil Liberties Office, who is passing 
them on to CBP. And then because of our right of first refusal, 
they are coming to us.
    We are going to start taking a look into that as a result 
of your letter. I think my staff is scheduling a meeting with 
your office to see can that be improved. There was such a large 
number of allegations here, and I know we knew about some of 
them. As Mr. Morgan said, we actually opened on one of them. 
But it does seem to be a more systemic issue--right?--that is 
more appropriate for one of our other offices to start taking a 
look at as opposed to individual investigations.
    So we are going to be following up with your staff and to 
try to get some answers to those questions that you posed in 
that letter.
    Senator Sinema. Thank you.
    Back to Mr. Morgan, strictly from a personnel perspective, 
what changes need to be made so that CBP can more effectively 
manage he overcrowding that we are experiencing at some of 
these facilities? Do we need a different mix of people working 
at these facilities? More training? Do we need more social 
workers, more medical personnel? What is it that we need in 
order to address allegations and prevent them from occurring in 
the future?
    Mr. Morgan. Ma'am, two different things, allegations and 
overcrowding. The overcrowding, I will continue to go back to 
we need Congress to pass meaningful legislation to stem the 
flow, and that will impact the overcrowding.
    But specifically to allegations of misconduct, again, I 
will go back. I think that these allegations are rare 
instances, although one is more than enough. We are committed 
to working with CRCL, IG, to make sure that those cases are 
investigated thoroughly and that appropriate disciplinary 
action is taken, and that those individuals, to the best of our 
ability, are removed from those areas right away.
    Senator Sinema. OK. Thank you, Mr. Chairman. My time has 
expired.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. My thanks to you and 
our Ranking Member for calling this hearing, and our thanks to 
both Mr. Morgan and Ms. Costello for your work and your 
presence.
    My colleagues to my left have heard me talk about root 
causes so often that I am sure they are sick of it, and perhaps 
some of the folks in the audience are as well. But we are going 
to be sitting here asking these same questions 5 years from 
now, 10 years from now, unless we address the root causes for 
why these hundreds of thousands of people want to get out of 
their countries and get into our country.
    We have asked questions of a lot of people in Honduras, 
Guatemala, and El Salvador, ``Why are you trying to leave your 
country and make it to the United States?'' They basically say 
three things. They say, one, lack of hope, lack of economic 
opportunity in their native country; two, crime and violence; 
three, endemic corruption. Endemic corruption. Until we help 
them satisfactorily address those causes, they are going to 
keep coming.
    The Chairman has heard me say this before. We traveled 
together in Central America and on the border, and it is a 
little bit like Home Depot. What they say at Home Depot: ``You 
can do it. We can help.'' We cannot do this for them, but we 
are responsible for it by virtue of our addiction to drugs. We 
are largely--not entirely but largely responsible for the 
conditions that force a lot of people, compel a lot of people 
to come to our country. So I would just say this as a 
predicate.
    A couple questions, if I could, for Mr. Morgan. Ms. 
Costello, if you want to correct him, you are welcome to do 
that. But, Mr. Morgan, can asylum seekers currently apply for 
asylum or refuge protection in the United States without 
leaving their home countries?
    Mr. Morgan. No.
    Senator Carper. Alright. Would you support the creation of 
an in-country processing program to allow asylum seekers to 
avoid making the dangerous journey to our Southern Border?
    Mr. Morgan. Yes.
    Senator Carper. Why?
    Mr. Morgan. So we talk about and you talk about, sir, the 
root cause, identifying the root cause of this. We have to stem 
the flow. Asking someone to either claim asylum, apply for 
asylum in their home country, or the first country they come to 
outside of the country that they are alleging they are fleeing 
persecution from will do just that. It will stem the flow. 
Again, the overwhelming majority of the individuals that come 
to our border that are claiming fear are found to be 
unsubstantiated, meaning they came here as an economic migrant 
and they did not come here with respect to the technical 
definition of asylum, persecution, and fear of persecution 
based on race, ethnicity, and religion. It would absolutely, 
almost overnight, begin to stem the flow.
    Senator Carper. Ms. Costello, would you approve this 
message? I know this is not necessarily your area of expertise, 
but go ahead.
    Ms. Costello. That is what I was going to respond. As the 
IG, the situations outside this country, the push-pull factors, 
are really beyond our jurisdiction.
    Senator Carper. I understand.
    Ms. Costello. So we cannot----
    Senator Carper. I just thought I would give it a shot.
    Ms. Costello. Thank you very much, Senator. But we cannot 
comment also on those policy decisions, but what we can commit 
to is evaluating the effectiveness of the programs once they 
have been established.
    Senator Carper. That is good. Thank you.
    Mr. Morgan, another question for you if I could. You 
recently served as the Director of ICE, and I just would ask: 
Is it reasonable to think that ICE could detain every 
undocumented immigrant in this country through their removal 
proceedings? Are there other programs like alternatives to 
detention that are less costly and could be expanded for non-
criminal immigrants?
    Mr. Morgan. So I do not think it is reasonable to say that 
every single individual that is here illegally in the United 
States would ICE be able to detain. No, I do not think that is 
realistic, although I still think they need enhanced funding to 
increase their ability to detain a greater population.
    With respect to other innovative ideas, I think we need to 
continue to talk, I think we need to continue to come to the 
table to talk about other effective ways besides detention. But 
what I will say is, though, the stats will show that if they 
are detained, it is more efficient, more effective, the entire 
process. In the non-detained docket, to include alternative 
detention, it has not proven to be fruitful, and it is actually 
quite costly, and the end result, we are having people that 
remain in this country illegally.
    Senator Carper. Would you support expanding alternatives to 
detention in order to reduce the strain on CBP resources at the 
border?
    Mr. Morgan. Again, sir, I think my response to that is I 
would be committed to having a discussion with you about, 
continued alternatives, because we are overwhelmed, ICE does 
not have the appropriate funding. What I would like to be able 
to have a discussion about is where can we come maybe to a 
happy medium, to increase funding to ICE, to increase the bed 
space immediately, so that we can get some relief at CBP, while 
at the same time maybe come up and discuss alternatives to 
detention.
    Senator Carper. We would call that a ``compromise'' around 
here.
    Mr. Morgan. It is hard to see that sometimes, sir.
    Senator Carper. Actually, we reported out a bipartisan 
compromise, a 5-year surface transportation bill this morning 
on a 21-0 vote, and so there is hope in a hopeless world.
    My colleagues and I have traveled to Central America 
together, and I look forward to going back down there again. 
One, if you look at the flow of folks coming out of those three 
countries--Guatemala, Honduras, and El Salvador--a big part of 
the problem in Guatemala is agriculture-related, people who 
grow coffee in the highlands. And they have had drought after 
drought after drought, year after year after year. They are 
bailing out of there to try to get out of there so they can 
make a living, and they see they have some opportunities here.
    But if you look at what is--the outflow from El Salvador is 
not as great as it has been from Guatemala and Honduras. What 
is happening, one of the things that has happened--this is a 
lesson for them and for us. They have elected a new President 
in El Salvador who is, I think, 37 or 38 years old. Bukele is 
his name, and he was mayor of San Salvador, a city of 2 million 
people, for a number of years and ran for office. He succeeded 
a 75-year-old former guerrilla leader. I think the people in 
that country feel a sense of hope.
    Meanwhile, in Honduras, Juan Hernandez, the President, 
about a year or so ago basically asked his supreme court, 
appointed by him, to declare their constitution 
unconstitutional so he could run for another term. He won, 
allegedly, reelection by a narrow margin. The people there are 
still outraged, up in arms, and they have had it.
    If you go over to Guatemala, Jimmy Morales, the President 
there, for whom I had high hopes, has turned out to be an 
enormous disappointment with respect to corruption, family 
corruption, all kinds of things, and he is basically going to 
be done, gone, by the end of this year. But the people in that 
country are just fed up with the corruption that is going on, 
and we cannot be silent about--our administration and we in 
Congress, and when we go there, we need to speak out. We need 
to speak truth to power.
    Mr. Chairman, I look forward to traveling perhaps later 
this year with you and Senator Peters to go down there and get 
a fresh look at what is going on.
    The last thing I will say, things are really galling in 
Guatemala. The former attorney general there, Thelma Aldana, 
who is highly regarded--she was attorney general for a number 
of years. She was death on corruption, and when she wanted to 
run for President, they basically would not let her in the 
country. They kept her out of the country. She could not run. 
Just shameful.
    Thank you.
    Chairman Johnson. Senator Carper, I think we are going to 
be traveling down to Central America in October, so I would 
love to have you join us.
    I think it was interesting, Commissioner Morgan's comments 
about his meeting with the government officials down there, the 
same comment we heard in 2015 from both Presidents of Honduras 
and Guatemala. ``Fix your laws that are attracting young 
people. Really, we are losing our future to America, so fix 
those laws.'' That has been a consistent theme.
    Now, I think at the same time Central America does like the 
remittances, but I think they are starting to realize that 
depopulating their countries is not a real good deal for the 
long-term future of those nations. So hopefully we will be on 
the same page. You talk about compromise. I am always looking 
for areas of agreement. It is a lot easier.
    Senator Peters, do you have a couple questions?
    Senator Peters. I do. Thank you, Mr. Chairman.
    Mr. Morgan, it is my understanding that CBP is conducting a 
pilot program to train Border Patrol agents as asylum officers 
to conduct credible fear interviews, and I would just like to 
have a little bit more information on the pilot program. How 
long is the training for these participating agents?
    Mr. Morgan. I am not sure what the duration is. That is 
really set by USCIS and their standards.
    Senator Peters. So could we get that information? I would 
like to have that.
    Mr. Morgan. Absolutely.
    Senator Peters. How many of these agents have been deployed 
to date and to what locations?
    Mr. Morgan. I do not have those numbers.
    Senator Peters. You will get those for me as well?
    Mr. Morgan. Absolutely.
    Senator Peters. So you probably do not have the answer to 
this as well. Once deployed, what percentage of their time is 
spent conducting interviews?
    Mr. Morgan. Again, I do not have that information, but I 
will get that to you.
    Senator Peters. Do you know why this pilot was initiated? 
Was it because of a lack of asylum officers at USCIS? Or was it 
for the goal of reaching different outcomes?
    Mr. Morgan. My understanding, it was a lack of USCIS asylum 
officers.
    Senator Peters. If that is the case, would you agree that 
we should be investing in the hiring and training of additional 
USCIS asylum officers?
    Mr. Morgan. Yes.
    Senator Peters. If the USCIS had additional capacity and 
these Border Patrol agents no longer are needed to conduct 
these credible fear interviews, would the agents in the pilot 
program be able to return back to line and patrol duties?
    Mr. Morgan. I would like that very much.
    Senator Peters. That would be your intent if that happened?
    Mr. Morgan. Yes, sir.
    Senator Peters. Is the officer wearing a uniform and 
carrying a gun when they conduct these interviews?
    Mr. Morgan. They would be wearing a uniform and carrying a 
gun.
    Senator Peters. They would be? They would be in 
traditional--or their regular uniform?
    Mr. Morgan. Yes, sir.
    Senator Peters. Do you know if the CBP is seeking to expand 
this program and train additional officers to conduct credible 
fear interviews?
    Mr. Morgan. My understanding is we are, but I will get back 
to confirm that for you.
    Senator Peters. So in addition to that, we would need to 
know how many officers that you are expecting. I do not believe 
you would know that at this point, either, so----
    Mr. Morgan. Absolutely.
    Senator Peters. So we would need to have more detailed 
information on this, and I appreciate working with you and your 
staff on that.
    Mr. Morgan. Yes, sir.
    Senator Peters. What has been striking to me in the 
discussion about detention standards is that there seems to be 
a great deal of variability in the experience that lawmakers 
have when they go to the border. We hear different stories from 
different lawmakers, administration officials, lawyers, 
advocates, and perhaps all these experiences could be true 
because the situation on the ground obviously changes on a 
daily basis, and conditions can deteriorate very rapidly.
    So, Ms. Costello, my question to you is: What is your take 
on the variability across sectors and even detention locations 
within a sector? What type of challenges does this pose for you 
as the OIG in identifying recommendations for an enterprise 
improvement program across the entire enterprise?
    Ms. Costello. So the experience of our inspectors has been 
that it changes rapidly, and I can give you an example, 
although we have not publicly reported yet on our observations 
in Clint. We actually went there in April, and we did not see 
some of the things that were reported on later on. I am not 
saying that they did not happen. It is just I think that is a 
good illustration of how quickly things can change.
    Another example from our reporting is what I testified to 
earlier, that on one day we had a facility with 125 maximum 
capacity at 750. The next day it was up to 900. So I think that 
is absolutely accurate, that you can go down and visit a 
facility and have a very different experience the next day.
    In terms of pinpointing root causes, that is going to make 
it difficult, and it is part of the reason why this effort has 
led us to look not at the push-pull factors outside the 
country, but led us to initiate work that is going to look at 
those drivers behind the 72 hours and why we are not meeting 
that standard currently.
    Senator Peters. Mr. Morgan, given this is a rapidly 
changing environment, could you describe how CBP retains 
visibility into facility standards and standards of care across 
these sectors given the rapid change that we can sometimes see?
    Mr. Morgan. Yes, sir. So TEDS is our guiding factor, just 
as it was for the OIG during the review. So every single 
facility uses that standard that was developed in 2015 for the 
care and feeding with respect to anyone in our custody.
    Senator Peters. Ms. Costello, the Council of Inspectors 
General on Integrity and Efficiency (CIGIE), plays an often 
overlooked role in facilitating the collaboration between 
multiple IGs. We have heard in testimony today this has to be a 
whole-of-government approach across a variety of agencies and 
IGs.
    Has CIGIE made any changes to how the OIG community 
coordinates various oversight of border security efforts in 
particular that you are aware of?
    Ms. Costello. Not CIGIE in particular, but we have a very 
solid relationship with HHS OIG, with GAO, and with the 
Department of Justice (DOJ). As we have been doing our work on 
the border starting last summer, we have been in close contact 
with them. Now, we cannot share specific findings if they have 
not alerted their own departments yet and reported to you, but 
in terms of how we are doing our work, exploring opportunities 
for joint efforts and the like.
    Senator Peters. Is there more you can do and help that you 
might need from this Committee to do it?
    Ms. Costello. Let me think about that, Senator, and we will 
get back to you. I think right now we have a positive 
relationship with the other IGs, and everybody is really 
committed to working together in space. But we can take that 
back to the office and think about if there is any other 
avenues that we could pursue and any help you could provide.
    Senator Peters. I appreciate it. Thank you. Thanks to both 
of you for your testimony today.
    Chairman Johnson. Thank you, Senator Peters. By the way, if 
you have to go vote, I am happy to close out the hearing.
    I have two lines of questioning here before we close out 
the hearing. I kind of want to go back to a line that Senator 
Lankford was talking about, the problems of releasing people 
that come across the border illegally rapidly into our country 
without really knowing who they are. It is just a reality. Our 
laws prevent us from holding people more than 20 days, and 
because we cannot get the information, we are probably 
releasing them even sooner than that in many cases. Correct?
    Mr. Morgan. That is absolutely correct. With respect to 
family units, since March of this year, the United States 
Border Patrol has been releasing family units directly. So in 
some cases, they are being released in under 48 hours into the 
interior United States.
    Chairman Johnson. Because it really does not make a whole 
lot of sense to try and find the facilities to hold them for 20 
days with this overwhelming flow. So instead of Border Patrol 
turning them over to ICE for a more thorough vetting process 
and then ICE releasing them, Border Patrol is doing it 
directly.
    Mr. Morgan. That is correct.
    Chairman Johnson. That represents a real danger to not only 
potentially our country but to those individuals.
    Mr. Morgan. Especially with the amount of fake families 
that we are uncovering every single day.
    Chairman Johnson. It is true that we really do not have 
time to determine is that the father or is that the human 
trafficker? Is that his daughter or is that his trafficking 
victim?
    Mr. Morgan. It is a challenge.
    Chairman Johnson. So our broken laws are creating risks for 
these migrants, and so we do focus on that time in custody. 
Again, nobody would say these are really pleasant surroundings, 
this is exactly where you would want to spend the night. Nobody 
would want to spend the night in those conditions. But the 
reason we hold people in custody is we do need to take some 
kind of precaution in terms of where they are released, but 
even with the precautions we are trying to take, it is 
overwhelming the system, and people are put in danger, correct?
    Mr. Morgan. Not only are they put in danger, sir, but, 
again, that is one of the largest pull factors, and it is not 
going to stop. We have been talking a lot of stuff. Should we 
improve on our care and quality of that? Absolutely. But we are 
still not addressing--that is addressing the symptoms. That is 
not addressing the actual disease. We need to stem the flow, 
and as long as our laws are where they are, you are going to 
grab a kid, that is your passport into the United States. They 
know that in the Northern Triangle countries, and they are 
exploiting that every single day.
    Chairman Johnson. So let us talk about in my mind there are 
really three categories of people coming to this country 
illegally and being apprehended or port of entry claiming 
asylum. You have single adult males, which used to be the 
problem, the vast majority. Then you had people coming in as a 
family unit, generally one adult, one child. And then you have 
unaccompanied children. Let us start with the unaccompanied 
children. My information shows me of the 780,000 people that 
have come in illegally at the ports of entry, about 67,000 are 
unaccompanied children this year.
    Mr. Morgan. That is correct. The number is even a little 
bit higher.
    Chairman Johnson. In the past, the composition of those 
unaccompanied children would be 70 percent are male, 70 percent 
are 15 or older. Is that composition holding largely true of 
the unaccompanied children?
    Mr. Morgan. Yes, and the majority of them are between 14 
and 17.
    Chairman Johnson. So, again, if they are more than 15, is 
they are male, certainly that would be the profile of an 
individual that might already be a member of a gang from 
Central America. Correct?
    Mr. Morgan. That is correct.
    Chairman Johnson. Or if you come into this country, you 
cannot speak the language, you probably gravitate toward those 
areas, those pockets of other immigrants that speak your 
language that would be gravitating toward gang activity. 
Correct?
    Mr. Morgan. Your vulnerability to be recruited by a gang is 
exponentially higher under those circumstances.
    Chairman Johnson. I am reading reports of the issues that 
schools are having to cope with. It is not just bilingual 
education. Now it is not only bilingual but different dialects 
from some of the mountain regions of Guatemala. Is that a 
problem?
    Mr. Morgan. Yes.
    Chairman Johnson. In terms of the family units, the 
children coming in--and, again, you talked about 300,000 
children, so you have 67,000 is unaccompanied children. Then 
you have over 200,000 is part of a family unit. Those would be 
children more of tender age, right? Which would be defined as, 
what, 12 and under or 14 and under?
    Mr. Morgan. It is changing on a regular basis, but we do 
find them to be a little bit younger. But I will have to follow 
up on the stats.
    Chairman Johnson. I asked a question earlier about DNA 
testing. The few pilots or the few tests we have had show what 
percentage of people coming in that we determine are a 
fraudulent family? Do you have any sense for that right now?
    Mr. Morgan. I do not have the overall percentage, but we do 
have the numbers. Right now, Border Patrol, 5,800; and HSI, 
part of ICE, they have identified hundreds since their pilot 
program of pushing agents forward.
    Chairman Johnson. When I was down with Senator Peters and 
Senator Hassan, I saw about a 40- or 50-year-old man with about 
an 18-month-old girl, and, listen, I know children can be 
fussy. Having just talked about the fraudulent families, I have 
to admit I just looked at that situation right there, and that 
is not his daughter. And then we heard testimony from HSI of a 
child being sold for $84 to be used by an adult to get in this 
country and exploit our laws.
    Mr. Morgan. That is correct.
    Chairman Johnson. I mean, those are just the realities that 
are occurring here.
    When we talk about how do we improve the situation, one of 
the questions you have to ask, what do you design the 
facilities to hold? What number do you use? Do we use 1.1 
million people coming in here annually? Do we go back a couple 
years and have it be a couple hundred thousands?
    Ms. Costello, what would your advice on that? Do we just 
assume that this is going to hold at 1.1 million people per 
year or potentially grow?
    Ms. Costello. I do not think you can assume that. Even just 
looking at the past statistics over the past years, it 
fluctuates. We are experiencing a rise in families this year 
based on the Department's statistics. So, without being able to 
really concretely weigh in on that, I would say that relying on 
any one of these numbers is probably not a sound idea.
    Chairman Johnson. Commissioner Morgan, what numbers are you 
using as you are looking forward? You are obviously putting up 
temporary facilities. That Donna facility--by the way, those 
are, for temporary facilities, very nice facilities. That gives 
people, I think, a fair amount of comfort that Border Patrol is 
really actively working to improve conditions. But that is not 
cheap.
    Mr. Morgan. We are spending tens of millions of dollars; we 
are probably on target to spend around $700 million, which a 
lot of that came from the supplement, on those soft-sided 
facilities.
    Sir, if I could, Senator Peters asked me a question about 
whether the pilot program for Border Patrol agents, whether 
they were uniformed or not when they were doing the credible 
fear interview, and I misspoke. My staff actually told me that 
they are actually not uniformed and they do not carry a gun.
    Chairman Johnson. OK. I will actually inform Senator Peters 
of that.
    Mr. Morgan. Thank you.
    Chairman Johnson. Again, just going back to my question in 
terms of how are you designing the system, are you assuming the 
1.1 million flow? Do you think that is the smart thing to do? 
Or do we just design a system where it really can be flexible, 
that if the flow is reduced, we can adjust?
    Mr. Morgan. So that is a tough question because, again, 
CBP, sir, as you well know, has so many interdependencies, both 
on HHS for the unaccompanied minors and then ICE for all the 
other demographics. It really does depend on how we come 
together to address this problem. If we are not going to have 
meaningful legislative fixes and we are not going to fund ICE 
for beds, well, then I have a different solution. But if you 
are going to tell me that Congress is going to fund more bed 
space for ICE to include family residential centers, now we 
have a different proposal. That is the conundrum we are in 
right now. We say we are a police station and we say we are not 
a long-term holding facility, but we are somewhere in the 
middle. We are interim custody. We are not short term or long 
term, but a lot of it depends on what Congress is going to do.
    Chairman Johnson. So alternative to detention sounds good, 
but isn't it true that an ankle bracelet on somebody who does 
not really have a permanent address, we do not know where they 
really came from, we do not know where they are really going, 
those are easily cutoff and that is basically what people do?
    Mr. Morgan. That is exactly right. Again, I do not want to 
speak for another agency, although I was there for a short 
period of time, but statistics will show that alternatives to 
detention, it is not productive, and it actually costs 
exponentially more per removal on the non-detained docket, on 
alternatives to detention, than it does to detain them. So 
financially it is also a challenge.
    Chairman Johnson. I would call that ``counterintuitive,'' 
but there is the reality.
    You talked about funding. As a fiscal conservative, I was a 
leading proponent early on of providing government agencies 
with the funding they need to take care of the situation. On a 
telephone town hall last week, I realized that was not a real 
popular position. Again, very legitimate concerns on people on 
the call saying, ``That is $4.6 billion to close out the fiscal 
year. How better could we spend that money?'' People need to 
understand the cost of apprehending, processing, and dispersing 
this overwhelming, out-of-control flow of illegal immigrants?
    Mr. Morgan. Yes, sir, and I think the American people need 
to understand, $3.5 billion of that supplemental funding went 
to HHS for children, 300,000 this year. So what the 
supplemental did, and people need to understand, is it did not 
address the crisis at all. It did not stem the flow at all. 
What it did is it just improved our ability to more equitably 
and efficiently bring these kinds into the interior United 
States in a humane way.
    Chairman Johnson. Again, that supplemental emergency 
spending does not cover the full fiscal year. It is not going 
to cover the costs for 2020. It just filled in the gap to 
address the situation.
    So let us just very quickly, before I have to go vote, talk 
about really what the solution needs to be. First of all, what 
is the first goal of our policy? I would argue it is to reduce 
that flow. Would you both agree with that?
    Mr. Morgan. Absolutely.
    Chairman Johnson. When I was down at the border, I talked 
to the Border Patrol and asked them, ``What is the solution?'' 
You get a pretty consistent answer: ``We have to remove people 
that do not have a valid claim.'' And to be a consequence, to 
be a deterrent, so that others will not indebt themselves to 
human traffickers, will not mortgage their home, will not pay a 
year's worth of salary to these, let us face it, evil people. 
OK? Evil people.
    We talk about the Feinstein amendment to the Trafficking 
Victims Protection Reauthorization Act (TVPRA), which creates a 
disparity in how we handle unaccompanied children. We cannot 
voluntarily return them in a safe situation to their--because 
we just cannot do that. We also talk about the Flores 
reinterpretation where--the Flores Settlement really applied to 
an unaccompanied child. I think her name was Jenny Flores?--
back in 1985. It took a long time to come up with the 
settlement and how we handle unaccompanied children. Then in 
2015, because of a lawsuit, the Obama Administration--and you 
were probably there--decided to detain children with their 
families, and a court said, no, the Flores standards apply to 
accompanied children as well.
    If you take a look at our chart\1\--it is not up there 
now--that is really the moment where this was really sparked, 
and once people realized if you came into America with a family 
unit, you are going to get to stay. Even though Deferred Action 
on Childhood Admissions (DACA) does not apply to any people in 
the future, that was used by coyotes to say we have changed our 
laws, come on it as an unaccompanied child or as a member of a 
family unit, you get to stay. And that has been the reality.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 485.
---------------------------------------------------------------------------
    I would argue the thing that we really have to address is 
that gap between--in terms of our asylum laws--the credible 
fear standard, which lets people in the front door, takes them 
into this adjudication process where, I hear different numbers, 
but at least 800,000 backlogged cases in the immigration 
courts, correct?
    Mr. Morgan. Correct.
    Chairman Johnson. I was told that we adjudicated last year 
a little more than 30,000 immigration cases of people coming in 
as family units from Central America, about 30,000. About 3,000 
were granted asylum; the others were denied. So that is about a 
10-percent rate.
    There is a real problem when we let all these people in and 
only--and, again, nobody really knows the number here. We 
really do not know. But somewhere around 10, probably no more 
than 20 percent, actually had a valid asylum claim.
    I would argue the law change--and it is going to require 
Congress to act. The law change has to close that gap, has to 
be to close that gap. Would you both agree with that?
    Mr. Morgan. 100 percent, Senator. You hit all three major 
elements that Congress must do to fix this crisis and stem the 
flow. It is a credible fear, as you just described. It is TVPRA 
where we treat kids different from Mexico and Canada than other 
countries, and the Flores Settlement Agreement which says we 
mandated we have to release unaccompanied minors and children 
within 20 days. Those are the three fixes.
    Chairman Johnson. It is also true that we are releasing I 
think 79 percent of unaccompanied children to a person in the 
United States that is undocumented. Correct?
    Mr. Morgan. I do not know the specific stat, but that is 
happening every single day.
    Chairman Johnson. We are only able to remove 70 percent of 
people that we do not detain. We just do not know where they 
are. Correct?
    Mr. Morgan. Sir, that is another reason why we want to 
detain, is on the non-detained docket it is extremely 
difficult, once these individuals have a final order of 
removal, to go and apprehend them.
    Chairman Johnson. The solution is we have to look at that 
credible fear standard. We have to raise the bar on that 
initial hurdle. We need to squeeze all the inefficiencies out 
of that initial adjudication process so that we can, again, 
more rapidly, but I would argue more accurately and fairly--
because we do not want to deny asylum to people who really 
qualify.
    Mr. Morgan. Sir, I would even say that by streamlining this 
process, as you just described, that is exactly what we will 
do, is that we will actually be able to more efficiently 
actually find those that have actual valid asylum claims and 
take care of them appropriately. Right now they are getting 
lost in the system with all the false and fraudulent claims.
    Chairman Johnson. So that is the goal of this first step, 
Operation Safe Return. Again, I do not know what is going to 
happen with the safe third country. With Guatemala, I think 
they have to approve that through their legislature. Who knows 
what kind of court challenges both here and in Guatemala may 
occur? Operation Safe Return uses existing authorities--we have 
spoken with you and the other component heads within DHS--to 
implement that program, to start it, again, to rapidly and more 
accurately determine those individuals that clearly do not have 
a legal claim to stay and safely return. From my standpoint, 
that is what we are going to continue to work on. We have 
bipartisan support for that initiative. I just ask you to do 
everything you can to work with us on that, implement it, take 
a look at is it working, are we able to remove those 
individuals, to be a deterrent to reduce that flow. Assess how 
it is working, make adjustments, and move forward, and 
hopefully at some point in time we can get the bipartisan 
support to change our laws to actually fix this once and for 
all.
    Anyway, I want to thank both of you for your service. I 
want to thank the men and women of DHS and Border Patrol and 
ICE, all of these individuals trying to cope with this out-of-
control situation. I view them personally as heroes, and I hope 
they stay on the job. I hope they continue doing a good job, 
and I truly am grateful. I think this Committee is as well. I 
think you heard that voiced by most members. So if you will 
convey that back to your component, I would appreciate that.
    Mr. Morgan. I will. They absolutely are heroes, and I thank 
you for that, and I will make sure that they know that, 
Senator.
    Chairman Johnson. Again, I am glad in your testimony you 
pointed out some of the heroic actions. We have heard other 
similar situations as well.
    The hearing record will remain open for 15 days until 
August 14th at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:54 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ---------- 
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               




                     UNPRECEDENTED MIGRATION AT THE

                U.S SOUTHERN BORDER: THE YEAR IN REVIEW

                              ----------                              


                      WEDNESDAY, NOVEMBER 13, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Scott, 
Hawley, Peters, Carper, Hassan, and Rosen.

            OPENING STATEMENT OF CHAIRMAN JOHNSON\1\

    Chairman Johnson. Good morning. This hearing will come to 
order.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appear in the 
Appendix on page 565.
---------------------------------------------------------------------------
    I want to first thank the witnesses for taking the time for 
your thoughtful testimony. I want to thank the audience 
members. I am not sure why you are not over on the House side, 
but we appreciate--it must have been paid staff. But I 
appreciate everybody coming here.
    This is, from my standpoint--the hearing title is 
``Unprecedented Migration at the U.S. Southern Border: The Year 
in Review.'' But what I would like to do is I would like to 
actually start with the decade in review. I would refer 
everybody to my chart.\2\ This is a chart that I have been 
really updating for probably the last 3 or 4 years, I think as 
long as you have been on the Committee. I think it is important 
to kind of lay out what the history has been, certainly from my 
standpoint some key moments, key policy changes that I would 
certainly argue contributed to what I do consider an ongoing 
crisis, even though we have made some progress. But that chart 
reflects all minors and people coming into this country as 
family units. Earlier versions only focused on Central American 
children and family members. So initially, in 2009, 2010, and 
2011, we had 3,000, 4,000, and 4,000 unaccompanied alien 
children (UAC). We were not even keeping track of families 
because it was not a problem.
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appear in the Appendix 
on page 601.
---------------------------------------------------------------------------
    In 2012--and, again, I would consider that a pretty seminal 
moment--was the issuance of the Deferred Action for Childhood 
Arrivals (DACA) memorandum, which I would argue by testimony 
was used by the coyotes, by the human traffickers, to help 
incentivize people. They would tell them, ``The United States 
has changed its policy. You come to America, you get a piece of 
paper called a `permiso,' '' which was a notice to appear 
(NTA). Again, I know others may dispute this, but I think it is 
pretty obvious that that certainly started something.
    Fast forward to 2014. 2014 was really the year when 
President Obama very accurately described a humanitarian crisis 
on the border when 137,000 unaccompanied children but also 
people coming as a family unit crossed the border and 
overwhelmed Customs and Border Protection (CBP). I remember 
leading a congressional delegation down there in early 2015, 
down into McAllen, Texas, and we were all singing the praises 
of Customs and U.S. Border Patrol (USBP), the humanity they 
were showing, the ingenuity they were showing in setting up a 
facility to separate children from adults, to make sure the 
children stayed safe. Now those same facilities are called 
``cages,'' very improperly so, because I think, if anything, we 
have gotten better at it. It is just the problem has grown so 
much more severely, as the chart shows.
    In reaction to the humanitarian crisis of 2014, the Obama 
Administration said that they had to do something. There had to 
be a consequence. So they began detaining those families and 
those children together to adjudicate their claims, and it 
worked. You can see we went from 137,000 in 2014 down to 80,000 
in 2016. But then a court intervened, as courts are continuing 
to intervene in this problem, and reinterpreted the Flores 
Settlement Agreement (FSA) I think clearly incorrectly. The 
Flores settlement dealt with unaccompanied minors, and now for 
the first time a court said, oh, no, it also includes 
accompanied minors. So now the government was faced with the 
fact that if we want to enforce the law, we are going to have 
to either detain the adults and release the children, or we 
have to release the families. What the Obama Administration 
decided to do is they released the families, and that began 
what was referred to as ``catch and release,'' and you see the 
results. It went from 80,000 in 2015 to 137,000 in 2016, 
117,000 in 2017, and 181,000 in fiscal year (FY) 2018. It was 
ramping up.
    We started talking about caravans. Unfortunately, folks on 
the other side of the aisle started referring to it as a 
``manufactured crisis.'' I started producing this chart on a 
monthly basis. I actually went so far as to put it on a cup so 
I could distribute this to the news media so they would not 
just take my sheet, crumple it up, and throw it away, to start 
pointing out, no, this is not a manufactured crisis, this is 
something real. This is something overwhelming the courageous 
men and women of Border Patrol, the compassionate men and women 
of Border Patrol, who are just trying to deal with something 
that is, again, overwhelming.
    In May, we hit the high-water mark of the current crisis: 
4,651 individuals per day were crossing the border illegally. 
Now, that is the total number. That is not just women and 
children but families. Four thousand six hundred fifty-one per 
day. We no longer heard people talking about manufactured 
crisis. In May, what I started doing with my chart is I started 
extrapolating, saying if this continues at May's levels, we 
would end up with over 800,000 unaccompanied children, people 
crossing the border as a family unit, 800,000.
    Now, the final results--and that is what this is all about, 
the year end in review. What was the final accounting? In the 
end it was 608,000 people who came to this country either as an 
unaccompanied child or as a family unit compared to 137,000 
when President Obama declared it a ``humanitarian crisis.''
    I think we have hopefully laid to rest that this is a 
manufactured crisis. We have brought it down in terms of the 
averages--why don't you put up the next sheet here? This is 
kind of my weekly report. I come from a manufacturing 
background, so I like to see what my daily, my weekly, my 
monthly, and my annual statistics are. So, again, we went from 
May of 4,651 per day to in September we went down to 1,749 on 
average.
    Now, what is not shown here because for some unknown reason 
this is law enforcement sensitive, but members on the Committee 
have this in front of them, the last week I have figures on--
and I can say this figure--it averaged about 1,372. So we have 
gone from 4,651 to less than 1,400. But I will never forget an 
interview that Secretary Jeh Johnson, the Department of 
Homeland Security (DHS) Secretary under President Obama, gave 
to MSNBC a few months ago. He said when he would come to the 
office and the numbers were more than 1,000, he knew he had a 
really bad day. So we are still 372 on average in one day over 
Secretary Jeh Johnson's ``really bad day.''
    So, again, the purpose of this hearing is to lay out the 
reality, talk about where we were, where we have come, but I 
would also say describe what happened. Why did we go from--how 
did we get from 4,651 a day, how have we come down to less than 
1,400? What else needs to be done? Maybe an even more important 
question, what threatens the progress we have already made?
    I have to say I go down to the border, the individuals 
coming across here, the vast majority just want what we want. 
They want safety and security, and they want to take advantage 
of the opportunity. I am highly sympathetic with that, but it 
has to be a legal process. We have to get the illegal flow 
under control, and it is far from under control.
    My last point, I want to thank Senator Peters and other 
Members of the Committee and some other colleagues on the other 
side of the aisle that worked with me. In the end, Senator 
Peters decided not to sign the letter of support for Operation 
Safe Return. There is a program initiated right now--hopefully 
Mr. Morgan will talk a little bit about that--of basically how 
can we more rapidly and more accurately determine those 
individuals that have come to this country illegally or without 
documentation that clearly do not have a valid asylum claim and 
safely return them back to their home country? The big 
contribution that Senator Peters made to that conversation was, 
well, if we are going to do something with that, let us gather 
the data. Let us figure out what is happening.
    And so what I am hoping we are going to get out of this 
hearing is certainly some of the data. How many of these claims 
have been adjudicated from Central America? How many of those 
individuals actually have a valid asylum claim? Because if we 
are going to address this problem, from my standpoint the 
biggest problem is we have such a low hurdle, that credible 
fear standard, that we just wave everybody in. The courts are 
completely backlogged, and a very low percentage of those 
individuals that we wave in that just end up melting into our 
society, we do not know where they go. By and large, we do not 
know where they are. But in the end, they do not have a valid 
asylum claim. We should not have ever waved them in. We have to 
increase that initial hurdle rate. But we need the data in 
order to actually enact public policy.
    So, again, what I am hoping is going to come out of this 
hearing is better data, but then also, as we move forward with 
some of these programs that have shown some success--not 
enough, but some success--let us develop the data that will 
inform public policy, and then hopefully, in any problem-
solving process, you gather the information, you define the 
problem, you define the root cause analysis, you set an 
achievable goal. Hopefully we can come together on a bipartisan 
basis and develop some real solutions on a bipartisan, 
hopefully nonpartisan basis. That is the whole purpose of all 
of these hearings on border security, but in particular, it is 
the purpose and the goal of this hearing.
    So, with that, I will turn it over to Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Thank you, Mr. Chairman. Thank you to our 
witnesses here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appear in the Appendix 
on page 566.
---------------------------------------------------------------------------
    I am proud to say that, over the past year, our Committee 
has been able to come together on a bipartisan basis to examine 
the migration and humanitarian challenges that we are facing at 
our border.
    We have found compromise and passed common-sense 
legislation to address staffing shortages at the borders and 
ports of entry (POEs), strengthen security at both our Northern 
and Southern borders, and ultimately make our country safer.
    In June, we came together to unanimously advance my 
bipartisan bill to strengthen border security and address law 
enforcement shortages at ports of entry throughout the country.
    Last month, the full Senate approved my bill to hire more 
agricultural inspectors and canine units to protect the 
Nation's food supply from harmful contraband.
    Last week, our Committee approved important legislation led 
by Chairman Johnson to support the U.S. Border Patrol by hiring 
new agents and support staff, improving retention, and 
providing medic training to agents that could save lives.
    And just yesterday, I had a chance to see CBP officers and 
canines in action at Detroit Metropolitan Airport, and I was 
stunned to hear the number of seizures that they make to keep 
our country safe every day. I am proud that the men and women 
of CBP at Detroit Metro are leading the Nation when it comes to 
the interdiction of harmful biological material that is coming 
across the border.
    In fact, Detroit Metro has been the number one intercepting 
port for the last 2 fiscal years with more than half of all 
interceptions at ports of entry nationwide.
    Detroit Metro has also pioneered training programs that 
have been deployed nationally with positive results being 
generated in Boston, Newark, and Dulles.
    They also told me that, among all airports nationwide, 
Detroit Metro is second in the Nation for discovery of wood 
packing material containing very harmful pests that can damage 
the lumber industry and agriculture across the board. These 
species pose certainly a significant threat.
    The CBP officers and canines in Detroit are doing 
phenomenal work to protect Michigan and the rest of the country 
from harm, and I am proud to support their efforts every day.
    This past year, however, has posed many challenges for our 
border security professionals. The situation on our Southern 
Border and throughout Central America is dynamic. Our border 
security efforts should certainly reflect that fact.
    Often this administration's border security policies have 
been shortsighted. If we are going to successfully address both 
the conditions on our border and the root causes that are 
driving this migration, we need to take a comprehensive 
approach that looks at the data and finds common-sense 
solutions to address these very serious challenges.
    I appreciate our witnesses for joining us here today and 
for their commitment to serve our country. I also recognize 
that addressing border security and humanitarian challenges 
requires stable and effective leadership.
    I am deeply concerned--I think that concern is shared by 
the Chair and everyone on the Committee as well--by the lack of 
Senate-confirmed leaders in nearly all of the top leadership 
positions at the Department of Homeland Security. In fact, we 
have three Senate-confirmed positions before us, and all three 
of you are Acting, not Senate-confirmed. I will continue to 
call on this administration to nominate qualified leaders for 
these vacant positions who can gain broad, bipartisan support 
in the Senate.
    The men and women of DHS and the American people deserve 
stability; they deserve accountability that comes from 
nominating and confirming qualified leaders that can ensure 
that the Department can carry out this national security 
mission in a Senate-confirmed position. That permanence and 
stability is absolutely critical.
    I look forward to hearing your testimony. Thank you again 
for your service.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Peters, and you know I 
completely agree with you in terms of getting individuals 
nominated and confirmed. The good news here is I think we do 
have some very highly qualified individuals in these acting 
positions, so that is also a bit of good news.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your right hand? 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you. God?
    Mr. Morgan. I do.
    Mr. Cuccinelli. I do.
    Mr. Benner. I do.
    Mr. McHenry. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Mark Morgan, who is the Acting 
Commissioner of Customs and Border Protection. Acting 
Commissioner Morgan began serving his country as a U.S. Marine 
and his community in local law enforcement. After completing a 
20-year career in the Federal Bureau of Investigation (FBI), he 
began service in the Department of Homeland Security as the 
Acting Assistant Commissioner for Internal Affairs before being 
appointed by President Obama as Chief of the U.S. Border 
Patrol. He served as Chief until 2017. He returned to DHS as 
the Acting Director of U.S. Immigration and Customs Enforcement 
(ICE) in May of this year and began his current role as Acting 
Commissioner of U.S. Customs and Border Protection on July 7. 
Mr. Morgan.

   TESTIMONY OF MARK A. MORGAN,\1\ ACTING COMMISSIONER, U.S. 
  CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Morgan. Good morning. Thank you, Chairman Johnson, 
Ranking Member Peters, and Members of the Committee. I 
appreciate the opportunity to be here today to be able to 
inform the American people the truth about the unprecedented 
crisis we have experienced along the Southwest Border during 
fiscal year 2019, as well as the remarkable and noteworthy 
successes by the current administration and the incredible men 
and women of the United States Customs and Border Protection. I 
am honored to speak on behalf of the men and women of CBP who 
are on the front lines of our Nation's borders defending the 
rule of law, maintaining the integrity of the immigration 
system, and protecting the safety and security of this great 
country, all while simultaneously playing a critical role in 
ensuring our economic security as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Morgan appear in the Appendix on 
page 568.
---------------------------------------------------------------------------
    If you will recall, earlier this year we sounded the alarm 
at the border crisis and asked Congress repeatedly to act to 
fix the loopholes in our broken immigration system and close 
the gaps driving the crisis. Unfortunately, not a single piece 
of meaningful legislation has been brought forward to address 
this crisis. As a result, the country watched as the crisis 
worsened.
    Although we have made great progress, I am here today to 
respectfully remind this Committee and the American people that 
there continues to be a humanitarian crisis and, importantly, a 
national security crisis. In fiscal year 2019, CBP's 
enforcement actions exceeded 1.1 million nationwide, an 
increase of 68 percent over the previous year. The total number 
of apprehensions along our Southwest Border exceeded 978,000, 
an 88-percent increase over the previous year's apprehensions. 
The United States Border Patrol alone apprehended more than 
473,000 family units, representing the highest number for any 
year on record. The number of unaccompanied children 
encountered between the ports totaled more than 76,000, 52 
percent higher than any other year. There is no immigration 
system in the world designed to handle such massive migration 
numbers, not even the United States.
    Challenging still is the demographics of those illegally 
entering our Southern Border, as the Chairman discussed. In 
2019, 71 percent of all Southwest Border apprehensions came 
from the Northern Triangle countries, the vast majority being 
families and unaccompanied children. They are being pulled into 
the United States by the loopholes in our current legal 
framework. They know if you grab a kid, that is your passport 
into the United States, and it was working, all while the human 
smuggling organizations and cartels exploited them, placed them 
in life-threatening situations, and treated them as nothing 
more than a money-making commodity, a multi-billion-dollar 
scheme.
    The impact was real. As the Chairman stated, in May of this 
year we saw our highest numbers, more than 140,000 
apprehensions in a single month. CBP had to divert resources 
away from their mission-critical duties to care for the 
children and families. At times, up to 50 percent of Border 
Patrol resources were pulled off the line to care for the 
families and children, leaving areas of the border increasingly 
vulnerable.
    Meanwhile, the cartels and smuggling organizations were 
exploiting those law enforcement gaps, increasing the threat to 
our national security. Last year, more than 150,000 migrants 
who illegally entered the United States got away. The 
transnational criminal organizations (TCOs) are not only 
exploiting the migrants themselves, but also flooding the 
United States with illicit narcotics making their way into 
every town, city, and State in this great Nation. Make no 
mistake: If you have a methamphetamine in your town or city, it 
came from the Southwest Border.
    In the absence of congressional action, the administration 
has taken action. Through engagement with the government of 
Mexico and Northern Triangle countries, we have initiated a 
network of initiatives, policies, and regulations to stem the 
flow of migration. Together we are approaching this as the 
regional crisis that it is, and we have seen incredible 
success. The last 4 months in fiscal year 2019 we saw an almost 
65-percent reduction in the apprehensions, with September 
marking the lowest number of enforcement actions during the 
entire year at just over 52,000. By mid-year, CBP was holding 
almost 20,000 detainees in custody. Now we are averaging less 
than 3,500 a day in custody. At the height of the crisis, CBP 
apprehensions at times exceeded 5,000 in a single day. Now we 
are averaging less than 1,400. We have all but ended catch and 
release.
    But our success at addressing the humanitarian crisis 
should not overshadow the national security crisis. Last year, 
CBP officers and Border Patrol agents seized more than 750,000 
pounds of illicit narcotics. CBP's air and marine operations 
(AMO) contributed to the seizure of an additional 285,000 
pounds of cocaine. Seizures of the four hard narcotics--
fentanyl, heroin, cocaine, and methamphetamine--all increased. 
Last year, there were more than 68,000 overdose deaths in the 
United States. We know that methamphetamine has seen 
significant resurgence as super labs in Mexico are taking over 
production and flooding the United States with cheaper and 
purer forms of meth.
    Additionally, CBP seized nearly 3,000 weapons, 1,000 gang 
members, $75 million of illicit currency, and apprehended 
16,000 criminal aliens, and this is just what we caught.
    Chairman, I know I am running over time, but if I could 
just make a couple more comments?
    Chairman Johnson. Go ahead.
    Mr. Morgan. The apprehension numbers are still at 
unacceptable levels. Chairman Johnson, as you stated, the 
former Secretary of DHS, Jeh Johnson, stated, ``One thousand 
apprehensions was a bad day.'' He was absolutely correct, and 
that still stands today. I am concerned that the good story I 
am able to tell this morning regarding the migration crisis has 
allowed some to take their eye off the ball, but this crisis is 
not over. Due in part to the judicial activism encountered from 
the lower courts, we are one bad court decision away from 
losing a significant ability to continue to mitigate the 
current crisis.
    Additionally, we cannot rely solely on our partner nations 
to resolve our broken immigration system. To obtain a lasting 
and durable solution, Congress must act.
    As I sit here today as a law enforcement professional, over 
30 years of service to this country, I am absolutely perplexed 
why Congress cannot come together in a bipartisan manner to fix 
this. We know the cartels and human smuggling organizations are 
exploiting the migrants as they make their journey here. They 
are giving up their life savings, turning themselves over and 
often their children over to the hands of the smugglers, often 
abused and deprived of adequate food, water, and medical 
attention during their trip. We know because we averaged 71 
hospital visits per day in 2019. Add that up, I think that is 
roughly over 25,000 hospital visits. They leave them--the 
smugglers and cartels leave these immigrants in rivers to die. 
They leave them in open harsh terrain to die, in tractor-
trailers to die. The Border Patrol last year conducted 4,900 
rescues of immigrants who the smugglers abandoned to die. We 
also encountered 24 bodies along the Southern Border, including 
skeletal remains.
    I have told this story before, and I think I told it in 
front of this very Committee, of a paraplegic man whom 
smugglers threw in the water to avoid apprehension without 
giving it a second thought.
    We know children are being rented and recycled and 
presented as fake families. Last fiscal year, CBP identified 
over 6,000 fake family members, impacting over 1,834 juveniles. 
We had a Honduran man who bought a child for $80. Why did he do 
it? Because the loopholes in our system told him and the 
smugglers made sure he understood you grab a child, that is 
your passport into the United States.
    It is our broken immigration legal framework which is 
providing an incentive, driving the crisis. We have been 
asking--I feel like I have been begging--for Congress to act. 
If Congress continues to fail to come together across the 
aisle, more children and families will be placed in harm's way 
by the cartels, and the criminal networks, both domestic and 
abroad, will continue to negatively impact the public safety 
throughout this Nation as bad people and drugs make their way 
into our Nation every day.
    We need your help. We are asking for your help. We have 
been asking for your help. The only winners here by inaction, 
by not passing meaningful legislation, are the cartels as they 
continue to thrive and increase their multi-billion-dollar 
business on the backs of migrants.
    Please, join us in doing everything we can to target these 
smuggling organizations, to target the cartels, and to put them 
out of business. We can start by eliminating their ability to 
advance their multi-billion-dollar business on the backs of 
migrants and at the cost of American lives.
    I sincerely thank you for this opportunity, and I am 
looking forward to addressing any of your questions. Thank you.
    Chairman Johnson. Thank you for that testimony, and it is 
certainly my intention and I think hopefully the intention of 
Members of this Committee to do everything we can. We need the 
information, so, please, help us get this information. I think 
you have done a good job of laying out that reality, which is 
the first step. We need to acknowledge the reality, and then we 
need to work with real information in terms of how we actually 
do fix this problem. So, again, I appreciate your testimony.
    Our next witness is Ken Cuccinelli. Mr. Cuccinelli is the 
Acting Director of U.S. Citizenship and Immigration Services 
(USCIS) at the Department of Homeland Security. From 2010 to 
2014, Mr. Cuccinelli served as Virginia's Attorney General 
(AG), where he led the State's fight against human trafficking. 
He also previously served in the Virginia Senate from 2002 to 
2010. Mr. Cuccinelli.

 TESTIMONY OF KENNETH T. CUCCINELLI,\1\ ACTING DIRECTOR, U.S. 
   CITIZENSHIP AND IMMIGRATION SERVICES, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Cuccinelli. Good morning, Chairman Johnson, Ranking 
Member Peters, and distinguished Members of the Committee. 
Thank you for the opportunity to testify today regarding the 
incredible and important work the men and women of U.S. 
Citizenship and Immigration Services have been doing over the 
last year.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cuccinelli appear in the Appendix 
on page 580.
---------------------------------------------------------------------------
    In fiscal year 2019, USCIS achieved many of President 
Trump's goals to make our immigration system work better for 
America. As an agency, we have tirelessly worked hand in hand 
with our fellow DHS components to answer President Trump's call 
to address the ongoing crisis at the border.
    In the absence of congressional action to close the 
loopholes that are being exploited and have led to the crisis 
at the Southern Border, we have taken significant steps to 
mitigate the loopholes in our asylum system, to combat 
fraudulent and frivolous claims, and to strengthen the 
protections we have in place to preserve humanitarian 
assistance for those who are truly eligible for it.
    USCIS had a historic year in fiscal year 2019. I am proud 
of the agency's work over the fiscal year and want to mention a 
few of the agency's notable accomplishments.
    USCIS adjudicated more than 8.2 million requests for 
immigration benefits, and we have seen a rising level of 
complexity in those adjudications as well. This workload 
represents the full spectrum of benefits that our laws provide 
to those who seek to come to the United States--whether 
temporarily or permanently--as well as those who seek to become 
citizens of this Nation. It also includes work continuing to 
process Temporary Protected Status (TPS) and DACA after courts 
have interfered with our lawful attempts to terminate these 
programs, time and resources that should be spent adjudicating 
lawful immigration benefits instead.
    USCIS naturalized approximately 833,000 new citizens last 
year--the most in more than a decade. USCIS granted lawful 
permanent residence to 582,000 individuals and completed more 
than 78,000 affirmative asylum applications. The agency also 
performed more than 40 million verifications of employment 
eligibility through the E-Verify program.
    On the Southern Border, USCIS felt the impact of the 
crisis, receiving more than 105,000 credible fear referrals--
5,000 more than the previous year and a new record high. To put 
that in some perspective, just 5 years ago, still on the front 
edge of what is considered the crisis, 2014, USCIS received 
approximately 51,000 credible fear referrals, and just 10 years 
ago, USCIS received approximately 5,000 credible fear 
referrals. So you can see the nonlinear rise in that measure of 
the crisis at the border.
    During any given week in fiscal year 2019, 150 to 200 of 
our officers were assigned to process cases arising from the 
Southern Border, including approximately 40 to 60 assigned to 
process cases in person at the Southern Border.
    USCIS took significant actions that will result in 
protecting American taxpayers by publishing a Final Rule on 
Inadmissibility on Public Charge Grounds, a rule that enforces 
the longstanding law to better ensure that those who come to, 
or remain in, the United States are self-sufficient and not 
dependent on public benefits. Public charge has been a part of 
our immigration statute since 1882.
    Unfortunately, DHS was preliminarily enjoined from 
implementing and enforcing this final rule. The Department of 
Justice (DOJ) and DHS are vigorously defending the final rule 
in litigation before Federal courts, and I am confident that, 
as we continue to do as these things go through courts, we will 
prevail in that.
    USCIS continues to expand our online filing capabilities 
with over 1.2 million applications filed last year, a 10-
percent increase from the previous year. USCIS added four of 
our important forms for a total of eight now available for 
online filing with additional forms planned to be added this 
year.
    The men and women of USCIS are working extremely hard to 
transform a paper-based agency into an electronic agency that 
takes full advantage of the capabilities of the 21st Century, 
all while maintaining our records in a secure fashion, even as 
our threats evolve.
    In the coming year, USCIS will continue to use every tool 
available to us to fulfill President Trump's goals to 
strengthen our Nation's strained immigration system and 
alleviate the crisis at our border while continuing to fairly 
and efficiently adjudicate applications and petitions of those 
seeking lawful status in the United States.
    Thank you again for the opportunity to testify, and I look 
forward to answering any questions that you might have.
    Chairman Johnson. Thank you, Director Cuccinelli.
    Our next witness is Derek Benner. Mr. Benner is the Acting 
Deputy Director of Immigration and Customs Enforcement at the 
Department of Homeland Security. Mr. Benner has served in a 
variety of positions within ICE since he began his law 
enforcement career with the U.S. Customs Service in 1991. 
Before becoming Acting Deputy Director, he served as the 
Executive Associate Director for Homeland Security 
Investigations (HSI), a position in which he oversaw the 
investigative component of ICE that combats transnational 
criminal organizations. Mr. Benner.

  TESTIMONY OF DEREK BENNER,\1\ ACTING DEPUTY DIRECTOR, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Benner. Chairman Johnson, Ranking Member Peters, and 
distinguished Members of the Committee, thank you for the 
opportunity to appear before you today to review U.S. 
Immigration and Customs Enforcement's efforts for fiscal year 
2019.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Benner appear in the Appendix on 
page 585.
---------------------------------------------------------------------------
    I will echo my colleagues when I say that the unprecedented 
crisis we saw on the Southwest Border certainly stressed our 
immigration system to its breaking point, and the 
administration clearly took necessary actions to address it.
    The face of this breaking point, though, is an example 
which tragically illuminates the humanitarian cost of an 
unsecure border. It involves an adult Guatemalan male who 
presented at the border with a minor female whom he 
fraudulently claimed to be his child. Since law enforcement 
could not detain as a result of the Flores Settlement 
Agreement, they were released into the interior of the United 
States. He then moved the minor female to the southeastern 
United States where he repeatedly sexually abused and beat her 
on a regular basis until she was, luckily, rescued by law 
enforcement. Sadly, this is just one of many examples of this 
fraud, exploitation, and violence associated with this 
unprecedented crisis.
    Like any crisis, we are certainly not measured by the 
crisis itself but how we respond. I appear before you today 
proud to represent the men and women of ICE who responded to 
the call and whose efforts significantly curbed the migrant 
influx which overwhelmed our borders.
    Our response to this crisis was not without consequence. 
The sustained increase in illegal migration has stretched 
resources thin across the U.S. Government. The administration 
was faced this year with responding to the humanitarian crisis 
at the border at the expense of other vital law enforcement 
missions.
    While the border dominated the headlines, the achievements 
of ICE over the last year were not defined by the crisis, nor 
were they limited to the border. Across the country and around 
the globe, ICE personnel remain steadfast in their critical 
mission--protecting America from cross-border crime and illegal 
immigration that threatens national security and public safety. 
Today I will highlight ICE's two robust operational 
directorates responsible for protecting the people of this 
great Nation.
    ICE's Homeland Security Investigations investigates and 
enforces more than 400 Federal criminal statutes, and we work 
in close coordination with U.S. Customs and Border Protection 
and our State, local, tribal, and Federal partners in a unified 
effort to target transnational organized crime. Over the past 
year, HSI's special agents arrested over 46,000 individuals, 
with more than 37,500 of them being criminal arrests, exceeding 
last year's record by over 3,000 criminal arrests. HSI made 
4,000 arrests of gang leaders, members, and associates, 
including over 400 arrests of MS-13 members.
    HSI continued to be at the forefront in the fight against 
the opioid epidemic and prioritized the investigation, 
disruption, and dismantlement of TCOs involved in introducing 
fentanyl, heroin, and other dangerous opioids into the United 
States.
    In fiscal year 2019, HSI and our CBP partners seized over 
11,000 pounds of opioids, including over 3,600 pounds of 
fentanyl, while at the same time making over 2,000 fentanyl-
related arrests, which was an increase of nearly 175 percent 
from the prior year.
    HSI also continued to protect our citizens from crimes of 
exploitation by arresting over 3,600 child predators and over 
1,800 human traffickers, while at the same time identifying and 
assisting more than 1,400 victims of these heinous crimes. 
These efforts pay immediate dividends when considering the 
long-term damage these criminals can inflict upon their 
vulnerable victims.
    All of these accomplishments were achieved despite the fact 
that HSI sent 400 personnel to the border to assist with 
combating the migrant influx. Agents who would otherwise be 
investigating criminal organizations were deployed to initiate 
a rapid deoxyribonucleic acid (DNA) pilot utilizing 
supplemental appropriations from Congress that allowed for over 
10,000 DNA tests at seven locations along the Southwest Border. 
During this deployment, agents conducted interviews of members 
of suspected fraudulent family units to disrupt the disturbing 
practice of children being used as pawns by ruthless human 
smuggling and trafficking organizations. These efforts resulted 
in the identification of over 1,000 incidents of family unit 
fraud and false UAC claims, which also led to over 1,000 
criminal prosecutions. As a result of these efforts, HSI has 
seen a marked decrease in the number of fraudulent family 
incidents over the past few months, indicating that our joint 
efforts have impacted the use of the fraudulent families to 
circumvent our Nation's immigration laws.
    ICE's Enforcement and Removal Operations (ERO) ensures the 
integrity of our immigration system and enhances our national 
security and public safety by enforcing the Nation's 
immigration laws in a fair and effective manner. While ERO's 
targeted immigration enforcement operations focus on the 
interior of the country, changes in migration flows at the 
border directly impact nearly every area of the agency's 
operations, including interior enforcement resources and 
detention capacity.
    As a result of the activity at the border, much of ERO's 
limited detention capacity has been dedicated to housing aliens 
arrested by CBP at the border, many of whom are subject to 
mandatory detention under U.S. immigration laws. Certainly this 
shift in resources and ERO's arrest of aliens in the interior 
decreased by almost 15 percent, to include a decrease in the 
number of criminal aliens arrested. Simply put, more criminals 
who would otherwise be in ICE custody or removed from the 
country are at large in our communities, many of them violent 
recidivists, as a direct result of the border crisis.
    Despite the operational environment of extremely limited 
resources, ERO has continued to focus on its public safety 
mission. In fiscal year 2019, ERO officers arrested nearly 
140,000 aliens of which 86 percent were convicted criminals or 
had pending criminal charges.
    The safety of the courageous and dedicated men and women of 
ICE is paramount to our agency. When local jurisdictions refuse 
to work with us or obstruct our lawful enforcement of the laws 
that this body has passed, it increases the risk to every 
community in this country. In just one example from Boulder 
County, Colorado, ICE officers recently found and arrested a 
56-year-old illegal alien who had been released from local 
custody twice after ICE detainers were ignored. The alien was 
arrested on local charges and then released, subsequently 
arrested for felony sexual assault on a child and again 
released. He was convicted of sexual assault in July of this 
year and remained at-large until ICE apprehended him in August 
2019.
    Not only do these policies impact public safety by 
releasing criminals back onto the streets to reoffend, but also 
the safety of both the individuals we are arresting and our own 
officers and agents whose goal it is to effectively enforce the 
law in a manner that is safest for all parties involved. It is 
much safer for officers and the public to have ICE apprehending 
aliens in the secure environment of a jail or police station 
rather than in a residence in the presence of family and 
friends.
    Unfortunately, despite our collaborative efforts at the 
border, the crisis does not start and stop at the border. It 
extends into the interior of the United States. Between the 
illicit flows of opioids and the mass influx of aliens, almost 
every community in this country is now a border community. 
While our partners at CBP appreciate a temporary decrease in 
the migrant flow, ICE is not so fortunate, as our personnel, 
particularly our attorneys and deportation officers, will be 
managing this unprecedented increase in immigration cases for 
years to come.
    An already overburdened immigration system now must deal 
with the massive influx of aliens and their immigration court 
proceedings, The ICE ERO docket is now over 3 million, a 
population managed by a workforce that is short thousands of 
deportation officers and hundreds of attorneys.
    Contrary to some public opinion and in the face of those 
who wish to attack those of us that represent the men and women 
of DHS, we remain vigilant enforcing the laws that Congress has 
passed. The extraordinary men and women of ICE will continue to 
reinforce our efforts in protecting the communities each of you 
represent from criminal aliens, terrorists, drug dealers, human 
trafficking, gang members, and organizations who attempt to 
exploit our borders.
    Thank you again for the opportunity to appear this morning, 
and I look forward to answering your questions.
    Chairman Johnson. Thank you, Mr. Benner.
    Our final witness is James McHenry. Mr. McHenry is the 
Director of the Executive Office for Immigration Review (EOIR) 
at the Department of Justice. Mr. McHenry previously served as 
Acting Director from May 2017 to January 2018. He previously 
served in a variety of positions throughout the Federal 
Government, including an administration law judge (ALJ) for 
immigration matters, and is a Deputy Associate Attorney General 
for immigration-related litigation matters. Mr. McHenry.

 TESTIMONY OF JAMES MCHENRY,\1\ DIRECTOR, EXECUTIVE OFFICE FOR 
         IMMIGRATION REVIEW, U.S. DEPARTMENT OF JUSTICE

    Mr. McHenry. Mr. Chairman, Ranking Member Peters, and other 
distinguished Members of the Committee, thank you for the 
opportunity to speak with you today. As the Director of the 
Executive Office for Immigration Review at the Department of 
Justice, I welcome this opportunity to share with you the 
progress that EOIR has made in adjudicating cases, the 
continuing challenges it faces, and the overall impact of the 
unprecedented levels of illegal immigration on its operations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McHenry appear in the Appendix on 
page 596.
---------------------------------------------------------------------------
    The primary mission of EOIR is to adjudicate immigration 
cases by fairly, expeditiously, and uniformly interpreting and 
administering the Nation's immigration laws. Our employees are 
firmly committed to this mission, they have performed 
commendably in improving the functioning of our immigration 
courts, and I am honored to lead them.
    After 8 consecutive years of declining or stagnant 
productivity between fiscal year 2009 and fiscal year 2016, 
EOIR recently concluded its third consecutive year of increased 
immigration court case completions. In fiscal year 2019, EOIR 
completed over 275,000 cases at the immigration court level. 
This represents the second-highest total in the agency's 
history, an increase of roughly 80,000 case completions from 
the prior year 2018, and is almost double the number of cases 
it completed just 3 years ago. Even accounting for factors such 
as hiring recency, 150 of our immigration judges completed at 
least 700 cases last fiscal year, and the average immigration 
judge completed 708 cases, despite losing 5 weeks to the 
government shutdown. Perhaps most importantly, this increase in 
productivity did not lead to an increase in allegations of 
judicial misconduct.
    Although we have solved some of our more intractable 
problems of the past decade, including hiring, productivity, 
and technology, our progress is, nevertheless, threatened by 
challenges emanating from the continued surge of illegal 
immigration at the Southern Border.
    For many years, the immigration court caseload, which 
currently stands just under 1 million, increased due to factors 
primarily within EOIR's control, namely declining productivity 
by immigration judges, insufficient hiring, and a lack of 
institutional emphasis on the importance of completing cases in 
a timely manner. Those factors, however, are now being 
successfully addressed. More recent increases to the caseload, 
though, have been driven largely by external factors.
    More specifically, in fiscal year 2019, the Department of 
Homeland Security filed approximately 443,000 new cases with 
the immigration courts. That is the highest single year number 
in EOIR's history.
    On average, four out of every five removal cases filed in 
immigration court will conclude with the alien required to 
leave the United States through either an order of removal or 
an order of voluntary departure. This means that statistically 
the majority of cases may not involve a viable claim that 
allows an alien to lawfully remain in the United States. 
However, the presence of these cases on EOIR's already crowded 
dockets diverts resources from more effectively addressing 
those claims that are meritorious. In particular, significant 
increases in recent years in cases involving asylum 
applications, unaccompanied alien children, credible fear 
claims, and aliens who fail to appear at their hearings have 
taxed our resources to an unprecedented degree.
    Our immigration system faces numerous challenges, and the 
current level of illegal immigration is foremost among them. 
EOIR shoulders significant downstream effects of surges of 
illegal immigration at the border, and those effects in recent 
years have placed a marked strain on its resources. To combat 
these effects, the Attorney General has brought important 
clarity to the law through case adjudications, and the 
Department of Justice is actively defending against challenges 
that would otherwise erode the integrity of our immigration 
laws. EOIR continues to adjudicate cases fairly and 
expeditiously at unprecedented levels, but fair and efficient 
adjudication alone will not resolve the crisis at the border. 
It is imperative that Congress act as well.
    The Department has proposed numerous changes that would 
strengthen the immigration system as a whole, including 
consolidating Federal appeals in one circuit, clarifying the 
so-called categorical approach, and revising statutory language 
that the Supreme Court has found unconstitutionally vague. We 
stand ready to continue to work with Congress to strengthen 
existing laws and to more effectively address the many 
challenges facing our immigration system today.
    Again, thank you for the opportunity to testify, and I 
would be pleased to answer any questions the Committee may 
have.
    Chairman Johnson. Thank you, Mr. McHenry. I am going to 
actually do some questioning. Normally, I defer, but there are 
a couple things that popped out of me.
    Mr. Benner, you talked about an ERO docket of 3 million. 
Mr. McHenry, you talked about a 482,000 pending caseload but a 
little under a million backlog. Can we start reconciling what 
these numbers are, what they exactly mean?
    Mr. McHenry. I will defer to Mr. Benner regarding the 3 
million ERO caseload, but my understanding is that would 
include cases that are already final but still have to be 
processed or reviewed.
    On our side, as you know, the caseload has increased almost 
exponentially over the past decade, but it has increased 
considerably in the past 3 years. Most of that increase appears 
to be driven by changes to the border. Our judges are 
adjudicating cases as efficiently as they possibly can, and as 
I alluded to, we have made significant improvements in that 
area.
    Chairman Johnson. But, again, the pending caseload or just 
the most recent ones, that is about half of the million. What 
are the other half a million?
    Mr. McHenry. Those are cases that were filed in a prior 
fiscal year. Those are cases--some of them may have been up on 
appeal and have come back, or they are cases that are just 
taking that long to adjudicate.
    Chairman Johnson. OK. So pending is just this year's cases?
    Mr. McHenry. No, pending is all cases that were pending as 
of the end of the fiscal year.
    Chairman Johnson. OK.
    Mr. McHenry. They could have been filed that year or filed 
in a prior year.
    Chairman Johnson. We have also over time--I think we 
stopped doing this, administratively closing some of these 
cases. I think there were hundreds of thousands of those that 
have been administratively closed over the years. Is that true?
    Mr. McHenry. There are right now approximately 320,000 
cases that are still administratively closed. They are not 
included in that 1 million total.
    Chairman Johnson. OK. And then, Mr. Benner, the 3 million 
cases, those have been adjudicated, so those are off the 
Department of Justice docket, kind of in your lap. So they have 
been adjudicated, and they have basically been ordered for 
removal, correct?
    Mr. Benner. Correct. So it is a little confusing saying 
``on the docket,'' but the 3 million would be inclusive of EOIR 
numbers plus the added--the delta, the difference there is 
people that maybe have already been through their adjudication 
process; they have already been in front of an immigration 
judge (IJ); they have an order of final removal, a lot of them 
in absentia. Recently, with the expedited docket of the family 
units, 86 percent of the final orders of removal were ordered 
in absentia, meaning no one showed up.
    Chairman Johnson. Which brings me to the next question. To 
what extent do we know where the 608,000 people are from that 
chart.\1\ I guess the chart is not up there anymore. Now, 
again, I am just talking about the children and family units 
that came in last year. Do we know where those people are? 
Again, when I was down on the border, I realized they give 
addresses, but then they do not necessarily show up. So can we 
comment on the extent that we actually keep track of where they 
are that have come in illegally?
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appear in the appendix 
on page 601.
---------------------------------------------------------------------------
    Mr. Benner. So, no, we do not, largely, as evidenced by the 
fact that those families were issued a notice to appear; unless 
they are put on some form of alternative to detention or 
monitoring system, we have a higher rate of knowing where 
people are.
    Chairman Johnson. But that is a very low percentage that 
are on alternatives to detention (ATDs), correct?
    Mr. Benner. Right. Our capacity I think is around--I want 
to say 160,000 people in fiscal year 2019 went through the ATD 
process, whether it was ankle bracelet monitoring, phone check-
ins, and other technology. So, no, smaller percentage.
    Chairman Johnson. Do we have some feel, Mr. McHenry, in 
terms of the successful asylum claims after the adjudication 
process? Because I have heard different things, as low as 9 
percent, 15, or 20 percent. What is the best information we 
have in terms of these family units coming in? Again, I am 
really focusing on that problem in terms of successful asylum 
claims.
    Mr. McHenry. The overall asylum grant rate right now is 
about 20 percent. Historically, it has been below 25 percent 
for the past 4 or 5 years. The rates for some of the Northern 
Triangle countries are even lower, but it is basically one out 
of five at this point.
    Chairman Johnson. OK. Again, that makes sense to me. People 
are coming to improve their lot in life. I am highly 
sympathetic with that, but that is not a valid asylum claim.
    I was surprised but not shocked in our threat hearing last 
week where we had the Director of the FBI, somebody from DHS, 
and somebody from the National Counterterrorism Center (NCTC). 
Not one of those three individuals even mentioned gangs in 
their written testimony. I brought it up, so there was some 
oral testimony about that.
    In light of what we saw in Culiacan with El Chapo's son 
being arrested and then the Mexican Government just having to 
give him back because of what the drug cartels did, the murder 
of the nine Mormons, to what extent is that drug cartel, that 
kind of violence, how has that already spilled over the border? 
I would think it is certainly, in terms of gangs, the drug 
distribution where--again, those people just turn themselves 
in. They overwhelm the system, which allows a lot of people to 
get away. I would think those would be gang members, maybe drug 
kingpins, maybe, people that are going to--so as soon as we put 
somebody away, they can bring somebody else in to manage an 
operation.
    So can you describe to what extent is that spilling over 
the border? Are we at a greater risk for that spilling over the 
border in a more extensive manner? Whoever wants to--Mr. 
Morgan?
    Mr. Morgan. Sir, I can address a little bit just from a 
statistics standpoint. I mentioned in my opening in fiscal year 
2019 Customs and Border Protection apprehended over 1,200 gang 
member from 20 different gangs, the majority of them being MS-
13. So we know and every local law enforcement in this country 
knows that the main tool that the drug-smuggling organizations 
use are gang members to distribute their drugs throughout----
    Chairman Johnson. That is who you apprehended. Any estimate 
of how many you did not?
    Mr. Morgan. That is the question that we do not talk about 
enough. We conservatively, sir, estimated 150,000 individuals 
illegally into this country that we did not catch. And you just 
think about----
    Chairman Johnson. In one year?
    Mr. Morgan. In one year, 150,000. Those are the individuals 
who are running from the Border Patrol agents, who are trying 
to avoid apprehension. So the intellectually honest 
conversation we need to have is there is a good chunk of those 
people, that 150,000, are bad people, criminal aliens coming 
in, gang members coming in. The numbers are staggering, and 
everybody in this country should be alarmed by that.
    Chairman Johnson. Do we have within law enforcement--again, 
I could not get this out of the FBI Director or the witnesses 
last week. Do we have some estimate of how many gang members 
are in this country? And is that a growing number? Are we 
successfully battling that? I could not get that answer. Can 
anybody here offer one? I am out of time, but----
    Mr. Morgan. I would say I would hand it over to Derek from 
the domestic law enforcement.
    Mr. Benner. So we do not, sir, have really good statistical 
reporting on the number of specific types of gang members. So 
MS-13, for example, we have been focusing on for the last 2 
years in particular, and the estimates have been in the range 
of 8,000 to 10,000 MS-13 members. We have been working with the 
El Salvadoran national police, though, to try to get a better 
understanding of the flows both out of the United States 
through DHS and ICE's removals and investigations, but then 
also understand what the population is in El Salvador that may 
be looking to travel.
    Chairman Johnson. So just a quick response. Is it your 
sense that this is a growing number, a growing problem? 
Something that is contained? I just want some kind of sense in 
terms of the threat level.
    Mr. Morgan. It is not, from our perspective it is not 
contained, and it is growing. Again, the cartels, specifically 
the Mexican cartels, they thrive off the gang members as part 
of their distribution node and network throughout this United 
States. They need those gang members to infiltrate every town, 
city, and State in this country to further their drug scheme 
that they do. So from our perspective, the numbers are not 
getting better, and, again, we need to talk more, Chairman. You 
mentioned about the numbers we do not catch. So that is why it 
is a little bit harder to----
    Chairman Johnson. We will pick up on that. I am way over 
time. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Mr. Morgan, effective training ensures that our Border 
Patrol agents execute their mission with the highest degree of 
professionalism. Both initial and continuing training sessions 
I think keep them out of costly and very time-consuming 
disciplinary investigations. When they are in those 
investigations, they are not on the line, and that is what we 
want them to do, is to be on the line and be able to do that 
professionally. I do not see the need for training as a 
criticism in any way for the men and women who serve in these 
critical roles; rather, I think it is a recognition that they 
are in a very challenging environment and an environment that 
is highly dynamic as well.
    If you look at the Department of Defense (DOD), they do not 
put folks out into harm's way without extensive training. 
Certainly when it comes to private industry, they regularly 
train so their employees understand that is the best way to 
increase productivity, is having training schedules as well.
    So my question to you is: How many hours of training do new 
Border Patrol agents receive?
    Mr. Morgan. So we have two major topics. One is Custom 
Border Protection Officers (CBPOs), and then United States 
Border Patrol agents. So Border Patrol agents get in excess of 
about 700 hours of training. CBPOs get a little bit less than 
that, but only because some of the areas' requirement for the 
Spanish language is not as great. If they are going to be 
assigned to those ports, then they get additional, I believe, 
around 80 hours, so that gets them up about equivalent to the 
Border Patrol. So you are looking at in excess of 700 hours of 
basic training.
    Senator Peters. That is prior to them going out, they get 
700 hours. Is there a continuing education every year for them?
    Mr. Morgan. Yes, sir. It is really two different facets. 
One is specific to their continuing education specific to their 
job skills and duties. And then there is another which we have 
all employees do. A couple of those would be continuing ethics 
training, annual integrity training. We just developed some new 
social media training, training on Trafficking Victims 
Protection Reauthorization Act of 2018 (TVPRA), et cetera.
    Senator Peters. How many agents have faced disciplinary 
action in the last 2 years, approximately?
    Mr. Morgan. So approximately in the last 2 years--it has 
been consistent. Around 3,500 have received some form of 
disciplinary action. That is a long list and it varies, but 
about 3,500.
    Senator Peters. Would you agree that effective training 
programs can help reduce the incidence of misconduct and the 
disciplinary action that takes them off the line?
    Mr. Morgan. Absolutely. I always say, great organizations 
remain great because they obsess over two things: leadership 
and training. I will say training is part of that, but I also 
think that well-thought-out and articulately communicated 
policies and plans and tools. I think another big area is 
resiliency training and programs as well that helps that.
    Senator Peters. What enhanced training do the agents 
receive or reforms did CBP undertake after the widely reported 
misconduct involving inappropriate social media use and 
harassment that I know you are aware of?
    Mr. Morgan. Yes, sir. That is a good question. So shortly 
after that, I am really proud of the CBP team. They really got 
together across the board, across all different components, and 
developed a first-time ever social media training package that 
was mandatory for every single CBP employee, and that course 
was launched on July 22 of this year, and I am happy to say 
that we had a 99-percent completion rate of that training.
    Senator Peters. All right. Thank you.
    The next question is really for the whole panel. If they 
would interject, I would appreciate it.
    The administration has implemented a number of policy and 
operational changes that have had significant effects on 
individuals attempting to seek asylum in the country. These 
changes include metering and the Migrant Protection Protocols 
(MPP), which have forced thousands of families and their 
children to wait in some pretty dangerous areas in Mexico while 
they wait for their claims to be heard.
    In addition, the administration implemented the asylum ban 
for non-Mexican migrants who transit through Mexico, rapid 
deportation pilots, and has allowed Border Patrol agents to do 
asylum screening interviews.
    I want to say first off our most important responsibility 
is always to keep our Nation safe. That has to be number one, 
and I know all of you four gentlemen share that. But we can 
also secure our borders and ensure that families fleeing 
persecution and violence also have a fair process. I think we 
can do both. That is something that we can do as a country.
    So in light of the many reports detailing kidnappings, 
sexual violence, extortion, disappearance, and murder targeting 
at migrants returned to these areas, my question is: Is DHS 
considering revisiting the Migrant Protection Protocols (MPPs)? 
Any thoughts about that given some of the things that we have 
been seeing? Who wants to take that? Mr. Morgan and then 
anybody else after.
    Mr. Morgan. So, sir, I can speak to that briefly. On the 
MPP, first I think we have to quickly--what are the reasons why 
that started? So at one point, CBP, we had over 20,000 
individuals in our custody. Our capacity is about 4,000. It was 
overcrowded. It was unbelievable. Now, and largely because of 
MPP, we have about 3,500 people in our facilities. The 
overcrowding issue has all but evaporated.
    So now let's look at MPP. What I can tell you the facts 
are, just recently the Department of State along with the 
International Office of Migration (IOM), other advocacy groups, 
as well as Non-Governmental Organizations (NGOs) actually went 
to Mexico and visited several shelters. Two of those shelters 
were found to have persistent law enforcement presence. One had 
National Guard. One was run by a church organization, the other 
by the government. They were under capacity. They did not have 
adequate food and medical attention, et cetera.
    What we are hearing--so those are some facts. The other 
facts, IOM, who has a more methodical and structured approach 
to the information and intelligence they are gathering, because 
they actually interview the migrants, their MPP, and ask them 
if they want to voluntarily return. They are saying that if 
they stay in the shelter environment, those things are not 
happening. The issue that we are receiving, yet still somewhat 
anecdotal, is that the issue becomes when the individuals in 
MPP leave the shelter environment and either go out in the 
economy on their own and/or what we are seeing is they are 
reengaging the human-smuggling organizations to then come back 
and reenter illegally. We have about a 9-percent recidivism 
rate. The information we are getting is that is the area where 
they are being exploited again with respect to that.
    Senator Peters. Does anybody else want to add to that?
    [No response.]
    Do we have data there or are these anecdotal stories? These 
are certainly very troubling reports that come out, and again, 
back to our point--and you and I have spoken about this a lot.
    Mr. Morgan. Yes, sir.
    Senator Peters. What is the data to actually support what 
you are saying?
    Mr. Morgan. So that is the tough part, and I think you are 
spot-on. We should try everything we can, sir, to get that 
data. That is what makes this tough, is that the data just is 
not there because we are dealing with another country. A lot of 
the information we are talking about is anecdotal. Again, we 
are trying to go and revisit these shelters. Again, an 
interagency group of nonprofit organizations were dealing on a 
daily basis in the field level with our Mexican counterparts to 
get that data. The data is just not there. Those reports are 
not being substantiated by the Mexican military or the National 
Guard, so it is hard for us to get the data.
    The data that we can get is that, again, we were at 20,000 
in May and now we are down to 3,500 in custody. The data was in 
May 140,000 apprehensions. Now we are averaging 1,400 a day. A 
large reason for that is because of MPP, and Mexico has for the 
first time stepped up and agreed to really meet us as partners 
and see this as a regional crisis. Because of that partnership, 
we are seeing our capacity go down. We are seeing our 
apprehensions go down. That data I have that shows MPP is 
effective.
    Senator Peters. All right. Thank you.
    Chairman Johnson. I will just add, I was handed a note by 
staff. Apparently a group--and I do not know anything about 
this group, Human Rights First--issued a report and said there 
were 343 cases of violence or threats out of 57,000 individuals 
that have gone through the MPP program. So, again, every one is 
a problem, but 343 out of 57,000 kind of ties into what I think 
Mr. Morgan was talking about. But, again, I would like to enter 
that report into the record,\1\ and we will check and see the 
veracity of it.
---------------------------------------------------------------------------
    \1\ The report referenced by Senator Johnson appear in the Appendix 
on page 603.
---------------------------------------------------------------------------
    Mr. Morgan. And just real quickly--and this is important--
anytime anybody, any person that is enrolled in MPP, if they 
have any concern, any fear at all, all they have to do is come 
to a port of entry and express that, and they will be given due 
process.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Gentlemen, thank you. Thanks for the work 
that you are doing. Thanks for standing up for the laws of the 
United States. You do not hear enough, and so let me add a 
voice that I hear a lot in my State, that people are incredibly 
grateful for the work that is happening, and understand we have 
laws in our country, and you and your teams are stepping up and 
enforcing the laws that are on the books. So thank you for 
doing that.
    I listened to some of the current debate nationally, and 
there is a move to be able to transition DHS to being more like 
greeters at the border than they are law enforcement at the 
border, and I am grateful that we have law enforcement folks 
there and for the stories that you have already told about some 
of the dangers and the risks that are there.
    I have a whole series of questions, but I want to start 
first talking about with ICE. When I was down at the border 
last July and talking to CBP folks that were there, I said, 
``What do you need?'' The very first thing that most of them 
said is, ``We need ICE to get more funding. We need ICE help.'' 
They are doing soft-sided facilities, which I want to be able 
to speak to you about, where we are on that status right now. 
But there was a pretty big push to say that the biggest issue 
that CBP has is not enough capacity with ICE.
    I understand there are some battles. There is a whole group 
of folks saying they want to abolish ICE or de-fund ICE and not 
have it at all. But what do you need at this point to greater 
be able to manage a surge of people coming at us next summer?
    Mr. Benner. So two things, Senator. Number one, detention 
beds. Detention capacity is a really big issue that affects the 
whole ecosystem of enforcement of our immigration laws, and as 
Commissioner Morgan can attest, the funding levels of beds, for 
example, in fiscal year 2019 was 45,000 and change, including 
2,500 beds for family residential centers (FRCs). We were 
operating at a high of almost 58,000, well over our 
appropriated levels, and, of course, we do want to live within 
our means. However, the operational reality in responding to 
the crisis really forced us to make some decisions about, how 
to acquire more beds----
    Senator Lankford. Do you have the capability to be able to 
surge up numbers if you were given additional funding to be 
able to do that, as far as the location of facilities that are 
quality facilities? What they are managing right now on the 
border when they had up to 20,000 people with 4,000-bed 
capacity, they are trying to be able to manage, they are not 
going to just release people on the street, which we thank you 
for doing that, to be able to help manage what you get. But do 
you have the capability at ICE to be able to surge facilities 
up?
    Mr. Benner. Yes, sir, and we will not bring a bed online 
unless it meets all of our high standards for ICE. So sometimes 
the challenge in identifying beds is making sure that they meet 
the standards that we are committed to putting detainees into. 
I will say one example of some proactive planning would be the 
ability to have a certain number of beds available and empty in 
almost like an emergency preparedness posture, so like Federal 
Emergency Management Agency (FEMA), for example, stores 
supplies and assets and things that they would need to respond 
to a natural disaster. We should have 5,000 beds that are ready 
to go to immediately address a spike in numbers at the border. 
And so those beds, that is going to cost money, but they are 
empty and they are available and they are ready to go in the 
case of an emergency.
    Senator Lankford. So let me push that cost money. Do you 
have a guess of what that might on cost? Have you all started 
looking at that?
    Mr. Benner. I do have estimates, Senator, and I am happy to 
provide those to you or actually come----
    Senator Lankford. Glad to be able to talk about it. Let me 
switch over. The soft-sided facilities that CBP had to do to be 
able to ramp up, to be able to manage the capacity, they are 
around $200 million a year to be able to ramp--that is a pretty 
big cost on it. But there was no place to be able to go to be 
able to ramp up. What is the status on those? How many soft-
sided facilities do we have? I have visited some of those 
facilities. They are great facilities, and they are well 
managed, they are well run, they are fully stocked. How many of 
those do we still have and what is the capacity on those soft-
sided facilities?
    Mr. Morgan. So we still have multiple facilities 
independent of what they are. So we have facilities that are 
designed for families. We have families designed for single 
adults. And we also have facilities for the temporary hearing 
facilities to support MPP. It is costing a tremendous amount of 
money every single month. You and I have talked about this, 
sir. What I am concerned about, though, is I do not want to 
look up the definition of insanity in the dictionary and have a 
picture of a soft-sided facility. We have to change how we do 
this. I think Acting Deputy Director Benner said it best. We 
need a surge capacity. We are looking for bipartisan support in 
the future, to establish permanent hard-sided facilities in 
strategic locations along the Southwest Border that are multi-
use, multi-purpose buildings, that gives us that capability to 
instantaneously turn on the lights and give us that surge 
capacity, so, one, we are not in a position we were this year 
where we did have to release individuals into the cities and 
towns, tens of thousands on a regular basis, and we are 
avoiding the definition of insanity of just having to ramp up 
soft-sided facilities only to tear them down again.
    Senator Lankford. Mr. Benner.
    Mr. Benner. Senator, so this year ICE had 503,000 book-ins 
into custody; 75 percent of those were from CBP. So, ERO and 
ICE and the infrastructure of transportation and all of those 
efforts were doing their level best to relieve the pressure at 
the border for Commissioner Morgan's folks.
    There is one other aspect, though, here. On the other end 
of the equation is attorneys that represent the government in 
immigration court. While it has been hugely helpful to have 
more judges and more capacity for EOIR, the ICE attorney levels 
have remained flat. And so with that docket of around a million 
at any given point, we need to look at the ability to surge our 
attorney population to service the increase at EOIR. I think 
that is a hand-in-glove kind of asset----
    Senator Lankford. They have to all go together.
    Mr. Benner. Yes.
    Senator Lankford. Mr. Cuccinelli, let me ask you a 
question. ICE did a raid in Mississippi this past year that got 
a lot of publicity on that. I think, Mr. Benner, you had 
mentioned that for ICE in the interior picking up 86 percent of 
those folks that were picked up had a criminal record already. 
Is that correct?
    Mr. Benner. Yes.
    Senator Lankford. OK. So that is important to be able to 
know, that 86 percent of the folks already have a criminal 
record on this. When ICE carried out that raid, there were a 
lot of questions, because E-Verify is mandatory in Mississippi, 
yet there were hundreds of people there that were not legally 
present that had employment in Mississippi. So help us 
understand, in States that have chosen to do E-Verify as 
mandatory, how we had that many people illegally employed 
there.
    Mr. Cuccinelli. Thank you, Senator. So in the instance of 
the operations that ICE executed there in Mississippi at a 
number of different locations, you had multiple companies 
claiming to be participants in E-Verify and they had registered 
with E-Verify. But when we investigated with our partners at 
ICE how many of the individuals they had utilized E-Verify on, 
it literally came to a handful, less than 20, if recollection 
serves. And you know the hundreds that were identified by ICE 
as working there illegally.
    So we have instituted for the first time a consequence for 
businesses who participate in E-Verify or nominally participate 
in E-Verify, but do not comply with the terms of that 
participation, such as the businesses in Mississippi would be 
an example, that we will terminate them from the E-Verify 
program. So for the first time, we are bringing a consequence 
to those businesses so they cannot shield, as they did--you 
heard in the press, ``Oh, well, we use E-Verify.'' Right, we 
used it once last year on one guy. And they cannot do that any 
longer.
    Senator Lankford. OK. Thank you.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. To each of you, 
thank you for your service, and to the men and women who work 
for you.
    It is a tough job, isn't it? It looks like from the numbers 
that there has been enormous success in reducing the number of 
people crossing the border, but we have to put it in 
perspective. It is still a lot of people relative to the 
historical numbers. So a 64-percent decrease, as I read it, 
from May to September. That is positive. In terms of the 
pressure that you all feel and the infrastructure feels that I 
saw when I was down there a few months ago, it is better.
    I still do not think we quite understand what happened, 
although, Commissioner Morgan, you talked a little about the 
Remain in Mexico program and how that is working. Can you tell 
us a little more about what you think the other factors are, 
and if you could give what you think the top three reasons are 
you have seen a reduction, in order? And then also how has the 
makeup changed? We have seen reports, as an example, that there 
are fewer Central Americans crossing but more from Mexico. Is 
that accurate? Do they tend to be family members? I understand 
some are claiming asylum, so a similar fact pattern. If you 
could give us just a little sense of what is going on and why.
    Mr. Morgan. I will take the latter first. So the changed 
demographics, this is key. So the demographics, you are spot-
on, have changed. Again, all of last year we had about 71 
percent came from the Northern Triangle countries, and the 
overwhelming majority of those were families and unaccompanied 
minors. For the first time this year, now what we are seeing is 
actually Mexican nationals now are taking over a larger 
percentage than those individuals from Northern Triangle 
countries, and the specific families and unaccompanied minors 
numbers, those are drastically being reduced for the first 
time. That is a game changer. That is very important. It is the 
families and kids that really task our system because of the 
broken legal framework.
    To your point, hands down the Government of Mexico, their 
efforts, is number one. I would call Mexico number one and 
number two because they are really doing two important things. 
One is with the formation of the National Guard, over 25,000 
troops. They strengthened their Southern Border. They 
strengthened the border between Mexico and the United States. 
They have also targeted interior enforcement operations, 
specifically the human-smuggling routes. In fiscal year 2019, 
we had 213 large groups, one group of over 1,000, I believe it 
was in May in El Paso. Last month, we had two. So Mexico is 
absolutely strengthening interior enforcement and their 
enforcement on both borders.
    The second thing is that they are supporting MPP. I think I 
described that. That has been a game changer as well.
    I would say the third element that is really impacting is 
what we have done with the Northern Triangle countries. So they 
have joined us. They are trying to strengthen their interior 
enforcement as well. They are trying to increase their asylum 
capacity. They have worked with us and other agencies sitting 
here to expedite the removal of their individuals through 
different electronic document verification and other 
techniques. That has been able to allow us to expeditiously 
return those individuals.
    The last thing real quick that I would say is this 
administration. This administration has continued to work 
within the current legal framework and continued to push. 
Although the judicial activism of lower courts has hindered us 
time and time again, we are continuing to push.
    The asylum Interim Final Rule (IFR) that is out there, that 
is another significant initiative that we are able to use, too, 
to expeditiously return individuals.
    Senator Portman. As the weather gets warmer, there are 
fewer people who tend to cross. So I am not suggesting we do 
not need to have the surge capacity again, but this does give 
us a little breather. One of the things that I have been 
concerned about going back to 2015 when we first held hearings 
about this in one of our Subcommittees is the issue of kids and 
the lack of communication between the Office of Refugee 
Resettlement (ORR) at the Department of Health and Human 
Services (HHS) and DHS. And my sense is that we are doing a 
little better now, but with this law, I would hope that we can 
do a better job of providing information about these children 
to, ORR with two goals: one, just to understand what is 
happening with these kids, where they are, why they are where 
they are--and these are children; but, second, to get them 
reunited with their families. I think it is in everybody's 
interest, by the way, including the administration, given what 
happened at a time when there was this surge, and we kind of 
lost kids.
    Can you tell us where we are on that in terms of providing 
information? You mentioned MPP earlier. The same issue, if you 
come over as a family unit and the kids get separated some are 
in the United States, the kids, and the parents are in Mexico. 
How are we doing there to provide that information? Again, I 
think this is something that is in everybody's interest, 
including the children.
    Mr. Morgan. So I will turn to my colleagues on the former 
question about the ORR issue, but specifically MPP, so we would 
not return an individual, like a parent, to Mexico and keep the 
child. So if we decide to separate based on a specific 
criteria, like, for example, the parent is a convicted 
murderer, rapist, et cetera, convicted of a violent crime, yes, 
for the safety of the child we would separate that child from 
the parent. But the child then would be provided to HHS ORR, 
and then we would keep the parent in our process in the United 
States.
    Senator Portman. OK. We will follow up on that because I do 
have some additional questions, because we are hearing some 
other things about MPP and separation and I want to be sure we 
understand it well.
    To the drug issue, I mean, as Director Benner said, I think 
accurately, we are all border States. Ohio is hit hard with 
crystal meth right now as an example, and it is coming from one 
place. It is coming from Mexico. We were already hit hard with 
opioids coming over, primarily heroin; now we see more fentanyl 
coming. It used to be almost exclusively from China through our 
mail system into our communities. Now we see it coming through 
Mexico. The cartels are very involved in this. There is a lot 
of money in it.
    As the number of crossings has gone down, we get a sense 
that the drug flow has not. I asked this question of Under 
Secretary Glawe last week. We did our annual threats to the 
homeland hearing, and we had the right people there to talk 
about what was happening in the interior of the United States 
in terms of the drug threat. He indicated that even though 
there is a 64-percent decrease in people coming across, there 
is no a decrease--in fact, an increase--in the flow of drugs. 
Is that accurate?
    Mr. Benner. Yes, Senator, that is accurate, and I will tell 
you what our concern is right now. The number of seizures of 
fentanyl from China are way down, so coming through, the small 
quantities coming through the mail facilities. But HSI seized 
over 1,000 pounds more fentanyl in 2019 than we did in 2018. 
That delta, that increase, is Mexico. The Mexican cartels have 
jumped into that fentanyl space.
    My concern is that the trend of the super labs, which we 
have seen with the methamphetamine phenomenon for 3 years now, 
is that the fentanyl problem translates into the same super lab 
problem that we are facing with methamphetamine.
    Senator Portman. I know my time is expiring here, but what 
do you mean by that precisely? Everybody would be interested, 
because for us to address this issue properly, we have to 
understand it better. I hear different things from different 
law enforcement individuals, but it seems to me, you are right, 
the Synthetics Trafficking and Overdose Prevention (STOP) Act 
and other things have helped us with regard to the mail. In 
other words, this deadliest drug, fentanyl, which kills more 
people with overdoses than any other drugs--all drugs combined, 
in fact. But with Mexico, it is going, as I understand it, 
primarily from China to Mexico. It is not being produced in 
Mexico at this point. There were two labs, you all think it is 
shut down by the Mexican authorities. But it is being processed 
there often into pills. Is that accurate?
    Mr. Benner. Yes, and so what we saw, for example, sir, in 
Ohio was the domestic pill press operations where an individual 
orders relatively pure fentanyl from China through the dark 
web. They produced pills that were killing people.
    Senator Portman. Right.
    Mr. Benner. What we are seeing now is the precursor 
chemicals to make fentanyl essentially going from China to 
Mexico where it is being processed and assembled in Mexico in 
bulk. So the number of seizure incidents has gone down, but the 
amounts and the weights have gone up. So we are seeing bigger 
shipments, bigger capacity, better quality, higher purity, and 
much more productivity.
    Senator Portman. Yes.
    Mr. Benner. And so it is really Manufacturing 101. This is 
a supply chain kind of economy, and we can apply the same 
lessons and the same rules----
    Senator Portman. Director Benner, my time is expiring. I 
would love to follow up with you on this. We met with the 
Mexican ambassador last week about this and talked about a 
trilateral approach here--China, Mexico, and the United 
States--because you still have this flow, as you said, coming 
in from China.
    Can you follow up with me on that and see how we can better 
target the cartels and the real problem here?
    Mr. Benner. Absolutely. As you know, HSI opened an office 
in Dayton and in Toledo. We doubled our footprint in Ohio to 
combat both the meth and----
    Senator Portman. We thank you for that.
    Mr. Benner. So we look forward to getting together.
    Senator Portman. Yes, thank you.
    Chairman Johnson. I just want to point out there was an 
excellent article written by Mary Anastasia O'Grady in the Wall 
Street Journal just this week where she reports that a Council 
on Foreign Relations paper says that in 2016, Americans spent 
nearly $150 billion on cocaine, heroin, methamphetamine, and 
marijuana. One hundred and fifty billion dollars. That is 
fueling these drug cartels, which are operating with impunity, 
taking over a large number of communities inside Mexico, 
certainly in Central America. They are untouchable. That 
impunity bleeds over into other parts of society in terms of 
extortion. I mean, this is America's insatiable demand for 
drugs, $150 billion. Mr. Cuccinelli?.
    Mr. Cuccinelli. I want to seize on your word ``impunity,'' 
and we cannot go too deep on it here, but they do not have to. 
And, you all in your capacity can help make sure that does not 
happen. I think that is a longer discussion for another day.
    There is a major difference between the gangs we are 
talking about and the cartels we are talking about, and it 
rises to literally at every level, from the street all the way 
up to the kind of manufacturing that Mr. Benner is talking 
about and the nature of the structure of the organizations and 
what they are willing and capable of doing. They do not have to 
be able to act the way they are acting if we take unified 
action as a Nation to counter that.
    Chairman Johnson. The challenge is in Mexico or in Central 
America, we have these drug kingpins basically controlling 
communities, the economies of the communities. Let us say you 
have a community of 10,000 people that is completely dependent 
on the drug trade. It is going to be very difficult to take out 
that drug kingpin, and, by the way, there are plenty of people 
just standing right behind him.
    So this has grown into such a massive problem, which is why 
it is so difficult for governments in Central America and 
Mexico to really deal with it. But, again, the point I am 
making, this is America's insatiable demand for drugs. But I do 
have some questions here.
    Actually, what I will do is I will defer to Senator Carper 
before I start my second round. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Gentleman, welcome. Thank you all. It is 
good to see you.
    Let me just begin by saying that my colleagues have heard 
me say over the years, ad nauseam, everything I do I know I can 
do better. I think the same is true of all of us. I think one 
of the keys to making progress is to point toward perfection. 
Our Constitution starts off with these words: ``We, the people 
of the United States, in order to form a more perfect union . . 
.'' It does not say ``perfect union.'' It says ``more 
perfect.'' The goal is toward perfection--knowing we are not 
going to get there, but at least we know where our goal is, and 
we are going to aim high.
    The other thing, we have recently had testimony before the 
Environment and Public Works (EPW) Committee. A fellow had been 
nominated to be a top official at the Commerce Department, Rob 
Wallace from Wyoming, and he is in charge of national parks, he 
is charge of the Fish and Wildlife Service (FWS). He said in 
his testimony--he used to work for Malcolm Wallop, a Republican 
Senator from Wyoming. He is a close friend of John Barrasso. He 
said in his testimony, he said the most lasting solutions are 
bipartisan solutions, and what you have are some people on this 
Committee who are pretty good at that, and we need to have 
partners in the administration who are pretty good at that as 
well.
    I am bouncing back and forth between this hearing and the 
hearing in my other committee that deals with nuclear safety, 
nuclear power plant safety, which is important. As an old naval 
flight officer (NFO) guy, I chased Russian subs all over the 
world for many years. I have a real appreciation for nuclear 
safety.
    I want to come back to some of what, Mr. Morgan, I heard 
you say. I think one of the things--I wrote this down--was 
``not a single piece of legislation,'' I think, passed by this 
Congress to do much to fight this battle. I would just remind 
us all that we could build a wall from sea to shining sea. I 
support barriers. I voted for billions and billions of dollars 
of money for barriers--some walls, in other cases barriers. I 
voted for money, we have voted for money, billions of dollars, 
for roads, for vehicles to go along those roads. We have voted 
to raise the authorization for the number of Border Patrol 
officials we have, for Customs and Border Patrol. We have, I 
think, a ceiling of about 21,000 Border Patrol officers right 
now. I do not think we are up to that ceiling. I think we are 
at about 20,000. I think we are looking toward raising it 
again, and we provide the money to fully fund those positions.
    I have voted for money for fixed-wing aircraft, for 
helicopters, for improving our intelligence, intelligence 
sharing. We have provided money for boats, for boat ramps. We 
provided money for horses, all kinds of force multipliers. For 
us to suggest that the Congress has not been a good partner I 
think is just unfair and I think untrue. I would have us just 
keep that in mind.
    We are pretty good in Delaware with the letter ``C''--
communicate, compromise, collaborate, and civility. I think we 
need to keep those words in mind here. I would add another 
``C''--comprehensive immigration reform, which we passed with 
bipartisan support led by John McCain and others, 6, 7, or 8 
years ago, a two-thirds vote in the Senate. And that is not a 
cure-all, but that is part of what the solution is. It would be 
nice to have a President who would be our partner, a fellow who 
at times talked about the need for comprehensive immigration 
reform, and then just walks it back. We need him to endorse the 
idea and engage on that and not walk it back.
    The other thing I would say is that the Chairman and I and 
Senator Peters and I have been down to Central America together 
a number of times, and I have always been struck by how folks 
down there live lives of misery. You have seen it, I have seen 
it. If I lived down there with my family, I would want to get 
out of there, too, and go to a place where there is better 
opportunity.
    Through the Alliance for Prosperity, as you know, we have 
put several billions of dollars now into three buckets. One of 
those buckets is hope and economic opportunity. That is one of 
the main drivers that cause people to leave those countries. 
Second is crime and violence. The third is corruption, which is 
endemic in those countries.
    I will just give you a tale of two cities only this is a 
tale of three countries. You have, on the one hand, El 
Salvador--a new President, Bukele. You have probably met him; I 
have met him several times. Impressive guy, former mayor of San 
Salvador. A young guy, not even 40 years old. A different kind 
of a generation. He replaced a 75-year-old former leftist 
guerrilla leader. The money that we are putting in those three 
buckets in El Salvador is very well used. If you look at the 
murder rates and crime rates in El Salvador, it is very 
encouraging.
    If you look at what has happened in Honduras, not so 
encouraging. I have known Juan Hernandez since before he was 
actually elected President, and he ran for President a second 
time. The Constitution of that country says you can only be 
President for 4 years. He ran again, and he had the Supreme 
Court, which he appointed, basically say their Constitution was 
unconstitutional so he could run a second time for President. 
Huge uproar in the country, and it has really just destroyed a 
lot of the progress that was being made in that country. The 
thing that is noteworthy there, for the last 2 years, maybe 3 
years now, we have not had an ambassador in that country. If we 
had had an ambassador in that country, somebody like Jean Manes 
or some other people that are as accomplished as she is and 
others are, that would have never happened. We would never have 
allowed that to happen.
    I was present, and I think maybe our chairman was actually 
present, when Jimmy Morales was actually sworn in as President 
of Guatemala. Very encouraging. He ran on basically a platform 
that says--what was his motto? Neither a thief nor corrupt. He 
has just so disappointed, his family has disappointed us, and 
served as a terrible role model for that country. Now they had 
a new election, they have new leadership, and we need to be 
fully engaged through U.S. Agency for International Development 
(USAID), through our Ambassadors, in some cases the Senate 
leader, in some cases President or Vice President, the leaders 
of those countries do know that we have high expectations. The 
idea of putting the money that we have put into the Alliance 
for Prosperity is not money that is just U.S. money. We are 
leveraging other money. In El Salvador, for every dollar we put 
in, we leverage seven. They put in money, foundations put in 
money, private companies put in money, and that is the 
expectation. We have criteria that measure that they are 
getting done what they ought to get done, and sadly, our 
current President basically earlier this year suspended money 
to all of them. The last thing that Secretary McAleenan did as 
he was leaving was at least restore the funding that we had 
authorized and appropriated for the security side to those 
three countries.
    I do not go through this kind of statement when addressing 
the witnesses. But I just want to say we need to be on the same 
page where we can. We need to agree on principles and as often 
as we can on the policies. The idea of suggesting that we have 
done pretty much nothing is just not fair, and it is just not 
true.
    With that, Mr. Chairman, I yield the floor.
    Mr. Morgan. Mr. Chairman, could I just respond to----
    Chairman Johnson. Very quickly.
    Senator Carper. No, you have had a lot of time to speak 
already----
    Chairman Johnson. We do have a vote called, but----
    Senator Carper [continuing]. Let us let somebody else talk, 
OK? Thank you.
    Chairman Johnson. If you want to quick respond, but----
    Senator Carper. I do not.
    Chairman Johnson. Oh, you do not want them to respond? OK.
    So, Mr. Cuccinelli, I have a number of things here, and we 
do have a vote called, and so we will be closing this hearing 
out here.
    In terms of credible fear, the numbers, you talked about 
referral. I just have a question. You said 5,000 10 years ago, 
51,000 5 years ago. I was surprised that only, 105 this year. 
We had over 600,000 families, and I thought they were pretty 
much all claiming credible fear. Why such a low number in 
comparison to the number of family units and unaccompanied 
children that came in?
    Mr. Cuccinelli. So the children typically flow right into 
HHS when they are unaccompanied. They are not typically 
participating----
    Chairman Johnson. That is a relatively low percentage of 
the overall number.
    Mr. Cuccinelli. Of the overall number, that is right. You 
also do not have the MPP pieces in that credible fear number, 
so----
    Chairman Johnson. But, again, that is a pretty small 
amount, too. That is 57,000 or something like that. So you 
still have hundreds of thousand versus only 105. Can anybody 
explain that discrepancy? Again, I would have thought you would 
have had hundreds of thousands of referrals.
    Mr. Cuccinelli. Right. You would expect perhaps to see the 
numbers matching at least the family----
    Chairman Johnson. So, again, why don't they?
    Mr. Cuccinelli. I do not have an answer as to why they do 
not. I can tell you it is an overwhelming number.
    Chairman Johnson. Does anybody? Mr. McHenry.
    Mr. McHenry. The credible fear process is only triggered 
typically when someone is subject to an expedited removal 
order. So if they do not go through the expedited removal 
process, they would not have----
    Chairman Johnson. So the bottom line is we literally let 
hundreds of thousands of people in, and they did not even have 
to claim credible fear?
    Mr. Cuccinelli. That is correct.
    Chairman Johnson. That is pretty noteworthy. I want people 
to understand that. We just let people in. They did not even 
have to claim that unbelievably low standard that, by and 
large, you said 20 percent, I think under Central America it 
was lower than that.
    Mr. Cuccinelli. That is correct.
    Chairman Johnson. People claim that, and they still do not 
have a valid asylum claim.
    Mr. Morgan. And that is one of the parts, sir, that I was 
talking about, about the legislation that does need to get 
passed with respect to this crisis, is the Flores Settlement 
Agreement which says we can only detain people for 20 days. 
That is what is driving us. There is not time to do the proper 
vetting that we need to do to complete that process, so we have 
to release them.
    Chairman Johnson. Mr. Cuccinelli, do you know of another 
nation on Earth other than Germany over the couple years with 
the Syrian migrant flow that grants legal permanent residency 
to more than a million people per year?
    Mr. Cuccinelli. Absolutely not. We are the most generous 
Nation in the world by far.
    Chairman Johnson. Is there anybody that comes even close?
    Mr. Cuccinelli. Not even close.
    Chairman Johnson. And we do that. On an annual basis we are 
granting legal permanent residency----
    Mr. Cuccinelli. In the humanitarian space, America is 
number one way beyond two, three, and four combined.
    Chairman Johnson. I have had people come up and basically 
lobby me and say it is just outrageous that we have reduced the 
number of refugees from 70,000 to 50,000 to now 15,000. I point 
out to them, well, that is the official total, but you are kind 
of ignoring the 608,000 people that come here that would 
basically be refugees as well. I mean, that is the problem with 
the illegal flow. It absolutely affects the legal flow. 
Correct?
    Mr. Cuccinelli. Absolutely, and we had almost 80,000 asylum 
cases last year, same legal standard as refugees. It is the 
same type of population, but they are landing at our border and 
on our soil, and so we are shifting resources to contend with 
that. And that backlog continues to grow. We are at over 
340,000 cases and growing.
    Chairman Johnson. When you said or somebody said 87 percent 
of the people that we are taking enforcement action against 
have a criminal record, define ``criminal record.'' Is that 
criminal because they have overstayed their visas? I mean, 
define ``criminal.'' Or is that literally--is that felonious, 
other than immigration felonious behavior?
    Mr. Benner. Yes, it could include felony immigration 
charges. Typically it is not a visa overstay. It is somebody 
with a criminal conviction or a pending criminal charge make up 
that 86 percent of the 140,000 the ERO officers arrested in the 
interior.
    Chairman Johnson. It would be nice to separate--again, I am 
not understating the concern of breaking our immigration laws, 
but it would be nice to have that split out in terms of 
felonious behavior. Is it immigration related? Or is it 
literally rape, assault, or murder? That would be good data to 
have.
    Mr. Benner. I do have some data, sir, and I am happy to 
provide this to you after the hearing, the breakout of weapons, 
assault, sexual----
    Chairman Johnson. OK, good. We will take that and enter it 
into the record.
    DNA testing, not being done by CBP, that is being done by 
ICE, correct? Because, we are hearing these children being used 
time and time again. I cannot help but think of a little girl 
who gets used as a false family, goes through that dangerous 
journey once, gets sent back down to Central America, goes 
through that dangerous journey again. When she gets old enough, 
is she just then put in the sex trade? But what are we finding 
in terms of data in terms of false families?
    Mr. Benner. So the rapid DNA was by far the most critical 
investigative tool for our fraudulent family units that went to 
the border this spring and this summer. We found with rapid DNA 
about a 13-to 15-percent hit rate on fraudulent families.
    Now, initially, Senator, when we first got there during the 
height of the crisis, we were showing percentages that were 
above 20 percent, 25 percent, because the amount of fraud was 
rampant. Word spreads. The cartels are the best advertisers of 
what works and what does not. Within a short period of time, it 
was getting back to the organizations that needed to pivot 
their operations.
    You also mentioned Operation Noble Guardian, and this was 
the Islamic State of Iraq and Syria (ISIS) efforts to look at 
kind of the back end of the equation of where fraudulent 
families were released into the interior, and then the children 
were separated from those unrelated adults, and they were taken 
to an airport and flown back to the Northern Triangle. We have 
identified over 600 children that have been recycled in this 
methodology.
    We interviewed several of the children as they were 
departing the United States, and some of them had indicated 
that they had made the trip as many as eight times with 
separate unrelated adults every time.
    Chairman Johnson. Again, I always have to point out the 600 
are people we catch, and we do not even know how many we do 
not. We do not understand the magnitude of this problem.
    I am running out of time. I just want to make a final 
point. I want to have Mr. Morgan comment on this. We have a 
completely unsecure border on our side of the border. But the 
Southwest Border is 100 percent secure, basically, or close to 
100 percent secure on the southern side, right? I mean, nothing 
is passing--migrants are not passing, drugs are not passing. It 
is completely controlled, so it is possible if we actually have 
the will to do so. Mr. Morgan.
    Mr. Morgan. I agree on both fronts. One is that the Mexico 
side of the border is absolutely 100 percent controlled by the 
cartels. Nothing passes through without the cartels charging a 
tax, controlling it and letting that through. So I think you 
are absolutely 100 percent correct. I think it is important 
when we talk about securing the border, I think part of the 
narrative, sir, that we need to get better at, securing the 
border is not just about the immigration issue. It is also 
about the humanitarian issue and the national security issue.
    Again, drugs are pouring into this country. CBP alone, over 
750,000 pounds of drugs, illicit drugs, all for the hard 
narcotics went up last year; 68,000 deaths due to overdose of 
illicit narcotics in this country, 70,000 the year before. We 
absolutely need to secure this border. People are dying every 
single day because our border is not secure.
    Chairman Johnson. As long as we have laws that are so 
easily exploitable by the human traffickers, where they 
literally can surge in one time in El Paso a thousand people, 
it is pretty easy for six or seven or a hundred to get through, 
whether it is to replenish the gang members who are trafficking 
the drugs, that type of thing. That is a reality we have to 
recognize.
    Mr. Morgan. That is absolutely right, and when we talk 
about the security of the Southern Border, we cannot separate 
the migration flow from the national security side. They are 
too interconnected. Smuggling organizations, they do not care 
whether they smuggle humans, bad people, or drugs. They do not 
care. They are all interconnected.
    Chairman Johnson. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    I would like to talk a little bit about the in absentia 
cases, if I may. Mr. McHenry, you indicated that ``aliens who 
fail to appear at their hearings have taxed EOIR's resources to 
an unprecedented degree.'' I think you testified that orally as 
well.
    So, Mr. Chairman, I am holding a redacted Notice to Appear 
that was issued earlier this year. I will ask unanimous consent 
(UC) that this be entered into the record.\1\
---------------------------------------------------------------------------
    \1\ The redacted Notice referenced by Senator Peters appear in the 
Appendix on page 620.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Peters. Thank you.
    It clearly shows that a 7-year-old child, unaccompanied 
child, was given an NTA without specific hearing dates or 
locations, thus making it difficult to avoid an in absentia 
ruling, and you agree that taxes our resources. So my question 
is: How is a 7-year-old supposed to navigate the immigration 
court system if basic information is not provided in the form 
that you give to a 7-year-old child?
    Mr. McHenry. Senator, I am not familiar with this specific 
form, and I have not seen it so I cannot necessarily guarantee 
that it was filed, it was not rejected by the court, or 
anything like that.
    What I can say is that there are regulations that dictate 
how service must be accomplished on someone who is underage. 
Typically if someone is under the age of 14, it has to be 
served on a custodian, a parent, someone else other than the 7-
year-old him-or herself. But, again, I am not familiar with 
this specific case, so I am not sure exactly what happened.
    Senator Peters. I would like to go through what those 
procedures are. It may beyond our scope of what we can do right 
now, but I think our office would like to talk to you as to 
what are the procedures in place to ensure that hearing notices 
indeed have the information that a migrant is going to need to 
have in order to appear.
    Mr. McHenry. Sure, the regulations do typically spell out 
what is required, and I notice there has been some litigation 
on that, as you may be aware, in the past year following a 
Supreme Court decision. But there are requirements. We also 
have our own internal guidance for when we reject notices for 
not having sufficient or correct information.
    Senator Peters. We would like data on all that as well, 
back to our data-focused hearing here to take a look at that.
    The DHS Office of Inspector General reported that 
participants in the Family Case Management Program (FCMP), 
which is, as you know, an Alternative to Detention Program, had 
a 100-percent attendance at court hearings. What are your 
agencies doing to expand on these programs under the recently 
provided appropriations that were provided to your agencies? If 
we could have some comment, either Mr. Morgan or Mr. McHenry. 
Mr. Morgan.
    Mr. Morgan. So we do not participate in any alternative 
detentions. That would be ICE or ERO that would handle that.
    Senator Peters. So if you could answer that, please?
    Mr. Benner. Yes, Senator, so it is my understanding--I did 
not know it was quite 100 percent. I thought it was in the high 
90s.
    Senator Peters. That is still pretty good.
    Mr. Benner. Excellent. The challenge with alternative to 
detention is the limited amount of those resources to keep that 
monitoring on throughout the pendency of a total hearing 
process. The FCMP provided for that, so we were continually 
monitoring and providing that level of engagement that 
certainly increased the level of participation and showing up 
for hearings and check-ins at a higher rate.
    So my understanding is that that was a pilot and that we 
are not currently running FCMP at the moment. I want to go 
back, though, and double-check that so I am providing accurate 
information and making sure that I am getting this right.
    Senator Peters. We would like that. You say it is a pilot 
that had in the high 90s, if it was not 100. That seems like a 
pretty successful pilot, so why isn't the pilot expanded? That 
is the whole idea of having pilots. If they work, we expand 
them.
    Mr. Benner. So the challenge, though, is the bandwidth of 
our ATD Program, which I think was capped in 2019 at about 
100,000. Of course, those assets are recycled; as people go off 
of ATD, they have new people come in. I think I mentioned 
earlier the number was about 160,000 that had gone through it. 
But, certainly, it is just a dedication of a lot more resources 
in a more intensive way. So I would be happy to bring our folks 
that manage that program and come and talk about it more 
specifically.
    Senator Peters. We would like that. You have to look at the 
alternative. Having them not show up also is a tax on the 
system, as Mr. McHenry has said. So we have to take a 
comprehensive look at that, and I look forward to doing that.
    Mr. McHenry, our current immigration court backlog, 
including asylum backlog, has ballooned, I think as you 
mentioned, to approximately a million cases now. One of the 
stated causes is a lack of immigration judges and staff, and 
under our recent border supplemental funding bill, EOIR was 
appropriated $45 million for the hiring of 30 immigration judge 
teams, $10 million for additional court space, and $10 million 
for the Legal Orientation Program.
    What is the progress in implementing this funding as of 
now?
    Mr. McHenry. I believe we implemented all of it except 
maybe 0.1 percent by the end of the fiscal year as we were 
directed to.
    Senator Peters. How many immigration judge teams are on 
board now with law clerks?
    Mr. McHenry. There are currently 439 immigration judges. We 
brought a class on in September, actually.
    Senator Peters. That is the hiring of the additional 
immigration judge teams? That has all been accomplished?
    Mr. McHenry. It has. We have another class coming in 
approximately 2 weeks, and right now we are averaging one new 
class per quarter. Our formal authorization is 534, so we still 
have more room to go.
    Senator Peters. You have identified new courtroom spaces as 
well?
    Mr. McHenry. Yes, we are expanding courtroom space. We have 
a plan out through at least 2021 right now.
    Senator Peters. Have any Legal Orientation Program sites 
been highlighted for expansion under the program?
    Mr. McHenry. Not to my knowledge, but that is an issue with 
the contractor and not us. It is up to the contractor to 
identify locations they think may work best.
    Senator Peters. Very good. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Just a quick follow-up on that. So if we 
have 534 times 708 cases per judge per year, that is 378,000 
cases we could adjudicate per year. Is that possible? And then 
I will ask you, Mr. Benner, but we also need ICE attorneys to 
be able to adjudicate those cases, correct?
    Mr. McHenry. We certainly believe it is possible to 
adjudicate them.
    Mr. Benner. Yes, absolutely, Senator. So, looking at the 
current docket, detained, non-detained, we are about 800 
attorneys short in the Office of Legal Representative, and as 
EOIR expands even to areas where we have no attorneys, so you 
can imagine the challenge of now finding space for the Office 
of the Principal Legal Advisor (OPLA) attorneys and then 
getting folks into that to represent the government in 
immigration court.
    Second, ERO needs deportation officers and staff to 
facilitate the movement of people in and out of courts as well. 
So the ecosystem, it needs to be equally resourced in order to 
be effective.
    Chairman Johnson. So, Mr. McHenry, would you kind of agree 
with that, that this was well intentioned, we are plussing up 
the judges, which, from the standpoint of the number of judges 
it looks like we may be able to start knocking down this 
backlog and handling the flow. By the way, I hate to staff up 
for that kind of flow. That is putting a Band-Aid on a problem. 
We have to solve the problem. But that being the case, do you 
agree with Mr. Benner that we really do need the full team? So 
we need to fund the adjudicators from ICE as well.
    Mr. McHenry. I do. Historically, it has sort of been one or 
the other. For a while DHS was getting funding and immigration 
judges were not. More recently, immigration judges have been 
getting funding, but OPLA attorneys have not. They do go 
together, as someone said, hand-in-glove.
    Chairman Johnson. We need to make that a really important 
point. A a lot of things that Senator Peters was just talking 
about, this whole adjudication process, this is, I think, open 
for a hearing in and of itself. So I will ask all of you to be 
thinking about what information, what kind of data, the 
caseload, the percentage of people getting valid asylum claims. 
This is data that we absolutely need if we are going to craft 
legislation to solve that problem.
    Again, I want to thank the witnesses for appearing before 
us, for your thoughtful testimony, and your answers to our 
questions. I particularly want to thank the men and women that 
serve with you in your agencies and departments. It is 
unbelievable to me that law enforcement has come under such 
attack. It is completely uncalled for. Secretary Kelly, when he 
was serving as Secretary of Homeland Security, came before us 
and said, ``I am not going to apologize for the men and women 
of my Department that are enforcing the law. That is their job. 
It is Immigration and Customs Enforcement. It is border 
protection. Nobody should apologize for that.''
    I thank the men and women who, the people I talk to, show a 
great deal of compassion to those individuals seeking better 
opportunity. They are trying to deal with an overwhelming 
problem. As Secretary Kelly said at that point in time, too, 
``If we do not like the law, it is our responsibility to have 
the skill and courage to change it.'' I do not have colleagues 
up here, but that is the message I have for my colleagues on 
this Committee. Let us have the skill and courage to admit we 
have a problem, go through this process, identify the problem, 
identify the root causes, establish an achievable goal or 
goals, and then let us craft legislation on a nonpartisan 
basis, because I cannot imagine anybody is satisfied with the 
current situation. We simply cannot. We can argue about how 
many legal immigrants should come in here to the extent that 
that depresses American wages. I mean, those are legitimate 
concerns. But nobody should be arguing that we should allow 
this uncontrolled flow with all the human suffering that is 
associated with it and the billions of dollars we are allowing 
to flow into the pockets of some of the most evil human beings 
on the planet, these human traffickers. So, again, thank you, 
thank you to the men and women you serve.
    With that, the hearing record will remain open for 15 days 
until November 28th at 5 o'clock p.m. for the submission of 
statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:24 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------    
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 






                                 <all>
</pre></body></html>
